No. __________

In the

Supreme Court of the United States
COUNTY COMMISSIONERS OF
CARROLL COUNTY, MARYLAND
Petitioner,
V.

MARYLAND DEPARTMENT OF THE
ENVIRONMENT,
Respondent.

ON APPEAL FROM THE
COURT OF APPEALS OF MARYLAND

APPENDIX TO
PETITION FOR WRIT OF CERTIORARI

CHRISTOPHER D. POMEROY
COUNSEL OF RECORD
JUSTIN W. CURTIS
LISA M. OCHSENHIRT
AQUALAW PLC
6 S. 5TH STREET
RICHMOND, VIRGINIA 23219
(804) 716-9021
CHRIS@AQUALAW.COM
Counsel for Petitioner
GibsonMoore Appellate Services, LLC
421 East Franklin Street ♦ Suite 230 ♦ Richmond, VA
804-249-7770 ♦
www.gibsonmoore.net

23219

ia
APPENDIX
TABLE OF CONTENTS
Page:
Opinion
Maryland Court of Appeals
entered August 6, 2019 ....................................... 1a
Opinion
Carroll County Circuit Court
entered June 27, 2019 ..................................... 146a
Maryland Department of the Environment
Water Management Administration
Basis for Final Determination to Issue
Carroll County’s National Pollutant
Discharge Elimination System Municipal
Separate Storm Sewer System Permit
entered December 2014................................... 198a
33 U.S.C. § 1342.................................................... 263a
33 U.S.C. § 1362.................................................... 288a
40 C.F.R. § 122.26 ................................................. 296a
Excerpts of
Commissioners of Carrol County’s
Brief of Appellee/Cross-Appellant
Maryland Court of Appeals
filed May 16, 2018 ........................................... 311a

iia
Excerpts of
Maryland Department of the Environment’s
Brief of Appellant
Maryland Court of Appeals
filed April 16, 2018 .......................................... 355a
Excerpts of Carroll County’s
Memorandum in Support of
Petition for Judicial Review
Circuit Court of Carroll County
filed October 17, 2016...................................... 363a
Excerpts of
Maryland Department of the
Environment National Pollutant Discharge
Elimination System Municipal
Separate Storm Sewer System Permit ................ 384a

1a
[FILED AUGUST 6, 2019]
Circuit Court for Carroll County
Case No. 06-C-15-068141
Circuit Court for Frederick County
Case No. 10-C-15-000293
Argued: September 13, 2018
IN THE COURT OF APPEALS
OF MARYLAND
Nos. 5 & 7
September Term 2018
_______________________________
MARYLAND DEPARTMENT OF THE
ENVIRONMENT
v.
COUNTY COMMISSIONERS OF CARROLL
COUNTY, MARYLAND
_________________________________
FREDERICK COUNTY, MARYLAND
v.
MARYLAND DEPARTMENT OF THE
ENVIRONMENT
_________________________________
Barbera, C.J.,
*Greene
*Adkins
McDonald
Watts

2a
Hotten
Getty,
JJ.
______________________________
Opinion by McDonald, Jr.
Watts, Hotten, and Getty, JJ., dissent.
______________________________
Filed: August 6, 2019
*Greene and Adkins, JJ., now retired, participated in
the hearing and conference of this case while active
members of this Court; after being recalled pursuant
to the Maryland Constitution, Article IV Section 3A,
they also participated in the decision and adoption of
this opinion.

3a
In the quest to conserve a vital resource- the nation's
waters -Congress has enlisted the federal, state, and
local governments under the Clean Water Act ("the
Act")1 in a regulatory approach sometimes called
"cooperative federalism." This effort involves a type of
regulation that takes the form of a "permit" issued by a
federal agency (or a state agency with federal oversight)
at specified intervals to the regulated entity. Such
permits authorize discharges of pollution into
waterways, which the Act otherwise prohibits. When
the targeted pollution is in stormwater, the permitteei.e., the regulated entity- is often a local government.
Inevitably, as in any assignment of responsibility for
solving a serious problem, there is disagreement as to
the solution and the allocation of that responsibility.
One way to resolve such disputes is through judicial
review of the permit.
This consolidated appeal concerns judicial review of
the most recent permits issued to Carroll County and
Frederick County ("the Counties") under the Act and a
parallel Maryland regulatory scheme. The permits
regulate the discharge of polluted stormwater into
waterways in the Chesapeake Bay watershed. The
permits were developed and issued by the Maryland
Department of the Environment ("Department") under
the supervision of the United States Environmental
Protection Agency ("EPA"), as part of an EPA-led,
multi- state effort to restore the Chesapeake Bay in
compliance with the Act.
Both Counties raise serious issues concerning the
scope of the permits, the level of effort required of
each County, the classification of the Counties
1

33 U.S.C. §1251 through §1388.

4a
(which affects certain conditions in the permits),
and the absence or inclusion of certain terms in
the permits. Ultimately, we hold that the
Department did not exceed its authority under State
and federal law when it issued the permits, nor did
it act arbitrarily or capriciously in including the
challenged terms in the permits.
I.
Background

A. The Clean

Water Act and Stormwater
Controlsfor the Chesapeake Bay

The Chesapeake Bay lies between the western
and eastern shores of Maryland and Virginia. As a
recent federal court opinion has noted, its name
derives from the Algonquin word for "great shellfish
bay." Norfolk Southern Railway Co. v. City of
Roanoke, 916 F.3d 315,323 (4th Cir. 2019)
(Wilkinson, J., concurring). While the Bay once
hosted a quantity of fish and shellfish described
as "unbelievable, ... indescribable, and ...
incomprehensible," that is no longer the case and
"[i]nstead of fish, we quantify phosphorus,
nitrogen, sediment, and other pollutants" that
threaten the health of the Bay's marine life. Id.
The watershed of the Chesapeake Bay - the
land from which water drains into it - covers
about 64,000 square miles in six states and the
District of Columbia ("the Bay States"), and
extends from Cooperstown, New York, to Norfolk,
Virginia.
Pollution
from
that
region
contaminates the waters that feed the Bay and
ultimately the Bay itself. "Restoring damaged
waters like the Chesapeake Bay requires

5a
sustained effort, entailing cooperation and
coordination among the federal government, state
and local governments, the enterprise of the private
sector, and all the people who make this region their
home." Norfolk Southern, 916 F.3d at 323 (internal
quotation marks and citation omitted).
Federal, state, and local governments have spent
decades devising programs to reduce the pollution
that enters the Bay. This appeal concerns one such
program. In any effort to describe a complex
regulatory regime, overseen by various government
agencies, one inevitably must become familiar with
the concepts, jargon, and acronyms that define that
effort. We begin with an overview of the key
elements pertinent to this appeal.
Where Pollutants Come From -Point and Nonpoint
Sources
An important distinction for purposes of the
Clean Water Act is the difference between "point
sources" and "nonpoint sources" of water
pollution. Point sources are discrete and localized,
like a pipe carrying discharges from a factory or
wastewater treatment plant. 2 Nonpoint source
pollution, by contrast, comes from dispersed areas
like farms or fields where water runs off the land
without being collected or channeled into a point
source.3 This distinction matters for purposes of
A "point source" is defined as "any discernible, confined
and discrete conveyance, including but not limited to any
pipe, ditch, channel, [or other types of conveyance], from
which pollutants are or may be discharged." 33 U.S.C.
§1362(14).
2

"Nonpoint source" is not defined in the Act. The EPA
regards a "nonpoint source" as "any source of water pollution
3

6a
the Act because the federal statute regulates point
sources of water pollution but does not directly
regulate nonpoint sources.
Discharge Permits
The Act generally prohibits "any person" 4 from
discharging pollutants from a point source into a
waterway. 5 33 U.S.C. §13ll(a). Accordingly, the statute
requires a permit for the discharge of pollutants into a
water body from a point source under specified
conditions. The Act establishes the National Pollution
Discharge Elimination System ("NPDES") to govern
such permits. 33 U.S.C. §1342. The EPA is authorized
to issue and enforce these permits. 33 U.S.C. §§1319,
1342(a)(1). The EPA may also delegate that authority
to a state so long as the state's law establishes a
parallel permitting program consistent with the Act. 33
U.S.C. §1342(b). The EPA has delegated such authority
to most states, including Maryland.6
Each discharge permit in Maryland is issued under
the Act and under a parallel State program. See
that does not meet the legal definition of 'point source' in [the
Act]." See EPA, Basic Information about Nonpoint Source
(NPS) Pollution, https://perma.cc/QPW5-LADC.
Under the Act, "person" includes "an individual,
corporation, partnership, association, State, municipality,
commission, or political subdivision of a State, or any interstate
body." 33 U.S.C. §1362(5).
4

"Discharge of a pollutant" means "any addition of any
pollutant to navigable waters from any point source [or] any
addition of any pollutant to the waters of the contiguous zone or
the ocean from any point source other than a vessel or other
floating craft." 33 U.S.C. §1362(12).
5

See EPA, NPDES Permits
https://perma.cc/2VF2-C7MK.
6

Around

the

Nation,

7a
Maryland Code, Environment Article ("EN"), §9-322
et seq.; COMAR 26.08.04.07. Under Maryland law,
the Department is the agency designated to issue and
enforce these permits.
EN §9-253; COMAR
26.08.04.01. Permits are generally issued for fixed
terms of five years or less, subject to renewal. See
33 U.S.C. §1342(b)(1)(B); EN §9-328(b). As a general
rule, the Act prohibits subsequent permits from
containing "less stringent" conditions than the
conditions in the previous permit- sometimes referred
to as the "anti-backsliding prohibition" in the Act. 33
U.S.C. § 1342(o).
The Act does not require permits for nonpoint
sources or otherwise directly regulate them.
Accordingly, the EPA does not regulate those sources
of water pollution. States may do so through their
own regulatory programs, as Maryland has done. 7
The Act authorizes federal grants to assist the states
in such efforts. 33 U.S.C. §1288.
Pollution Controls in Permits - Water Quality
Standards and Effluent Limitations
Under the Act, "water quality standards" are the
benchmark for clean water. For each water body
covered by the Act, states submit water quality
The State relies on a "wide array of nonpoint source
pollution control programs [to combat] these varied pollution
sources." Maryland Department of the Environment, Nonpoint
Source Program (319) Management and Financial Assistance,
https://perma.cc/X6ZV -6T5E. Such programs include septic
system upgrades, erosion and sediment control on farms,
fertilizer application management, and many others. See
Maryland Department of the Environment, Maryland's 20152019 Nonpoint Source Management Plan (updated August 4,
2016), available at https://perma.cc/RR5K-6EMB.
7

8a
standards to the EPA for review and approval. 88 The
standards are to be based on the water body's
"designated use" (e.g., public water supply, fishing,
recreational use) and include criteria necessary to
support that use (e.g., specific limits on certain
pollutant
concentrations).
See
33 U.S.C.
§1313(c)(2)(A); 40 CFR §§130.3, 131.6; COMAR
26.08.02.01-.03.
To achieve water quality standards, the Act
requires that discharge permits include pollution
controls for point sources. 33 U.S.C. §13ll(b). The Act
calls these controls "effluent limitations " - "effluent"
being the material discharged by a point source. 9
Effluent limitations may be "technology based" or
"water quality based." See EPA, NPDES Permit
Limits,
https://perma.cc/L4G6-24K9;
Natural
Resources Defense Council v. EPA, 808 F.3d 556, 563
(2d Cir. 2015).
Technology based effluent limitations are
generally the first round of controls in the effort to
achieve water quality standards. See 33 U.S.C.
§13ll(b)(l)(A). They "represent the minimum level of
control that must be imposed in a permit[.]" 40 CFR
§125.3(a). But even the most stringent technology
If the EPA does not approve a state-authored water quality
standard, the EPA must establish the standard itself. 33 U.S.C.
§1313(c)(4).
8

The term "effluent" is not defined in the Act. However, the
Act defines "effluent limitation" as "any restriction established
by a State or the [EPA] on quantities, rates, and concentrations
of chemical, physical, biological, and other constituents which
are discharged from point sources into navigable waters, the
waters of the contiguous zone, or the ocean, including schedules
of compliance." 33 U.S.C. §1362(11).
9

9a
based effluent limitations have not achieved water
quality standards in thousands of the nation's
waterways.10 Congress anticipated this possibility in
1972 by retaining water quality standards "as a
supplementary basis for effluent limitations ... so
that numerous point sources, despite individual
compliance with effluent limitations, may be further
regulated to prevent water quality from falling below
acceptable levels." EPA v. California ex rel. State
Water Resources Control Board, 426 U.S. 200,205
n.12 (1976). If technology based limitations do not
achieve the water quality standards, permits may
include "any more stringent limitation ...
necessary to meet water quality standards" - i.e.,
"water quality based effluent limitations." 33
U.S.C. §1311(b)(l)(C); 40 CFR §130.7(c). 11 Thus,
regardless of whether a waterway is over-polluted
due to point sources, nonpoint sources, or some
mixture of both, the Act authorizes the imposition of
water quality based controls on point sources, in
addition to the most stringent technology based
controls.12

See American Farm Bureau Federation v. EPA, 792 F.3d
281, 289-91 (3d Cir. 2015).
10

Cf COMAR 26.08.03.01C(2)(b) ("Best available technology
shall be required as the minimum for all permitted discharges.
If it is determined that compliance with the established water
quality standards will not be achieved through [best available
technology], additional treatment shall be [required].").
11

A core premise of water quality based effluent limitations
in general is that permitting agencies may require point sources
to go beyond their existing capabilities to achieve further
pollution reductions. See Natural Resources Defense Council v.
EPA, 915 F.2d 1314, 1316-17 (9th Cir. 1990).
12

10a
These two types of effluent limitations differ in
their reference point and in their strategies for
reducing
pollution.13 For
technology
based
limitations, the reference point is the source, and the
strategy is to deploy pollutant-reducing technology
at that source regardless of its contribution of
pollutants to the waterway. By contrast, for water
quality based effluent limitations, the reference
point is the waterway, and the strategy is for the
point source to implement any additional actions
(beyond the already required technologies) necessary
to achieve the applicable water quality standard. 14
The Point Sources Here- Municipal Separate
Storm Sewer Systems (MS4s)
This appeal concerns permits for a type of point
source known as a "municipal separate storm sewer
system" ("MS4").15
An MS4 is a network of
13 See Michael P. Healy, Still Dirty After Twenty-Five Years:
Water Quality Standard Enforcement and the Availability of
Citizen Suits, 24 Ecology L.Q. 393, 399 (1997) ("Technologybased standards are based on the source's technological capacity
to control pollution, while water quality-based standards are
based on the environmental effect of the discharged pollution.").

See EPA, NPDES Permit Writer's Manual (September
2010) ("EPA Permit Writer's Manual"), available at
https://perma.cc/P8BX-MNUY, at 5-1 (Technology based effluent
limitations "are developed independently of the potential impact
of a discharge on the receiving water, which is addressed
through water quality standards and water quality- based
effluent limitations[.]").
14

Shortly after the passage of the Clean Water Act in the
1970s, the question of whether - and if so, how - to treat
MS4s as point sources under the Act generated regulations
and litigation. The EPA initially adopted regulations
exempting MS4s from the Act's permit requirement. That
exemption was challenged and held invalid in Natural
15

11a
conveyances (including storm drains, gutters, and
other drainage systems) designed to carry only
stormwater (as opposed to a "combined sewer
system" that conveys both sanitary sewage and
stormwater). 40 CFR §122.26(b)(8).
MS4s differ from typical "end-of-pipe" point
sources m certain respects. A common point source,
such as a pipe that discharges waste from a factory,
usually discharges a known and finite set of
pollutants from a specific location. By contrast,
stormwater picks up various pollutants as it flows
across widely dispersed areas, including paved (or
"impervious") surfaces, on its way to one of the many
conveyances that make up an MS4, and then into a
waterway. The quantity of stormwater that flows
through these conveyances into a waterway can vary
unpredictably depending on the weather, any
development of the land (e.g., whether the land is
paved), and other activities on the land (e.g., litter, use
of lawn fertilizers).
Given these differences between an MS4 and a
typical point source like a factory, a discharge permit
for an MS4 differs from that for a typical point source.
A discharge permit for a typical end-of-pipe point source
usually sets numeric limits as effluent limitations for
the known set of pollutants discharged from that
pipe.16 Using that same approach for an MS4 would
Resources Defense Council v. Costle, 568 F.2d 1369, 1372-73
(D.C. Cir. 1977). Ultimately, Congress enacted the Water
Quality Act of 1987, which explicitly established a discharge
permit requirement for MS4s. See 33 U.S.C. §1342(p).
EPA Permit Writer's Manual , supra note 14, Ch. 5
(explaining in detail a permitting agency's process for developing
technology based effluent limitations); Natural Resources Defense
Council v. EPA, 808 F.3d 556, 567 (2d Cir. 2015) (A discharge permit
16

12a
entail setting effluent limitations for each conveyance
within the stormwater drainage system, which would
be administratively, technically, and
financially
burdensome.17 Instead, an MS4 permit generally
requires the
permittee to implement flexible
management programs designed to reduce the pollution
introduced into stormwater, thereby limiting the
amount of pollution discharged into the waterway. 18
In the language of the Act, an MS4 permit is to
include "controls to reduce the discharge of pollutants
to the maximum extent practicable, including
management practices, control techniques and
system, design and engineering methods, and such
other provisions as the [EPA] or the State determines
appropriate for the control of such pollutants." 33
U.S.C. §1342(p)(3)(B)(iii).

imposes effluent limitations on a point source "based on how much
technology is able to reduce the amount of a pollutant at issue").
17 See EPA, National Pollutant Discharge Elimination
System Permit Application Regulations for Storm Water
Discharges, 55 Fed. Reg. 47990, 48037-38 (November 16, 1990)
("EPA Preamble to 1990 Phase I MS4 Rule"). The discussion of
the background of the regulations that appears together with the
notice announcing the EPA 's final adoption of the regulations is
sometimes informally referred to as a "preamble" to the
regulations. However, it is not itself part of the regulations and
does not appear in the Code ofFederal Regulations. See James T.
O'Reilly, Administrative Rulemaking §10:1 (2019 ed.).

See EPA Preamble to 1990 Phase I MS4 Rule, 55 Fed. Reg.
at 48037-38; Natural Resources Defense Council v. New York
State Dep't of Envtl. Conservation, 34 N.E.3d 782, 787 (N.Y.
2015).
18

13a
Implementation of the MS4 Permit RequirementPhase I and Phase II
The Act and related EPA regulations have applied
the permit requirement to MS4s in two phases. The
first phase ("Phase I") took effect during the period
1987-94 and included stormwater systems that were
serving more heavily populated areas - dubbed
"large" and "medium" MS4s - and those that were
contributing to the failure of a water body to meet
water quality standards, irrespective of the size of the
population served. See 33 U.S.C. §1342(p)(2); 40 CFR
§122.26(b). Subsequently, a second phase ("Phase
II") covered "small" MS4s. See 33 U.S.C. §1342(p)(5)(6); 40 CFR §122.34. As a general rule, permits for
MS4s included in Phase I have been subject to an
earlier timetable and more stringent conditions than
permits for MS4s included in Phase II.
Total Maximum Daily Load (TMDL)
An important element in determining the
conditions that appear in a discharge permit is what
is known as the "total maximum daily load" - or
"TMDL." The Clean Water Act does not define this
phrase, but describes it as the "level" of a pollutant
that a water body can tolerate without violating
applicable water quality standards.
33 U.S.C.
§1313(d)(l)(C). In practice, the acronym "TMDL" has
come to refer to more than just a numeric measure
of a pollutant. It has also come to refer to the process
and calculations used to determine that level of a
pollutant and its allocation among sources of the
pollutant. The document in which an agency
calculates the TMDL, in the sense of a numeric
measure of a pollutant, and allocates that level among
various sources of pollution is also sometimes referred

14a
to as a "TMDL." A singularly complex example
pertinent to this case is what is referred to as the
Chesapeake Bay TMDL ("Bay TMDL"),19 which is
discussed in greater detail below.
The EPA has elaborated on the meaning of TMDL
as a numeric measure of pollution in its regulations.
The term "load" refers to a measure of water
pollution. See 40 CFR §130.2(e) (defining "load" as
"[a]n amount of matter or thermal energy that is
introduced into a receiving water"). The phrase "total
maximum daily load" or "TMDL" is defined in
regulation as "the sum of' amounts of the relevant
pollutant emanating from various point and nonpoint
sources together with a "natural background" amount
of the pollutant and a "margin of safety." 40 CFR
§§130.2(i), 130.7(c)(l). A TMDL, in this sense, "can
be expressed in terms of either mass per time,
toxicity, or other appropriate measure ...." 40 CFR
§130.2(i). To understand this definition of TMDL as a
numeric measure requires an understanding of the
TMDL process.
The TMDL process is based on the direction in
the Act that each state identify waterways for which
technology based effluent limitations are not
achieving water quality standards. 20 33 U.S.C.
§1313(d)(l)(A). If water quality standards are not
being met in a waterway due to excess levels of a
EPA, Chesapeake Bay Total Maximum Daily Load for
Nitrogen, Phosphorus and Sediment (December 29, 2010),
available at https://perma.cc/RWM2-Y22N.
19

As indicated above, when technology based effluent
limitations are inadequate to achieve water quality standards,
discharge permits may include water quality based effluent
limitations.
20

15a
particular pollutant, the state is to determine the
maximum amount of that pollutant that the
waterway can receive without violating water quality
standards - i.e., the TMDL for that pollutant as to
that waterway.
33 U.S.C. §1313(d)(l )(C). The
resulting TMDL - as a cap on the pollutant- is
sometimes referred to as a "pollution budget" or
"pollution diet." E.g., Norfolk Southern, 916 F.3d at
324; Conservation Law Foundation v. EPA, 964 F.
Supp. 2d 175, 179 (D. Mass. 2013).
The EPA's regulations recognize that, in order for
a state to calculate the maximum level of a pollutant
that a waterway can tolerate without violating water
quality standards, a state agency must conduct a
complex scientific analysis. The state agency must
consider, among other things, the relationship
between the water quality standards and the level of
the pollutant in the waterway, the various sources of
the pollutant, and the extent to which each source
contributes to the violation of water quality standards.
See 40 CFR §130.7(c). As indicated earlier, in
developing the TMDL for that pollutant, the agency
must also factor in "seasonal variations and a margin
of safety which takes into account any lack of
knowledge concerning the relationship between
effluent limitations and water quality." 33 U.S.C.
§1313(d)(1)(C).
Once the agency produces its best estimate of the
maximum pollutant level consistent with water
quality standards - i.e., the TMDL in the sense of a
numeric measure of pollution - it must then
apportion that amount to the relevant sources of that
pollution while allowing for the margin of safety
required by the Act. See 40 CFR §§130.2(i), 130.7(c).
The portion assigned to each relevant point source

16a
is called a "wasteload allocation." 40 CFR §130.2(h). The
portion assigned to each nonpoint source is called a "load
allocation." 40 CFR §130.2(g). In all, therefore, the
TMDL- in the sense of a numeric amount - for a given
pollutant for a particular waterway is the sum of the
wasteload allocations, the load allocations, the natural
background, and the margin of safety. 40 CFR
§§130.2(i), 130.7(c)(1). After a state has determined a
TMDL for a particular pollutant with respect to a
particular waterway, it is to be submitted to the EPA for
approval. 33 U.S.C. §1313(d)(2).
When a state submits a TMDL to the EPA, the state
provides not only the maximum pollutant amount, but
also the various wasteload allocations and load
allocations, together with an explanation of the
calculations that resulted in that maximum amount and
the allocations. EPA, Water Quality Planning and
Management, 50 Fed. Reg. 1774, 1775 (January 11,
1985) ("it is impossible to evaluate whether a TMDL is
technically sound and whether it will be able to achieve
[water quality] standards without evaluating
component [wasteload and load allocations] and how
these loads were calculated"). As indicated earlier, an
example of a document that contains the separate
TMDLs (in the sense of numeric amounts) for relevant
pollutants, explains the reasoning and calculations
underlying those caps, and allocates those totals among
the relevant sources of pollution is the Bay TMDL.
A TMDL such as the Bay TMDL is neither selfimplementing nor directly enforceable. Rather, it serves as
an informational tool that the EPA and the states use in
seeking to achieve the specified pollutant levels - and the
applicable water quality standards -by means of
discharge permits and other regulatory tools. See
American Farm Bureau Federation v. EPA, 984 F.

17a
Supp. 2d 289, 297-98 (M.D. Pa. 2013), aff'd, 792 F.3d
281 (3d Cir. 2015). To enforce the TMDL limits
and corresponding water quality standards, agencies
that issue discharge permits seek to ensure that the
total pollution discharged by point sources does not
exceed the wasteload allocations in the relevant
TMDLs. The combined pollution allotted to all of the
point sources should equal the sum of the wasteload
allocations in a TMDL. Therefore, the discharge
permit for each point source is to contain water
quality based effluent limitations consistent with
the "assumptions and requirements" of the
wasteload allocation for that source in any applicable
TMDL. 40 CFR §122.44(d)(1)(vii)(B).
A discharge permit may incorporate provisions
related to several TMDLs. The permits at issue in
this case incorporate provisions not only from the Bay
TMDL, but also from TMDLs, developed by the
Department and approved by the EPA, for certain
waterways.21 Appendices to the Counties' MS4 permits
list the approved TMDLs applicable to each County.
One example, which will be discussed later in this
opinion, is the TMDL for fecal bacteria in Double Pipe
Creek, whose watershed spans both Counties.
Chesapeake Bay TMDL and Maryland Watershed
Implementation Plan (WIP)
In 2009, after decades of multilateral efforts
aimed at restoring the Chesapeake Bay22 the EPA
began the development of a Chesapeake Bay-wide
See Maryland Department of the Environment, Approved
TMDLs, https://perma.cc/99S9-C7Q3.
21

For a summary of Bay clean-up efforts over the past
several decades, see Farm Bureau, 984 F. Supp. 2d at 298-303.
22

18a
TMDL. 23 After publishing a draft for a period of
public review, the EPA adopted the Bay TMDL in
late 2010. 24 The Bay TMDL establishes limits for
three pollutants- nitrogen, phosphorus, and sediment
- that threaten marine life by feeding large algae
blooms that block sunlight and reduce oxygen levels
in the water. 25 Bay TMDL at 2-6, 2-7. Specifically,
the Bay TMDL pollutant caps are designed to satisfy
water quality standards involving "aquatic life uses"

The EPA "established the Chesapeake Bay TMDL
pursuant to a number of existing authorities, including the
[Clean Water Act] and its implementing regulations, judicial
consent decrees requiring EPA to address certain [waters in the
Chesapeake Bay watershed that were failing to meet water
quality standards], a settlement agreement resolving litigation
brought by the Chesapeake Bay Foundation, the 2000
Chesapeake Agreement [between certain Bay states], and
Executive Order 13508." See Bay TMDL at 1-16. That Executive
Order directed the EPA to "mak[e] full use of its [Clean Water
Act] authorities to lead a collaborative and effective federal and
state effort to meet the Bay's nutrient and sediment goals." Id.
at 1-17.
23

24 See EPA, Clean Water Act Section 303(d): Preliminary
Notice ofTotal Maximum Daily Load {TMDL) Development for
the Chesapeake Bay, 74 Fed. Reg. 47792 (September 17, 2009);
EPA, Clean Water Act Section 303(d): Notice for the
Establishment of the Total Maximum Daily Load (TMDL)for the
Chesapeake Bay, 76 Fed. Reg. 549 (January 5, 2011) (stating that
the EPA established the Bay TMDL on December 29, 2010).

More precisely, the Bay TMDL divides waterways in
the Chesapeake Bay watershed into 92 "segments," and
establishes individual TMDLs- in the sense of numeric
amounts - for each segment for each of the three
pollutants .Thus, the Bay TMDL is "an assemblage of 276
TMDLs: individual TMDLs for each of the 3 pollutants nitrogen, phosphorus, and sediment- for each of the 92
segments (3 x 92 = 276)." Bay TMDL, at xiii & 2-7.
25

19a
and criteria such as water clarity and dissolved
oxygen levels. Id. at 3-1, 3-2.
Given the breadth and complexity of the Bay
TMDL, the EPA established a unique accountability
framework to achieve its goals. Bay TMDL at ES8. Although the Act generally does not require an
implementation plan for a TMDL, the EPA directed
each Bay State
to create a
"Watershed
Implementation Plan" ("WIP") to reduce pollution
to the levels set by the Bay TMDL. Each Bay State's
WIP serves two basic purposes- to break down the
EPA's statewide Bay TMDL pollutant allocations
among geographic areas and among point and
nonpoint sources within the state, and to identify
the programs and policies that the state will use to
achieve those pollutant reductions. The Maryland
WIP was developed by the Department together with
the Departments of Planning, Agriculture, and
Natural Resources.
Maryland's Final Phase I
Watershed Implementation Plan (Dec. 3, 2010),
available at https://perma.cc/8CMV-ENCB ("Maryland
WIP"). 26 Like the other Bay State WIPs, the
Maryland WIP functions as a "roadmap" for how and
when the State will reach the pollution reduction
goals set forth in the Bay TMDL. Maryland
The EPA anticipated that each state would write its WIP
in three phases. The State has published the first two iterations
of its WIP and a draft version of the third iteration. See
Maryland Department of the Environment, Watershed
Implementation Plans, https://perma.cc/J985- WQ65. Citations
in the text are to the first iteration of the WIP, often referred to
as the Phase I WIP. The "phases" of the WIP should not be
confused with the two phases of the MS4 permitting program,
which will be discussed in some detail in Part II.D. of this
Opinion.
26

20a
Department of the Environment
Riverkeeper, 447 Md. 88, 109 (2016).

v.

Anacostia

Implementing the Maryland WIP in MS4 Permits
The Maryland WIP listed several requirements to
be included in the then-upcoming round of Phase I
MS4 permits in Maryland. Two of these requirements
correspond to terms in the Counties' permits that are
part of the dispute in this litigation.
First, a commitment in the Maryland WIP
involves restoration of impervious surfaces- i.e.,
areas that have been paved or otherwise developed,
as opposed to natural, undeveloped areas. Natural
areas allow stormwater to soak into the ground,
where pollutants are filtered to some extent.
Impervious surfaces prevent that filtration process.
Instead, stormwater that encounters an impervious
surface rushes over it, collecting pollutants along the
way. To "restore" an impervious surface is to make
it function more like a natural terrain that absorbs
and filters rain water. Doing so accomplishes the
same end as a direct pollutant control, like a filter
or other cleansing mechanism attached to a
conveyance. The less impervious surface that exists,
the less polluted stormwater will run across it and
into the conveyances of the MS4. Thus, as is true in
general for stormwater management programs in
MS4 permits, an impervious surface restoration
requirement serves as a surrogate for direct
pollution controls. See Anacostia Riverkeeper, 447
Md. At 122-23. The Maryland WIP called for
"[c]ompletion of restoration efforts for twenty
percent of the [Phase I MS4] counties' impervious
surface area that is not already restored to the

21a
maximum extent practicable." Maryland WIP at 530.
Second, another provision of the Maryland WIP
refers to many applicable local TMDLs with stormwater
wasteload allocations. For example, for the Counties, the
relevant local TMDLs are compiled, as mentioned above,
in appendices to their MS4 permits. The Maryland WIP
requires the creation of"[s]tormwater watershed
implementation plans for each EPA approved
stormwater wasteload allocation" in the relevant local
TMDLs. Maryland WIP at 5-30. Such local watershed
implementation plans are distinct from the overall
Maryland WIP.
Maryland Stormwater Management Act
In addition to the permitting program, the State
Stormwater Management Act has, since the mid1980s, required local jurisdictions to implement
stormwater management programs "to reduce as
nearly as possible the adverse effects of stormwater
runoff." EN §4-20 1. Each county and municipality is
to adopt ordinances necessary to implement such a
program consistent with State law. EN §4-202. The
Legislature directed the Department to adopt
regulations governing such programs that would,
among other things, indicate that the primary goal is
"to maintain after development, as nearly as
possible, the predevelopment runoff characteristics."
EN §4-203(b)( 1); see also Anacostia River keeper, 447
Md. at 110-13. The statute authorizes jurisdictions to
impose and collect stormwater remediation fees and
other charges to carry out such programs. EN §§4202.1, 4-204; see also 96 Opinions of the Attorney
General 61 (20 11). Such fees provide "important
revenue needed to offset the costs of building and

22a
maintaining
municipal gutters
and
drains,
monitoring pollution levels, policing illegal discharges
of polluted water, and educating the public on proper
environmental practices." Norfolk Southern, 916
F.3d at 325 (referring to similar local stormwater fee
in Virginia).
The Carroll County and Frederick County MS4
Permits
The Department first issued MS4 permits to
Carroll County and Frederick County during the
1990s as part of Phase I of the MS4 permitting
process, and has renewed those permits several times
since then. The permits that are the subject of this
case are Carroll County's fourth and Frederick
County's third round of MS4 permits, which were
both issued in December 2014. In accordance with
State law, the Department first issued draft permits
for public comment. See EN §1-604(a). In each case,
the Department held a public hearing and accepted
comments on the draft permit. After considering
those comments, the Department made a Final
Determination to issue each permit together with a
document entitled "Basis for Final Determination"
that provided an explanation for its action. EN §1604(b).
Pertinent to this case, the Maryland WIP
commitment involving impervious surface restoration
is incorporated into Part IV.E.2.a of each permit.
This provision has two components. First, it requires
each County to submit to the Department an
"impervious surface area assessment" consistent
with guidelines provided by the Department. That
assessment, if approved by the Department, "shall
serve as the baseline for the restoration efforts"

23a
required by the permit. Second, by the end of the
permit term, each County "shall commence and
complete the implementation of restoration efforts
for twenty percent of the County's impervious
surface area consistent with the methodology
described in [a Department guidance document] that
has not already been restored to the" maximum extent
practicable.
Part IV.E.2.b of each permit includes a provision
based on the commitment in the Maryland WIP
concerning local TMDLs. This provision requires
each County to submit to the Department for approval
a plan to implement each stormwater wasteload
allocation in each relevant, EPA-approved local
TMDL. Each plan must include a final date for
"meeting applicable [wasteload allocations] and a
detailed schedule for implementing all [necessary]
structural and nonstructural
water quality
improvement
projects,
enhanced stormwater
management programs, and alternative stormwater
control initiatives."
Upon approval by the
Department, the plans become enforceable conditions
of the permits.
Two other aspects of the permits are at issue
here. The first is Part VI.B of each permit, which
requires the Counties to cooperate with other State
agencies in the development of elements of the
Counties' comprehensive growth plans that involve
stormwater management. The second contested
aspect of the permits is the absence of an
authorization for "water quality trading."27 As
relevant here, such trading would allow the Counties
"Water quality trading" is sometimes referred to as
"nutrient trading."
27

24a
to earn credit for pollution reduction by paying others
(whether point or nonpoint sources) to take pollutionreducing actions. A County might consider water
quality trading in situations where paying another
party to achieve a pollution reduction costs less than
the County's own efforts to achieve a similar
reduction.
B.

Procedural History

In January 2015, Carroll County sought judicial
review of its 2014 MS4 permit in the Circuit Court
for Carroll County. At the request of the parties, the
matter was stayed for more than a year while the
parties pursued settlement and while challenges to
similar permits by environmental advocates were
being litigated.28 After the stay expired, the Circuit
Court issued an opinion dated June 26, 2017, agreeing
with the County on some of its claims and with the
Department on others. The court remanded the
County's permit to the Department. The Department
appealed that ruling and the County filed a crossappeal.
In January 2015, Frederick County sought judicial
review of its 2014 permit in the Circuit Court for
Frederick County. As in the Carroll County case, the
matter was stayed pending settlement discussions
and other litigation. After the stay expired, the
Circuit Court issued an opinion dated July 14, 2017,
that largely rejected the County's arguments, but
remanded the permit to the Department to address
what the court believed were ambiguities and

This Court resolved that litigation in Maryland Department
of the Environment v. Anacostia Riverkeeper, 4471V,Id. 88 (2016).
28

25a
inconsistencies in the permit's wording. Frederick
County appealed that ruling.
The Court of Special Appeals consolidated the two
appeals for argument. Prior to argument and
decision in the Court of Special Appeals, the Counties
asked this Court to grant a writ of certiorari in their
respective cases. The Department agreed that the
Counties' petitions should be granted. This Court
granted the two petitions and consolidated the cases
for argument.
II
Discussion
Both Counties challenge conditions set forth in
their most recent MS4 permits, although some of
the bases for their challenges differ.
Two of the alleged flaws in the permits concern
the impervious surface restoration requirement.
First, Frederick County argues that the
Department exceeded its authority under the
Clean Water Act by failing to consider
"practicability" when it included the impervious
surface restoration requirement in its permit.
Frederick County bases this argument on a
provision of the Act that requires MS4 permits to
include controls to reduce pollution discharges "to
the maximum extent practicable" - what is
sometimes called the MEP standard. Frederick
County further argues that, even if the Act allows
to set the restoration
the Department
requirement without regard to the MEP
standard, the Department arbitrarily and
capriciously failed to consider the County's

26a
contention that compliance with the degree of
restoration required by the permit is impossible.
Second, both
Counties assert that the
Department exceeded its authority under the Act by
including in the permit an impervious surface
restoration requirement in which the baseline for
measuring compliance with the requirement relates
to the unrestored impervious surface throughout the
entire County, rather than only the area served by
the County's MS4.
Both Counties argue that the Department has
unlawfully treated them as Phase I jurisdictions
for purposes of their MS4 permits- thereby
subjecting them to more stringent permit terms
required of Phase I jurisdictions than those later
required of Phase II jurisdictions - because it
incorrectly classified them in the early 1990s as
"medium" jurisdictions based on population.
Carroll County also argues that its inclusion in
Phase I of the MS4 permitting program was
arbitrary and capricious.
Both Counties argue that the Department
arbitrarily and capriciously failed to include water
quality trading as a compliance mechanism in their
permits.
Finally, Carroll County argues that a provision in
its permit that requires the County to cooperate with
other State agencies in the development of
stormwater-related
aspects of the County's
comprehensive growth plan unlawfully imposes new
obligations on the County.

27a
We first discuss the standards that govern our
consideration of these arguments. We then consider
the substantive issues raised by the Counties.
A. What and How We Review
The General Assembly has provided for judicial
review of permits issued by the Department, such
as the MS4 permits issued to the Counties. EN §1601(a)(3), (c). Such review is based on an
administrative record that includes the various
items set forth in EN §1-606(c).29 Judicial review
begins in the circuit court pursuant to the
Maryland Rules. See Maryland Rule 7-201 et seq.
(goveming judicial review of administrative actions
when a statute provides for judicial review).
In an appeal of the circuit court's review of an
agency action, an appellate court reviews the
agency's action itself rather than the decision of
the circuit court. Hollingsworth v. Severstal Sparrows
Point, LLC, 448 Md. 648, 654 (2016). Thus, while the
circuit court decisions here set the stage for our
review and determined who would be appellant and
appellee in our Court, we are not assessing the merits
of those court decisions. Rather, we directly review the
permits in light of the issues raised by the Counties.

Among other things, the record may include the permit
application and any accompanying data, documents contained in
the supporting file for the draft permit, comments submitted to
the Department from the public, responses to those comments,
the tape or transcript of any public hearings, and the
Department's statement of the basis for its determinations with
respect to the permit.
29

28a

1. Standards for Review of Discharge Permits
a. General Standards for Review o(Agency Action
The standards for judicial review of a discharge
permit - and their corresponding levels of deference
to the agency - vary depending on whether the court
is reviewing an agency's fact findings, discretionary
decisions, or legal conclusions. See Anacostia
Riverkeeper, 447 Md. at 118-21.
Review of Fact Findings
For fact findings, a reviewing court applies the
"substantial evidence" standard, under which the
court defers to the facts found and inferences drawn
by the agency when the record supports those
findings and inferences. Anacostia Riverkeeper, 447
Md. at 120. In particular, with respect to factual
issues that involve scientific matters within an
agency's area of technical expertise, the agency is
entitled to "great deference." !d.
Review of Matters Committed to the Agency's
Discretion
With respect to matters committed to agency
discretion, a reviewing court applies the "arbitrary
and capricious" standard of review, which is
"extremely deferential" to the agency. Harvey v.
Marshall, 389 Md. 243, 296-99 (2005); Spencer v.
Md. State Bd. of Pharmacy, 380 Md. 515, 529 (2004).
This standard is highly contextual, but generally the
question is whether the agency exercised its discretion
"unreasonably or without a rational basis." Harvey,
389 Md. at 297; Arnold Rochvarg, Maryland
Administrative Law, §4.38 at 128 (2011).
For guidance, a reviewing court may look to case
law applying the similar standard in federal

29a
administrative law. See Anacostia River keeper, 447
Md. at 120-21; Office of People's Counsel v. Public
Service Commission, 461 Md. 380, 399 (2018). 30
Under this standard, a reviewing court is not to
substitute its own judgment for that of the agency and
should affirm decisions of "less than ideal clarity" so
long as the court can reasonably discern the agency's
reasoning. Bowman Transp., Inc. v. Arkansas-Best
Freight System, Inc., 419 U.S. 281, 285-86 (1974).
Review of the Agency's Legal Conclusions
With respect to an agency's legal conclusions, a
reviewing court accords the agency less deference
than with respect to fact findings or discretionary
decisions. Anacostia Riverkeeper, 447 Md. at 122. In
particular, a court will not uphold an agency action
that is based on an erroneous legal conclusion. !d.
However, in construing a law that the agency has
been charged to administer, the reviewing court is
to give careful consideration to the agency's
interpretation.
In construing a statute, a reviewing court applies
the oft-stated approach to statutory construction.
That is, the court seeks to ascertain legislative
intent - whether that of the General Assembly or
Under the federal standard, the reviewing court may
consider whether: (1) the agency's choice was rationally
connected to the facts found; (2) the agency considered the
relevant factors; (3) the agency made a clear error of judgment;
(4) the agency relied on factors the legislature did not intend for
it to consider; (5) the agency failed to consider an important
aspect of the problem; (6) an explanation for the decision runs
counter to the evidence; and (7) the decision is so implausible
that it could not be ascribed to a difference in view or the product
of agency expertise. Office of People 's Counsel, 461 Md. at 399
n.16.
30

30a
of Congress. That endeavor begins with the plain
meaning of the text, keeping in mind that the
plainest language is controlled by the context in
which it appears. Kaczorowski v. Mayor & City
Council of Baltimore, 309 Md. 505, 514 (1987). The
legislative history of the statute may then be
reviewed to understand the purpose of the
legislation, resolve ambiguities, and confirm the
apparent meaning of the text. Past case law
construing a provision is, of course, also helpful.
Throughout, the court must be mindful that the
purpose is not to discern "purely judicial notions of
public policy," but rather legislative intent. BAA,
PLC v. Acacia Mutual Life Ins. Co., 400 Md. 136,
157 (2007).
When a party
challenges the agency's
interpretation of the statute the agency administers,
the court must assess how much weight to accord
that interpretation, keeping in mind that it is "always
within [the court's] prerogative to determine whether
an agency's conclusions of law are correct." Schwartz
v. Md. Dep't of Nat. Res., 385 Md. 534, 554 (2005).
The weight given an agency's interpretation of a
statute it administers depends on several factors.
Baltimore Gas & Electric Co. v. Public Service
Commission, 305 Md. 145, 161 (1986). More weight is
appropriate when the interpretation resulted from a
process of "reasoned elaboration" by the agency,
when the agency has applied that interpretation
consistently over time, or when the interpretation is
the product of contested adversarial proceedings or
formal rule making. Id. at 161-62.

31a

b. Effoct of the Clean Water Act's Scheme of
Cooperat ive Federalism
In our consideration
of the Department's
interpretation and application of the Clean Water Act,
we must take into account the extent to which the
EPA's administrative interpretation and federal case
law set parameters for the Department's actions. The
shared implementation of a federal policy or program
by federal and state agencies is sometimes referred to
as "cooperative federalism." See Anacostia Riverkeeper,
447 Md. at 101. It can affect how a state court reviews
that implementation when the state agency's actions
are limited by federal policies. In general, a state
agency that is delegated the administration of the
discharge permitting program under the Act is "bound
to follow EPA's interpretation of the [Act]." Natural
Resources Defense Council v. New York State Dep't of
Envtl. Conservation, 34 N.E.3d 782, 794 n.l6 (N.Y.
2015) (declining to entertain a challenge to an EPA
regulation interpreting the Act and state agency's
compliance with that interpretation). 31
31 See also BellSouth Telecommunications, Inc. v. Sanford, 494
F.3d 439, 449 (4th Cir. 2007) (state's authority over
telecommunications issue is part of deliberately constructed model
of "cooperative federalism" under which state agency applies
expertise and experience "subject to the boundaries set by Congress
and federal regulators"); Perry v. Dowling, 95 F.3d 231, 236-37 (2d
Cir. 1996) (a state agency's interpretation of the federal
Medicaid statute "warrants deference" when "the state has
received prior federal- agency approval to implement its plan,
the federal agency expressly concurs in the state's interpretation
of the statute, and the interpretation is a permissible
construction of the statute"); Aaron Saiger, Chevron and
Deference in State Administrative Law, 83 Fordham L. Rev. 555,
581 (2014) ("State officials who deal with the environment,
education, or antiterrorism are enmeshed in a system of

32a
Under the Act's cooperative federalism scheme, the
EPA has delegated the administration of the Act's
discharge permitting program in Maryland to the
Department. Nonetheless, the EPA reviews and has
the right to object to the Department's draft discharge
permits. 40 CFR §123.44 ("EPA review of and
objections to State permits"); see also Memorandum of
Agreement between EPA and Department (May 18,
1989), available at https://perma.cc/3UNE-4CLN
(explaining that the EPA will review all Stateprepared permits and may object to them). In addition,
the EPA has overseen Maryland's efforts (as well as
those of the other Bay States) to achieve the goals of
the Bay TMDL- i.e., efforts to develop and carry out
the WIPs. See Farm Bureau, 984 F. Supp. 2d at 32324.

c. Deference Owed to the EPA's Construction of
the Clean Water Act
In assessing the weight to be accorded the EPA's
construction of the Act, we look to the deference that
would be accorded such interpretations under
federal case law. In general, when an agency
exercises authority to "make rules carrying the force
of law" - i.e., rulemaking, adjudications, or other
actions involving similarly extensive administrative
procedures- the agency's interpretation warrants
deference under Chevron US.A. v. Natural Resources
Defense Council, 467 U.S. 837 (1984). Less formal
agency action may also merit Chevron deference
depending on "the interstitial nature of the legal
question, the related expertise of the Agency, the
importance of the question to administration of the
regulatory federalism that often very substantially deprives
them of freedom of action.").

33a
statute, the complexity of that administration, and
the careful consideration the Agency has given the
question over a long period of time." Barnhart v.
Walton, 535 U.S. 212, 222 (2002).
Under Chevron, a federal court first determines
"whether Congress has directly spoken to the
precise question at issue" in the pertinent statute in this case, the Clean Water Act. 467 U.S. at 842.
If the Congressional intent is clear, the court "must
give effect to [that] unambiguously expressed
intent." Id. at 842-43. But "if the statute is silent
or ambiguous with respect to the specific issue," the
court must decide "whether the [EPA's] answer is
based on a permissible [or reasonable] construction
of the statute." Id. at 843- 44.
Even if the particular agency interpretation does
not meet the criteria for Chevron deference, a
reviewing court may defer to that interpretation
based on the persuasiveness of the agency
interpretation, considering factors such as "the
thoroughness evident in its consideration, the validity
of its reasomng, its consistency with earlier and later
pronouncements, and all those factors which give it
power to persuade, if lacking power to control."
Skidmore v. Swift & Co., 323 U.S. 134, 140 (1944)
(Jackson, J.).32

If those factors sound familiar, perhaps it is because
Skidmore is a direct ancestor of the leading case of this Court
concerning the degree of judicial deference accorded to state
agency actions . See Baltimore Gas & Electric Co. v. Public
Service Commission, 305 Md. 145, 161-62 (1986), citing and
relying on Comptroller v. John C. Louis Co., 285 Md. 527, 544
(1978), which cites and relies upon Skidmore.
32

34a
This Court has assessed the validity of State agency
actions consistent with a federal agency's regulations or
interpretations of a federal statute in light of these
principles. See Anacostia Riverkeeper , 447 Md. at 142
& n.61 (citing federal administrative deference case law
and finding an EPA policy memorandum "instructive"
on interpretation of federal regulation under the Clean
Water Act); Sugarloaf Citizens ' Ass 'n v. Department
of the Environment, 344 Md. 271, 313 (1996) (affirming
Department action based in part on EPA interpretation
of the federal Clean Air Act, which was entitled to
deference under Chevron); Koons Ford of Baltimore,
Inc. v. Lobach, 398 Md. 38, 54 (2007) (applying Chevron
and adopting the FTC's interpretation of a federal
statute that the FTC administers); Montgomery Cty. v.
Glenmont Hills Associates Privacy World at Glenmont
Metro Ctr., 402 Md. 250,271-72 (2007) (citing Chevron
in adopting HUD's interpretation that a federal statute
did not preempt local agency action that the Court
affirmed).

2. Reviewability of Permit Terms Derived from
TMDLs and WIP

Incorporation of TMDLs and the Maryland WIP in
the Counties' MS4 Permits
The MS4 permits at issue in this appeal incorporate
or reference elements of the Bay TMDL, the Maryland
WIP, and certain local TMDLs. That raises the
question whether this litigation is the appropriate
forum for what amounts to a challenge to those prior
administrative actions.

35a
The Appropriate Forum for Challenging Permit
Provisions Derived from a TMDL
Carroll County argues that provisions of a TMDL
that are implemented in a permit must be reviewable
in the context of judicial review of that permit - i.e.,
in an action like this one. The County reasons that,
because Maryland statutory law does not provide for
judicial review of State-authored TMDLs and because
the TMDLs themselves are not self - executing, the
only viable mode of judicial review is a challenge to a
permit.
The County is correct that the Maryland Code does
not provide for judicial review of a TMDL. The County
is also correct that a TMDL is not self-executing. Farm
Bureau, 792 F.3d at 291 n.4. However, the absence of a
statutory mechanism for review of a TMDL in State
court does not mean it is not reviewable in any court.
The EPA's approval of a state-submitted TMDL "is an
act taken pursuant to the [Clean Water Act] and
thus is subject to challenge [in federal court] under
the [federal Administrative Procedure Act.]" Anacostia
Riverkeeper, Inc. v. Jackson, 798 F. Supp. 2d 210, 222
(D.D.C. 2011). For example, the major case challenging
the validity of the Bay TMDL was held to be ripe for
judicial review in federal court because the "parties
present[ ed] a purely legal dispute on a well-developed
record about the EPA's process of promulgating a
TMDL." Farm Bureau, 792 F.3d at 293-94. Similarly,
parties challenging other state-prepared, EPAapproved TMDLs have obtained judicial review of the
EPA's approval of those TMDLs in federal court. See,
e.g., Friends of Earth, Inc. v. EPA, 446 F.3d 140
(D.C. Cir. 2006); Natural Resources Defense Council
v. Muszynski, 268 F.3d 91 (2d Cir. 2001); City of
Kennett v. EPA, 887 F.3d 424 (8th Cir. 2018).

36a
To the extent that the Counties are challenging
decisions previously made or actions taken in adopting
an EPA-approved TMDL, judicial review of those
decisions or actions was available in federal court.
Unsurprisingly, as this Court has previously indicated,
an action for judicial review of a discharge permit in
State court is not the forum for raising belated
challenges to a TMDL that the challenger could
have raised elsewhere.See Anacostia Riverkeeper, 447
Md. at 129 n.46. 33 Thus, in an action by a permittee
33 In Anacostia Riverkeeper, this Court cited In re City of
Moscow, Idaho, 10 E.A.D. 135, 2001 WL 988721 (EAB July 27,
2001) to illustrate this principle. Moscow was an opinion of the
Environmental Appeals Board ("Board"), the EPA's final
decisionmaker of administrative appeals under the statutes that
the EPA administers. In Moscow, a municipality pursued an
administrative appeal of a discharge permit for its sewage
treatment plant issued by the EPA. The municipality
challenged, among other things, a term in the permit that was
derived from a state-prepared TMDL for the water body into
which the plant discharged pollutants. 2001 WL 988721 at *1,
*16. The permit term established a "seasonal constraint" on
phosphorus discharges (between May and October, the "normal
growing season months" of algae blooms, which are fed in part
by phosphorus). Id. at *16 n.53.

The municipality argued, among other things, that the
EPA's decision to adopt the TMDL's seasonal growth period as
part of the permit was arbitrary and capricious, but the Board
disagreed. The Board observed that the TMDL clearly specified
the growth period and that federal regulations required that the
municipality's permit be consistent with the "assumptions and
requirements" of the treatment plant's wasteload allocation
established by the TMDL. 2001 WL 988721 at *16.
The municipality also claimed that the TMDL's seasonal
growth period was inaccurate. The Board also rejected that
argument, holding that the administrative appeal of the permit
terms was not the appropriate forum for raising that claim. 2001
WL 988721 at * 17. The Board reasoned that it was authorized
to review "contested permit conditions" but not the validity of

37a
under EN §1-601 challenging a permit term derived
from a TMDL, the permittee may not base that
challenge on a decision that was previously made in
the development of the TMDL. 34

"prior, predicate regulatory decisions that are reviewable in
other fora," and that the TMDL was a prior predicate regulatory
decision reviewable in a federal district court under the federal
Administrative Procedure Act. Id. at * 18.
The Board
concluded that the municipality's claim was essentially a
belated challenge to determinations previously made in the
TMDL and the EPA's earlier decision to approve the TMDL which were reviewable elsewhere.
As this Court indicated in Anacostia Riverkeeper, that
reasoning applies in actions to review discharge permits in
Maryland courts. In Maryland, State courts are authorized to
review a discharge permit issued by the Department, but not a
TMDL on which parts of the permit may be predicated.
Specifically, although the General Assembly has provided for
judicial review of discharge permits in EN §1-601(c), it has not
authorized judicial review of State-prepared TMDLs (which are
not final until they receive EPA approval). Instead, as noted in
the text, the EPA's approval of such a TMDL- necessary for it to
be effective -may be challenged in federal court.
Of course, just because something is mentioned in a
TMDL does not mean that it would be ripe for a challenge in
federal court. For example, when an environmental group
challenged an alleged "authorization" of water quality
trading in the Bay TMDL in federal court, the court held that
the claim was not ripe because the Bay TMDL only "expected"
or "encouraged" trading without making a final decision
about it - let alone "authorizing" it in a permit. See Food &
Water Watch v. EPA, 5 F. Supp. 3d 62, 73-86 (D.D.C. 2013).
In other words, the challenger failed to identify a final,
concrete decision in the TMDL that was suitable for judicial
review. That case illustrates that the principle identified in
Anacostia Riverkeeper applies only to provisions of a TMDL
that reflect a reviewable final action taken in the TMDL.
34

38a
Consistent
with
the
principle
recognized
inAnacostia Riverkeeper, we conclude that claims
concerning a discharge permit that are essentially
challenges to a governing TMDL and that could have
been raised in an action for judicial review of the EPA's
approval of that TMDL cannot be raised in a judicial
review action under EN §1-601.35 Accordingly, as
explained further below, we will not entertain some of
the Counties' arguments that are essentially challenges
to provisions in EPA-approved TMDLs.36

B. Whether the Impervious Surface Restoration
Permit Term Unlawfully Exceeds the MEP
Standard or is Arbitrary and Capricious

The Clean Water Act, in describing provisions
to be included in an MS4 permit, refers to a
35 We need not, and do not, address whether a State court
would have authority to directly review a TMDL prepared by
the Department pursuant to an administrative mandamus
action, Maryland Rule 7-401 et seq., or otherwise.

Carroll County argues that the Department is
"estopped" from arguing that the County may not challenge a
provision of a TMDL incorporated in its permit. The County's
basis for this argument is that, in a 2003 case, the Department
successfully argued that a discharger cannot claim to have
been aggrieved by a TMDL until the Department proposes to
issue a discharge permit that includes effluent limitations
based on the TMDL. See In re Wicomico River TMDL, No. 22C-01-000623 (Wicomico Cty. Cir. Ct. June 13, 2003). The
County's argument is not without some force as the
Department's position here appears to contradict its argument
in Wicomico River. However, the reviewability of a permit term
is a legal question, not subject to an estoppel argument. For
the reasons set forth in the text, it is our view that permit
terms that directly implement a decision made in an EPAapproved TMDL are not subject to review in an action in State
court challenging the permit.
36

39a
standard of "maximum extent practicable" - often
denominated by the acronym "MEP." 33 U.S.C.
§1342(p)(3)(B)(iii). Whether the MEP standard
governs all provisions in an MS4 permit, or only
certain provisions, is a matter of debate - a debate
that we shall wade into presently. Frederick
County's flagship argument in its appeal is that
the Department unlawfully disregarded the MEP
standard and therefore exceeded its authority when
it included the impervious surface restoration
requirement in the County's permit. The County
further argues that, even if the Act allows the
Department to include provisions in the permit without
reference to the MEP standard, the impervious surface
restoration requirement is impossible to achieve and
that the Department acted arbitrarily and capriciously
in including it in the permit. Carroll County does not
join either of these arguments, although its permit
includes an identical impervious surface restoration
requirement.

1. The MEP Standard
Congress did not define the MEP standard in the
Act and the EPA has explicitly declined to define it
as well. 37 The phrase "maximum extent practicable"
suggests a standard that is, or is close to, the most
stringent standard in a hierarchy of possible
standards under the Act. However, in the context
The EPA has explained that it "intentionally [has] not
provided a precise [regulatory] definition of MEP to allow
maximum flexibility in MS4 permitting." EPA, National
Pollutant Discharge Elimination System - Regulations for
Revision of Water Pollution Control Program Addressing
Storm Water Discharges, 64 Fed. Reg. 68722, 68754 (December
8, 1999).
37

40a
of the Act's standards for pollution controls, that is
not the case.38 To understand why, it is helpful to
review the dichotomy between technology based and
water quality based effluent limitations for point
sources and then consider how the MEP standard
relates to those limitations.
The Clean Water Act's Hierarchy of Pollution
Controls
In principle, the most that a regulatory agency
can require of a point source is to do what is
necessary to reduce pollutants to a level such that
the waterway satisfies water quality standards.
Thus, the most stringent level of control- for any
point source- is strict compliance with water
quality standards for the pertinent waterway.
Given the difficulty of calculating and enforcing
such standards, Congress in the Act chose not to
"make the perfect the enemy of the good" and
authorized the use of technology based effluent
limitations for typical, end-of-pipe point sources.
33 U.S.C. §13ll(b)(l)(A). Such controls achieve
some pollution reduction, although often not
enough to achieve water quality standards for the
pertinent
waterway. As
explained
above,
technology based effluent limitations are designed
from the perspective of the discharger while
See Jones Creek Investors, LLC v. Columbia County, Ga.,
98 F. Supp.3d 1279, 1300 n.4 (S.D. Ga. 20 15) (In the MS4
context, "[t]he phrase 'maximum extent practicable' is a term
of art, and should not be attributed the ordinary meaning
usually applied to those words."); National Research Council,
Urban Stormwater Management in the United States (The
National Academies Press 2009) at 60 ("[T]he [MEP] standard
for MS4s ... [is] a floor, not a ceiling, for permit requirements
when receiving waters are impaired.").
38

41a
controls based on water quality standards - water
quality based effluent limitations - are designed
from the perspective of the waterway.
MEP Standard
Standard

versus Water

Quality

Based

The MEP standard is analogous to a technology
based effluent limitation in that its reference point
is the MS4 operator rather than the waterway. 39 A
water quality based effluent limitation is more
stringent than an MEP-level control just as such a
limitation is more stringent than a technology based
control. Despite this analogy, water quality based
effluent limitations operate differently in end-of-pipe
point source permits than they do in MS4 permits.
With an end-of-pipe point source, a technology based
effluent limitation is typically a numeric level of
pollution and the point source must install technology
to ensure that the amount of pollution emitted from
the pipe is below the specified level. A water quality
based effluent limitation may simply ratchet down
that numeric level, requiring the point source to come
up with ways to reduce pollution further.
With MS4s, however, there generally is no
corresponding numeric cap on the amount of pollution
discharged by each conveyance within an MS4. 40
National Research Council, supra note 38, at 60 (grouping
the MEP standard with "other technology-based requirements"
for stormwater permittees); see also Jones Creek Investors, 98
F. Supp.3d at 1300 n.4 (MEP standard defined in the pertinent
MS4 permits as "the technology-based discharge standards and
controls necessary for the reduction of pollutants discharged
from [an MS4]").
39

See Upper Missouri Waterkeeper v. Montana Dep't of
Envtl. Quality, 438 P.3d 792,799 (Mont. 2019) (noting that MS4
permits generally have included best management practices
40

42a
Instead, the MS4 operator must implement the various
MEP-level management programs required by its
permit. In that context, a water quality based control
is a program in addition to the MEP- level programs.
To say that water quality based controls are "more
stringent" than or "beyond" MEP-level controls simply
means that the MS4 operator must comply with the
water quality based control in addition to the MEPlevel controls. For example, Frederick County's permit
lists six management programs under the MEP
standard. See Frederick County Phase I MS4 Permit
MD0068357, Part IV.D.l-6. In addition to those
programs, and under a separate section of the permit,
the County is to comply with the impervious surface
restoration requirement. Id., Part IV.E.2.a.
The County and the Department appear to agree
that the impervious surface restoration requirement in
the County's permit is a water quality based control
that is in addition to those provisions included under
the MEP standard. However, the County asserts that
the Department may not include such a term in the
permit if it "goes beyond" the MEP standard.

2. Whether an MS4 Permit Term May "Go
Beyond" the MEP Standard

At first blush, this Court's decision in Anacostia
Riverkeeper seems to resolve this issue in the
Department's favor.41 In a background section of that
opinion, the Court stated:

rather than numeric limits).
The Dissenting Opinion of Judge Watts contends that
the Court's holding in Anacostia Riverkeeper is an "obstacle"
to the Department's position in this case and that the permit
term in question is "incompatible" with Anacostia Riverkeeper.
41

43a
MS4s are subject to the MEP standard[.]
[They] are not, however, required to [achieve]
effluent limitations necessary to meet water
quality standards. [But the Act] still requires
Maryland to set water quality standards and
TMDLs - subject to the EPA's approval.
Flowing from this obligation is the
requirement that MS4s are subject to effluent
limitations that are consistent with [wasteload
allocations] ofEPA-approved TMDLs.
447 Md. at 104. In other words, an MS4 permit may
include, as needed, effluent limitations consistent
with TMDL wasteload allocations, in compliance
with the EPA regulation that requires a discharge
permit for a point source to contain such effluent
limitations. See 40 CFR §122.44(d)(l)(vii)(B). Given
that
the
impervious
surface
restoration
requirement is such an effluent limitation,
Watts Dissenting slip op. at 4-5. The Dissenting Opinion appears
to have the mistaken belief that Anacostia Riverkeeper somehow
supports Frederick County's challenge to this permit term.
In fact, in that case, the Court considered a permit term that
appears in Phase I MS4 permits of five other jurisdictions and
that is identical to the permit term that Frederick County
challenges here. The Court held that the term was valid and
authorized by the Clean Water Act. 447 Md. at 122-26. If we
were simply to recite the holding of Anacostia Riverkeeper and
stop, Frederick County loses. But, in fairness to Frederick
County and as indicated in the text, the holding in Anacostia
River keeper was in response to a challenge from a different
perspective. Environmental groups argued that the permit
term was inadequate to comply with the MEP standard. Here,
Frederick County argues, from the opposite perspective, that
the permit term unlawfully exceeds that standard. However, for
the reasons explicated in the text, we disagree and reach the
same outcome that Anacostia River keeper did - that the permit
term is valid and authorized by the Act.

44a
Anacostia Riverkeeper seems to answer the question
raised by Frederick County - i.e., that the 20 percent
impervious surface restoration requirement in the
permit is valid and authorized by the Clean Water
Act. However, in Anacostia Riverkeeper, the Court
was addressing a question somewhat distinct from
the one posed in this case. In that case, the question
was whether the impervious surface restoration
requirement satisfied the MEP standard whereas in
this case the question is whether it unlawfully
exceeds it. The resolution of this question requires
statutory construction of the provision in which the
MEP standard appears- 33 U.S.C. §1342(p)(3)(B)(iii)which we shall refer to as clause (B)(iii) for ease of
reference.
Construing Clause (B)(iii) - Statutory Language
The Clean Water Act specifically addresses
municipal and industrial stormwater discharges in 33
U.S.C. §1342(p), which consists of six paragraphs.
Paragraph 3 of that subsection sets forth "permit
requirements."42 That paragraph reads as follows:

(3) Permit requirements
(A)Industrial discharges
Permits for discharges associated with
industrial activity shall meet all applicable
Paragraphs 1 and 2 concern the timing of the
requirement to obtain certain stormwater discharge permits.
Paragraph 4 concerns the application requirements for those
permits. Paragraph 5 authorizes the EPA to conduct a study on
other stormwater discharges not covered by those permits.
Paragraph 6 authorizes the EPA to adopt regulations based on
the study required by paragraph 5. 33 U.S.C. §1342(p)(l)-(2), (4)(6).
42

45a
provisions of [section 1342] and section 1311 of
this title.

(B) Municipal discharge
Permits for discharges from municipal
storm sewers-

(i) may be issued on a system - or
jurisdiction-wide basis;

(ii) shall include a requirement to effectively

prohibit non-stormwater discharges into the
storm sewers; and

shall require controls to reduce the
discharge of pollutants to the maximum
extent practicable, including management
practices, control techniques and system,
design and engineering methods, and such
other provisions as the [EPA] Administrator
or the State determines appropriate for the
control of such pollutants.

(iii)

33 U.S.C. §1342(p)(3). Subparagraph (A) relates to
permit requirements for discharges by industrial
sources such as factories, landfills, construction sites,
and power plants that have operations exposed to rain
water or snow melt. Subparagraph A does not directly
relate to the requirements in MS4 discharge
permits.43
Our focus is on Subparagraph (B) concerning the
requirements for MS4 permits. The first two clauses
See 40 CFR §122.26(b)(l4) ("Storm water discharge
associated with industrial activity means the discharge from any
conveyance that is used for collecting and conveying storm water
and that is directly related to manufacturing, processing or
raw materials storage areas at an industrial plant.").
43

46a
concern the geographic scope of an MS4 permit
(clause (B)(i)) and the separation of stormwater
discharges from other discharges (clause (B)(ii)), but
do not include a reference to the MEP standard.
Clause (B)(iii) concerns the controls and
provisions required to reduce the discharge of
pollutants from MS4s. As is evident, the MEP
standard appears in this clause. The Department
and the County disagree as to the role that the MEP
standard plays in clause (B)(iii).
To construe clause (B)(iii) we begin, of course,
with the plain language of the statute. As this case
illustrates, however, statutory language is not
always "plain" in the sense that it may take on
different meanings, depending on how one parses a
series of words or clauses. The Department and
Frederick County tabulate clause (B)(iii) in slightly
different
ways
to
support their
contrary
interpretations. We apply an editorial pen below to
illustrate these different interpretations.
Frederick County's favored construction of clause
(B)(iii) can be illustrated as follows:
Permits for discharges from municipal storm
sewers (iii) shall require controls to reduce the
discharge of pollutants to the maximum
extent practicable, including (1) management
practices, (2) control techniques and system
(3) design and engineering methods, and (4)
such other provisions
as the [EPA]
Administrator
or the State determines
appropriate for the control of such pollutants.

47a
Under the County's construction, the "controls"
subject to the MEP standard are listed in a series
following the word "including" - a series of four
categories that includes (1) management practices,
(2) control techniques and systems, (3) design and
engineering methods, and (4) such other provisions
as the permitting agency deems appropriate. In that
view, there are four categories of pollution controls
that might be required by an MS4 permit, including
a final catchall category, and all four fall under the
MEP umbrella. As indicated above, to support its
preferred tabulation and avoid a phrase in the
middle of the series of clauses ("system methods")
that the County claims is nonsensical, the County
asserts that the word "system" is the result of a
"typographical error" in the statute that needs to be
corrected to "systems."44
In contrast, the Department's construction opts
for a different tabulation, but does not require
revision of the language of the statute. That
interpretation can be illustrated as follows:
Permits for discharges from municipal storm
sewers (iii) shall require (1) controls to reduce the
discharge of pollutants to the maximum
extent practicable, including (a) management
practices, (b) control techniques and .(c)
system, design and engineering methods, and
(2) such other provisions as the [EPA]
In support of its contention that the statute contains a
typographical error, the County notes that the word "systems"
appears in various documents related to stormwater discharge
permits, including two statements made while the legislation
was debated in Congress.
44

48a
Administrator or the State determines
appropriate for the control of such pollutants.
Under this construction of the statute, the three
categories of controls enumerated in the initial
series- i.e., certain "practices," "techniques," and
"methods"- are subject to the MEP standard while
"other provisions" that the permitting agency deems
appropriate under the final clause are not limited
by the MEP standard. The Department's
construction does not require revision of the text
itself, and groups items that could comfortably fit
within the category of "controls" separately from
the final clause's vaguer and seemingly broader
reference to "appropriate ... provisions."
Confronted with similar competing grammatical
arguments concerning the application of the MEP
standard in clause (B)(iii), a state appellate court
in California concluded that "[a]lthough it is not the
clearest way of articulating the concept,
the
language of [clause (B)(iii)] does communicate the
basic principle that the EPA [or an authorized
state] retains the discretion to impose 'appropriate'
water pollution controls in addition to those that
come within the definition of [MEP]." Bldg. Indus.
Assn. of San Diego Cty. v. State Water Res. Control
Bd., 124 Cal. App. 4th 866, 882-83 (2004) ("BIA
case"). 45 That court upheld requirements in an MS4
permit based on water quality standards in the face
See also John H. Minan, Municipal Separate Storm Sewer
System (MS4) Regulation Under the Federal Clean Water Act:
The Role of Water Quality Standards?, 42 San Diego L. Rev.
1215, 1241-42 (2005) (discussion of grammatical argument
inBIA case by law professor who served on the permitting
agency in that case).
45

49a
of a contention, similar to that of Frederick County
in this case, that those provisions unlawfully
exceeded the MEP standard.
Thus, the statement in Anacostia Riverkeeper in a
somewhat different context and the assessment of the
BIA court in a similar context both favor the
Department's construction of clause (B)(iii). We also
consider what legislative history exists and the
administrative construction of this federal statute by
the federal agency charged with administering it -the
EPA.
Legislative History of Clause (B)(iii)
When Congress was considering the legislation
that added the MS4 permit requirements to the Act,
legislators often spoke in general terms about
achieving water quality
standards
without
elaborating on the MEP standard or addressing
whether that standard should apply to every
pollutant control in an MS4 permit. Some
statements suggested that water quality based
standards- i.e., standards other than MEP- would be
part of MS4 permits. For example, one senator stated
that MS4 permit pollution control "requirements are
to contain control technology or other techniques to
control these discharges and should conform to water
quality requirements ." 133 Cong. Rec. S733-02, 1987
WL 928615 (January 14, 1987) (statement of Senator
Chafee). On the other hand, another senator
paraphrased clause (B)(iii) in language that mirrors
the County's interpretation, including substituting
the plural "systems" for "system." ld. (statement of
Senator Durenberger). Yet another member of
Congress both alluded to the goal of controlling
stormwater discharges "to protect the quality of the

50a
Nation's waters" and in paraphrasing the legislation,
used the word "systems." 133 Cong. Rec. H168-03,
1987 WL 928356 (January 8, 1987) (statement of
Representative Roe). In the end, what legislative
history exists is "not especially illuminating" on the
role of the MEP standard. 46
EPA's Administrative
(B)(iii)

Construction of Clause

The EPA's position for many years was that an
MS4 permit, like any discharge permit, must achieve
compliance with water quality standards. 47 Indeed,
when it adopted regulations for Phase I MS4
permits, the agency described the controls that
would be required by such permits as follows:
"[MS4] permits are to establish controls to the
maximum extent practicable[,] effectively prohibit
non-storm water discharges to the [MS4] and, where
necessary, contain applicable water quality-based
controls." EPA, National Pollutant Discharge
Elimination System Permit Application Regulations
46

Minan, supra, note 45, at 1243-44.

EPA, Interim Permitting Approach for Water QualityBased Effluent Limitations in Storm Water Permits, 61 Fed.
Reg. 43761 (August 26, 1996); EPA, Questions and Answers
Regarding Implementation of an Interim Permitting Approach for
Water Quality- Based Effluent Limitations in Storm Water
Permits, 61 Fed. Reg. 57425 (November 6, 1996); EPA,
Memorandum from E. Donald Elliott, Assistant Administrator
and General Counsel, EPA, re: Compliance with Water Quality
Standards in NPDES Permits Issued to Municipal Separate
Storm Sewer Systems (January 9, 1991) at 1;see also Oliver A.
Houck, TMDLs III: A New Framework for the Clean Water Act's
Ambient Standards Program, 28 Envtl. L. Rep. 10415, 10428
(1998) (discussing the EPA's interpretation); Minan, supra,
note 45, at 1245-46 (same).
47

51a
for Storm Water Discharges- Final Rule, 55 Fed. Reg.
47990, 47995 (November 16, 1990) ("EPA Preamble
to 1990 Phase I MS4 Rule") (emphasis added).
The EPA partially backed away from this view
after the United States Court of Appeals for the
Ninth Circuit held that MS4 permits need not include
water quality based effluent limitations. See EPA,
National Pollutant Discharge Elimination System Regulations for the Water Pollution Control Program
Addressing Storm Water Discharges -Final Rule, 64
Fed. Reg. 68722, 68753 (December 8, 1999) ("EPA
Preamble to 1999 Phase II MS4 Rule") (recognizing
that a Ninth Circuit decision "disagree[d) with EPA's
interpretation of the relationship between" §1311
and §1342(p)). Specifically, in Defenders of Wildlife
v. Browner, 191 F.3d 1159, 1164 (9th Cir. 1999), the
Ninth Circuit held that §1342(p)(3) "unambiguously
demonstrates that Congress did not require [MS4s] to
comply strictly with" §131l(b)(1)(C), which requires
that discharge permits contain water quality based
effluent limitations as needed. 48 On the other hand,
the court also stated that the final provision of clause
(B)(iii) gives the EPA (and thus a state permitting
agency) the discretion to "determine that ensuring
strict compliance with state water-quality standards
is necessary to control pollutants [or] to require less
than strict compliance with state water quality
As noted earlier, while clause (A) of§1342(p)(3) requires
industrial stormwater dischargers to comply with all of§1311
(i.e., with both technology based and water quality based effluent
limitations), clause (B) lays out different requirements for
MS4s without mentioning §1311. The Ninth Circuit reasoned
that, for MS4 permits, clause (B)(iii) "replaces" both the
technology and water quality based effluent limitation
requirements in §1311. 191F.3dat1165.
48

52a
standards." 191 F.3d at 1166.49 Thus, while the
Ninth Circuit did not agree with the EPA's existing
construction, it nevertheless recognized that a
permitting agency had discretion to include permit
terms based on water quality standards. 50
In any event, after the Defenders of Wildlife
decision, the EPA modified its administrative
interpretation of clause (B)(iii). Whereas the agency
had taken the view that MS4 permits, like all
discharge permits, must contain water quality based
effluent limitations as needed, after the Ninth Circuit
decision the EPA viewed such limitations as
49 A related question - which is not raised here and which,
therefore, we do not address - is whether MS4 permits may
require strict compliance with water quality standards. That
question is at issue in two cases in the United States Court of
Appeals for the District of Columbia Circuit that are currently
Center for
Regulatory
in settlement proceedings.
Reasonableness v. EPA, Case Nos. 17-1060 & 16-1246 (D.C.
Cir.). The challengers in those cases argue that certain Phase
II MS4 general permits issued by the EPA violate clause
(B)(iii) by requiring compliance with water quality standards.
The situation here is different in that no party claims that
the Counties' permits expressly require compliance with water
quality standards.

Other courts have pointed to Defenders of Wildlife as
setting forth the discretion that the EPA (and state permitting
agencies) have in drafting MS4 permit terms to require pollution
controls that satisfy the MEP standard or a more demanding
water quality based standard. See Natural Resources Defense
Council v. New York State Dep't Envtl Conservation, 994 N.Y.S.
2d 125, 135 (N.Y. App. 2014), aff'd, 34 N.E.3d 782 (N.Y. 2015);
Conservation Law Foundation, Inc. v. Boston Water and Sewer
Commission, 2010 WL 5349854 at *5-6 (D. Mass. 2010);
Tualatin Riverkeepers v. Oregon Dep't Envtl Quality, 230 P.3d
559, 563-64 & n.10 (Ore. App. 2010); City of Arcadia v. State
Water Resources Control Board, 135 Cal. App. 4th 1392, 1429
(2006).
50

53a
permissible, but not mandatory, in MS4 permits. It
cited Defenders of Wildlife as support for the
proposition that clause (B)(iii) "specifically preserves
the authority for EPA or [authorized states] to
include other provisions determined appropriate to
reduce pollutants in order to protect water quality."
EPA Preamble to 1999 Phase II MS4 Rule, 64 Fed.
Reg. at 68788. Accordingly, the Phase II regulation
provides that "[a]s appropriate, the permit [for a
small MS4] will include [m]ore stringent terms and
conditions, including permit requirements ... based
on an approved [TMDL] or equivalent analysis, or
where the [EPA or state] determines such terms and
conditions are needed to protect water quality." 40
CFR §122.34(c)(l). Although the 1999 preamble and
rule concern Phase II MS4 permits, the EPA's views
on water quality based limitations generally apply
to all MS4 permits. For example, the Defenders of
Wildlife decision upheld Phase I MS4 permits issued
by the EPA that included water quality based
limitations. 51
The EPA has maintained that position through at
least the time period relevant for this litigation. In
other words, since 1990, the EPA has held the view
that the Act at least authorizes water quality based
effluent limitations in MS4 permits. 52 For example,
See In re: Arizona Municipal Storm Water NPDES
Permits for City ofTucson, Pima County, City of Phoenix, City of
Mesa, and City of Tempe, 1998 WL 284966, at *2 n.1 (EAB May
21, 1998) (stating, in the administrative decision that was
reviewed in Defenders of Wildlife, that the permittees were
properly classified as operators of MS4s requiring Phase I
permits).
51

In its critique of the impervious surface restoration term
of the Frederick County MS4 permit, the Dissenting Opinion of
52

54a
in a letter to the Department concerning Frederick
County's permit that appears in the administrative
record, the EPA made clear that permitting agencies
may include water quality based effluent limitations
in MS4 permits: "Where the [permitting] authority
determines that MS4 discharges have the reasonable
potential to cause or contribute to a water quality
standard excursion as [the Department] has done in
this case, EPA recommends that the ... permitting
authority exercise its discretion to include
appropriate narrative and/or numeric water qualitybased effluent limitations ... as necessary to meet
water quality standards." EPA Letter to Maryland
Department of the Environment re Supplemental
Comments on Frederick County Phase I MS4
Permit (September 23, 2014). The EPA also stated
that the requirement of consistency between
TMDLs and permits applies to MS4s as it does to
all point sources: "Pursuant to 40 CFR
122.44(d)(l)(vii)(B), where there is an applicable
[TMDL] approved or established by EPA, a
[discharge] permit
must include effluent
limitations that are consistent with the wasteload
allocation ...in the TMDL. This includes MS4
permits." Id.

Judge Watts discounts the EPA's interpretation of the Clean
Water Act which, as indicated in the text, follows the
interpretation of the Act by the Ninth Circuit in Defenders of
Wildlife. See Watts Dissenting slip op. at 11-12 & n.7. Given
the ambiguity in clause (B)(iii), the EPA's interpretationwhich is consistent with the construction of the statute by the
federal courts - is entitled to deference under Chevron (and
even if the Chevron did not apply, under Skidmore).

55a
Harmonizing MS4 Permit Terms with the TMDL
Process
Clause (B)(iii) is to be read harmoniously with
the Act as a whole, including the TMDL process.
See King v. St. Vincent's Hospital, 502 U.S. 215, 221
n.10 (1991) (when construing statute, court should
read statute as a whole and harmonize its
provisions); Condon v. State of Maryland-Univ. of
Maryland, 332 Md. 481,491 (1993) (same). In our
view, the EPA's and Department's interpretation of
clause (B)(iii) is more consistent with the Act as a
whole than the alternative proposed by Frederick
County.
The EPA's regulations require that a water
quality based effluent limitation be derived from
the applicable water quality standard, without
referring to a practicability test. Permitting
agencies "shall ensure that [t]he level of water
quality to be achieved by [water quality based
effluent limitations] on point sources ... is derived
from, and complies with, all applicable water
quality standards." 40 CFR §122.44(d)(l)(vii)(A).
The EPA's rationale is that"[d]eriving water
quality-based effluent limits from water quality
standards is the only reliable method for
developing water quality-based effluent limits that
protect aquatic life and human health." EPA,
National Pollutant Discharge Elimination System;
Surface Water Taxies Control Program- Final Rule,
54 Fed. Reg. 23868, 23879 (June 2, 1989) (preamble
to publication of the EPA's rule that, in part, adopted
40 CFR §122.44(d)(l)(vii)). Importantly, this
rationale does not distinguish between types of
point sources, i.e., whether the discharger is a
factory, a wastewater treatment plant, an MS4, or

56a
any other kind of point source. The process of
implementing TMDLs via discharge permits
"results in effluent limits that protect aquatic life
and human health because the limits are derived
from water quality standards." Id. In other words,
when translating TMDL wasteload allocations to
effluent limitations in a permit, the pertinent water
quality standard remains the touchstone. Thus,
when an entity discharges to a waterway subject to a
TMDL, its permit
must
contain
effluent
limitations consistent with the "assumptions and
requirements" of the corresponding wasteload
allocation in the TMDL.40 CFR §122.44(d)(l)(vii)(B).
When the final provision of clause (B)(iii) is read
to encompass water quality based effluent
limitations, MS4 permits are treated like any other
discharge permit for purposes of implementing
TMDLs. This interpretation harmonizes clause
(B)(iii) with the TMDL provisions insofar as the
latter likewise do not distinguish between types of
point sources. By contrast, if permitting agencies
must constrain all TMDL based effluent limitations
in MS4 permits by some sort of practicability
analysis, there would be tension with the basic tenet
that water quality based effluent limitations must
derive from water quality standards.
Summary
In including the impervious surface restoration
requirement in Frederick County's permit, the
Department acted consistently with the EPA's
interpretation of clause (B)(iii) -that is, that the Act
authorizes permitting agencies to include water
quality based effluent limitations in MS4 permits
without reference to the MEP standard. As

57a
explained earlier, clause (B)(iii) is ambiguous. A
federal court reviewing the EPA's interpretation
of an ambiguous federal statutory provision under
Chevron would defer to the agency's reasonable
construction of that language. In our view, the
EPA's interpretation of clause (B)(iii) is a
reasonable construction that is consistent with the
rest of the Act and accords with the Ninth Circuit
decision in Defenders of Wildlife and other
applicable court decisions. Even under the less
deferential Skidmore standard of review, a federal
court would likely defer to the agency's
interpretation in light of its consistent view that
MS4 permits are subject to standards emanating
from TMDLs. Moreover, the Department was
"bound to follow EPA's interpretation" in light
of the Clean Water Act's scheme of cooperative
federalism. Natural Resources Defense Council v.
New York State Dep' t of Envtl Conservation, supra.
Accordingly, we hold that the Department did not
act unlawfully in including a water quality based
effluent limitation (the impervious surface
restoration requirement) not subject to the MEP
standard in the County's permit. 53

Because we hold that the Act authorizes the
impervious surface restoration requirement in the County's
permit, we need not address the Department's alternative
argument that Maryland law allows such a condition as
consistent with the federal Act's provision allowing for more
stringent state-set permit conditions. See 33 U.S.C. §1370.
53

58a
3. Whether the Inclusion of the Impervious
Surface Restoration Requirement in Frederick
County's
Permit
was
Arbitrary
and
Capricious
Frederick County also argues that, regardless of
whether the Act authorizes the Department to
include
an
impervious
surface
restoration
requirement in MS4 permits without reference to the
MEP standard, the Department acted arbitrarily
and capriciously when it included such a provision
in the County's permit. The County notes that,
during the comment period on the draft permit, it
submitted to the Department a report that
purportedly demonstrated that compliance with the
permit's requirements within five years was
financially and logistically impossible. 54
As noted earlier, when agency action is
challenged as arbitrary and capricious, the question
is whether there was a rational basis for that action.
See Part II.A. of this Opinion. In answering that
question, a reviewing court is to be "extremely
deferential" to the agency and not to substitute its
own judgment for that of the agency. To assess
whether the Department acted arbitrarily and
capriciously in its consideration of Frederick
County's objection to the permit term, we review

As described above, the General Assembly authorized
counties to charge a stormwater remediation fee to help finance
stormwater management and restoration required by MS4
permits. See EN §4-202.1. Frederick County adopted a fee of
1¢; at oral argument before this Court, the County explained
that it had elected to use general funds to finance its
obligations under the Clean Water Act.
54

59a
both the procedure that the Department followed
and the substance of its action.
Procedure
Consistent with EN §1-604(a), the Department
first issued a "tentative determination" together
with the draft permit on June 28, 2014. A public
comment period followed, during which the
Department received many comments on the draft
permit. After consideration of those comments, the
Department published a "final determination" on
December 10, 2014, along with the final permit,
consistent with EN §1-604(b). See Basis for Final
Determination to Issue Frederick County's NPDES
MS4 Permit MD0068357 (December 2014) ("Basis for
Final Determination- Frederick County").
In general, the Environment Article gives the
Department broad discretion in replying to
comments when the agency takes final action on a
proposed permit. The Department is not obliged to
respond to all public comments, but rather may "pick
and choose" the comments it addresses. Kor-Ko Ltd.
v. Maryland Dep't of the Env't,451 Md. 401, 422 n.18
(20 17). The fact that an agency does not change a
proposed action or regulation in light of comments
requesting a change does not mean that the process
lacked a meaningful opportunity for comment or
that the agency failed to consider those comments.
See Fogle v. H & G Rest., Inc., 337 Md. 441, 463
(1995).
Substance
In its comments on the draft permit, Frederick
County voiced its concerns about the feasibility of
compliance with the impervious surface restoration

60a
requirement. The Department addressed Frederick
County's concerns about cost and feasibility, as well
as a number of other issues in the Basis for Final
Determination that the Department published with
the final version of the permit. 55 Basis for Final
Determination- Frederick County at 18. The
Department noted that the County believed that the
20 percent restoration requirement "exceeds an MEP
level of effort and that compliance would be financially
and operationally infeasible." Id. at 22. The
Department responded to those concerns by explaining
that the restoration requirement was necessary for
consistency with the Bay TMDL and the Maryland
WIP. !d. The Department also stated that the EPA had
reviewed the permit for such consistency and was
"satisfied" that the permit achieved it based, in part,
on the impervious surface restoration requirement. !d.
Although the Department's response may not have
amounted to a point-by-point refutation of every detail
of the County's comments, it did address the significant
issues raised by the County. We cannot say that the
Department failed to respond in a reasoned manner.
In particular, the Department had a rational
basis for saying that the restoration requirement is
necessary for consistency with the Bay TMDL and the
Maryland WIP. As this Court recognized in
Anacostia Riverkeeper, the EPA relied on the
Maryland WIP, which included the impervious
surface restoration requirement, when developing the
Bay TMDL and the restoration requirement was a
In the same document, the Department also addressed
similar cost and feasibility "estimates" submitted by Charles
County and Harford County. Basis for Final DeterminationFrederick County at 18.
55

61a
"key element" in securing EPA's endorsement of the
Maryland WIP. 447 Md. at 128.
It was reasonable for the Department to respond
to the County's claim of impossibility by explaining
that the restoration requirement derives from the Bay
TMDL and the Maryland WIP. The Bay TMDL and
Maryland WIP were the result of significant
deliberation among various stakeholders together with
the EPA and the Department. For example, the record
shows that Frederick County and the Department had
been discussing practicability and feasibility since at
least 2012.
In our view, the Department was not arbitrary
or capncious m including the impervious surface
restoration requirement in Frederick County's MS4
permit.

C. Whether

the
Permits
Exceed
the
Appropriate Geographic Scope of an MS4
Permit

Both Counties assert that their permits exceed
the appropriate scope of an MS4 permit. The
Counties focus on Part IV.E. of their permits.
That section of the permit requires the County to
(1) conduct a detailed watershed assessment for the
entire County; (2) complete restoration of 20
percent of the impervious surface area in the
County; (3) develop and implement restoration plans
for meeting applicable stormwater wasteload
allocations in EPA-approved TMDLs; (4) conduct
public outreach and encourage public participation
in the watershed assessments, restoration plans,
and achievement of the TMDL limits and water
quality standards; and (5) evaluate and document

62a
its progress in meeting stormwater
allocations in EPA-approved TMDLs.

wasteload

The Counties argue that the Department
exceeded its authority under the Clean Water Act
in its specification of the impervious surface
restoration condition and in requiring compliance
with stormwater wasteload
allocations in
applicable EPA-approved TMDLs. To some extent,
these arguments are based on making a distinction
between the permittee - in these cases, Frederick
and Carroll Counties - and the activity that is
authorized by the permits - the discharge of
pollutants by the MS4s operated in each County.

1. Jurisdiction- Wide versus System-Wide
Permits
The Clean Water Act provides that "[p]ermits
for discharges from municipal storm sewers may be
issued on a system - or jurisdiction-wide basis." 33
U.S.C. §1342(p)(3)(B)(i). The EPA's regulations
reiterate that a permitting authority such as the EPA
or the Department may issue permits for Phase I
MS4s on a system-wide or jurisdiction-wide basis.
See 40 CFR §122.26(a)(l)(v) (in exercising residual
designation authority to require Phase I permit, state
or EPA may make designation on system-wide or
jurisdiction-wide basis), 40 CFR §122.26(a)(3)(ii)
(permit for a large or medium MS4 may be issued on
system-wide basis or on a number of other bases,
including with reference to the ''jurisdiction").
Neither the statute nor the regulations elaborate on
what it means for an MS4 permit to be issued on a
''jurisdiction-wide" basis- as opposed to a "system-

63a
wide" basis. 56 The explanation offered by the EPA
at the time it adopted these regulations indicates
that it was concerned with ensuring that permitting
authorities had the necessary flexibility to adapt
permits to local conditions such as existing
administrative systems, police powers, and land use
authority. EPA Preamble to 1990 Phase I MS4 Rule,
55 Fed. Reg. at 48043.
The permits that are the subject of this appeal
are each issued to a County - a jurisdiction- in its
capacity as the operator of an MS4- a system.57
But the challenges raised by the Counties cannot
be resolved by the descriptive label attached to
their MS4 permits. The Counties contend that,
regardless of whether a permit is issued on a
system- wide or jurisdiction-wide basis, the scope
of the regulatory conditions in the permit must
relate to the discharges authorized by the permit.
They argue that the baseline calculation for the
impervious surface
restoration requirement
effectively makes the Counties responsible for
pollutants carried by stormwater that does not flow
56 The EPA regulations suggest that -at least with respect
to a Phase I MS4 that is classified as "large" or "medium" - a
"jurisdiction-wide" permit may cover only a portion of the
corresponding system. See 40 CFR §122.26(a)(3)(ii)
(authorizing the issuance of either a system-wide permit
"covering all discharges from [the MS4]" or "distinct permits for
appropriate categories of discharges within [the MS4]
including, but not limited to ... discharges located within the
samejurisdiction ...") (emphasis added). This provision does not
concern residually designated Phase I MS4s.

The Carroll County permit also includes, as copermittees, all of the incorporated municipalities in the County
and thus pertains to several jurisdictions and several systems.
See 40 CFR §122.26(a)(3), (b)(l).
57

64a
into their MS4s. The Counties further argue that
permit provisions related to stormwater wasteload
allocations in local TMDLs also do so.

2. The
Impervious
Requirement

Surface

Restoration

Impervious surface restoration requirements
have been part of MS4 permits issued by the
Department since at least 1999. Maryland WIP at
2-26. The previous generation of each County's
permit included an impervious surface restoration
requirement of 10 percent of each County's
unrestored impervious surface.58
The Impervious Surface Restoration Condition in the
Current Permit
With respect to impervious surface restoration, the
current permit provides:
Within one year of permit issuance, [the] County
shall submit an impervious surface area
assessment consistent with the
methods
described in the [Department] document
"Accounting for Stormwater Wasteload
Allocations and Impervious Acres Treated,
Guidance for National Pollutant Discharge
Elimination System Stormwater Permits"
(MDE, June 2011 or subsequent versions).
Upon approval by [the Department], this
impervious surface area assessment shall serve
The general permit applicable to Phase II small MS4s
also includes an impervious surface restoration term, although
it differs from the one included in the permits of Phase I MS4s
like the Counties. The current Phase II general permit
requires restoration of 20 percent of the unrestored impervious
surface in each permittee's urbanized area by 2025.
58

65a
as the baseline for the restoration efforts
required in this permit.
By the end of this permit term, [the] County
shall
commence
and
complete
the
implementation of restoration efforts for twenty
percent of the County's impervious surface area
consistent with the methodology described in
the [Department] document cited in [this section]
that has not already been restored to the MEP.
Equivalent acres restored of impervious
surfaces, through new retrofits or the retrofit of
pre-2002
structural
[best
management
practices], shall be based upon the treatment of
the WQv criteria and associated list of practices
defined in the 2000 Maryland Stormwater
Design Manual. For alternate [best management
practices], the basis for calculation of equivalent
impervious acres restored is based upon the
pollutant loads from forested cover.
Carroll County Phase I MS4 Permit MD0068331, Part
IV.E.2.a; Frederick County Phase I MS4 Permit
MD0068357, Part IV.E.2.a.
On its face, this provision does not require the
County to undertake impervious surface restoration
outside the geographic area that drains to the MS4, as
it does not dictate where such restoration must take
place. 59 But the permit provision uses unrestored
Some permit terms specify actions within the MS4
service area. For example, Part IV.D. of the permit requires the
County to implement certain management programs in "areas
served by [the] County's MS4." Some required programs
involve actions that are necessarily conducted on a county-wide
basis, including outside the service area of the MS4- e.g., an
"acceptable stormwater management program" under EN §4201 et seq., an "acceptable erosion and sediment control
59

66a
impervious surface throughout the entire County not just within the MS4 service area - as a starting
point, or baseline, for calculating the required
restoration. 60 (In the case of both Counties, the
County's MS4 serves only a portion of the County's
geographic area).
The Counties do not contend that the inclusion of
an impervious surface restoration requirement itself
is beyond the scope of an MS4 permit. Rather, they
argue that the reference to a county-wide measure
of impervious surface as the baseline for the
requirement in the permit exceeds the Department's
authority. They assert that the reference to that
baseline in a permit has the effect of making the
County responsible for pollutants that never enter
the County's MS4.
Anacostia Riverkeeper
This Court considered the
impervious surface restoration

validity of an
requirement in

program" under EN §4-101 et seq. and a "public education and
outreach program to reduce stormwater pollutants." MS4
Permits, Part IV.D. 1, 2, 6. If the permits are modified (as
sought by the Counties) to allow water quality trading as a
compliance method, the pollution reductions for which a County
would receive credit would not necessarily occur within the
County, much less within its MS4 service area. See Part II.E.
of this Opinion.
In particular, the permit term refers to restoration of
20 percent of the County's impervious surface area consistent
with the methodology in the Department's guidance document.
That methodology involves a calculation of the impervious
surface area throughout the entire County (after excluding
certain areas that are not directly at issue here). See
Accounting for Stormwater Wasteload Allocations and
Impervious Acres Treated (August 2014) at 1, 6-10.
60

67a
Anacostia River keeper. In that case, the Phase I
MS4 permits in question included an identical term
requiring the permittee counties to restore 20
percent of the unrestored impervious surface over the
five-year period covered by their permits. The
challenged by environmental
requirement was
advocacy groups as "too opaque" to satisfy the Act's
direction that MS4 permits include provisions to
reduce pollutants that satisfy the MEP standard. 61
They also argued that the Department had failed to
adequately explain its use of the 20 percent restoration
condition or how that level of restoration would
achieve the Bay TMDL.
This Court concluded that impervious surface
restoration, as carried out in accordance with the
Department's
Stormwater
Design
Manual
(incorporated by reference in the permit term), is a
stormwater management practice that functions as a
"surrogate" for direct reduction of pollutants in
stormwater and that satisfies the MEP standard. 447
Md. at 122-23. Noting that the 20 percent restoration
requirement was consistent with the Maryland WIP,
the Court further held that the Department's decision
to include that requirement in the permits under
review was supported by substantial evidence and
was not arbitrary and capricious. !d. at 128-29. The
Court also upheld the temporal baseline selected by
the Department for measuring compliance with the 20
percent requirement. In particular, it held that the
Department had not erred in using the measure of
unrestored impervious surface in the counties in 2002
as the baseline. Id. at 132.
The MEP standard is discussed in Part II.B. of this
Opinion.
61

68a
In this case, the Counties also challenge the
baseline used for the impervious surface restoration
requirement. However, in contrast to Anacostia
Riverkeeper, the basis of that challenge is geographic
rather than temporal. 62 It is rooted in the notion
that MS4 permits under the Act regulate
discharges of pollutants only from an MS4 itself.
See 33 U.S.C. §1342(p)(3) (setting forth permit
requirements for "permits for discharges from
[MS4s]"). In the Counties' view, use of a county-wide
baseline violates that principle because some of the
impervious surface included in that baseline is
associated with pollution that never enters the
MS4. 63 According to the Counties, to be consistent
The Counties point out that the use of 2002 as the
baseline year for assessment of the County's impervious
surface- instead of 1985, the baseline year in the Maryland
WIP -would effectively increase the target amount of
restoration. Use of 2002 as the baseline year would increase
the baseline amount of impervious surface by including
development between 1985 and 2002.
(In Anacostia
Riverkeeper, environmental groups had argued that a baseline
year later than 2002 should have been used- i.e., that use of
the 2002 baseline was too lenient). However, in arguing that
they are being held responsible for pollutant discharges that
do not emanate from their MS4s, the Counties focus on the
geographical element of the baseline calculation.
62

This is based on the following reasoning. Obviously, rain
can fall anywhere in a jurisdiction, such as a county, that
operates an MS4. The rain will carry some pollutants into
conveyances within the county's MS4 and, from there,
into waterways. Other pollutants, however, may never
encounter the MS4. Instead, they will run into waterways
directly from fields, farms, parking lots, or other land uses
in the county that are out of reach of the MS4. Under the
Act, the pollutants carried through the MS4 constitute a form
of point source pollution, and the pollutants not carried
through the system are a form of nonpoint source pollution
63

69a
with the Clean Water Act, an impervious surface
restoration requirement must reference a baseline
that includes only the MS4 service area.64

(often called "stormwater runoff'). Since MS4 permits under
the Act authorize only discharges from point sources, such
a permit may only include conditions related to stormwater
and the accompanying pollutants that enter (and are
discharged from) the MS4, not stormwater that never
encounters the MS4. See Envtl Def Ctr., Inc. v. EPA, 344 F.3d
832, 841 n.8 (9th Cir. 2003).
64 Carroll County also invokes the doctrine of offensive
non-mutual collateral estoppel to argue that the Department
is barred from using a county-wide baseline for impervious
surface. In particular, the County cites a 2003 administrative
decision by the Department's final decisionmaker, which
struck certain provisions of wastewater discharge permits
issued to three poultry processors. Tyson Foods, Inc., et al. v.
MDE, OAH Case No. MDE-WMA-063-200200001 (June 12,
2003). The final decisionmaker concluded that, under State
law, the permits could not include conditions that required the
processors to undertake certain activities relating to chicken
manure at the farms of those who raised chickens that were
sold or otherwise provided to the processors, particularly
when the growers were not co-permittees.

The Tyson Foods administrative decision did not involve an
MS4 permit, much less an issue identical to the one in this
case, and did not discuss the Clean Water Act, EPA
regulations, or any other federal law, for that matter. Under
those circumstances, the doctrine of offensive non-mutual
collateral estoppel does not apply to determine the outcome of
this case. See Garrity v. Maryland State Board of Plumbing, 447
Md. 359,369 (20 16) (among other things, issue decided in prior
adjudication must be identical for collateral estoppel to apply).
The reasoning of the administrative decision in Tyson Foods
may be analogous in some respects to the argument advanced
by the Counties in this case, but it is not dispositive.

70a
Origin of the 20 Percent Restoration Requirement
There is no question that the pollutant discharges
that the permit authorizes are those from each
County's MS4. As this Court noted in Anacostia
Riverkeeper and as discussed in the previous section
of this Opinion, the impervious surface restoration
term is a water quality based effluent limitation
authorized by 33 U.S.C. §1342(p)(3)(B)(iii). In
particular, such a permit term is a numeric water
quality based effluent limitation, as recognized by
the EPA. 65
Importantly, the amount of impervious surface to
be restored is simply a surrogate or proxy for an
amount of pollution to be reduced. The Department's
guidance document incorporated in the permit term
explains how to calculate loads of pollution reduced,
given a certain kind and quantity of impervious surface
restoration activity. Thus, when the Department is
determining how a county should calculate the number
of impervious surface acres to be restored, the
Department is effectively determining a measure of
pollution reduction.

See EPA, Post-Construction Performance Standards &
Water Quality-Based Requirements: A Compendium of
Permitting Approaches
(June 2014) at 19 (including
impervious surface restoration terms in Maryland MS4
permits in a list of examples of numeric water quality based
effluent limitations); EPA, Revisions to the November 22, 2002
Memorandum "Establishing Total Maximum Daily Load
(TMDL) Wasteload Allocations (WLAs) for Storm Water Sources
and NPDES Permit Requirements Based on WLAs" (November
26, 2014) at 10 (identifying an identical20% restoration term
in the Prince George's County MS4 permit as a numeric water
quality based effluent limitation).
65

71a
As explained earlier, the EPA's regulations
require that a water quality based effluent
limitation be derived from applicable water quality
standards, without reference to a practicability test.
See 40 CFR §122.44(d)(1)(vii)(A). This is because
"[d]eriving water quality-based effluent limits from
water quality standards is the only reliable method
for developing water quality-based effluent limits
that protect aquatic life and human health." EPA,
National Pollution Discharge Elimination System:
Surface Water Toxics Control Program - Final Rule,
54 Fed. Reg. 23868, 23879 (June 2, 1989); see also
Natural Resources Defense Council v. Fox, 909 F.
Supp. 153, 156 (S.D.N.Y. 1995).
With respect to the baseline for the impervious
surface restoration requirement, those regulations
require a permitting agency to craft the numeric
component of a water quality based effluent
limitation by reference to "all applicable water
quality standards." 40 CFR §122.44(d)(1)(vii)(A).
Thus, when establishing how each County is to
calculate the number of impervious surface acres to
be restored- i.e., the proxy for an amount of pollution
to be reduced - the Act and EPA regulations direct
the Department to focus on what is necessary to
achieve water quality standards in the Bay and the
waters that feed it.
In our view, the Department's use of a countywide baseline as a reference point for calculating the
impervious surface restoration condition does not
exceed the Department's authority under the Act
because the impervious surface restoration condition
implements a stormwater wasteload allocation in a
TMDL (specifically, the Bay TMDL) designed to
achieve water quality standards. Since at least 1991

72a
the EPA has determined in various contexts,
including regulation, that permitting authorities
may make trade-offs between pollutant allocations
for point and nonpoint sources. The EPA's definition
of TMDL contemplates such trade-offs. See 40 CFR
§130.2(i) ("If ... nonpoint source pollution controls
make more stringent load allocations practicable,
then wasteload allocations can be made less
stringent. Thus, the TMDL process provides for
nonpoint source control tradeoffs.").
Given that the possibility of such trade-offs is
inherent in the definition of TMDL, it is perhaps not
surprising that the EPA has reiterated that concept
when discussing how states are to develop TMDLs.
See EPA, Surface Water Toxics Control Program and
Water Quality Planning and Management Program,
57 Fed. Reg. 33040, 33048 (July 24, 1992) ("States
have the flexibility to consider the relative costs of
point and nonpoint source controls when preparing
TMDLs, along with such other factors as reliability,
relative effectiveness, and degree of assurance that
nonpoint
source controls will actually be
implemented and maintained."); EPA, Guidance for
Water Quality-based Decisions: The TMDL Process
(1991) at 15 ("Under the [Act], the only federally
enforceable controls are those for point sources
through the NPDES permitting process. In order to
allocate loads among both nonpoint and point
sources, there must be reasonable assurances that
nonpoint source reduction will in fact be achieved.
Where there are not reasonable assurances, under the
[Act], the entire load reduction must be assigned to
point sources.").
This long-established EPA policy is a reasonable
interpretation of the Act and is entitled to deference

73a
under Chevron. Even if the EPA policy were not
entitled to Chevron deference under federal law, we
would defer to the agency under Skidmore and our
own standards of review. As explained at the outset
of this opinion, the Act requires the establishment
of TMDLs when an existing regime of point source
pollution controls is inadequate to achieve water
quality standards. TMDLs reflect pollutant levels
necessary to achieve those standards in compliance
with the Act. The EPA has reasonably concluded that
permitting authorities must have the discretion to
allocate pollutant loads between point and nonpoint
sources as needed to achieve the TMDL limits,
including potentially ratcheting up the requirements
on point sources when necessary. See Farm Bureau,
984 Supp.2d at 326 (in a case concerning the Bay
TMDL, describing how a permit writer may
apportion pollutant amounts - "loads" - among
point and nonpoint sources m accordance with EPA
guidance). 66

In practice, the broad discretion to allocate TMDLestablished pollutant amounts between point and nonpoint
sources means that permitting agencies may impose a level of
pollution reduction on point sources in part to help offset
nonpoint source pollution. See Michael M. Wenig, How "Total"
Are "Total Maximum Daily Loads"? -Legal Issues Regarding
the Scope of Watershed-Based Pollution Control Under the
Clean Water Act, 12 Tul. Envtl. L.J. 87, 117 & n.131
(1998)(recognizing that TMDL allocations can require point
sources to "bear the brunt of pollution reductions necessary to
achieve" TMDLs); Oliver A. Houck, TMDLs III: A New
Framework for the Clean Water Act's Ambient Standards
Program, 28 ELR 10415, 10420 (August 1998) (recognizing
permitting agencies' option of "ratcheting down further on
point sources" when setting wasteload allocations).
66

74a
Thus, nonpoint source pollution reduction may
be assigned to point sources- i.e., through wasteload
allocations in the development of TMDLs. At bottom,
it is this assignment of pollutant reductions to their
wasteload allocations that is the essence of the
Counties' objection to the impervious surface
restoration requirement in their permits. 67 The
Department's use of a county-wide baseline for the
impervious surface restoration condition is thus
related to the broad discretion of the states and
the EPA, in drafting a TMDL, to assign an amount
of nonpoint source pollution reduction to point
sources.
Moreover, federal regulations require that point
source
permits contain effluent limitations
consistent with the "assumptions and requirements"
in wasteload allocations in applicable TMDLs. See
40 CFR §122.44(d)(l )(vii)(B). As this Court noted in
Anacostia Riverkeeper, this standard is flexible. 447
Md. at 135. In this case, the impervious surface
restoration term in the Counties' permits is
consistent with the underlying premise of the Bay
TMDL (by way of the Maryland WIP) that
Maryland's Phase I MS4 permits will include a
corresponding
impervious
surface restoration
requirement.
That
provision
underwent
significant
development before reaching its final form in the
permits. For example, in accordance with the EPA
The Maryland WIP states that the impervious surface
restoration "strategy" (i.e., 30% cumulative restoration for
Phase I MS4s) is associated with a particular "load
reduction," i.e., a certain quantity of pollution reduction.
Maryland WIP at 5-30.
67

75a
regulations governing discharge permits and a
related memorandum of understanding with the
Department, the EPA formally objected to the
Counties' draft permits because, among other things,
the impervious surface restoration requirement was
"not adequately expressed" and did not achieve
compliance with the Bay TMDL. See EPA, Specific
Objection to Carroll County Phase I MS4 Permit
MD0068331 (September 20, 2012); EPA, Specific
Objection to Frederick County Phase I MS4 Permit
MD0068357 (September 20, 2012). In response to
such objections and to comply with the requirement
of consistency between TMDLs and discharge
permits, the Department adjusted the impervious
surface term in the Counties' permits to a form
acceptable to the EPA. The EPA found the
consistency requirement to be satisfied in the final
version of the permits and withdrew its objection.
EPA, Supplemental Comments on Carroll County
Phase I MS4 Permit (September 23, 2014); EPA,
Supplemental Comments on Frederick County Phase
I MS4 Permit (September 23, 2014).
Summary
The impervious surface restoration term in the
Counties' MS4 permits is a numeric water quality
based effluent limitation corresponding to Maryland's
stormwater wasteload allocation within the Bay
TMDL. As such, when crafting that limitation, the
Department was authorized to focus on what would
be necessary to achieve water quality standards, and
the Department determined that the baseline
calculation method it chose was necessary to achieve
applicable water quality standards for the Bay. The
Department did not exceed its authority under the

76a
Clean Water Act when it directed calculation of the
impervious surface using a county-wide baseline. 68

3. Restoration Requirement Related to Local
TMDLs
Both Counties point to certain permit conditions
that require the Counties to adopt restoration plans
and provide reports concerning compliance with
stormwater wasteload allocations set forth in EPAapproved TMDLs for waterways in the Counties.
They argue that these provisions unlawfully make
the Counties responsible for discharges of third
parties. These provisions appear in Part IV.E. of each
County's permit and read as follows:
2. Restoration Plans
*

*

*

b. Within one year of permit issuance, [the]
County shall submit to [the Department]
for approval a restoration plan for each
stormwater
[wasteload
allocation]
approved by EPA prior to the effective date
of the permit. The County shall submit
restoration plans for subsequent TMDL
[wasteload allocations] within one year
[the
ofEPA approval. Upon approval by
Department], these restoration plans
shall be enforceable under this permit. As
part of the restoration plans, [the] County
shall:

Given this conclusion, we need not address whether
the impervious surface restoration requirement is permissible
as a State-determined effluent limitation that is "more
stringent" than what the Act requires.
68

77a
i. Include the final date for meeting
applicable [wasteload allocations] and a
detailed schedule for implementing all
structural and nonstructural water quality
improvement
projects,
enhanced
stormwater management programs, and
alternative stormwater control initiatives
necessary for meeting applicable [wasteload
allocations];
ii. Provide detailed cost estimates for
individual projects, programs, controls, and
plan implementation;
iii. Evaluate and track the implementation of
restoration plans through monitoring or
modeling to document the progress toward
meeting established benchmarks, deadlines,
and stormwater [wasteload allocations]; and
iv. Develop an ongoing, iterative process that
continuously implements structural and
nonstructural
restoration
projects,
enhancements,
new
and
program
additional programs, and alternative [best
management
practices]
where
EPA
approved TMDL stormwater [wasteload
allocations] are not being met according to
the benchmarks and deadlines established
as part of the County's watershed
assessments.
*

*

*

4. TMDL Compliance
[The] County shall evaluate and document
its progress toward meeting all applicable
stormwater
[wasteload
allocations]

78a
included in EPA approved TMDLs. An
annual TMDL assessment report with
tables shall be submitted to [the
Department]. This assessment shall
include complete descriptions of the
analytical methodology used to evaluate
the effectiveness of the County's restoration
plans and how these plans are working
toward achieving compliance with EPA
approved TMDLs. [The] County shall
further provide:

a. Estimated net change in pollutant load

reductions
from
all
completed
structural and nonstructural water
quality
improvement
projects,
enhanced stormwater
management
programs, and alternative stormwater
control initiatives;

b. A comparison of the net change in

pollutant load reductions detailed above
with the established benchmarks,
deadlines, and applicable stormwater
[wasteload allocations];

c. Itemized costs for completed projects,

programs, and initiatives to meet
established
pollutant
reduction
benchmarks and deadlines;

d. Cost

estimates for completing all
projects, programs, and alternatives
necessary for meeting
applicable
stormwater [wasteload allocations]; and

79a

e. A description of a plan for implementing

additional watershed restoration actions
that can be enforced when benchmarks,
deadlines, and applicable stormwater
[wasteload allocations] are not being met
or when projected funding is inadequate.

Carroll County Phase I MS4 Permit MD0068331, Part
IV.E.2.b, IV.E.4; Frederick County Phase I MS4
Permit MD0068357, Part IV.E.2.b, IV.E.4.
The Counties assert that these permit terms are
overbroad because some EPA- approved local TMDLs
assign nonpoint source pollution to the Counties'
MS4s, which are point sources. Carroll County
specifically cites the fecal bacteria TMDL for Double
Pipe Creek- one of the EPA-approved local TMDLs
incorporated by reference in Attachment B to the
Carroll County permit. 69
The Double Pipe Creek TMDL assigns certain
nonpoint source pollution- namely, "contributions [of
fecal bacteria] from domestic animal and [septic
system] sources"- to a stormwater wasteload
allocation, which includes pollution budgeted to
Carroll County's MS4. 70 Because the permit requires
the County to develop "restoration plans" to achieve
the stormwater wasteload allocations of relevant local
TMDLs, the County argues that the permit makes the
County responsible for addressing nonpoint pollution
from third parties that never enters the County's
The Double Pipe Creek watershed includes parts of both
Counties and is also incorporated in Frederick County's permit.
69

The Double Pipe Creek TMDL distributes this nonpoint
source pollution between Carroll County's and Frederick
County's MS4s.
70

80a
MS4. The County uses the Double Pipe Creek TMDL
as an example, but this argument would apply to
any EPA-approved local TMDL that assigns
nonpoint source pollution to stormwater waste load
allocations. 71
This dispute concerns not so much the
incorporation ofEPA-approved local TMDLs in the
permit, as the decisions that were made in the
development of those TMDLs. In the case ofthe
Double Pipe Creek TMDL, Carroll County is
questioning a decision made when the EPA
approved the Double Pipe Creek TMDL namely, the decision to allocate pollution from
nonpoint sources to the Counties' MS4s by way of a
stormwater wasteload allocation in the TMDL.
Frederick County argues that, like the impervious
surface restoration term, the restoration planning
requirement "unlawfully regulates stormwater
beyond the scope" of the Department's authority.
The County bases this argument on the assertion
that the local TMDLs "cover[] areas that do not drain
to the County's MS4." The County provides little
explanation for this argument, but as far as we can
tell, it derives from the same concern raised by
Carroll County- i.e., the decision made by the
Department at the local TMDL development stage to
include nonpoint source pollution within the
stormwater wasteload allocation.
This issue is somewhat distinct from the issue discussed
in the previous section of this Opinion concerning impervious
surface restoration in that the allocations at issue there
derived from the EPA's reliance on the Maryland WIP in
devising the Bay TMDL, rather than directly from the EPAapproved TMDL itself.
71

81a
For the reasons outlined earlier in this Opinion, 72
the Counties should have raised these arguments in a
challenge to the EPA's approval of the Double Pipe
Creek TMDL and other, similar local TMDLs. See, e.g.,
City of Kennett v. EPA, 887 F.3d 424 (8th Cir. 20 18)
(municipal challenge to EPA-approved TMDL that
would affect municipality's wastewater permit).
Therefore, we will not entertain these arguments here.
See Anacostia Riverkeeper, 447 Md. at 129 n.46.

D. Whether the Counties are Appropriately
Classified as Phase I Jurisdictions

Frederick County first received an MS4 permit as
a Phase I jurisdiction in 1994. It subsequently
applied for and received a Phase I permit in 2002. In
2006, it applied for the Phase I permit at issue in this
appeal. It first contested its status as a Phase I
jurisdiction during the public comment period
following the Department's publication of its draft
permit in 2014 and reiterated those arguments when
it sought judicial review of the final 2014 permit.
Carroll County first received an MS4 permit as a
Phase I jurisdiction in 1995. It subsequently applied
for and received Phase I permits in 2000 and 2005.
Unlike Frederick County, it did not question its status
as a Phase I jurisdiction during the administrative
process for its most recent permit, which was issued
in 2014, but first contested its status as a Phase I
jurisdiction when it sought judicial review of that
permit.73
72

See Part II.A.2 of this Opinion.

The Department argues that Carroll County may not now
challenge its Phase I classification because , unlike Frederick
County, it failed to raise the issue during the public comment
73

82a
Both Counties argue that the Department has
unlawfully treated them as Phase I jurisdictions because it
has incorrectly classified them as "medium" (and therefore
Phase I)- as opposed to "small" (and therefore Phase II)MS4 jurisdictions since the time when they first applied for
and received their first MS4 permits in the early 1990s.
This distinction matters because, as indicated earlier,
Phase I jurisdictions have generally been subject to earlier
and more stringent permit requirements than Phase II
jurisdictions. In particular, the Counties point to the
impervious surface restoration requirement in their Phase
I permits.74 As relief, both Counties seek to be re-classified
as Phase II jurisdictions with their permit terms conformed
to those that apply to Phase II MS4s.

1. Application of the MS4 Permit Requirement in
Phases

Phase I MS4 Permits
In 1987, when Congress added the permit
requirement for MS4s to the Clean Water Act, it did not
require permits for all MS4 discharges immediately.
Instead, it adopted a staggered approach.75 This
period on its draft 2014 permit. However, given that Frederick
during the
County did challenge the classification
administrative process for its permit and that the issue is
essentially the same for both Counties, we will not avoid the
issue on the basis of lack of preservation.
The impervious surface restoration requirement is more
stringent in Phase I MS4 permits than a similar term in Phase II
MS4 permits, in three ways: larger baseline (county wide vs.
urbanized areas), earlier deadline (20 19 vs. 2025), and higher
percentage of area to be restored (30% vs. 20%).
74

Congress created this staggered approach in the Water
Quality Act of 1987 by explicitly recognizing that all MS4
discharges were subject to the Act's permit requirement,
establishing a moratorium on that requirement until 1994, and
75

83a
approach started with applying the permit
requirement first to discharges from systems with the
greatest potential to pollute waterways, which was
referred to as Phase I. These MS4s included those
serving larger populations, because areas with larger
and denser populations tend to have more developed
land with impervious surface and, as a result, generate
more stormwater pollution. 76 Also included in the first
round were MS4s determined by the EPA or a state to
be significant contributors of pollutants, regardless of
the size of the population served by those MS4s. This
statutory authority to issue permits based on water
quality impact (as opposed to the proxy of population
served) is often referred to as the "residual designation
authority" of the EPA and the states.
77

For our purposes, the relevant Phase I categories
are the following:

then exempting certain discharges from that moratorium at
various intervals. See 33 U.S.C. §1342(p)(1)- (2). As a result, the
permit requirement was imposed on MS4s in stages.
76 Population served as a proxy for the amount of pollution
in stormwater because "discharges from [MS4s] serving larger
populations are thought to present a higher potential for
contributing to adverse water quality impacts.... [P]ollutant loads
from urban runoff strongly depend on the total area and
imperviousness of developed land, which in tum is related to
population." EPA Preamble to 1990 Phase I MS4 Rule, 55 Fed.
Reg. at 48038.

In all, Phase I covered five categories of MS4 stormwater
discharges. See 33 U.S.C. §1342(p)(1)-(2). The other two Phase
I categories are discharges for which a permit had been issued
before 1987 and discharges associated with industrial activity neither of which is at issue in this appeal. 33 U.S.C.
§1342(p)(2)(A)-(B).
77

84a

(1) Large MS4. A discharge from an MS4 serving a
population of 250,000 or more, referred to in the
statute as a "large MS4." 33 U.S.C. §1342(p)(2)(C),
(p)(4)(A).
(2) Medium MS4. A discharge from an MS4 serving a
population of 100,000 or more but less than
250,000, referred to in the EPA's regulations as a
"medium MS4." 33 U.S.C. §1342(p)(2)(D); 40 CFR
§122.26(a)(1)(iv).
(3) Residually Designated MS4. A discharge for
which the EPA or a state "determines that the
stormwater discharge contributes to a violation of
a water quality standard or is a significant
contributor of pollutants to waters of the United
States." 33 U.S.C. §1342(p)(2)(E).
The EPA adopted regulations in 1990 setting forth the
permit requirements for Phase I jurisdictions. EPA,
National Pollutant Discharge Elimination System
Permit Application Regulations for Storm Water
Discharges- Final Rule, 55 Fed. Reg. 47990 (November
16, 1990), codified in 40 CFR §122. Other than
establishing different deadlines for the submission of
permit
applications
by
large and
medium
jurisdictions,
the regulations generally did not
distinguish among these three categories of Phase I
MS4s. See 40 CFR §122.26(d).
Thus, in the early 1990s, an MS4 operated by a
local government, like those of the Counties, would be
required to obtain a Phase I permit if: ( 1) the MS4
served 100,000 or more people based on census
figures, or (2) the EPA or the state had classified the
MS4 as a Phase I jurisdiction under the residual
designation authority.

85a
Phase II MS4 Permits
The Phase II round of MS4 permits covered
stormwater discharges other than the Phase I
categories. 33 U.S.C. §1342(p)(6). Included in Phase
II are MS4s serving fewer than 100,000 people,
referred to as "small" MS4s. In 1999, the EPA
setting
forth
permit
adopted
regulations
requirements for small MS4s. See EPA Preamble to
1999 Phase II MS4 Rule; see also 40 CFR §122.34.78
Those regulations provided deadlines for initial
Phase II permit applications at various intervals
during the early 2000s.

2. Population Classification for Purposes of
Phase I

As noted above, the Clean Water Act classifies
MS4s according to the population served by the MS4.
The statute does not define what it means for an
MS4 to "serve" a population of a given size. In
carrying out its statutory charge to adopt regulations
on MS4 permit requirements,79 the EPA defined
"medium" MS4s as falling into one of four
subcategories. The most relevant here included
systems comprising storm sewers that are:

(i) Located in an incorporated place with a
population of 100,000 or more but less than

For reasons not relevant here, the 1999 small MS4
regulations were remanded and reissued in 2016. See Envtl.
Def Ctr., Inc. v. EPA, 344 F.3d 832 (9th Cir. 2003) (remanding
the 1999 regulations); EPA, National Pollutant Discharge
Elimination System (NPDES) Municipal Separate Storm Sewer
System General Permit Remand Rule, 81 Fed. Reg. 89320
(December 9, 2016).
78

79

33 U.S.C. §1342(p)(4).

86a
250,000, as determined by the latest
Decennial Census by the Bureau of the Census
(appendix G); or

(ii) Located in the counties listed in appendix
I, except municipal separate storm sewers
that are located in the incorporated places,
townships or towns within such counties;
40 CFR §122.26(b)(7)(i)-(ii) (as adopted in 1990). Like
the statute, the regulations on their face appear to use
as a reference point the total population of the
particular jurisdiction without attempting to refine
that number according to the portion of the
population that lives or works within the area
"served" by the MS4.
Appendix I, referenced in the second subcategory
of the regulation, listed 32 counties and was entitled
"Counties With Unincorporated Urbanized Areas
Greater Than 100,000, But Less Than 250,000
According to the Latest Decennial Census by the
Bureau of the Census" (emphasis added). As is
evident, the title of Appendix I refers not only to
"unincorporated" areas, but also to "urbanized" areas
- a term that does not appear in the statute or
otherwise in the EPA's regulations.
In explanatory material that accompanied the
1990 publication of the Phase I regulations - what
is sometimes referred to informally as a
"preamble" to such a publication80 -the agency
elaborated on its conception of the second
subcategory. It stated that the second subcategory
was meant to capture MS4s in "counties having
areas that are designated as urbanized areas by the
80

See note 17 above.

87a
latest decennial Bureau of Census estimates and
where the population of such areas exceeds 100,000
[but is less than 250,000], after the population in the
incorporated places, townships or towns within
such counties is excluded." EPA Preamble to 1990
Phase I MS4 Rule, 55 Fed. Reg. at 48039. 81 As
defined by the Census Bureau, the term "urbanized"
generally refers to "high density development." Id. at
48041 n.5.
In its initial iteration in connection with the
regulations adopted in 1990, Appendix I listed
jurisdictions in the second subcategory based on
figures from the 1980 census - at that time "the
latest decennial census"- as did Appendix G with
respect to jurisdictions in the first subcategory. In
1999, at the same time that the EPA adopted
regulations governing Phase II MS4 permits, the
agency also updated Appendix I (as well as
Appendix G) based on the 1990 census - which was
then "the latest decennial census." But the EPA
also amended the regulation concerning "medium"
population jurisdictions to refer specifically to the
1990 census and deleted the reference to the
"latest" census. The agency stated that it would not
continue to update those appendices based on later
decennial censuses. In the preamble to the
publication of those regulations and amendments,
An EPA guidance document issued shortly after adoption
of the Phase I regulations similarly stated the "medium" MS4
category included "Counties with census designated urbanized
areas that have a population greater than [or] equal to 100,000
but less than 250,000 after incorporated areas, towns, and
townships within such counties are excluded." EPA, Guidance
Manual for the Preparation of Part 1 of MS4 Permit
Applications (April 1991) at 9 (emphasis added).
81

88a
the EPA explained that it was "freezing" the
regulatory definition and listing based on the 1990
census because all the covered MS4s had already
applied for permits and "the deadlines from the
existing regulations have lapsed."82 EPA Preamble
to 1999 Phase II MS4 Rule, 64 Fed. Reg. at 68838,
68848-49. The EPA further explained that MS4s
that later met the definition of a "medium"
jurisdiction could be made subject to the Phase I
requirements by the permitting agency, alluding to
the agency's residual designation authority under
the Act. !d. at 68749 ("the permitting authority can
always require more from operators ofMS4s serving
'newly over 100,000' populations'); see also EPA,
National Pollutant Discharge Elimination System
- Proposed Regulations for Revision of the Water
Pollution Control Program Addressing Storm Water
Discharges, 63 Fed. Reg. 1536-01, 1567 (January 9,
1998).

3. Residual Designation Authority
Factors for Designation and Procedural Requirements
As indicated above, the Act authorizes the EPA,
or the pertinent state agency, to require that an MS4
obtain a Phase I permit if the agency "determines
that the [MS4] contributes to a violation of a water
quality standard or is a significant contributor of
pollutants ...." 33 U.S.C. §1342(p)(2)(E). In
its
Phase I permit regulations, the EPA identified the
following factors that could affect such a
As noted earlier, at that time, Carroll and Frederick
Counties were among those operators of MS4s that, at the
behest of the Department, had already applied for, and
received, Phase I permits, although they were not listed in
Appendix I.
82

89a
determination: the location of the discharge, the size
of the discharge, the nature and quality of the
pollutants, and "other relevant factors." 40 CFR
§122.26(a)(1)(v).
Those regulations also specified
certain procedures that would be followed by the
EPA when the EPA itself made such a
determination (as well as other types of case-bycase determinations). See 40 CFR §124.52.83 No
particular procedure was required of a state
agency that made such a determination.84 The
parties have not presented - and we have not been
able to identify - any further procedural or other
requirements that a state must follow when
designating an MS4 as a Phase I permittee. 85
In the context of a citizen petition to the EPA to exercise
its residual designation authority, the EPA may issue a formal
document concerning the water quality impacts by a stormwater
discharger. See Conservation Law Foundation, Inc. v. Pruitt,
881 F .3d 24, 32 (1st Cir. 2018). However, the EPA's practice in
that context does not establish any particular requirement for
state agencies.
83

84 The regulation requires the EPA Regional Administrator
to send written notice of a designation by the Regional
Administrator to the MS4, accompanied by an application form
for a Phase I permit. The regulations further provide that
the propriety of the designation remains open for consideration
during the notice and comment period relating to the permit.

As was the case with clause (B)(iii) concerning the
application of the MEP standard, see Part II.B. of this Opinion
above, the legislative history of §1342(p)(2)(E), which
established the residual designation authority, is not particularly
illuminating.
85

Prior to adoption of those regulations, a memorandum of the
EPA's Office of Water Enforcement and Permits had appeared
to indicate that state agencies would be expected to follow the
same procedure. Memorandum of the Director of the EPA Office
of Water Enforcement and Permits to Water Management

90a
Use of Residual Designation Authority to Expand
the Phase I Universe
The vast majority of the MS4s subject to the Phase
I permit requirements have been brought into Phase
I under the residual designation authority, rather
than on the basis of population. In a 2000 report to
Congress, the EPA stated that, of the 1,017 MS4s that
were part of the Phase I program at that time
(including Carroll and Frederick Counties), only 216
had been listed in the appendices to the 1990 and 1999
regulations, while 670 were co- permittees with a
larger MS4 or had been designated separately for
inclusion in the program. See EPA, Report to
Congress on the Phase I Stormwater Regulations
(2000), at 3-5, available at https://perma.cc/BJG3TPWP. Thus, despite the fact that the listing of large
and medium MS4s required to obtain Phase I permits
in the appendices to the Phase I regulations was
"frozen" based on the 1990 census, that universe has
been significantly expanded under the statutory
designation authority. See id. at 3-2 n.7. 86
Division Directors, et al. concerning Designation of Storm
Water Discharges for Immediate Permitting (August 8, 1990),
available at https://perma.cc/4NFA-NCXL, at 11. (Of note,
that memorandum also suggested that discharges from the area
around Chesapeake Bay would be appropriate for such a
designation. Id. at 8-9). However, the regulations as adopted by
the EPA set forth procedures solely for a designation by the EPA
itself.
See also EPA, Stormwater Phase II Final Rule: Who's
Covered? Designation and Waivers of Regulated Small MS4s
(revised June 2012), at 2, available at https://perma.cc/7WFAVTYG ("Phase I MS4s were automatically designated nationwide
as medium MS4s ... or as large MS4s [based on population.]
Many MS4s in areas below 100,000 in population, however, have
been individually brought into the Phase I program [by]
86

91a

4. Classification of Frederick County and Carroll
County in the 1990s

Neither Frederick County nor Carroll County was
included in the listing of jurisdictions deemed
"medium" based on population in Appendix I to the
EPA regulations either in the initial version of that
listing based on the 1980 census or in the amended
version based on the 1990 census. Rather, the
Department asked the Counties to apply for Phase I
MS4 permits in the early 1990s, and the Counties did
so. It is inevitably difficult to reconstruct events from
the vantage point of30 years later, but the parties
have provided some correspondence from that era
that suggests how the Department and the Counties
came to accept the Counties' status as Phase I
jurisdictions.87
After Congress added the MS4 permit
requirement to the Act and the EPA first adopted
the Phase I regulations in 1990, the Department
began corresponding with the Counties about
whether they had to apply for a permit. At first, the
Department told the Counties it was "unclear"
whether they would need to do so. Each County
responded that its unincorporated population was
permitting authorities.") (emphasis added)
This correspondence appears in appendices to the
parties' briefs. There is no documentation in the administrative
record of these permits as to how either County came to be
treated as a Phase I jurisdiction in the 1990s. In the
explanatory document that the Department issued with the
final version of the most recent Frederick County permit, it
indicated that it had not needed to exercise its residual
designation authority to classify the County as a Phase I
jurisdiction in the 1990s because the County had agreed to apply
for a Phase I MS4 permit.
87

92a
below the statutory threshold of 100,000. Carroll
County also emphasized its "primarily rural
character." 88 Both Counties apparently asked the
Department to refrain from including them in Phase I,
or at least to delay the application of the Phase I
requirements. The Department acceded to the latter
request and postponed the deadlines for both
Counties to submit a Phase I permit application.
Both Counties eventually submitted applications for
Phase I permits, apparently without further protest.
As best we can tell from the available
correspondence, neither the Department nor the
Counties focused on urbanized population in their
correspondence when they discussed the relevant
population in the early 1990s. This is perhaps
unsurprising because neither the federal statutory
nor regulatory text refers to "urbanized" areas.89
Instead, in their correspondence, both the Counties
and the Department discussed only total population
and the population in unincorporated areas with
respect to whether the Counties were "medium" MS4
jurisdictions that should apply for a Phase I permit.
In the correspondence available to us, the
Department did not explicitly invoke the statutory
The fact that a county may have a large rural area does
not necessarily affect whether it should be classified as a Phase
I MS4 jurisdiction. See EPA Preamble to 1990 Phase I MS4
Rule, 55 Fed. Reg. at 48041 ("some of the counties addressed by
[the Phase I regulations] have, in addition to areas with high
unincorporated urbanized populations, areas that are
essentially rural or uninhabited and may not be the subject
of planned development").
88

As explained above, that criterion was explained in the
preamble to the publication of the 1990 Phase I regulations,
but did not appear in the actual text of the regulations.
89

93a
residual designation authority with respect to either
County. However, the EPA has at least twice
included Carroll County and Frederick County in
lists of permittees as residually designated
jurisdictions.
EPA, Final National Pollutant
Discharge Elimination System Storm Water MultiSector General Permit for Industrial Activities, 60
Fed. Reg. 50804, 51272 (September 29, 1995); EPA,
Storm Water Discharges Potentially Addressed By
Phase II of National Pollutant Discharge Elimination
System Storm Water Program: Report to Congress
(March 1995) at A-14; see also EPA, Report to
Congress on the Phase I Storm Water Regulations
(February 2000), at Apx. A (including Carroll
County and Frederick County in Table A-2 listing
"Additional MS4s Participating in Phase I MS4
Program"- i.e., "additional" to Table A-l listing the
Phase I MS4 permittees named in the populationbased appendices to the regulations).90 There are
also other indications, outlined below, that the
Counties were regarded as residually designated
Phase I jurisdictions in the 1990s.

5. Analysis
The Counties assert that they are not properly
classified as Phase I MS4s because they are not
"medium" jurisdictions and were not otherwise
designated as Phase I jurisdictions by the Department
in the early 1990s. They contend that they should not
be considered "medium" jurisdictions. In their view, the
list of jurisdictions in Appendix I to the Phase I
Similarly, the version of the Maryland WIP issued in
2010 stated that Carroll County had been designated by the
Department as a Phase I MS4 under the residual designation
authority in the early 1990s. See Maryland WIP at 2-30.
90

94a
regulations is the exclusive list of medium MS4 counties
and neither County appears on that list. Moreover, the
Counties assert that their unincorporated, urbanized
populations never reached 100,000, either in the 1990s or
recently.91 They argue the Department did not exercise its
residual designation authority in the 1990s, and Carroll
County argues it is unlikely the Department even could
have done so. In addition, Carroll County argues that the
decision to include it as a Phase I jurisdiction was arbitrary
and capricious.
So far as we can tell, the Counties' challenge to their
MS4 classification as Phase I jurisdictions raises novel
issues for this or any court. We have not found- nor have
the parties cited- any case that involves a county's
challenge to its classification as a Phase I MS4.
Whether it is Unlawfulfor the Department to Treat
the Counties as Phase I MS4s
If the Counties had raised the question of their
classification as Phase I jurisdictions in the early 1990s, we
might well have agreed that they should not have been
brought into Phase I as "medium" jurisdictions. However,
the argument that Appendix I to the Phase I regulations is
the exclusive list of "medium" Phase I jurisdictions is
without merit, as the EPA itself has recognized that
jurisdictions not listed could later quality.92 However, given
Carroll County also claims that the Clean Water Act
did not authorize the Department's use of population
projections in the 1990s. We do not consider this argument
separately because we do not see it as materially distinct from
the County's other population-based arguments.
91

As discussed above, the EPA "froze" the list in Appendix I
in 1999 based on the 1990 census because the deadlines set for
Phase I permit applications had expired and the pertinent
jurisdictions had already applied (as had Carroll and Frederick
92

95a
the EPA's interpretation of its own regulations expressed
in the preamble to the publication of the Phase I
regulations in 1990, neither County likely met the
EPA's contemporaneous interpretation of the medium
category. In retrospect, it appears that neither County
had a population at that time above 100,000 in
unincorporated, urbanized areas.93
But we are not addressing this question in 1991.94
We decline to hold that today, after nearly three
decades as part of the Phase I permitting program,
the Counties should instead be relegated to a Phase II
general permit with less stringent pollutant controls.
We reach this conclusion for several reasons:

• The approach taken by the Department in
calculating the relevant population of the
Counties in the early 1990s was arguably
consistent with the statutory text and the
text of the regulations, although it deviated
from the EPA's interpretation of those

Counties). The agency recognized that jurisdictions that later
qualified as medium jurisdictions could be brought into the
Phase I program through the residual designation authority. In
any event, the agency could not, by regulation, negate a
legislative determination that MS4s serving populations of a
certain size were subject to the permit requirement.
93

In 1990, Frederick County's "urbanized area" population
was 58,393, and its total "urban" population was 86,686; for
Carroll County, the numbers were 0 and 38,418, respectively.
There is no need not explore the difference between "total
urban" and "urbanized area," at least for 1990, since both
figures were under 100,000 with respect to each County.
Even if we could purport to be examining this issue from
the perspective of the early 1990s, it is not entirely clear that we
have a complete record from that period.
94

96a
regulations, as articulated in the preamble to
the publication of the regulations. 95

• When the Counties were originally treated

as Phase I jurisdictions in 1991, neither
County (nor apparently anyone else)
questioned the method that the Department
used to assess the relevant population.

• Both Counties stipulated, as recently as

2014, that they satisfy the statutory
definition of a medium Phase I MS4 in
consent orders that they entered into with
the EPA concerning violations of earlier
MS4 permits.96

• In the case of the Carroll County permit,

all of the incorporated municipalities in

The Dissenting Opinion of Judge Getty suggests that we
have deferred excessively to the EPA's and the Department's
application of the Phase I classification, in contravention of the
"plain language" of the Clean Water Act and the EPA's
regulations concerning the classification of MS4s. Getty
Dissenting slip op. at 8. However, neither the statutory nor
regulatory text concerning Phase I jurisdictions refers to
"urbanized" populations- the key language on which the
Dissenting Opinion relies. See 33 U.S.C. §1342(p)(2); 40 CFR
§122.26(a)(l)(iv). As explained in the text, that language
appears solely in the title of an appendix and in explanatory
material prepared by the agency (the preamble to the 1990
publication of the regulations).
95

96
In the Matter of Carroll County, Maryland, Consent Agreement
and Final Order (United States Environmental Protection Agency June
6, 2014) at ¶¶ 7, 14, 15; In the Matter of the Board of County
Commissioners of Frederick County , Maryland, Consent Agreement
and Final Order (United States Environmental Protection Agency
November 25, 2014) at ¶¶ 8, 15, 16. Both orders recite that the
pertinent County's "MS4 serves a population of at least 100,000,"
which is verbatim the language of the Clean Water Act defining

medium Phase I jurisdictions. See 33 U.S.C. §1342(p)(2)(D).

97a
the County are included as co-permittees
on the County's Phase I permit, which thus
regulates discharges of MS4s serving those
populations. See Carroll County Phase I
MS4 Permit MD0068331, Part LB.; see
also 40 CFR §122.26(a)(3).

• The record before us does not include any

document in which the Department
explicitly exercised its residual designation
authority to designate the Counties as
Phase I jurisdictions independent of their
status as medium jurisdictions. However,
this is presumably because the Counties
agreed to, or at least acquiesced in, their
treatment as medium MS4s which may
have foreclosed any need to invoke the
Department's
residual
designation
authority.

• There are noteworthy indications that the
Department and EPA believed that the
Counties were appropriately designated as
Phase I jurisdictions:97

Carroll County asserts that, if the Department had acted
under its residual designation authority, it was required to
notify the County of its determination in writing and send an
application form with that notice under 40 CFR §124.52.
However, as discussed above, the cited regulation applies only
to a Regional Administrator of the EPA, not a state agency.
Even if the notification requirement applied to the Department,
Carroll County does not explain why the Department's
correspondence with the County in 1991 would not satisfy
the requirement. The regulation only requires that the
permitting authority shall notify the permittee of the decision
to require a permit and "the reasons for it."
97

98a

o The Maryland WIP refers to Carroll
County as a residually designated
Phase I jurisdiction. Maryland WIP at
2-30.
o The fact that the Department agreed to
delay the Counties' designation as
Phase I jurisdictions suggests that it
was acting, at least in part, under the
residual designation authority, as the
Phase I regulations refer to an agency
authorizing a delay in the submission of
an application only in the case of a
residually
designated
Phase
I
98
jurisdiction.
o Given that TMDLs exist for waterways
in both Counties- which indicates that
water quality standards are being
violated - there is a sound basis for
concluding that discharges from each
County's MS4 contribute to violations
of water quality standards, thus
triggering the exercise of the residual
designation authority to include them
as Phase I MS4 jurisdictions.
o As indicated above, the EPA referred
to
the
Counties
as residually
designated Phase I jurisdictions in
publications in 1995 and 2000. A
contemporaneous guidance document
issued by
the
EPA
identified
jurisdictions in the Chesapeake Bay
watershed as examples of appropriate
98

See 40 CFR §122.26(e)(5).

99a
exercise
of
residual designation
authority. See note 84 above.

• Relegating the Counties from a

Phase I permit to a Phase II permit with
less stringent requirements at this
juncture risks a violation of the antibacksliding prohibition in the Clean
Water Act. 99 See 33 U.S.C. §1342(o).
The limited evidence of the Department's
decision-making process in classifying these
Counties as Phase I jurisdictions in 1991 may reflect
the difficulty of responding to challenges raised
more than 20 years after the fact. The delay by the
Counties in raising this issue has also posed
difficulties for this Court in evaluating the parties'
arguments and the EPA's views of the issue. There
is not a clear picture of how the Department's
population-based reasoning in 1991 translated into
the EPA's stated view in 1995 that the Department
had used its residual designation authority.
What is clear, however, is that the Department
had authority to classify the Counties as Phase I
jurisdictions and, at least in the EPA's view, it did
so. The Counties, in turn, have at the very least
acquiesced in that classification since the 1990s.
There is thus no question that the agencies charged
with administering the Clean Water Act have
The EPA had objected to earlier drafts of both permits
on the basis that simply keeping the same terms of the
Counties' prior Phase I permits "would constitute
impermissible backsliding" in violation of the Act. See EPA,
Specific Objection to Carroll County Phase IMS4 Permit
MD0068331 (September 20, 2012) at 3; EPA, Specific
Objection to Frederick County Phase IMS4 Permit
MD0068357 (September 20, 2012) at 3.
99

100a
consistently regarded the Counties as Phase I MS4s
and that there is a reasonable basis for doing so. The
Counties' delay in challenging their Phase I
designation perhaps means that the Department did
not exercise its designation authority more formally in
the past, but that does not require that we direct that
they now be treated as Phase II jurisdictions.
Whether Carroll County's
Arbitrary and Capricious

Classification

is

As indicated in Part II.A. of this Opinion, the
Department's exercise of discretion in crafting permit
terms is subject to the "arbitrary and capricious"
standard of review. The Department's decisions
survive challenge under this standard so long as the
Department had a rational basis for its actions.
Carroll County asserts that the Department acted
arbitrarily and capriciously in classifying it as a Phase
I MS4 jurisdiction. Its argument is largely based on
comparing itself to other jurisdictions in Maryland that
have been designated as Phase I and Phase II MS4s.
Carroll County claims its treatment as a Phase I MS4
subjects it to the same effluent limitations as larger
urban jurisdictions in Maryland, while other counties
similar to it in population size and land use are subject
to less stringent regulation as Phase II jurisdictions. In
particular, it draws a comparison to Washington
County, which has been designated as a small (Phase
II) MS4 jurisdiction. Carroll County asserts that it
is not challenging the population categories in the
Clean Water Act, but rather the different treatment
of two similarly situated counties. 100
In terms of the impervious surface restoration
requirement, the Department designed the Phase I MS4
100

101a
In our view, the Department had a rational basis
for making the impervious surface restoration terms
more stringent for Phase I MS4s than for Phase II
MS4s, even accounting for similarities between the
smallest medium MS4s and the largest small MS4s.
The Department notes that the population of
Carroll County exceeded that of Washington County
by a significant amount (when incorporated areas
were excluded) at the time that the Department
began to treat the counties as Phase I or Phase II
jurisdictions. In addition, the Department's
discretion in crafting MS4 permit terms is bounded
by the Bay TMDL, the Maryland WIP, and the EPA.
In the Maryland WIP, the Department committed
to including impervious surface restoration terms in
MS4 permits similar to the ones the Department in
fact included in the permits it issued after the EPA
incorporated the Maryland WIP into the Bay
TMDL. Moreover, the 30 percent restoration
requirement for Phase I permittees inherently takes
account of differences in the population size of those
permittees. As the Department explained when it
issued the Carroll County permit, "larger, more
densely developed jurisdictions will have more
impervious area and medium jurisdictions will have
less impervious area that will require restoration."
Basis for Final Determination to Issue Carroll
County's NPDES MS4 Permit MD0068331 (December
2014) at 29. Finally, in an objection to an earlier draft
of the Carroll County permit, the EPA advised the
Department that the impervious surface restoration
permits to be more stringent than Phase II MS4 permits in three
ways: larger baseline (county-wide vs. urbanized areas), earlier
deadline (2019 vs. 2025), and higher percentage of area to be
restored (30% vs. 20%).

102a
term in the Carroll County permit should align with
that in Prince George's County's permit, in order to
comply with the Bay TMDL. EPA, Specific Objection
to Carroll County Phase I MS4 Permit MD0068331
(September 20, 2012) at 3. Thus, the Department had
a rational basis for the differences in permit terms
between the Phase I and Phase II counties, even if
some of them are close in population size and share
some similar characteristics.

E. Whether the Permits Should Have Provided for
Water Quality Trading

"Water quality trading" is a method for complying
with discharge permits that uses market forces to
reduce overall pollution at lower cost by shifting
pollution reduction activities from one entity to
another. In particular, an entity subject to a
pollution limit may take credit for a pollution
reduction accomplished by another entity that it
compensates for that privilege.101 101 Such trading

presumably happens only if the other entity is able to
accomplish the pollution reduction at less cost than
the entity subject to the pollution limit. Thus, if
water quality trading is available as a compliance
method in a permit, a permittee might satisfy part
of its obligations under the permit by purchasing
pollutant reduction credits from other entities that
take certain pollutant-reducing actions.

The permits that are the subject of this appeal do
not include water quality trading as a compliance
method. The Counties wanted their permits to
See EPA, Water Quality Trading Evaluation (October
2008), available at https://perma.cc/KT3P-WXRS, at 1-1; EPA,
Water Quality Trading Toolkit for Permit Writers (updated June
2009), available at https://perma.cc/866S-M4V4, at 4.
101

103a
include water quality trading as a compliance option
and contend that the Department's decision not to
allow for water quality trading in the permits when
they were issued in 2014 was arbitrary and
capricious.
As the Counties point out, both the Department
and the EPA support water quality trading as an
option in discharge permits. Over the past several
years, the Department has been developing a water
quality trading program in Maryland. In December
2017, the Department proposed regulations to
establish such a program. See 44:25 Md. Reg. 118995 (December 8, 2017). Following the requisite notice
and comment period, the Department adopted those
regulations, which became effective July 16, 2018. See
45:14 Md. Reg. 698-702 (July 6, 1018), codified at
COMAR 26.08.11. In addition, on April27, 2018, the
Department issued a Phase II MS4 general permit,102
effective October 31, 2018, which includes a term that
conditionally allows water quality trading.103 The
102

While permits applicable to Phase I MS4s are usually
customized for each jurisdiction, the Department has developed a
less rigorous general permit for Phase II MS4s. See Maryland
Department of the Environment, Maryland's NPDES Municipal
Separate Storm Sewer System (MS4) Phase II General Permits,
https://perma.cc/MLX2- 5NDU; EPA, Stormwater Discharges from
Municipal Sources, https://perma.cc/UBS6- NDK3.
103

In pertinent part, the Maryland Phase II MS4 general
permit provides: "[The Department] supports trading as a
cost-effective
means
for
achieving
pollutant
load
reductions[,and t]herefore, trading with other source sectors may
be an option after formal regulatory procedures are satisfied."
National Pollutant Discharge Elimination System General
Permit for Discharges from Small Municipal Separate Storm
Sewer Systems (No. 13-IM-5500), at B-10.

104a
Department did so because it anticipated that the final
water quality trading regulations would be adopted in
2018, as indeed they were. See Basis for Final
Determination to Issue the General Permit for
Discharges from Small Municipal Separate Storm
Sewer Systems (April 27, 2018) at 25.
The Counties argue that the Department also
should have conditionally approved water quality
trading in their permits, and that the failure to do
so was arbitrary and capricious. We disagree. The
Department issued these permits to the Counties in
2014, just a year after it had convened a
stakeholder group charged with examining several
fundamental issues about trading and making
recommendations for a draft trading policy. The
Department explicitly mentioned that ongoing
review when it explained in the Basis for
Determination as to each permit why the permit did
not include water quality trading as a compliance
mechanism. By 2018, however, when the Department
was completing the Phase II MS4 general permit, it
had already proposed trading regulations and
reasonably anticipated that those regulations would
be adopted by the time that permit was effective. The
Department therefore had a rational basis for
conditionally approving water quality trading in the
Phase II MS4 general permit but not in the permits
issued four years earlier to the Counties. See Harvey
v. Marshall, 389 Md. at 297-99 (a "reasonable or
rationally motivated" administrative decision is not
"arbitrary or capricious.").
Carroll County points out
water quality trading to its
pursue a permit modification
characterizes as "a lengthy

that, in order to add
permit now, it must
and undergo what it
public participation

105a
process." But the County has not shown that any
burden associated with the permit modification
process would warrant a finding that the
Department's decision in 2014 not to include water
quality trading was arbitrary and capricious. 104

F. Effect

of Permit Reference to Statutory
Responsibilities of Other Entities

One provision of the permits contains language
that, in the view of Carroll County, impermissibly
transfers
statutory
obligations
of
other
governmental entities to the Counties. In particular,
Part VI.B of each County's permit provides as follows:
[The] County shall cooperate with other
agencies during the completion of the Water
Resources Element (WRE) as required by the
Maryland Economic Growth,
Resource
Protection and Planning Act of 1992 (Article
66B, Annotated Code of Maryland). Such
cooperation shall entail all reasonable actions
authorized by law and shall not be restricted
by the responsibilities attributed to other entities
by separate State statute, including but not
At least six other counties- including Frederick Countyhave requested that the Department modify their Phase I MS4
permits to incorporate the new water quality trading program
as an option for complying with an impervious surface
restoration requirement. We take judicial notice that the
Department accepted those proposals and issued final
determinations in December 20 18 modifying the permits for
Anne Arundel, Prince George's, and Baltimore counties; in
July, the Department
issued tentative modification
determinations for Charles, Harford, and Frederick counties.
See Maryland Department of the Environment, Maryland's
NPDES Municipal Separate Storm Sewer System (MS4)
Permits, https://perma.cc/KFY9- VBDU.
104

106a
limited to reviewing and approving plans and
appropriating funds.
(emphasis added).
The law referenced in this part of the permits
concerns how counties plan their future
development. Now codified in Title 3 of the Land
Use Article ("LU") of the Maryland Code, the
pertinent provisions of the Economic Growth,
Resource Protection and Planning Act, as amended,
direct each county to develop a comprehensive plan
that includes, among other things, "a water
resources element." See LU §§3-101(a), 3102(a)(l)(viii).105 As part of the water resources
element, a county must identify "suitable receiving
waters and land areas to meet stormwater
management and wastewater treatment and
disposal needs of existing and future development."
LU §3-106(a)(2).
Only Carroll County raises an issue on appeal
concerning this provision of the permits.106 In doing
The Economic Growth, Resource Protection and
Planning Act of 1992 was originally codified in Article 66B.
Chapter 437, Laws of Maryland 1992. In 2006, the General
Assembly enacted the "water resources element" requirement
in Article 66B, §1.03(iii). Chapter 381, Laws of Maryland
2006. In 2012, the Legislature re-codified various provisions
of Article 66B, including those concerning the water resources
element requirement, as part of the new Land Use Article.
Chapter 426, Laws of Maryland 2012.
105

Frederick County challenged the same provision in
its permit in the Circuit Court. The Circuit Court ruled
that the Department could lawfully incorporate the
cooperation requirement of the Land Use Article into the
permit. It also held that the language italicized above
seemed to require the County to disregard other State
106

107a
so, Carroll County contests only the language
italicized in the quotation above. The County
concedes that the EPA allows states to coordinate
federal and state permitting requirements, as the
Department attempts to do in requiring cooperation
with other agencies in this permit term.107 The
County argues, however, that the italicized language
"seems to purport that the comprehensive planning
provision overrides all other State statutes and
relieves other entities of responsibilities attributed to
them by State statute, instead imposing those
responsibilities on the County."
Although the Department admits that the
language is opaque, it asserts that the purpose of
the final clause of this permit term "is to make clear
that the County, when formulating the water
resources element of its comprehensive plan, may
not decline to cooperate with another agency
because that agency, and not the County, has
statutory responsibility for a specific governmental
activity, whether it be reviewing and approving plans
or appropriating funds." In that view, this provision
only precludes the County from relying on other

statutes, which would impermissibly amend the Land
Use Article. The Department did not contest that ruling.
For the reasons set forth in text, we agree that the
permit term may not amend the Land Use Article and
may not be construed to do so or to require the Counties
to disregard any other laws.
See EPA Preamble to 1999 Phase II MS4 Rule, 64 Fed.
Reg. at 68739 (discharge "permits may incorporate the
requirements of existing State ... programs, thereby
accommodating State[s] ... seeking to coordinate the storm
water program with other programs").
107

108a
agencies' specific responsibilities as a reason not to
coordinate with those agencies.
In our view, the County's interpretation is not a
reasonable reading of the permit provision. Some
ambiguity arguably exists in the closing phrase of the
permit provision: "including but not limited to
reviewing and approving plans and appropriating
funds." At least in terms of grammar, what
"including" modifies is not obvious. It could modify
the County's "cooperation," its "reasonable actions,"
or the other entities' "responsibilities." By the last
antecedent rule, however, "including" would
ordinarily be understood to modify "responsibilities."
See McCree v. State, 441 Md. 4, 21 (2014) ("Under
the last antecedent rule, a qualifying clause
ordinarily is confined to the immediately
preceding word or phrase") (internal quotations
omitted). That reading makes the most sense here.
The provision says only that other entities'
statutory requirements "shall not ... restrict" the
County's obligation under State law to cooperate
with those entities. This permit term has no effect
on statutory requirements pertaining to other
entities, nor does it transfer those obligations to the
County. In other words, the permit term provides
that the responsibilities of other entities under State
law to take such actions as "reviewing and
approving plans [or] appropriating funds" do not
restrict the County's obligation to cooperate with
those entities. Reasonably read, the permit term
incorporates existing State law without imposing
new requirements on the County or relieving other
entities of their obligations under State law.

109a
III
Conclusion
For the reasons set forth above, we hold:

(1) The Department may lawfully include an
impervious surface restoration requirement in an
MS4 permit without reference to the MEP
standard. The Department's decision to do so in
Frederick County's most recent permit was not
arbitrary or capricious.
(2) The Department may lawfully include an
impervious surface restoration requirement in an
MS4 permit in which the required amount of
restoration is based on the amount of unrestored
surface throughout the county that operates the MS4
when
the amount of restoration derives from
commitments made in the Maryland WIP as part of
the development of the Chesapeake Bay TMDL. To
the extent that the Counties challenge restoration
provisions in their permits that derive from EPAapproved local TMDLs, such challenges should have
been made when the local TMDL was approved by
the EPA and are not appropriately part of judicial
review of an MS4 permit in State court.
(3) The Department had authority to treat
Frederick County and Carroll County as Phase I
jurisdictions for purposes of their MS4 permits. It
was not arbitrary or capricious for the Department to
classify Carroll County as a Phase I jurisdiction
without also including Washington County in that
category.
(4) Although the Department later elected to
include "water quality trading" as a compliance
method for MS4 permittees, it was not arbitrary or

110a
capricious for the Department to refrain from doing
so in the Counties' 2014 permits because it had not
yet finally adopted regulations it had proposed
concerning that compliance method.

(5) A somewhat ambiguous provision in the
Carroll County MS4 permit that requires it to
cooperate with other agencies in the development
of the water resources element of the County's
comprehensive plan under LU §3-101 et seq. did
not- and could not -transfer the responsibilities of
those agencies to the County.
After all the jargon, technical analysis, and
regulatory provisions have been digested and
applied, it seems fitting to conclude with the words
of Judge Wilkinson in a recent case concerning the
operation and financing of an MS4 in the
Chesapeake Bay region:
"No one is so naive as to believe that the
Chesapeake Bay [and its tributaries] can be
restored to the pristine condition ... in which this
country's earliest inhabitants found them. We
would be fortunate to preserve a wholesome
fraction of what once there was. This case is but a
tiny chapter in the story of our nation's effort to
reconcile the just demands of development with the
imperative of preserving an environment that can
help make productive enterprise worth having.... We
happily accepted the abundance that came down from
our forebears. How then can we impoverish the
environment for those who come after?"108

Norfolk Southern , 916 F.3d at 325 (Wilkinson, J.,
concurring).
108

111a
IN N0. 5, JUDGMENT OF THE CIRCUIT
COURT
FOR
CARROLL
COUNTY
AFFIRMED IN PART AND REVERSED IN
PART. COSTS TO BE SPLIT EVENLY
BETWEEN THE PARTIES.
IN N0. 7, JUDGMENT OF THE CIRCUIT
COURT
FOR
FREDERICK
COUNTY
AFFIRMED IN PART AND REVERSED IN
PART. COSTS TO BE SPLIT EVENLY
BETWEEN THE PARTIES.

112a
Circuit Court for Carroll County
Case No. 06-C-15-068141
Circuit Court for Frederick County
Case No. 10-C-15-000293
Argued: September 13, 2018
IN THE COURT OF APPEALS
OF MARYLAND
Nos. 5 & 7
September Term 2018
_______________________________
MARYLAND DEPARTMENT OF THE
ENVIRONMENT
v.
COUNTY COMMISSIONERS OF CARROLL
COUNTY, MARYLAND
_________________________________
FREDERICK COUNTY, MARYLAND
v.
MARYLAND DEPARTMENT OF THE
ENVIRONMENT
_________________________________
Barbera, C.J.,
*Greene
*Adkins
McDonald
Watts

113a
Hotten
Getty,
JJ.
______________________________
Dissenting Opinion by Watts, J., which Hotten
and Getty, JJ., joins
______________________________
Filed: August 6, 2019
*Greene and Adkins, JJ., now retired, participated in
the hearing and conference of this case while active
members of this Court; after being recalled pursuant
to the Maryland Constitution, Article IV Section 3A,
they also participated in the decision and adoption of
this opinion.

114a
Respectfully, I dissent. Although I agree with the
Majority that it was not arbitrary and capricious for
the Maryland Department of the Environment
("the MDE") not to include water quality trading as
a compliance method in the municipal separate storm
sewer system ("MS4") permits of Carroll County
and Frederick County, I disagree with the Majority
as to the other issues. See Maj. Slip Op. at 97-98.
I would hold that the MDE was not authorized to set
forth
in Frederick
County's MS4 permit
requirements that exceed the "maximum extent
practicable" standard, that the MDE lacked the
authority to require the Counties to restore 20% of
the impervious surfaces1 throughout the entirety of
each county, and that the MDE misclassified the
Counties' MS4s as medium rather than small.2
Under 33 U.S.C. § 1311(a)-part of the Clean
Water Act, 33 U.S.C. §§ 1251-1388-generally, it is
illegal to discharge pollutants into navigable waters.
That said, the Environmental Protection Agency
("the EPA")--or, under certain circumstances, a
'"Impervious surface' means a surface that does not allow
stormwater to infiltrate into the ground." Md. Code Ann.,
Env't (1987, 2013 Repl. Vol.) ("EN")§ 4-201.1(d)(1).
"'Impervious surface' includes rooftops, driveways, sidewalks,
or pavement." EN § 4- 201.1(d)(2).
1

Because I agree with Frederick County that the MDE
was not authorized to set forth in Frederick County's MS4
permit requirements that exceed the "maximum extent
practicable" standard, there is no need to address Frederick
County's alternative argument that its MS4 permit's
requirements are impossible to fulfill. Similarly, although I
disagree with the Majority as to the issue regarding Carroll
County's cooperation with other State agencies, it is not
necessary to go into detail in light of my positions on the other
issues.
2

115a
State environmental agency, such as the MDE-may
issue a permit for the discharge of pollutants into
navigable waters. See 33 U.S.C. § 1342(a)(1), (b). For
example, the MDE may issue to a county a permit
for an MS4. See 33 U.S.C § 1342(p)(3)(B). 33 U.S.C.
§ 1342(p)(3)(B) states:
Permits for discharges from municipal storm
sewers--

(i) may be issued on a system- or jurisdictionwide basis;
(ii) shall include a requirement to effectively
prohibit non-stormwater discharges into the
storm sewers; and
(iii) shall require controls to reduce the
discharge of pollutants to the maximum extent
practicable, including management practices,
control techniques and system, design and
engineering methods, and such other
provisions as the [EPA] or the State
determines appropriate for the control of such
[3]
pollutants.
On brief, the MDE does not deny that it set forth
in Frederick County's MS4 permit requirements that
exceed the "maximum extent practicable" standard.
To the contrary, the MDE contends that it was
Consistent with 33 U.S.C. § 1342(p)(3)(B)(iii), 40 C.F.R. §
122.26(d)(2)(iv) states that "[a] proposed management program"
to control pollutants from an MS4 "shall include a
comprehensive planning process which involves public
participation and
where necessary intergovernmental
coordination, to reduce the discharge of pollutants to the
maximum extent practicable using management practices,
control techniques and system, design and engineering
methods, and such other provisions which are appropriate."
3

116a
authorized to impose on Frederick County
requirements that go beyond the "maximum extent
practicable" standard.
I disagree, and would conclude that 33 U.S.C. §
1342(p)(3)(B)(iii)'s plain language establishes that
the MDE is authorized only to require Frederick
County "to reduce the discharge of pollutants to the
maximum extent practicable[.]" In other words, in
33 U.S.C. § 1342(p)(3)(B)(iii), the "such other
provisions" language does not authorize the MDE to
impose on Frederick County requirements that
exceed the "maximum extent practicable" standard.
In 33 U.S.C. § 1342(p)(3)(B)(iii), every single item in
question-namely, "management practices, control
techniques and system, design and engineering
methods, and such other provisions as the [EPA] or
the State determines appropriate for the control of
such pollutants"-is part of a list of "controls to
reduce the discharge of pollutants to the maximum
extent practicable[.]" In short, in 33 U.S.C. §
1342(p)(3)(B)(iii), the "such other provisions"
language is subject to the "maximum extent
practicable" standard. Nothing in 33 U.S.C. §
1342(p)(3)(B)(iii) indicates that the "such other
provisions" language grants the MDE freewheeling
authority to impose on the Counties whatever
requirements that it deems "appropriate[,]" no
matter how onerous or costly. 4
After an examination of a statute's language, it is
permissible to consider the statute's "legislative history as a
confirmatory process." Gomez v. Jackson Hewitt , Inc., 427 Md.
128, 160, 46 A.3d 443, 462 (2012) (citation omitted). But, as the
Majority notes, "what legislative history exists is not especially
illuminating on the role of the [maximum extent practicable]
standard." Maj. Slip Op. at 44 (cleaned up).
4

117a
.This interpretation of 33 U.S.C. § 1342(p)(3)(B)(iii)
is warranted not only by its plain language, but also
by our case law. Just three years ago, in Md. Dep 't
of Env't v. Anacostia Riverkeeper, 447 Md. 88, 126,
134 A.3d 892, 915 (2016), this Court unanimously
held that the requirement to restore 20% of
impervious surfaces in multiple counties' MS4
"[p]ermits complies with the [maximum extent
practicable] standard" under 33 U.S.C. §
1342(p)(3)(B)(iii). In so holding, this Court rejected
environmental groups' contention "that the 20%
restoration requirement is too opaque to comply
with 33 U.S.C. § 1342(p)(3)(B)(iii), the [maximum
extent practicable] standard." Id. at 123, 134 A.3d
at 913. This Court pointed out "that MS4s are
subject to the [maximum extent practicable]
standard under 33 U.S.C. § 1342[(p)(3)(B)(iii)]." Id.
at 104, 134 A.3d at 901 (emphasis added).
Similarly, this Court noted that 33 U.S.C. §
1342(p)(3)(B)(iii) "requires 'controls to reduce the
discharge of pollutants' to the [maximum
extent practicable.]" Id. at 177, 134 A .3d at 945
(emphasis added). And, this Court stated that
"stormwater management programs that are
designed by regulated parties must, in every
instance, be subject to meaningful review by an
appropriate regulating entity to ensure that each
such program reduces the
discharge of
pollutants to the maximum extent practicable."
Id. at 157, 134 A.3d at 933 (cleaned up) (emphasis
added).
This Court's holding in Anacostia Riverkeeper,
id. at 126, 134 A.3d at 915, was premised on the
principle-expressed multiple times throughout the
opinion-that MS4 permits are subject to the

118a
"maximum extent practicable" standard under 33
U.S.C. § 1342(p)(3)(B)(iii). Accordingly, Anacostia
Riverkeeper forecloses the MDE's contention that 33
U.S.C. § 1342(p)(3)(B)(iii) allows it to impose on
Frederick County requirements that exceed the
"maximum extent practicable" standard. Ifthe
MDE's position were valid, then this Court's holding
in Anacostia Riverkeeper, id. at 126, 134 A.3d at 915,
would have been completely meaningless; after all,
if the MDE were free to ignore the "maximum
extent practicable" standard when issuing MS4
permits, why would this Court have bothered to
determine whether the MS4 permits complied with
the "maximum extent practicable" standard?
Seeking to get around the obstacle that Anacostia
Riverkeeper poses to its position, the MDE sets forth
a novel theory-namely, that the "maximum extent
practicable" standard is a "floor" rather than a
"ceiling," and that Anacostia Riverkeeper does not
indicate that the MDE may not impose requirements
that go beyond the "maximum extent practicable"
standard. The Majority essentially goes along with
the MDE's interpretation of Anacostia Riverkeeper,
reasoning that, in Anacostia Riverkeeper, "the
question was whether the impervious surface
restoration requirement satisfied the [maximum
extent practicable] standard whereas in this case the
question is whether it unlawfully exceeds it." Maj. Slip
Op. at 39 (emphasis in original). The view of the
Majority and the MDE is simply incompatible with this
Court's holding inAnacostia Riverkeeper, 447 Md. at
126, 134 A.3d at 915, which, to reiterate, was
squarely based on the principle that MS4 permits
must comply with the "maximum extent practicable"
standard. If MS4 permits did not need to comply with

119a
the "maximum extent practicable" standard, this
Court would have had no reason to determine that the
requirement to restore 20% of impervious surfaces in
multiple counties' MS4 "[p]ermits complies with the
[maximum extent practicable] standard" under 33
U.S.C. § 1342(p)(3)(B)(iii). Anacostia Riverkeeper,
447 Md. at 126, 134 A.3d at 915. 5

5

Perplexingly, the majority opinion states that, in Anacostia
Rlverkeeper, 447 Md. at 122-26, 134 A.3d at 912-15:
[T]he Court considered a permit term that appears in
Phase I MS4 permits of five other jurisdictions and that
is identical to the permit term that Frederick County
challenges here. The Court held that the term was
valid and authorized by the Clean Water Act. If we were
simply to recite the holding of Anacostia Riverkeeper and
stop, Frederick County loses.
Maj. Slip Op. at 38 n.41 (cleaned up) (emphasis in original).
Essentially, after asserting that, in Anacostia Riverkeeper, this
Court answered a question that is not at issue in this case, oddly,
the majority opinion asserts that, under the holding of Anacostia
Riverkeeper, Frederick County would "lose[.]" Maj. Slip Op. at 38
n.41.
In actuality, the circumstance that, in Anacostia
Riverkeeper, this Court considered a permit term that is
identical to a term in the permit that Frederick County
challenges informs the outcome of this case. In Anacostia
Riverkeeper, 447 Md. at 126, 134 A.3d at 914-15, this Court
concluded that the challenged permit term complied with the
"maximum
extent
practicable"
standard.In Anacostia
Riverkeeper, id. at 123-26, A.3d at 913-15, there was no
allegation that the permit term exceeded the "maximum extent
practicable" standard Frederick County would not “lose[]” under
this Court’s holding in Anacostia Riverkeeper, Maj. Slip Op. at 38 n
41; rather, this Court’s holding in that case clearly demonstrates
that MDE has exceeded its authority.

120a
To be sure, as Frederick County acknowledges,
its interpretation of 33 U.S.C. § 1342(p)(3)(B)(iii)
indicates that the statute contains a typographical
error-namely, the word "system" should be "systems"
so that it, like the immediately preceding noun
"techniques," is plural. It is not unheard of for a
statute to contain a typographical error. Indeed,
another sentence within 33 U.S.C. § 1342 contains
three such errors; 33 U.S.C. § 1342(1)(3)(C)
erroneously refers to "Section 1365(a) of this title"
(in which "Section" should be lowercase), and, in two
instances, erroneously omits the word "section"
before referring to a certain provision "of this title[.]"
Helpfully, the Majority sets forth illustrations of
how each party parses the sentence within 33 U.S.C.
§ 1342(p)(3)(B)(iii). See Maj. Slip Op. at 41-43. As the
Majority notes, Frederick County parses that
sentence, in pertinent part, as follows: "shall require
controls to reduce the discharge of pollutants to
the maximum extent practicable, including (1)
management practices, (2) control techniques and
system, (3) design and engineering methods, and
(4) such other provisions as the [EPA] Administrator
or the State determines appropriate for the control
of such pollutants." Id. at 41 (alterations in
original). Meanwhile, the MDE parses the sentence,
in pertinent part, as follows: "shall require (1)
controls to reduce the discharge of pollutants to the
maximum
extent practicable,
including (a)
management practices, (b) control techniques and (c)
system, design and engineering methods, and ill such
other provisions as the [EPA] Administrator or the
State determines appropriate for the control of such
pollutants." Id. at 42 (alterations in original). The
Majority adopts the MDE's interpretation of 33

121a
U.S.C. § 1342(p)(3)(B)(iii), reasoning that it "does
not require revision of the text itself, and groups
items that could comfortably fit within the category
of 'controls' separately from the final clause's
vaguer and seemingly broader reference to
'appropriate ... provisions."' Maj. Slip Op. at 4243 (ellipsis in original).
The Majority fails to address three matters that
demonstrate that the MDE's interpretation of 33
U.S.C. § 1342(p)(3)(B)(iii) is incorrect. Specifically,
the MDE's interpretation renders most of the
sentence at issue nugatory, leads to an illogical
result, and indicates that the sentence has not one,
but two glaring errors. These circumstances violate
the rules of statutory interpretation, under which a
court must read a statute "as a whole so that no
word, clause, sentence or phrase is rendered
surplusage,
superfluous,
meaningless[,]
or
nugatory[,]" and must read the statute "to avoid an
illogical result." Gomez v. Jackson Hewitt, Inc., 427
Md. 128, 143, 156, 46 A.3d 443, 452, 460 (2012)
(cleaned up).
If, as the MDE asserts, 33 U.S.C. §
1342(p)(3)(B)(iii) directs it to "require ... such other
provisions as [it] determines appropriate for the
control of such pollutants[,]" then the rest of the
provision is
nugatory. Under
the
MDE's
interpretation, the "such other provisions" language
allows it to impose on the Counties whatever
provisions it "determines appropriate[,]" without
reference to the "maximum extent practicable"
standard. That begs the question: If the MDE may
freely ignore it, what is the point of the "maximum
extent practicable" standard? In fact, what is the
point of the list of items that begins with

122a
"management practices"? Simply put, there would be
no reason for either the "maximum extent
practicable" standard or the list ofitems if 33 U.S.C.
§ 1342(p)(3)(B)(iii) directs the MDE to impose
whatever requirements it deems fit, whether
"practicable" or not.
The MDE volunteers a possible reason for the
"maximum extent practicable" standard-but that
reason reveals an internal inconsistency in the
MDE's contentions. The MDE reasons that the
"maximum extent practicable" standard is a "floor"
rather than a "ceiling." In other words, according to
the MDE, the "maximum extent practicable"
standard sets forth the minimum that the MOE
must require of Frederick County, not the maximum
that it may require ofFrederick County. That
argument, however, is inconsistent with the MOE's
assertion that the "such other provisions" language
is not subject to the "maximum extent practicable"
standard. If, as the MDE maintains, the "such other
provisions" language is independent of the
"maximum extent practicable" standard, then the
"maximum extent practicable" standard is neither a
floor nor a ceiling-it is meaningless, as the MDE is
free to impose whatever requirements it deems fit,
whether practicable or not.
The Majority refers to the "such other provisions"
language as the "final clause[.]" Maj. Slip Op. at 43.
I agree with the Majority that the "such other
provisions" language is the final clause-and,
moreover, it is clear that the final clause is a
catchall clause that supports Frederick County's
interpretation of 33 U.S.C. § 1342(p)(3)(B)(iii), not
the MDE's. Under Frederick County's position, there
are four groups of controls that may be included in

123a
an MS4 permit, including a final catchall categorythe "such other provisions" clause-that are all
governed by the "maximum extent practicable"
standard. Under the MDE's position, the "such other
provisions" language is an all-encompassing blank
check that sidesteps the "maximum extent
practicable" standard and allows the MOE to impose
any requirement that it "determines appropriate[.]"
Because the MOE's interpretation of 33 U.S.C. §
1342(p)(3)(B)(iii) renders most of the statutory
provision nugatory, I cannot endorse it.
Additionally, the MDE's interpretation of33
U.S.C. § 1342(p)(3)(B)(iii) leads to an illogical result.
As the Majority notes, under Frederick County's
interpretation of 33 U.S.C. § 1342(p)(3)(B)(iii), the
list of items includes "control techniques and system
" and "design and engineering methods[.]" Maj. Slip
Op. at 41 (alteration in original). This explanation
is logical, as the term "control systems" makes as
much sense as the term "control techniques[.]" By
contrast, under the MDE's interpretation, the list of
items includes "control techniques" and "system,
design and engineering methods[.]" Id. at 42. I am
unable to fathom what exactly "system methods"
are. The Majority acknowledges that Frederick
County refers to the term "system methods" as
"nonsensical[,]" id. at 42, yet the Majority makes no
effort to explain what the term means. Simply put,
the term "system methods" is indeed nonsensical, in
sharp contrast to the terms "design methods" and
"engineering
methods[.]"
Adopting
Frederick
County's
interpretation
of
33
U.S.C.
§
1342(p)(3)(B)(iii) avoids the illogical result of
construing the statute to refer to "system methods"an incomprehensible term.

124a
Finally, the MDE's interpretation of 33 U.S.C. §
1342(p)(3)(B)(iii) indicates that the sentence has not
one, but two glaring errors. Specifically, under the
MOE's position, the sentence would be missing two
serial commas: 6 one after the word "techniques[,]"
and one after the word "design[.]" To be sure, as
noted above, it is not unheard of for a statute to
contain a typographical error; and, the inclusion of
serial commas is a matter of style rather than a
grammatical necessity. Even so, independent of 33
U.S.C. § 1342(p)(3)(B)(iii), the rest of the statute
includes fourteen serial commas in all. See 33 U.S.C.
§ 1342(a)(1), (a)(2), (b)(l)(A), (b)(2)(B), (b)(9), (f), (g)
(twice, counting the title), (k), (1)(2) (twice, counting
the title), (q)(l) (title), (q)(3), (s)(3)(A)(ii). And,
unlike the practice of including the lowercase word
"section" when drafting a statute that refers to
other statutes, see 33 U.S.C. § 1342(1)(3)(C), the
practice of including a serial comma is not unique
to legal writing, and is often a habit that becomes
ingrained as a result of years of day-to-day writing.
Accordingly, it is difficult to believe that 33 U.S.C.
§ 1342(p)(3)(B)(iii)'s drafters simply forgot to
include a serial comma in not one, but two
instances.
Without meaningfully addressing the fatal flaws
in the MDE's interpretation of 33 U.S.C §
1342(p)(3)(B)(iii) and its conflict with this Court's
Also known as a Harvard comma or an Oxford comma, a
serial comma is "a comma [that is] used to separate the second-tolast item in a list from a final item [that is] introduced by the
conjunction and or or[.]" Serial Comma, Merriam-Webster, https://
www.merriam-webster.com/dictionary/serial%20comma
[https://perma.cc/3KGX-2LJC] (italics in original). For example,
the phrase "red, white, and blue" includes a serial comma. Id.
6

125a
holding in Anacostia Riverkeeper, 447 Md. at 126,
134 A.3d at 915, the Majority quotes an opinion by
one of California's six intermediate appellate
courts. See Maj. Slip Op. at 43. In Bldg. Indus.
Ass'n of San Diego Cty. v. State Water Res. Control
Bd., 124 Cal. App. 4th 866, 882-83 (2004), the
Fourth District Court of Appeal of California
reasoned that the "such other provisions" language
in 33 U.S.C. § 1342(p)(3)(B)(iii) directs State
environmental agencies to impose whatever
requirements they determine appropriate, without
reference to the "maximum extent practicable"
standard. The California Court agreed with the
contention of State water boards and environmental
organizations that, "given the absence of a comma
after the word 'techniques,'" and "because the word
'system' [] is singular, it necessarily follows from
parallel-construction grammar principles that the
word 'system' is part of the phrase 'system, design
and engineering methods' rather than the phrase
'control techniques and system."' Id.
The California Court's logic is unpersuasive for
several reasons. First and foremost, the California
Court treated the lack of a comma after the word
"techniques" as an indication that the words
"techniques" and "system" do not go together-when,
in fact, the exact opposite is true; i.e., the lack of a
comma between the words "techniques" and
"system" indicates that, indeed, the words go
together. On a related note, for all its concern about
the lack of a comma after the word "techniques[,]"
the California Court failed to acknowledge that its
interpretation of 33 U.S.C. § 1342(p)(3)(B)(iii) meant
that there should P-ave been a serial comma after
the word "techniques"-as well as a serial comma

126a
after the word "design[.]" Also, the California Court
did not mention the possibility that the word
"system" is singular due to a typographical error.
Nor did the California Court acknowledge that its
interpretation of 33 U.S.C. § 1342(p)(3)(B)(iii)
renders most of the sentence, including the
"maximum extent practicable" standard, nugatory.
Nor did the California Court mention that its
interpretation of33 U.S.C. § 1342(p)(3)(B)(iii)
indicates that the statute includes the nonsensical
term "system methods"-much less attempt to
explain what that term means.
In addition to quoting Bldg. Indus. Ass'n of San
Diego Cty., the Majority gives deference to the
EPA's
interpretation
of
33
U.S.C.
§
1342(p)(3)(B)(iii), under which the MDE may impose
on Frederick County requirements that exceed the
"maximum extent practicable" standard. See Maj.
Slip Op. at 50-51. Although a court should give
some deference to an administrative agency's
interpretation of a statute that it administers, the
court is not obligated to adopt a statutory
construction that renders most of the statute
meaningless and leads to an illogical result. In a
nutshell, even after giving some deference, I would
decline to adopt the EPA's strained interpretation
of 33 U.S.C. § 1342(p)(3)(B)(iii).7
In a futile attempt to bootstrap deference to the EPA's
interpretation of the Clean Water Act, the Majority relies on
case law that does not apply-Chevron, U.S.A., Inc. v. Nat.
Res. Defense Council, Inc., 467 U.S. 837 (1984)-and an
opinion from the United States Court of Appeals for the Ninth
Circuit-Defs. of Wildlife v. Browner, 191 F.3d 1159 (9th Cir.
1999)-that does not address the issue that is before this
Court. See Maj. Slip Op. at 48 n.52. As to Defs. of Wildlife, the
7

127a

Majority states: "[W]hile the Ninth Circuit did not agree with
the EPA's existing construction, it nevertheless recognized that
a permitting agency had discretion to include permit terms
based on water quality standards." Maj. Slip Op. at 46-47. As
the Majority appears to recognize, the relevant question before
the Ninth Circuit was whether the Clean Water Act authorized
the EPA to "require strict compliance with [S]tate waterquality standards[.]" Defs. of Wildlife, 191 F.3d at 1166. The
Ninth Circuit answered that question in the affirmative,
explaining that 33 U.S.C. § 1342(p)(3)(B)(iii) "gives the EPA
discretion to determine what
pollution controls are
appropriate." Id. Significantly, nowhere in Defs. of Wildlife
did the Ninth Circuit indicate that 33 U.S.C. §
1342(p)(3)(B)(iii) authorizes the EPA-or a State environmental
agency-to impose whatever requirements it determines
appropriate, without reference to the "maximum extent
practicable" standard. Indeed, in two instances, the Ninth
Circuit recognized that, under 33 U.S.C. § 1342(p)(3)(B)(iii),
local governments that manage MS4s must "reduce the
discharge of pollutants to the maximum extent practicable[.]"
Id. at 1165 (internal quotation marks omitted).
As a matter of fact, contrary to the Majority's assertion
that "[o]ther courts have pointed to Defenders of Wildlife as
setting forth the discretion that the EPA (and state
permitting agencies) have in drafting MS4 permit terms to
require pollution controls that satisfy the ['maximum extent
practicable'] standard or a more demanding water quality
based standard[,]" that is not the case. See Maj. Slip Op. at 47
n.50. Although the Ninth Circuit's opinion in Defs. of Wildlife
was mentioned in each of the cases that the Majority identifies,
none of those cases relied on Defs. of Wildlife as a basis for
concluding that the EPA or State environmental agencies have
the discretion to issue MS4 permits that contain requirements
that exceed the "maximum extent practicable" standard. In
actuality, in each of those cases, the courts relied on Defs. of
Wildlife for other propositions. See Nat. Res. Def. Council v.
New York State Dep't of Envtl. Conservation, 994 N.Y.S. 2d
125, 135 (N.Y. App. 2014) (The New York Supreme Court
relied on Defs. of Wildlife for the specific proposition that
permits issued for "industrial dischargers" must comply with
the effluent limitations set forth in 33 U.S.C. § 1311.);

128a
In addition to wrongfully setting forth in
Frederick County's MS4 permit requirements that
exceed the "maximum extent practicable" standard,
the MDE improperly required the Counties to restore
20% of the impervious surfaces throughout the
entirety of each county, as opposed to 20% of the
impervious surfaces in the Counties' urbanized
areas-i.e., the areas that the Counties' MS4s serve.
As noted above, 33 U.S.C. § 1342(p)(3)(B)(iii)
provides that MS4 permits "shall require controls to
reduce the discharge of pollutants to the maximum
extent practicable, including management practices,
Conservation Law Found., Inc. v. Boston Water and Sewer
Comm 'n, 2010 WL 5349854, at *5-6 (D. Mass. 2010)
(unreported) (The U.S. District Court for the District of
Massachusetts relied on Defs. of Wildlife for the proposition
that the EPA has the authority to "determine that ensuring
strict compliance with state water-quality standards is
necessary to control pollutants" and the proposition that the
EPA has the authority to "require less than strict compliance
with state water-quality standards."); Tualatin Riverkeepers
v. Oregon Dep't of Envtl. Quality , 230 P.3d 559, 562 n.8 (Ore.
App. 2010) (The Court of Appeals of Oregon relied on Defs. of
Wildlife for the proposition that permits providing for
discharges of municipal storm water "need not require strict
compliance with state water quality standards."); City of
Arcadia v. State Water Res. Control Bd., 135 Cal. App. 4th
1392, 1429 (2006) (The Court of Appeal for the Fourth District
of California relied on Defs. of W'ildlife for the proposition that
the EPA has the discretion to '"determine that ensuring
strict compliance with state water- quality standards is
necessary to control pollutants'" and that the EPA also has the
authority to "'require less than strict compliance with state
water-quality standards[.']" (Quoting Defs. of Wildlife, 191
F.3d at 1166-67)). Nowhere in any of these cases did the
various courts conclude that Defs. of Wildlife established
the EPA's-or State environmental agencies '-authority to
issue MS4 permits that contain requirements exceeding the
"maximum extent practicable" standard.

129a
control techniques and system, design and
engineering methods, and such other provisions as
the [EPA] or the State determines appropriate for
the control of such pollutants." Pursuant to 33 U.S.C.
§ 1342(p)(3)(B)(iii), see Anacostia Riverkeeper, 447
Md. at 151 n.71, 134 A.3d at 930 n.71, on December
3, 2010, multiple State agencies, including the MDE,
submitted to the EPA "Maryland's Phase I
Watershed Implementation Plan for the Chesapeake
Bay Total Maximum Daily Load[.]" University of
Maryland et al., Maryland's Phase I Watershed
Implementation Plan for the Chesapeake Bay Total
Maximum Daily Load at 1 (Dec. 3, 2010), available at
https://mde.maryland.gov/programs/Water/TMDLDocu
ments/www.mde.state.md.us/assets/document/MDPhase

I

Plan-12-03-2010-Submitted_Final.pdf
[https://perma.cc/XV7P-P3VT] ("the WIP"). In the
WIP, under the heading "Additional Program,
Practices and Policies to Meet the 2017 Goal for NonPoint Source Urban Stormwater[,]" and under the
subheading "Increase [National Pollutant Discharge
Elimination
System
('NPDES')]
Watershed
Restoration Requirements for MS4 Phase I County
permits, including [State Highway Administration,]"
the State agencies stated:
The following key elements of the strategy
support reasonable
assurance
of the
implementation of this element of the [WIP]:
[] Establish impervious acreage treatment
requirements in NPDES []MS4[] permits to
achieve specific reductions in sediment,
phosphorus and nitrogen consistent with this
[WIP]. These permits will require the
development
of a detailed watershed

130a
restoration strategy that contains the
following elements: ... Completion of
restoration efforts for twenty percent of the
counties' impervious surface area that is not
already restored to the maximum extent
practicable[].
WIP at 5-30 (paragraph breaks omitted).
Consistent with the WIP, in 2014, the MDE issued
to the Counties MS4 permits "requiring compliance
with the Chesapeake Bay [total maximum daily load]
through the use of a strategy that calls for the
restoration of twenty percent of previously developed
impervious land with little or no controls within this
five[-]year permit term as described in" the WIP. MDE,
National Pollutant Discharge Elimination System
Municipal Separate Storm Sewer System Discharge Permit
[for Carroll County] at 15, available at https://mde.
maryland.gov/programs/Water/StormwaterManagementPr
ogram/Documents/Carroll%20 Final%20Permit%20with%
20attachments.pdf[https://perma.cc/FL5D-6UPU]; MDE,
National Pollutant Discharge Elimination System
Municipal Separate Storm Sewer System Discharge Permit
[for Frederick County] at 15, available at
https://mde.maryland.gov/programs/Water/StormwaterMa
nagementProgram/Documents/Signed%20Frederick%20
Permit%20with%20Attachments.pdf [https://perma.cc/XC4
Y-8EMY].
From my perspective, the MDE lacked the
authority to require the Counties to restore 20% of
the impervious surfaces throughout the entirety of
each county; in other words, the Counties' MS4
permits simply require the Counties to restore 20%
of the impervious surfaces in urbanized areas-i.e.,
the areas that the Counties' MS4s serve. Just as the

131a
urbanized areas of each county determined whether
the county's MS4 was small, medium, or large, see
40 C.P.R. § 122.26(b)(4)(i), (b)(7)(i); 40 C.P.R. Pt. 122,
App. I, so, too, do the urbanized areas of each
county determine the extent of the county's
responsibility to restore 20% of impervious
surfaces. It makes sense that each county should be
responsible only for restoring 20% of impervious
surfaces in urbanized areas; in other words, the
areas that each county's MS4 serves should be the
same as the areas in which the county's MS4 permit
makes the county responsible for restoring 20% of
impervious surfaces.
In addition to improperly requiring the
Counties to restore 20% of the impervious surfaces
throughout the entirety of each county, the MDE
misclassified the Counties' MS4s as medium rather
than small. Generally, before October 1, 1994, the
EPA and the MDE could "not require a permit … or
discharges [that were] composed entirely of
stormwater." 33 U.S.C. § 1342(p)(l). But, this
exception to the permit requirement did not apply to
"[a] discharge from a[n MS4] serving a population
of250,000 or more[,]" 33 U.S.C. § 1342(p)(2)(C), or
"[a] discharge from a[n MS4] serving a population of
100,000 or more but [fewer] than 250,000[,]" 33
U.S.C. § 1342(p)(2)(D). An MS4 that serves a
population of at least 250,000 is known as a "large"
MS4, 40 C.F.R. § 122.26(b)(4)(i); an MS4 that serves
a population of at least 100,000, but fewer than
250,000, is known as a "medium" MS4, 40 C.F.R. §
122.26(b)(7)(i); and, generally, an MS4 that is
neither large nor medium is known as a "small" MS4,
40 C.F.R. § 122.26(b)(16)(ii). In short, "[p]ermits

132a
must be obtained for all discharges from large and
medium [MS4]s." 40 C.F.R. § 122.26(a)(3)(i).
Whether an MS4 is large, medium, or small
depends on the population of the incorporated place
that the MS4 served according to the 1990 Decennial
Census. See 40 C.F.R. § 122.26(b)(4)(i), (b)(7)(i). The
EPA promulgated an appendix that listed the
counties that, according to the 1990 Decennial
Census,
had
"[u]nincorporated
urbanized
population[s]" of at least 100,000, but less than
250,000. See 40 C.P.R. Pt. 122, App. I. The only
Maryland county that the appendix listed was Howard
County. See id. In other words, according to the EPA,
Howard County's MS4 was Maryland's only medium
MS4. See id.
The Majority correctly observes that, in 1990,
neither Carroll County nor Frederick County had a
population of at least "100,000 in unincorporated,
urbanized areas[,]" and that, accordingly, neither
Carroll County nor Frederick County "likely met the
EPA's contemporaneous interpretation of the medium
[MS4] category[.]" Maj. Slip Op. at 85 (cleaned up).
Yet, the Majority "decline[s] to hold that[,] today, ...
the Counties should instead be" considered to have
had small MS4s. Id. at 85-86. I am unpersuaded by
the reasons that the Majority gives for declining to
right the wrong that has evidently occurred-namely,
the misclassification of the Counties' MS4s as medium
rather than small. See id. at 85-89. Nor would I find
merit in the MDE's contentions, such as its argument
that the Counties are equitably estopped from
challenging the misclassification. In my view, the
Counties' mere "acquiesce[nce]" to the misclassification,
id. at 89, is neither a reason to refrain from addressing
the merits of their contention, nor a basis for

133a
concluding that the MDE properly exercised its
authority to classify the Counties' MS4s as medium.
The MDE, not the Counties, has been in the driver's
seat when it comes to classification and permitting.
Ifthere is any question as to whether
a
misclassification has occurred, the fault lies with the
MDE, not the Counties.
Without a doubt, government protection of the
environment has a sustaining and welcome purpose.
Indeed, protecting and fostering the health of the
environment is an important goal in today's society,
now more than ever. But, the government must follow
the statutes and regulations that it establishes.
Misapplication of
environmental statutes and
regulations serves no purpose and will result in
diminishment of regard for the law.
For the above reasons, respectfully, I dissent.
Judge Hotten and Judge Getty have authorized
me to state that they join in this opinion.

134a
Circuit Court for Carroll County
Case No. 06-C-15-068141
Circuit Court for Frederick County
Case No. 10-C-15-000293
Argued: September 13, 2018
IN THE COURT OF APPEALS
OF MARYLAND
Nos. 5 & 7
September Term 2018
_______________________________
MARYLAND DEPARTMENT OF THE
ENVIRONMENT
v.
COUNTY COMMISSIONERS OF CARROLL
COUNTY, MARYLAND
_________________________________
FREDERICK COUNTY, MARYLAND
v.
MARYLAND DEPARTMENT OF THE
ENVIRONMENT
_________________________________
Barbera, C.J.,
*Greene
*Adkins
McDonald
Watts

-

135a
Hotten
Getty,
JJ.
______________________________
Dissenting Opinion by Getty
______________________________
Filed: August 6, 2019
*Greene and Adkins, JJ., now retired, participated in
the hearing and conference of this case while active
members of this Court; after being recalled pursuant
to the Maryland Constitution, Article IV Section 3A,
they also participated in the decision and adoption of
this opinion.

-

136a
I join the dissent written by Judge Watts and
agree with her analysis that the Maryland
Department of the Environment ("the Department")
exceeded its authority by (1) issuing permit
requirements that exceed the "maximum extent
practicable" standard; (2) requiring the Counties to
restore 20% of all impervious surfaces county-wide ;
and (3) classifying each County's municipal separate
storm sewer system (MS4) as medium rather than
small. Dis. Slip Op. at 1.
I write separately to express my concern with this
Court's tradition of granting broad deference to an
agency's interpretation of statutes and regulations.
Under the facts of this case, I .would scale back the
agency deference doctrine as recognized in
Maryland.
The Majority cites to Chevron US.A. v. Nat. Res.
Def Council, 467 U.S. 837 (1984), for the broad
principle that this Court must defer to an
agency's interpretation of its controlling statutes.
However, inAuer v. Robbins, 519 U.S. 452 (1997), the
Supreme Court held that deference is only owed to an
agency's reasonable interpretations of its ambiguous
regulations. At a minimum, I would adopt the
constraints of Auer deference -that the agency's
regulation be ambiguous and its interpretation
reasonable to merit judicial deference. Absent
such determinations , this Court has a duty to
exercise its best judgment and resolve the issues at
hand, else we "deny the people who come before us
the neutral forum for their disputes that they

-

137a
rightly expect and deserve." Kisor v. Wilkie, 139 S.
Ct. 2400, 2448 (2019) (Gorsuch, J., concurring). 1
The pressing need for such constraints is best
illustrated by the Majority's deference to the
Department's improper classification of each County's
MS4 as medium rather than small. The Clean Water
Act and its corresponding regulations are not
ambiguous-in fact, the Majority has already
acknowledged that "neither County likely met the
EPA's contemporaneous interpretation of the medium
category," under "the EPA's interpretation of its own
regulations." Maj. Slip Op. at 85. Rather than correct
this error, the Majority upholds a flawed agency
decision that has subjected two rural counties to a
burdensome regulatory scheme intended for densely
populated jurisdictions such as Montgomery County
and Baltimore City.2

In Kisor v. Wilkie, the Supreme Court clarified that Auer
deference requires that (1) the regulation is "genuinely
ambiguous"; (2) the agency's reading is "reasonable," or within
the zone of ambiguity; and (3) the "character and context
of the agency interpretation entitles it to controlling weight." !d.
at 2414-16 (20 19). As Kisor was decided on July 26, 20 19, it was
not briefed or argued by either party. I include it in this dissent
not as controlling precedent, but to further illustrate the contours
of Auer deference, and to highlight the persuasive concurrence
calling for a more constrained, moderated view of agency
deference.
1

The EPA promulgated its Phase I implementing regulations in
1990 with the intent of regulating MS4s servicing "urbanized"
areas, characterized by the Census Bureau as "high- density
development ... a central city (or cities) with a surrounding
closely settled area." See EPA, National Pollutant Discharge
Elimination System Permit Application Regulations for Storm
Water Discharges, Final Rule, 55 Fed. Reg. 47990, 48041, 48050
n.5 (Nov. 16, 1990).
2

-

138a
As described by the Majority, the Water Quality
Act of 1987 extended the Clean Water Act's effluent
permit requirements to encapsulate point-source
pollution contained in municipal stormwater. Nat'!
Res. Def Council, Inc. · EPA, 966 F.2d 1292, 1296 (9th
Cir. 1992). The Act proscribed a timetable for the
implementation of these requirements, proceeding in
two phases based on the size and perceived impact
of each stormwater system. 33 U.S.C. § 1342(p)(2)(4). As relevant, between 1987 and 1994 ("Phase I"
of the permitting program) state agencies could only
require permits for MS4s that (1) serve a population of
250,000 or more (a "large MS4"); (2) serve a population
of more than 100,000 but less than 250,000 (a "medium
MS4"); or (3) are designated "a significant contributor
of pollutants to waters of the United States." §
requirements
1342(p)(2)(C)-(E). The substantive
contained in MS4 permits were left entirely to the
discretion of the EPA and state regulatory bodies. See
§ 1342(p)(3)(B) ("Permits for discharges from municipal
storm sewers ... shall require controls to reduce the
discharge of pollutants ... as the Administrator or the
State determines appropriate").
The EPA has issued implementing regulations to
further define its Phase I classifications. Rules
promulgated in 1990 governing Phase I permits
establish that the "medium" category encompasses (i)
MS4s serving between 100,000 and 250,000 people in
an incorporated municipality; and (ii) a list of
jurisdictions enumerated in Appendix I of the
regulatory text. 3 40 CPR§ 122.26(b)(7)(i)-(ii). In 1999,
Appendix I listed counties with at least 100,000 people in
urbanized unincorporated areas, a threshold satisfied by neither
County. As of the 1990 census, Frederick County had a total
population of 150,208 with only 58,393 residing in urbanized
3

-

139a
once all permitting deadlines had passed, the EPA
elected to freeze these classifications based on each
jurisdiction's population as reported in the 1990 census.
EPA, National Pollutant Discharge Elimination System
-Regulations for Revision of Water Pollution Control
Program Addressing Storm Water Discharges, Final
Rule, 64 Fed. Reg. 68772, 68748-49 (Dec. 8, 1999).4
These regulations contain "no minimum criteria or
performance standards," instead encouraging the
permitting agency to develop pollution controls for each
permit on a case by case basis. Nat'/ Res. Def Council,
966 F.2d at 1308.
Under this statutory and regulatory framework,
neither County satisfied the requirements for a
"medium MS4" during the Phase I permit period. As
acknowledged by the Majority, "neither County likely
met the EPA's contemporaneous definition of the
medium category," as neither County had a population
of 100,000 in an incorporated area, and neither County
was enumerated in Appendix I. Maj. Slip Op. at 85;
See Nat. Res. Def Council, Inc. v. New York State Dep
't of Envtl. Conservation, 34 N.E.3d 782, 794 n.16
areas -while Carroll County was home to 123,372 people, with no
urbanized population. See Maryland Department of Planning,
Urban and Rural Population in Maryland: 2000 and 1990 (May
2002),availableat: http://planning.m aryland.gov /MSDC/Documents
/Census/Cen2000 /urban rural/ua rural2 k cnty.pdf
As the EPA suggested in the preamble to its 1999 regulations,
state agencies may use their residual designation authority to
"require more from operators of MS4s serving 'newly over 100,000'
populations." !d. at 68749. This commentary does not expand the
scope of the residual authority, which remains predicated on the
determination that "storm water discharge from the source
contributes to a violation of a water quality standard or is a
significant contributor of pollutants to the waters of the United
States." !d. at 68781.
4

-

140a
(N.Y. 2015) (holding that state agencies administering
programs under the Clean Water Act are "bound to
follow [the] EPA 's interpretation"). Although the
Department
may,
notwithstanding
population,
designate jurisdictions as "significant contributor[ s] of
pollutants to the waters of the United States,"
contemporaneous reports and correspondence by the
Department demonstrate that the Counties were
classified based solely on their projected population
growth. 5 Therefore, by nonetheless requiring permits
of both Counties during Phase I, the Department
contravened the unambiguous requirements of the
Clean Water Act.
No statutory, regulatory, or judicial authority
requires we adhere to this result. Contrary to the
assertions of the Department and the conclusion of the
Majority, reclassification would not implicate the antibacksliding provision of the Clean Water Act. See 33
U.S.C. §1342(o)(l) ("[A] permit may not be renewed,
reissued, or modified ...to contain effluent limitations
which are less stringent than the comparable effluent
limitations in the previous permit"). This provision is
inapplicable, as the Act contains an explicit exception
for permits issued on the basis of "technical mistakes
These reports and correspondence are detailed in appendices
to the parties' briefs. See, e.g., MDE, Basis for Final
Determination to Issue Frederick County's NPDES MS4 Permit
at 30 (Dec. 2014) ("MDE did not make a claim under its RDA
[residual designation authority] that Frederick County must
apply as a Phase I. ...MDE had no need to ...make a
determination based on water quality violations or
Municipal
impairments");
MDE,
Maryland's NPDES
Stormwater Monitoring at 1 (1997) ("MDE used projections
from the Maryland Office of Planning (MOP) to designate
Carroll, Charles, Washington, and Frederick counties when
their populations surpassed 100,000").
5

-

141a
or mistaken interpretations of law." 33 U.S.C.
§1342(o)(2)(b)(ii). Absent the legally inaccurate
designation of Carroll and Frederick County
stormwater systems as "medium MS4s," the
Department would not have been authorized to
require a permit of either County during the Phase 1
period. See 33 U.S.C. §1342(p)(l) (providing that,
beyond the MS4 categories enumerated in §1342(p)(2),
"the Administrator or the State ... shall not require a
permit under this section for discharges composed
entirely of stormwater").
Similarly, the Counties' "acquiescence" to their
MS4 classification is entirely irrelevant to the
question of reclassification. The Majority relies
heavily on the notion that the Counties have operated
within the Phase I permitting program for three
decades without protest. See Maj. Slip Op. at 88-9
(reasoning that the Counties "have at the very least
acquiesced [to Phase I] classification since the 1990s;"
that "neither County (nor apparently anyone else)
questioned the method that the Department used to
assess the relevant population;" and that their
acquiescence "may have foreclosed any need to invoke
the Department's residual designation authority"). In
the 1990s, the Counties dipped their toes in the water,
so to speak, with the altruistic goal of doing their fair
and proportionate share to achieve Maryland's clean
water objectives. Their agreement and voluntary
participation in the permitting program has no bearing
on whether their classification was ever correct, as the
Clean Water Act outright prohibited states from
requiring a Phase I permit of jurisdictions that do not
meet the requirements of §1342(p)(2). Moreover, no
established precedent
suggests that historical
acquiescence
or administrative
reliance have

-

142a
foreclosed the Counties'
designation. 6

right to challenge their

Lacking any legal justification for refusing the
Counties' request for reclassification, the Majority
nonetheless defers to the post hoc judgment of the EPA,
with
concluding that "the agencies charged
administering the Clean Water Act have consistently
regarded the Counties as Phase I MS4s and that
there is a reasonable basis for doing so." Maj. Slip
Op. at 89. Granting an agency controlling authority
over the interpretation of its own governing
regulations amounts to an abdication of this Court's
essential duty to interpret and apply the law. See
Kisor, 139 S. Ct. at 2425 (Gorsuch, J., concurring)
(arguing deference "requires judges to accept an
executive agency's interpretation of its own
regulations even when that interpretation doesn't
represent the best and fairest reading").
Such absolute deference is improper even under
the Majority's stated standard of review. Although
an agency's factual findings are entitled to
This argument appears to implicitly evoke the Department's claim
of equitable estoppel. MDE insists that Maryland's Watershed
Improvement Plan (WIP) relies on the Counties' Phase I
commitments. Equitable estoppel results from (1) a party's
voluntary action, (2) inducing good faith reliance, (3) resulting in a
detrimental change in position. Permanent Fin. Corp. v.
Montgomery Cty., 308 Md. 239, 247 (1986). At a very minimum, the
Department has not suffered a detrimental change in position, as
the Counties are on track to meet their Phase I commitments
during the current permit cycle. E.g. Carroll County, 2017 NPDES
MS4 Permit Annual Report at 10 (Dec. 15, 2017), available at
http://ccgovemment.carr.org/ccg/npdes/20
17_NPDES_Annual_
Report.pdf. Moreover, any reliance was arguably in bad faith, as
the Department, not the Counties, is responsible for interpreting its
governing regulations.
6

-

143a
deference when supported by "substantial evidence,"
Md. Dep 't of the Env 't v. Anacostia River keeper, 447
Md. 88, 120 (2016), the Majority
openly
acknowledges that the record contains "limited
evidence of the Department's decision-making
process in classifying these Counties as Phase I
jurisdictions in 1991." Moreover, "it is always within
our prerogative to determine whether an agency's
conclusions of law are correct." Schwartz v. Md.
Dep't of Nat. Res., 385 Md. 534, 554 (2005); See also
Auer, 519 U.S. at 461 (deference not warranted
where agency interpretation is "plainly erroneous or
inconsistent with the regulation."). The legal
sufficiency of the Counties' Phase I permits, governed
entirely by the Clean Water Act and its
corresponding regulations, falls squarely within the
purview of this Court.7
Applying
Auer
deference,
an agency's
interpretation of its own regulations is only entitled
to deference "if [the] regulation is genuinely
ambiguous ... even after a court has resorted to all
the standard tools of interpretation." Kisor, 139 S.
Ct. at 2414. "[I]f the law gives an answer-if there is
The substantive terms of an MS4 permit are at the
discretion of the Department, and therefore subject to an
"arbitrary and capricious" standard of review. See Harvey
v. Marshall, 389 Md. 243, 296-99 (2005). The Majority fails
to identify any rational basis for tying pollution controls
categorically to the scheduling requirements of the Clean
Water Act-for example, requiring all Phase I counties to
restore 30% of their total surface area by 2019, while
requiring Phase II counties to restore 20% of their urbanized
area by 2025. Rather, as discussed supra, the Clean Water Act
and EPA regulations encourage states to develop substantive
permit terms on a case by case basis. See 33 U.S.C. §
1342(p)(3)(B); Nat'! Res. Def Council, 966 F.2d at 1308.
7

-

144a
only one reasonable construction of a regulationthen a court has no business deferring to any other
reading, no matter how much the agency insists it
would make more sense." ld. at 2415. Nowhere does
the Majority identify any ambiguity in the plain
language of the Clean Water Act or the
implementing regulations promulgated in 1990 and
1999. Rather, as the Majority acknowledges, the
law provides a clear answer: Neither County's
population, as reported in the 1990 Census,
authorized their classification as "medium" MS4s
under established law.
Allowing the Department to issue Phase I
permits notwithstanding would "permit the agency,
under the guise of interpreting a regulation, to
create de facto a new regulation." ld. (quoting
Christensen v. Harris County, 529 U.S. 576, 588
(2000)). Moreover,
[w]hen we defer to an agency interpretation
that differs from what we believe to be the best
interpretation of the law, we compromise our
judicial independence and deny the people
who come before us the impartial judgment
that the Constitution guarantees them. And
we mislead those whom we serve by placing a
judicial imprimatur on what is, in fact, no
more than an exercise of raw political
executive power.
Kisor, 139 S. Ct. at 2439 (Gorsuch, J. concurring).
In the simplest terms, the Majority acknowledges
that the Department's construction of
its
unambiguous regulatory mandate was incorrect,
finds little evidence on record to support this
interpretation, identifies no legal authority that

-

145a
bars judicial review, and yet defers regardless. By
nonetheless "affording 'controlling weight' to [the
Department's] post-promulgation views" of its
governing regulations, our ruling today perpetuates
a longstanding inequity, and risks foreclosing judicial
review
to
litigants
seeking
to
challenge
administrative overreach. Id. at 2446 (Gorsuch, J.
concurring).
For the foregoing reasons, I respectfully dissent.

-

146a
[ENTERED June 27, 2017]
IN THE MATTER OF

* IN THE

COMMISSIONERS OF

*

CARROLL COUNTY,

* FOR

MARYLAND

*

CIRCUIT COURT
CARROLL COUNTY

* * * * * * * * * * * * * * * * * * *******
OPINION
On January 27, 2015, County Commissioners of
Carroll County, Maryland (hereinafter the
"County") filed a petition for judicial review of the
December 29, 2014, decision of the Maryland
Department of the Environment (hereinafter
"MDE") issuing National Pollutant Discharge
Elimination System Municipal Separate Storm
Sewer System Discharge Permit, Permit Number llDP-3319, MD006833 l (hereinafter the "Final
Permit"). This matter was subsequently stayed at
the request of the parties, in part to determine the
outcome of pending litigation relating to
substantively similar permits issued to Anne
Arundel County, Baltimore City, Baltimore County,
Montgomery County, and Prince George's County.
See Maryland Dept. of Env't v. Anacostia
Riverkeeper, 477 Md. 88, 97 (2016) (hereinafter
"Anacostia Riverkeeper"). Following the Court of
Appeals of Maryland's decision in Anacostia
Riverkeeper, this matter was brought before this
Court on March 9, 20 l7, for judicial review hearing.
The County contends that the Final Permit far
exceeds
applicable
statutory
authority
and
jurisdiction, imposes unlawful requirements, and
exposes the County to excessive compliance costs,

147a
enforcement actions, and substantial monetary
penalties. MDE contends that the Clean Water Act
authorizes MDE to incorporate obligations, in
addition to those explicitly required by the Clean
Water Act, into the Final Permit. MDE essentially
argues that the Clean Water Act sets a floor, not a
ceiling, for the requirements MDE is authorized to
incorporate into the Final Permit. The County's
contentions and supporting arguments, and MDE's
response thereto present four issues before the
Court:
1. Whether the regulated permit area as set forth
by the Final Permit, and as explained in the Final
Determination, is greater in scope than what is
authorized by the federal NPDES program?
2. Whether MDE erred in its designation of the
County as a medium municipal separate storm
sewer system jurisdiction?
3. Whether MDE decision to not allow the
County to fulfill its Permit obligations by using
water quality trading as a compliance method
was arbitrary and capricious?
4. Whether section B of Part VI of the Final Permit
(titled "Comprehensive Planning") unlawfully
incorporates an amended version Section 3-102 of
the Land Use Article into the Permit?

BACKGROUND
The Problem of Stormwater Pollution
Though rain can be a good thing, it can also lead
to dire consequences. Compare Luke Bryan, Rain is
a Good Thing, on Doin' My Thing (Capitol Nashville
2010)(explaining the positive impact rain has on
agriculture), with A. Beljame, Rain Rain Go Away,

148a
in the First English Reader, p. 109 (Librairie
Hachhete, Paris, France 1882)(stating reasons
underlying the narrator' s request for the rain to go
away). Stormwater pollution results from rain or
snowmelt running over surfaces and picking up
pollutants before ultimately being discharged into
waterways. Anacostia Riverkeeper, 477 Md. at 97.
Rainfall is typically absorbed and retained by the
soil or evapotranspirated by the vegetation in
undeveloped areas. NAT'L RESEARCH COUNCIL OF THE
NAT'L ACADS., URBAN STORMWATER MANAGEMENT
IN THE UNITED STATES, 3-6 (National Academic
Press 2009)(hereinafter "URBAN STORMWATER
MANAGEMENT"). However, as land is developed into
more urban landscapes-such as buildings, parking
lots, and roads-these processes of water absorption
and
retention,
and
evapotranspiration
are
diminished. URBAN STORMWATER MANAGEMENT at 36. This is because the development of land leads to
the creation of impervious surfaces. This
imperviousness leads to an increase in the velocity
and volume of water discharged during storm
events, which, in turn, leads to an increase in the
pollutants picked up by the stormwater and
ultimately discharged into waterways.
URBAN
STORMWATER MANAGEMENT at 3-6.
Municipal Separate Storm Sewer Systems
Municipal separate storm sewer systems
(hereinafter "MS4s"), such as Carroll County's, are
designed to collect and convey stormwater in order to
protect property from flooding and erosion when rain
falls or snow melts. "[MS4s] often cover many square
miles and comprise numerous, geographically
scattered and sometimes uncharted sources of
pollution, including streets, catch basins, gutters,

149a
man-made channels, and storm drains." Nat. Res.
Def. Council v. Cnty. of L.A., 725 F.3d 1194, 1208-09
(9th Cir. 2013).
Under the Clean Water Act, an entity
discharging pollutants into the Nation's waterways
is generally required to obtain a permit for such
discharges under the National Pollutant Discharge
Elimination System program. MS4s differ from
other entities permitted under that program in four
major ways. First, the degree of control that can be
exerted over stormwater discharges is limited in
comparison to other types of discharges-such as
industrial factory discharges due, in part, to the
fact that stormwater discharges are caused by
precipitation, a naturally occurring event that is
intermittent,
variable,
and
unstoppable.
Additionally, past decisions regarding the planning
and development of an area often play an integral
role in how and where stormwater flows. Second,
the primary generators of the pollutants discharged
from an MS4 are typically citizens and businesses
engaged in legal activities, not the owner and/or
operator of the MS4. Third, because MS4s discharge
through hundreds or thousands of individual
outfalls into waterways, the contribution of a
particular MS4 to the quality of a particular body of
water is difficult to ascertain or regulate with any
precision. See Nat Res. Def. Council v. N.Y. Dep't of
Envtl. Conserv., 34 N.E.3d 782, 801-02 (N.Y. 2015).
Finally, local political dynamics play a major role in
the ownership and operation of MS4s, as well as the
division of responsibilities and costs. As discussed
in greater detail below, because of the unique
circumstances surrounding MS4s, Congress saw fit
to offer more flexibility in the requirements set

150a
forth in and the issuance of MS4 permits under the
federal National Pollutant Discharge Elimination
System program.
Maryland Law
In 1982, the Maryland Legislature (hereinafter
the "Legislature") enacted laws "to reduce as nearly
as possible the adverse effects of stormwater runoff."
See Anacostia Riverkeeper, 447 Md. at 111. The 1982
legislation authorized the Department of Natural
Resources to issue regulations establishing
minimum control requirements and design criteria
for the counties and municipalities. Id. Counties and
municipalities were required to adopt ordinances
implementing a stormwater management program
in accordance with those regulations. Id Section 4202 of the Environment Article prohibits the
development of land without the county or
municipality
first
approving
a
stormwater
management plan for development since 1984.
Section 9-322 of the Environment Article
prohibits the discharge of pollutants into the waters
of Maryland without obtaining a discharge permit.
Accordingly, Section 9-323 of the Environment
Article requires a person to hold a discharge permit
issued by MDE before discharging pollutants into
the waters of the State. Accordingly, MDE is
authorized to issue a discharge permit if it finds the
discharge will comply with all applicable State and
federal water quality standards and effiuent
limitations. MD. CODE ANN., ENVIR. § 9-324(a)(1).
The Federal Clean Water Act
The Clean Water Act (hereinafter the "CWA")
generally prohibits the "discharge of any pollutant"

151a
from a "point source" into the navigable waters of
the United States. See Defs. of Wildlife v. Browner,
191 F.3d 1159, 1163 (9th Cir. 1999)(citing 33 U.S.C.
§§ 131l (a), 1362(12)(a)). The CWA, however,
establishes the National Pollutant Discharge
Elimination System (hereinafter "NPDES") program
through which either the Environmental Protection
Agency (hereinafter the "EPA") or an EPA-approved
state, such as Maryland, may issue permits
exempting a discharger from CWA's prohibition. See
Anacostia Riverkeeper, 477 Md. at 96, 134 A.3d at
896 (citing 33 U.S.C. § 1342). MDE is the authority
in Maryland that administers the NPDES program.
Id (citing MD. CODE REGS. 26.08.04.07).
NPDES permits do not give permittees absolute
immunity from the CWA's proscription against
discharging pollutants into the Nation's waterways.
NPDES
permits
generally
impose
effluent
limitations on the type and quantity of pollutants
that can be discharged. Effluent limitations are
restrictions, established by EPA or EPA-approved
state, "on quantities, rates, and concentrations of
chemical, physical, biological, and other constituents
which are discharged from point sources into
navigable waters, the waters of the contiguous zone,
or the ocean, including schedules of compliance." 33
U.S.C. § 1362(11). The type of pollutant discharged
determines the limitations the permit is required to
impose upon the permittee. Anacostia Riverkeeper,
477 Md. at 96, 134 A.3d at 297.
Stormwater discharges were initially exempt
from the NPDES program under the federal
regulations originally promulgated by the EPA to
implement the federal program. See Nat'l Res. Def.
Council v. EPA, 996 F.2d 1292, 1295 (9th Cir. 1992).

152a
After the Court of Appeals for the District of
Columbia invalidated that regulation, the EPA
issued proposed and final rules for stormwater
discharges throughout the 1980s which were
challenged at the administrative level and in the
courts. Recognizing the environmental threat posed
by stormwater runoff, Congress ultimately enacted
the Water Quality Act (hereinafter the "WQA") in
1987, amending the CWA to address the problem of
stormwater pollution. Id. at 1295-96. The WQA
amendments were applied in two phases.
During Phase I of the WQA amendments, prior to
October 1, 1994, the EPA or an approved state could
not require most entities to obtain a NPDES permit
for stormwater discharges. 33 U.S.C. § 1342(p)(1).
However, the WQA amendments did require a
NPDES permit for stormwater discharges during
Phase I with respect to permits issued under the
NPDES program before February 4, 1987,
stormwater discharges associated with industrial
activity; stormwater discharges from a municipal
separate storm sewer system serving a population of
250,000 or more (referred to as a "large MS4
jurisdiction"), stormwater discharges from a
municipal separate storm sewer system serving a
population of 100,000 or more but less than 250,000
(referred to as a "medium MS4 jurisdiction"), and
stormwater discharges for which the EPA or
approved state determines that the stormwater
discharge contributes to a violation of a water
quality standard or is a significant contributor of
pollutants to waters of the United States. 33 U.S.C. §
1342(p)(2).
Phase II regulations of the WQA amendments
were to be issued by EPA designating stormwater

153a
discharges, not included in Phase II, to be regulated
in order to protect water quality. Phase II
regulations were ultimately issued in 1999, and
discharges from MS4s serving a population of less
than 100,000 (referred to as a "small MS4
jurisdiction") were amongst the designated
discharges.1
If a permit is required for stormwater discharges,
the WQA sets two different standards. Permits for
discharges associated with industrial activity must
meet all applicable provisions of the CWA and WQA,
including effluent limitations. However, because the
nature of MS4s differentiates them from other
entities regulated under the NPDES program, MS4
permits offer more flexibility. MS4s are subject to
the "maximum extent practicable"(hereinafter the
"MEP") standard, and are not generally subjected to
effluent limitations necessary to meet water quality
standards which are required in non-MS4 permits.
Anacostia Riverkeeper, 477 Md.at 104.
The Chesapeake Bay Total Maximum Daily Load
and Maryland's Watershed Implementation Plan
Total maximum daily loads (hereinafter
"TMDLs") serve as informational tools. Anacostia
Riverkeeper, 477 Md. at 100-101 (citations omitted).
The CWA requires jurisdictions to develop, with EPA
approval, a list of waterways that are impaired by
pollutants and do not meet applicable water quality
standards (hereinafter "WQSs") every two years.
Herein, "NPDES program" refers to the federal program
authorizing the EPA to issue discharge permits, "NPDES
permit" refers to a discharge permit issued in accordance with
the NPDES program, and "MS4 permit" specifically refers to a
NPDES permit issued to a municipality.

1

154a

155a
WQSs are established by first designating a
particular "use" for a waterway-such as recreation or
fishing-and then developing criteria to protect those
designated uses and ensure ''that higher quality
waters do not degrade to minimally accepted
standards." Anacostia Riverkeeper, 447 Md. at 101
(internal citations omitted). Effluent limitations are
then established in NPDES permits as the primary
method by which states meet the applicable WQSs.
Effluent limitations are particularly effective as they
restrict the discharge of pollutants. See 33 U.S.C. §
1362(11).
A TMDL must then be developed for those
waterways for which effluent limitations are not
stringent enough to implement the applicable WQS.
Anacostia Riverkeeper, 447 Md. at 100- 04 (citing 33
U.S.C. § 1313(d)(l)(A)-(B)). TMDLs provide the
maximum amount of a specific pollutant that a
waterway can bear and still meet WQS, which is
often referred to as a "diet." ENVTL. PROT. AGENCY,
CHESAPEAKE BAY TMDL § 1.1, pp. 1–2
(2010)(hereinafter the "Bay TMDL"). A TMDL is the
"sum of the individual [waste load allocations] for
point sources and [load allocations] for nonpoint
sources and natural background." 40 C.F.R §
130.2(i).
Waste load allocations (hereinafter "WLAs") are
"[t]he portion of a receiving water's loading capacity
that is allocated to one of its existing or future point
sources of pollution." 40 C.F.R. § 130.2(h). WLAs are
based upon the portion of a waterway's TMDL for a
pollutant that is allocated to a particular point
source. As such, the aggregate of the WLAs for all
the point sources covered by a NPDES permit act
similar to an effluent limitation. It is critical to note,

156a
and of particular significance in this matter, that
though MS4s are subject to the more flexible MEP
standard and are not generally subject to effluent
limitations, MS4s are subject to effluent limitations
that are consistent with WLAs of EPA-approved
TMDLs. Id. at 104.
On December 29, 2010, after extensive
collaboration with the Chesapeake Bay (hereinafter
the "Bay") watershed states,2 the EPA issued the
BAY TMDL for Nitrogen, Phosphorus, and Sediment
The Bay TMDL calls for Maryland and the other
watershed states to limit nitrogen, phosphorus, and
sediment discharges as part of a watershed-wide
plan to improve water quality in the Bay by 2025.
The Bay TMDL sets an interim goal to have 60% of
the reductions needed to meet the overall 2025 goals
by 2017.
To effectuate the necessary pollutant reductions,
Maryland established a Watershed Implementation
Plan (hereinafter "WIP") as part of the development
of the Bay TMDL. Maryland's final Phase I WIP,
which the EPA reviewed and incorporated into the
Bay TMDL, states that a portion of the necessary
reductions will be achieved through conditions in
MS4 permits. Bay TMDL § 8-21.
On October 26, 2012, Maryland set forth its
Phase II WIP to articulate more specific strategies
for pollution reductions. The Phase II WIP explains
that the primary "Interim Target" strategy for
reducing pollution from stormwater discharge is to
accelerate treatment of land that was previously
The Chesapeake Bay watershed covers parts of Delaware, the
District of Columbia, Maryland, New York, Pennsylvania,
Virginia, and West Virginia.
2

157a
developed with little or no stormwater controls, i.e.,
retrofitting. This strategy specifically calls for
requiring, as a condition for renewal of MS4 permits,
twenty percent of previously developed impervious
land with little or no controls be retrofitted within
the next five year permit term. MDE, PHASE II
WATERSHED IMPLEMENTATION PLAN FOR THE
CHESAPEAKE BAY TMDL 14 (October 26, 2012).
Carroll County's MS4 Permit
The Final Permit is the County's fourth
generation MS4 permit. The County was issued an
initial MS4 permit in November 1993. In its
application and in the initial permit, the County was
designated as a Phase I medium MS4 jurisdiction.
The County was reissued its MS4 permit in May
2000, and again in July 2005.
The County submitted its application for a fourth
generation permit in September, 2009. From 2009 to
2014, MDE conducted extensive discussions with the
EPA, the County, and environmental groups in order
to develop a draft permit. In its Final
Determination,3 MDE states that these discussions
"resulted in the addition of more significant
conditions to Carroll County's Draft Permit, in large
part due to a growing regional focus on restoring
[the] Chesapeake Bay." R. at 53. MDE sent a revised
draft permit to the EPA on June 22, 2012, which the
EPA objected to on September 20, 2012. Following
additional correspondences with the EPA, new
The "Final Determination" refers to the document issued by
MDE prior to issuing the Final Permit in which MDE gives
notice of its final determination to issue the Final Permit and
provides explanations for including or excluding specific
provisions within the Final Permit.
3

158a
language was added requiring the County to
implement a stormwater management program to
attain applicable waste load allocations for each
approved TMDL and stating that the permit "is
requiring compliance with the Chesapeake Bay
TMDL through the use of a strategy that calls for
the restoration of [twenty percent] of previously
developed impervious land with little or no controls
within this five year permit term." R. at 59.
MDE sent EPA the revised permit on June 28,
2013. EPA lifted its objection to the County's draft
permit on January 16, 2014. Notice of MDE's
tentative determination to issue the County's permit
was published on June 27, 2014, and on June 30,
2014. The County participated in a hearing held on
September 18. 2014, and submitted written
comments on September 29, 2014. EPA submitted
comments on the draft permit on September 23,
2014, stating that it considers "the effluent limit
(i.e., 20 percent reduction in impervious surface
area) as supplemented by [the other] requirements
discussed" within the permit to be "consistent with
the reductions called or in both Maryland WIP and
[Chesapeake Bay Program] 2017 interim goals." R.
at 87. On December 29, 2014, MDE issued notice of
its final determination to issue the County's permit.
STANDARD OF REVIEW
Section 1-601 of the Environment Article allows
for direct judicial review of agency permitting
decisions without a prior contested case hearing.
Anacostia Riverkeeper, 447 Md. At 118. A reviewing
court applies the substantial evidence and/or the
arbitrary and capricious standards when a matter is
brought before that court under that statute. Id

159a
An agency's decisions based upon conclusions of
law are reviewed under the substantial evidence
standard. Under this standard, the reviewing court
first determines whether an agency's decision is
based upon an erroneous conclusion of law. See
Shwartz v. Dep't of Nat. Res., 385 Md. 534, 554
(2005); Bd. of Physician Quality Assurance v. Banks,
354 Md.59, 67-68 (1991). A reviewing court grants a
"degree of deference" to the agency's construction of
a statute it administers. Motor Vehicle Admin. v.
Sanner, 434 Md. 20, 31 (2013); Howard Cnty.
Citizens for Open Gov. v. Howard Cnty. Bd. of
Elections, 201 Md. App. 605, 615-16 (2011).
However, this deference does not extend to purely
legal issues, and special weight is not afforded to an
agency's legal positions and practices merely because
they are longstanding. See People's Counsel for Balt.
Cnty. v. Loyola Coll., 406 Md. 54, 67-69 (2008); Md.
Aviation Admin. v. Noland, 386 Md. 556, 572 (2005).
The reviewing court must vacate those agency
decisions that are based upon erroneous legal
conclusions made by the agency.
If, however, the reviewing court finds the
agency's decision to be legally correct, the court must
determine if the decision is supported by substantial
evidence. Sanner, 434 Md. at 31. The reviewing
court does not "substitute its judgment for the
expertise of those persons who constitute the
administrative agency" in applying the substantial
evidence test. Id. The test is one "of reasonableness,
not rightness[,]" and the reviewing court cannot
disturb an agency's factual findings if they are
supported by substantial evidence. Bd. of Physicians
Quality Assurance v. Mullan, 381 Md. 157, 173
(2004).

160a
The arbitrary and capricious standard is applied
to the discretionary decisions of an agency. In
applying the arbitrary and capricious standard, the
reviewing court grants great deference to the
administrative agency. Anacostia Riverkeeper, 477
MD. at 120 ("We have characterized the arbitrary
and capricious standard of review as one that is
'extremely deferential.’’’)(citations omitted). In
Anacostia Riverkeeper, the Court of Appeals of
Maryland adopted the Second Circuit Court of
Appeals elaboration of the arbitrary and capricious
standard as it is applied to review of the issuance of
a NPDES permit:
To determine whether the agency’s actions
were "arbitrary and capricious," we consider
whether the agency 'relied on factors which
Congress has not intended it to consider,
entirely failed to consider an important aspect
of the problem, offered an explanation for its
decision that runs counter to evidence before
the agency, or is so implausible that it could
not be ascribed to a difference in view or the
product of agency expertise.'
447 Md. at 121 (quoting Nat. Res. Def. Council, Inc.
v. EPA, 808 F.3d 556, 569 (2d Cir. 2015) (other
citations and quotation marks omitted). Anacostia
Riverkeeper further elaborates upon the Second
Circuit's elaboration that a reviewing court "must be
satisfied from the record that the agency . . .
examined the relevant data and articulated a
satisfactory explanation for its action." Id. (internal
citations and quotations omitted). Further, a
reviewing court "afford[s] the agency's decision
greater deference regarding factual questions
involving scientific matters in its area of technical

161a
expertise." Id. (internal citations and quotations
omitted).
DISCUSSION
The Final Permit is Greater in Scope than that
which is Lawful Under the Federal NPDES Program
The Court first addresses the issue of whether
the regulated permit area set forth by the Final
Permit and explained in the Final Determination is
greater in scope than what is authorized by the
federal NPDES program. Part LB of the Final
Permit sets forth the permit area to be regulated as:
Permit Area
This permit covers all stormwater discharges
from [MS4] owned or operated by Carroll
County, Maryland. This permit covers all
stormwater discharges from [MS4] owned or
operated by Carroll County, Maryland
(permittee), and the following incorporated
municipalities: the Towns of Hampstead,
Manchester, Mount Airy, New Windsor,
Sykesville, Union Bridge and the Cities of
Taneytown, and Westminster (co-permittees).
However, in Section IX of the Final Determination,
MDE sets forth the following definition for regulated
permit area:
The argument to limit regulated permit area
takes a myopic view of the MS4 system and
ignores the language set forth in 40 C.F.R. §
122.26(a)(1)(v). This section states that MDE
may require an NPDES stormwater permit for
discharges that ". . . contribute to a violation
of a water quality standard or is a significant
contributor of pollutants to waters of the

162a
United States." Section 40 C.F.R. §
122.26.(a)(1)(v) further provides that MDE
may ". . .designate discharges from municipal
separate storm sewer systems on a systemwide or jurisdiction-wide basis." Therefore,
MDE will continue to define the regulated
permit area as jurisdiction-wide and considers
all provisions of this permit to apply to the
geographic area of Carroll County.
The County maintains that the regulated area of
a jurisdiction-wide MS4 permit issued under the
NPDES program only includes those areas served by
MS4s owned or operated by the municipality. Thus,
while the County agrees with the definition of
regulated permit area as defined by Part I.B of the
Final Permit, it contends that Section IX of the Final
Determination unlawfully defines the regulated
permit area to include the entire geographic area of
Carroll County. MDE maintains that the scope of the
regulated area of the Final Permit includes the
entire geographic area of the County, arguing that
the plain language of the CWA makes clear that the
regulated area of a MS4 permit issued on a
jurisdiction-wide basis covers the entire geographic
area for which the municipality can exercise its
jurisdiction.
"The cardinal rule of statutory construction is to
ascertain and effectuate the intent of the
Legislature. In ascertaining legislative intent, we
first examine the plain language of the statute, and
if the plain language of the statute is unambiguous
and consistent with the statute's apparent purpose,
we give effect to the statute as it is written." Mayor
of Oakland v. Mayor of Mountain Lake Park, 392
Md. 301, 316 (2006). As MS4 permits are a subset of

163a
NPDES permits, determining the scope of the latter
will aid in determining the scope of the former. The
federal regulations that implement the NPDES
program (hereinafter the "NPDES Regulations") set
forth its purpose and scope. 40 C.F.R. § 122.1.
The NPDES Regulations mandate that "[t]he
NPDES program requires permits for the discharge of
'pollutants' from any 'point source' into the 'waters of
the United States." 40 C.F.R. § 122.1(b)(1). "Point
source" is defined therein as "any discernible, confined,
and discrete conveyance [. . .] from which pollutants
are or may be discharged." 40 C.F.R. § 122.2.4 Thus,
NPDES permits are required for the discharge of
pollutants from any discernible, confined, and discrete
conveyance into the waters of the United States.
As noted above, the WQA amended the CWA to
address the problem of stormwater pollution by
including permits for stormwater discharges within
the NPDES program. NPDES permits for
stormwater discharges are required for municipal
and industrial stormwater discharges. 33 U.S.C. §
1342(p). NPDES permits for "discharges from [MS4s]
may be issued on a system- or jurisdiction-wide
basis[,] shall include a requirement to effectively
prohibit non-stormwater discharges into storm
sewers[,] and shall require controls to reduce the
discharge of pollutants to the [MEP]" 33 U.S.C. §
1342(p)(3)(B). Thus, the permit regulates discharges
from MS4s.
The NPDES Regulations define a MS4 as "a
conveyance or system of conveyances [. . .] [o]wned or
"Polluntants" and "waters of the United States" are also
defined by the NPDES Regulations. Those definitions, however,
are not dispositive of this issue.

4

164a
operated by a [municipality,] [d]esigned or used for
collection or conveying storm water[,w]hich is not a
combined sewer[,] and [w]hich is not part of a
Publicly Owned Treatment Works[.]" 40 C.F.R.
122.26(b)(8) (emphasis added). Thus, a MS4 permit
under the NPDES program regulates stormwater
discharge of pollutants from any point source—i.e.,
conveyance or system of conveyances—owned or
operated by a municipality that is designed or used
for collection or conveying storm water.
Of great import to this issue is the first portion of
the applicable statue, which states that "[p]ermits
for discharges from municipal storm sewers may be
issued on a system- or jurisdiction-wide basis[.]" 33
U.S.C. § 1342(p)(3)(B)(i) (emphasis added). MDE
argues that the plain language of the CWA is
unambiguous and authorizes MDE to issue a
jurisdiction-wide MS4 permit that applies countywide. MDE correctly states that the plain meaning of
"jurisdiction" is "[a] geographic area within which
political or judicial authority may be exercised."
Black's Law Dictionary 855 (7th Ed. 1999). MDE,
however, leaves the crucial language "from
municipal storm sewers" out of its reading of the
applicable provision. Read in its entirety, the plain
language makes clear that a jurisdiction-wide MS4
permit is limited in its scope to the regulation of
discharges from MS4s owned or operated by the
permittee-municipality that are within the
geographic area over which the permitteemunicipality may exercise its jurisdiction. Because
discharges from a MS4 can only originate from
stormwater in areas served by that MS4, MS4
permits can only be applied to those areas served by
the MS4(s) for which the permit is issued.

165a
The CWA authorizes jurisdiction-wide MS4
permits for administrative convenience, not to widen
the scope of the NPDES program. Congressional
intent confirms this interpretation:
[...] Without these stormwater runoff
provisions, the Environmental Protection
Agency will be under a Federal court order to
adopt stonnwater regulations which may
require thousands of cities and counties to
obtain separate permits for every single one of
their stormwater discharge points-and there
are millions of them.
Every one of those permits would require an
engineering study and exhaustive paperwork.
It would cost a medium-size city like Macon,
GA, in my own Eighth District of Georgia,
many millions of dollars to comply. It would be
financially devastating to many of our local
governments.
[...]
[...] When this bill becomes law, a carefully
crafted Stonnwater Control Program will go
into effect with provisions that will allow
communities to obtain far less costly single
jurisdiction-wide permits.
133 Cong. Rec. H515-06, 1987 WL 930040
(statement of Rep. Rowland)(referring to the
jurisdiction-wide permit provision). The statements
made by Representative Rowland provide clear
evidence that administrative convenience was the
primary purpose behind allowing for the issuance of
jurisdiction-wide MS4 permits was administrative
convenience.

166a
As the plain language of the applicable statute is
consistent with its apparent purpose, the Court gives
effect to the statute as written. See Mayor of
Oakland, 301 Md. at 316. A MS4 permit may be
issued on a jurisdiction-wide basis for the areas
served by MS4(s) owned or operated by the
permittee-municipality which are located within the
geographic area over which the permitteemunicipality may exercise its jurisdiction.
MDE further contends that the regulated permit
area is properly based on the County's jurisdictionwide authority to regulate stormwater and land use.
In support of this contention, MDE maintains that
because the broad authority Maryland counties have
in regulating land use and stormwater management,
the County is likely to approve new development,
roads, and stormwater infrastructure during the
permit term. Therefore, MDE argues, issuing a
permit on a county-wide basis allows the County to
develop new infrastructure without requiring a
modification of the Permit and encourages the
County to ensure that new development incorporates
stormwater controls consistent with the intent of the
CWA and state law to reduce stormwater pollution.
The NPDES Regulations set forth the causes for
which modification of NPDES permits is necessary. 40
C.F.R. § 122.62. Development of new infrastructure
would not automatically require modification of the
Final Permit. MDE argues that permit modifications
must go through public review and a comment process
unless the modification qualifies as a minor
modification, and maintains that an expansion of the
regulated permit area is not a minor modification. As
explained above, a jurisdiction-wide MS4 permit
covers those areas served by the MS4(s) owned or

167a
operated by the municipality. As such, new
development of infrastructure that includes the
extension or addition of a MS4 falls within the
regulated permit area of a jurisdiction-wide MS4
permit as it will be owned or operated by the
permitted municipality. See Final Permit, Part I.B.
Further, a county-wide regulated permit area does not
foreclose on the possibility that the Final Permit will
require
modification.
For
example,
permit
modification may be required when "[t]he standards
or regulations on which the permit was based have
been changed by promulgation of amended standards
or regulations or by judicial decision after the permit
was issued." 40 C.F.R. § 122.62(a)(3).
As to MDE's encouraging the County reasoning,
Section 4-202 of the Environment Article prohibits the
development of land prior to the County approving a
stormwater management plan for development. As
such, new development is subject to the
County-approved stormwater management plan for
development. Further, the expansion of the County's
MS4s due to new development is automatically
covered by the regulated permit area as defined by
Part I.B of the Final Permit. Ultimately, though the
regulated permit area is the area served by the
County's MS4s, the scope to which the regulated
permit area may be expanded, through expansion of
the County's MS4s, is only limited by the jurisdiction
of the County. Therefore, MDE cannot justify that the
regulated permit area should include the entire
geographic area of the County on the basis that
infrastructure development will require modification
of the Permit or that a county-wide permit area will
ensure compliance of new development with
CWA.Additionally, the issue is not what the County has

168a
the legal authority to do, but what MDE has the
authority to regulate through a MS4 permit issued under
the NPDES program.5

For the forgoing reasons the Court concludes that
the "regulated permit area" of a jurisdiction-wide
MS4 permit issued under the federal NPDES
program is those areas served by the MS4(s) owned or
operated by the permittee-municipality that are
within the geographic area over which the permitteemunicipality may exercise its power (i.e., jurisdiction).
Determination of what constitutes the regulated
permit area has significant repercussions on the
County's obligations under the Final Permit. The
impact is most consequential as related to Part
IV.E(2) of the Final Permit (hereinafter the
"Restoration Plans Provision"), which requires the
County
"commence
and
complete
the
implementation of restoration efforts for twenty
percent of the County's impervious surface area[.]"
The County is required to "submit an impervious
surface area assessment consistent with the methods
described in the MDE document 'Accounting for
Stormwater Wasteload Allocations and Impervious
Acres Treated, Guidance for National Pollutant
Discharge
Elimination
System
Stormwater
Permits'[(hereinafter the "Guidance")]" to serve as
the baseline for the restoration efforts required in
the Final Permit. The Guidance sets forth the
calculations to be used in determining the baseline
impervious surface area:

For this reason, the Court dismisses MDE's argument that
the County has the legal authority to comply with the Final
Permit without further discussion.

5

169a
5. Total Impervious Acres Not Treated to
the MEP

A jurisdiction's total impervious area that has
not already been treated or restored to the
MEP is subject to the twenty percent
restoration
requirement.
The
analysis
performed according to Section II. I - 4, above,
shall be used to determine the baseline
impervious acres not treated. This can be done
by subtracting the total impervious area
considered treated from a jurisdiction's total
impervious area. The resulting area will serve
as the baseline for determining the twenty
percent impervious surface area required to be
restored to the MEP as described in Part
IV.E.2.a of the permit.
The Guidance at p. 9 (2014).
The County argues that the twenty percent
restoration requirement in the Restoration Plans
Provision compels the County to calculate the
impervious surface area of the County and to restore
twenty percent of the total surface area acreage. The
County notes that though the Guidance allows the
County to exclude certain areas, there is no
provision that allows the County to exclude
impervious surface areas that do not generate
discharges from point sources owned or operated by
the County. The County maintains that only the
stormwater discharged from the County's storm
sewer system is discharged from a point source
owned by the County and properly regulated under
the CWA. The County essentially argues that
because the twenty percent restoration requirement,
as applied to the County in the Final Permit, is

170a
based on the county-wide jurisdiction as opposed to
the area served by the County's MS4s, the Final
Permit is invalid because it is greater in scope than
that of the federal NPDES program.
MDE contends that it can impose a county-wide
restoration requirement as a "more stringent"
effluent limitation even if the federal NPDES
program limits the regulated permit area to those
areas served by the County's MS4s. In support of
this contention, MDE argues that because "states
are free to treat the EPA's pollution limits as a floor
and impose more stringent requirements" in
administering the NPDES programs, MDE could
require the County to submit a restoration plan for
each EPA-approved waste load allocation as a more
stringent effluent limitation. See West Virginia
Highlands Conservancy, Inc. v. Huffman, 625 F.3d
159, 162 (4th Cir. 2010). In support of this argument
MDE quotes the NPDES Regulations which state,
"[n]othing in this part precludes a State from [. . .]
[a]dopting or enforcing requirements which are more
stringent or more excessive than those required
under this part." 40 C.F.R. § 123.1(i)(1). MDE also
quotes Subsection 9-314(c) of the Environment
Article, which states the "[e]ffluent standards
[established by MDE] shall be at least as stringent
as those specified by [NPDES]." MDE concludes that
the requirements set forth in the Restoration Plans
Provision are precisely the type of "more stringent"
effluent limitation authorized by both federal and
state law.6
Noting that doing something which is "more stringent" than
the maximum extent practicable is practically impossible, the
Court nevertheless continues its analysis if this contention

6

171a
In the Final Determination, MDE also maintains:
[T]hat compliance with the twenty percent
restoration requirement is necessary in order
for the permit to be consistent with the
Chesapeake Bay TMDL and Maryland's WIP.
The importance of using the twenty percent
requirement to meet the Chesapeake Bay
TMDL was underscored in the EPA
September 23, 2014 letter, which stated: "EPA
had previously objected to the June 2012 draft
permit because it: (1) failed to explicitly state
what actions the permittee had to take to
meet the Chesapeake Bay TMDL. . .'' In
addition, "EPA has reviewed this permit and
considers the effluent limit (i.e., 20 percent
reduction of impervious surface area). . .
consistent with the reductions called for in
both Maryland's WIP and CBP 2017 interim
goals. EPA is satisfied that this permit is
consistent with the overall assumptions and
requirements of the Chesapeake Bay TMDL
WLA and the CBP goal of 2025."
The Court of Appeals of Maryland explained the
role of effluent limitations regarding MS4 permits in
Anacostia Riverkeeper:
[. . .] MS4s are subject to the [maximum
extent practicable] standard under 33 U.S.C. §
1342. MS4s are not, however, required to
impose effluent limitations necessary to meet
water quality standards. The CWA still
requires Maryland to set water quality
standards and TMDLs—subject to EPA's
approval. Flowing from this obligation is the
requirement that MS4s are subject to effluent

172a
limitations that are consistent with WLAs of
EPA-approved TMDLs.
447 Md. at 104. In Anacostia Riverkeeper, the
various "Water Groups"7 maintained that the twenty
percent restoration requirement did not comply with
requirements set forth by the NPDES program. In
that case, the Court of Appeals of Maryland declared
that the twenty percent restoration requirement is a
surrogate TMDL target:
The Permits require, by the end of the fiveyear term, that the Counties restore 20% of
the impervious surface areas in their
watersheds that have not been restored to the
MEP. This requirement "uses percent
impervious cover in a watershed as a
surrogate TMDL target." ENSR, Pilot TMDL
Applications Using the Impervious Cover
Method § 1.0, at 1–1 (2005). Like so much of
this case, we must unpack the science before
we analyze the parties' arguments.
As we develop on land, science has shown
us that we profoundly impact our waters.
Consider, for example, when "[t]rees, meadow
grasses, and agricultural crops that had
intercepted and absorbed rainfall are
removed...." CWP & MDE, Manual, § 1.1, at
1.3. Problematically, "[c]leared and graded
sites erode, are often severely compacted, and
can no longer prevent rainfall from being
rapidly converted into stormwater runoff." Id.
These kinds of sites are known as impervious
The "Water Groups" in that case consisted of various
environmental groups that challenged the validity of MS4
permits issued by the MDE.
7

173a
surfaces, surfaces "that do[ ] not allow
stormwater to infiltrate into the ground," such
as "rooftops, driveways, sidewalks, or
pavement." EN § 4-201.1(d). "Impervious
surfaces accumulate pollutants deposited from
the atmosphere," pollutants which are
"rapidly delivered to downstream waters"
during storms. CWP & MDE, Manual, § 1.1.,
at 1.5. The purpose of the 20% restoration
requirement, then, is to use stormwater
management practices to restore the natural,
beneficial processes in our environment that
we have changed by developing impervious
surfaces.
In other words, the 20% restoration
requirement is a surrogate because the
requirement does not control pollution
reduction directly. See ENSR, Pilot TMDL
Applications Using the Impervious Cover
Method § 1.0, at 1-1. Rather, it is through
restoring
impervious
surfaces
with
management practices that the Counties will
reduce pollution. See, e.g., CWP & MDE,
Manual, § 1.2, at 1.13 ("[Management
practices] shall be designed to remove 80% of
the average annual post development total
suspended solids load (TSS) and 40% of the
average annual post development total
phosphorus load (TP).").
Id. at 122-23.
The Water Groups made three major arguments
in support of their contention that the twenty
percent restoration requirement did not comply with
the NPDES program: (1) The twenty percent

174a
restoration requirement was too opaque to comply
with the maximum extent practicable (hereinafter
"MEP'') standard; (2) That MDE did not explain why
it selected twenty percent as the restoration goal or
how the restoration provisions in the MS4 permits at
issue would promote necessary pollution reduction,
and that the requirement is insufficient as it does
not relate to other TDMLs; and (3) The Water
Groups objected to MDE's method of calculating
impervious surface area not restored to the MEP.
As to the Water Groups first argument, the
Anacostia Riverkeeper Court determined that the
CWA does not impose a specific performance
standard upon MS4s, and that "the concepts of
restoration and impervious surface 'not restored to
the MEP' are sufficiently clear as to the controls that
the Counties must install[.]" Id. at 127 (citing 33
U.S.C. § 1342(p)(3)(B)(iii). Therefore, Court of
Appeals of Maryland held that the twenty percent
restoration requirement in the MS4 permits at issue
did comply with the MEP Standard. Id.
As to the Water Groups second argument, the
Anacostia Riverkeeper Court concluded that MDE's
decided to include the restoration requirement in the
MS4 permits based upon substantial evidence and
that decision was not arbitrary and capricious. Id. at
129. The Court of Appeals of Maryland further
concluded that the requirement in the MS4 permits
to submit plans regarding WLAs for all EPAapproved TMDLs ensured that the permits
addressed all applicable TDMLs. Id.
In support of their third argument, the Water
Groups contended that the Guidance "is flawed
because MDE arbitrarily selected 2002 as the

175a
baseline for measuring impervious surface area." Id.
at 130. As to this argument, the Court held that
"MDE reasonably [justified] its decision based on the
accurate determination that 2002 marked a
significant milestone in the State's treatment of
water quality." Id. Regarding the twenty percent
restoration requirement, Anacostia Riverkeeper
ultimately holds that "the MS4 permits issued by
MDE for the counties' municipal storm sewer system
appropriately [did] incorporate by reference publicly
available materials[which makes] the requirement
for restoration of 20% of pre-2002 developed
impervious surfaces specific, measurable, and
enforceable[;] [and that] MDE’s final decision to
issue the permits with a [twenty percent) restoration
requirement [was] based upon the State's
Chesapeake Bay TMDL strategies, and a reporting
requirement to establish strategies to address
wasteload
allocations,
[was]
supported
by
substantial evidence" and was not arbitrary and
capricious. See Id at 117.8
In Anacostia Riverkeeper, the Court of Appeals of
Maryland upheld MDE's decision to issue the MS4
permits at issue in that case. This Court notes the
twenty percent restoration requirements in those
MS4 permits are identical, or nearly identical, to the
The Court of Appeals of Maryland also addressed whether
"provisions of the MS4 permits that require that the public
have an opportunity to review and comment on restoration
plans intended to meet the wasteload allocations established
for the permittees under applicable total maximum daily
loads satisfy public participation requirements," and whether
"the provisions of the MS4 permits satisfy federal monitoring
requirements. " However, the holding as to these issues do
not pertain to any of the issues or arguments raised by the
parties and addressed herein.

8

176a
twenty percent restoration requirement in the Final
Permit. However, the County's objections to that
requirement and the issues presented before this
Court are substantively different than the objections
raised in, and the issues addressed by, Anacostia
Riverkeeper.9
Therefore,
notwithstanding
the
foregoing holdings in Anacostia Riverkeeper, this
Court is now called upon to address the question sub
judice as to the validity that requirement in the
Final Permit: Is the requirement to calculate the
impervious surface area of the County and to restore
twenty percent of the total surface area acreage to
the MEP greater in scope than that which is lawful
under the NPDES program, or does the CWA
authorize MDE to impose a county-wide restoration
requirement as an effluent limitation? The Court
answers that the requirement is greater in scope
than what is lawful under the NPDES program for
the following reasons.
Though MDE has the authority to include more
stringent regulations as part of the NPDES program,
MDE does not have the authority to include
programs that are beyond the scope of coverage of
the NPDES program. 1999 Stormwater Regulations,
64 Fed. Reg. 235, 68739 (Dec. 8, 1999)(to be codified
at 40 C.F.R. pts. 9, 122, 123, 124). In the 1999
Stormwater Regulations, the EPA states:

The Court notes that MDE did not cite Anacostia Riverkeeper
in support of their contention that it had the authority to
require the twenty percent requirement as a more stringent
effluent limitation. Rather, MDE relied on state statutes
authorizing MDE to impose more stringent requirements.
However, the issue is the scope of the federal NPDES program,
and state law cannot broaden that scope.
9

177a
EPA also believes that sources regulated
pursuant to a State designation are part of
(and regulated under) a federally approved
State NPDES program, and thus subject to
enforcement under CWA sections 309 and 505.
Under existing NPDES State program
regulations, State programs that are 'greater
in scope of coverage' are not part of the
federally-approved program. By contrast, any
such State regulation of sources within this
'reserved category' will be within the scope of
the federal program because today's rule
recognizes the need for such postpromulgation designations of unregulated
point sources of stormwater. Such regulation
will be 'more stringent' than the federal
program rather than 'greater in scope of
coverage[.]"
64 Fed. Reg. at 68781. Therein, the EPA explained
one of the new rules that the federal agency
promulgated in 1999. This then-new rule authorized
approved-states to designate a category of point
sources, not regulated by current federal law and/or
rules, at a local level. EPA determined that approved
states and regional administrators were best
situated to decide whether a category of unregulated
point sources existed within their locality, the
regulation of which would protect water quality. The
NPDES program "requires permits for the discharge
of 'pollutants' from any 'point source' into 'waters of
the United States’” 40 C.F.R. § 122.1(b)(1). As such,
a local regulation designating a category of point
sources, not regulated under the federal program,
which discharge pollutants into the waters of the
United States constitutes a more stringent local

178a
regulation, not a regulation greater in scope of
coverage than the federal NPDES program.
Thus, while MDE is authorized to designate a
category of presently unregulated point sources as
"more stringent" regulations, it is not authorized to
impose requirements that include areas outside of
those areas served by the permitted MS4(s). The
federal regulations implementing the CWA support
this conclusion by declaring "[i]f an approved State
program has greater scope of coverage than required
by Federal law the additional coverage is not part of
the Federally approved program." 40 C.F.R. §
123.1(i)(2) (The regulation notes, as an example, that
"if a State requires permits for discharges into
publically owned treatment works, these permits are
not NPDES permits.").
The Court notes that, pursuant to the holding in
Anacostia
Riverkeeper,
the
twenty
percent
restoration requirement is sufficiently clear to
constitute an effluent limitation and that the
requirement is a surrogate TMDL target. However,
as-applied in the Final Permit, the twenty percent
restoration
requirement
holds
the
County
responsible for a regulated permit area that is
greater in scope of coverage than the federal NPDES
program. Therefore, the twenty percent requirement
within the Restoration Plans Provision, as it
presently stands, cannot be included in any NPDES
permit, MS4 or otherwise.
MDE Erred in its Designation of the County as a
“Medium” MS4 Jurisdiction
As discussed above, the WQA amendments to the
CWA designate municipalities as either a small,
medium, or large MS4 jurisdictions. Large and

179a
medium MS4 jurisdictions are considered Phase I
MS4s, as they were required to obtain permits
during the first phase of the WQA amendments.
Small MS4 jurisdictions are referred to as Phase II
MS4s as the permit requirement for small MS4
jurisdictions did not take effect until the second
phase of the WQA amendments. Generally, Phase I
MS4s are covered by more stringent individual
permits and Phase II MS4s are covered by less
stringent general permits.10 It is important to note
that the requirements set forth in Maryland's WIP
often distinguish between the obligations required of
Phase I MS4 jurisdictions and those required of
Phase II MS4 jurisdictions.
Before further discussion, the Court first
addresses MDE’s contention that the issue of
designation does not fall within the limited scope of
judicial review. MDE maintains that the County
should be barred from contesting MDE's its
designation as a medium MS4 jurisdiction. MDE
argues that Maryland law limits judicial review to
the administrative record before the permitting
agency and to the objections raised during the public
comment period, and that the County failed to raise
this issue during the public comment period. See MD.
CODE ANN., ENVIR. § 1-601(d)(1). Indeed, a reviewing
court is restricted to the administrative record and
may not rule on issues raised for the first time upon
"The minimum control measures applicable to discharges
from smaller MS4s are described with slightly more generality
than under the Phase I permit application regulations for
larger MS4s, thus enabling maximum flexibility for operators
of smaller MS4s to optimize efforts to protect water quality."
1999 Stormwater Regulations, 64 Fed. Reg. 235, 68739 (Dec.8,
1999)(to be codified at 40 C.F.R. pts.9, 122, 123, 124).
10

180a
judicial review. Dep't of Health & Mental Hygiene v.
Campbell, 364 Md. 108, 123 (2001). However, a
reviewing court may pass upon issues that are
"encompassed in the final decision of the
administrative agency." Id. Designation of the
County's MS4 jurisdiction was encompassed in the
MDE's Final Determination. This is evidenced in the
Final Determination, wherein MDE explicitly states
that "[b]ased on 1990 census data, Carroll County
was considered a Phase I medium municipality due
to its population of over 120,000 at the time."
Further, prior to issuing a permit to the County,
MDE must first determine whether the County is a
small, medium, or large MS4 jurisdiction. This
threshold question plays a significant role in MDE's
Final Determination and, ultimately, the Final
Permit. As noted above, for example, the strategies
and requirements set forth in Maryland's WIP
differentiate between Phase .I and Phase II
permits. See BAY TMDL § 8-21 (stating that
"[r]enewal of Phase I MS4 permits to require
nutrient and sediment reductions equivalent to
urban stormwater treatment on [thirty] percent of
the impervious surface that does not have adequate
urban stormwater controls[,]" while "[r]enewal of
Phase II MS4 permits to require nutrient and
sediment
reductions
equivalent
to
urban
stormwater treatment on [twenty] percent of the
impervious surface that does not have adequate
urban stormwater controls"). Additionally, as
evidenced in the Final Determination, the permit
developed for Prince George's County, a Phase I
MS4 jurisdiction, was used as a template for the
County's Final Permit. As such, the issue of
designation of the County's MS4 jurisdiction was

181a
encompassed in MDE's Final Determination and
had a direct effect on the Final Permit issued to the
County. Further, as a practical matter, MDE
determines, or should determine, the size of the
permitted jurisdiction in order to tailor the MS4
permit in a way that will allow the municipality to
reach the MEP standard. Therefore, MDE's
designation of the County as a medium MS4
jurisdiction falls within the limited scope of judicial
review in accordance with Campbell.
The CWA defines medium MS4 jurisdictions as
those MS4s "serving a population of 100,000 or more
but less than 250,000." 33 U.S.C. § 1342(p)(2)(D).
However, the CWA does not specify how the
population served by an MS4 is to be calculated. The
NPDES Regulations sets out when a large or
medium MS4 designation is appropriate. 40 C.F.R. §
122.26. Under Subparagraph 122.26(b)(7)(ii) of the
NPDES Regulations, a county is designated as a
medium MS4 jurisdiction if it is listed in Appendix I
to Part 122 of Title 40 of the Code of Federal
Regulations (hereinafter "Appendix I) Appendix I is
a list of those counties with unincorporated
urbanized areas greater than 100,000 but less than
250,000 according to the 1990 Decennial Census by
the Bureau of the Census.
Carroll County, Maryland, however, is not
amongst those counties listed in Appendix I, nor is
there any evidence to suggest that the County was
qualified to be on that list. In its Final
Determination, MDE generally states that "[b]ased
on 1990 census data, Carroll County was considered
a Phase I medium municipality due to its population
of over 120,000 at the time." Based on this, MDE
maintains that the County was required to, and did,

182a
submit a two-year, two- part application for a Phase
I MS4 permit. The County was subsequently issued
its initial MS4 permit in November of 1993. It is
unclear whether the 1990 "population of over 20,000"
constitutes the entirety of Carroll County or the
unincorporated urbanized areas within the County.
As such, there is no guidance for the Court to
determine whether MDE used the proper statutory
formula in determining the applicable population.
See 33 U.S.C. § 1342(p)(2)(D). Thus, because Carroll

County, Maryland is not amongst the enumerated
counties in Appendix I and MDE provides no evidence
that the County qualified to be on that list, the County
cannot be designated as a medium MS4 jurisdiction
under Subparagraph 122.26(b)(7)(ii).

MDE argues that it was authorized to designate
the County as a Phase I MS4 under its residual
designation authority. The CWA authorizes MDE to
designate stormwater discharges requiring a NPDES
permit if MDE "determines that the stormwater
discharge contributes to a violation of a water
quality standard or is a significant contributor of
pollutants to waters of the United States." 33 U.S.C.
§ 1342(p)(2)(E). MDE, however, erroneously
designated the County as a Phase 1 MS4 jurisdiction
based on having a population of over 120,000 in
1990. MDE cannot ameliorate its prior error by now
offering a new basis upon which it could have, but
did not, base its decision to designate the County as
a Phase I jurisdiction.11
The NPDES Regulations set forth factors to consider in
determining whether stormwater discharges contribute to a
violation requiring a NPDES permit. MDE does not present
any analysis of those factors or are any other basis upon which
the County could have been designated as a Phase I MS4.
11

183a
Moreover, MDE's residual designation authority
stems from Congressional recognition of the need for
permitting authorities "to retain authority to
regulate unregulated point sources of storm water
under the NPDES permit program." 1990
Stormwater Regulations, 64 Fed. Reg. at 68,781
(emphasis added). Thus, the residual designation
authority allows MDE to retain authority to regulate
unregulated point sources of storm water that do not
fall within the scope of other CWA provisions, it does
not act as a post-final determination justification for
a prior erroneous designation.
MDE further argues that even if the County were
designated as a small MS4 jurisdiction, it could
impose the same requirements as those that apply to
medium MS4 jurisdictions. Though Phase II permits
generally have less stringent restrictions than Phase
I permits, MDE is authorized to "require more from
operators of MS4s" designated as small MS4
jurisdictions. 1990 Stormwater Regulations, 64 Fed.
Reg. at 68,749. The issue before this Court, however,
is whether MDE erred in its designation of the
County as a medium MS4 jurisdiction. As discussed
above, MDE erred by designating the County as a
medium MS4 jurisdiction based on a population of
over 120,000. This legal error cannot be overlooked
because the CWA authorizes MDE to possibly
impose the same requirements on the County
whether it is designated as a small MS4 or medium
MS4 jurisdiction.
MDE also argues that because the County has
Rather, MDE simply states that its residual designation
authority could have allowed it to designate the County as a
Phase I MS4 jurisdiction

184a
historically been designated as a medium MS4
jurisdiction in all prior generations of its MS4
permits, changing its designation to a small MS4
jurisdiction in the Final Permit will result in a
violation of the anti-backsliding provision of NPDS.
33 U.S.C. § 1342(o). The Court notes that this
argument cannot be reconciled with MDE's
contention that the same requirements could be
imposed on the County whether it is designated as a
small
MS4
or
medium
MS4
jurisdiction.
12
Nevertheless, the Court will assume
in arguendo
that a small MS4 jurisdiction does face less stringent
requirements than a medium MS4 jurisdiction, and
proceed in its analysis.
The anti-backsliding provision prohibits the
renewal of a permit with effluent limitations that
are less stringent than comparable effluent
limitations found in the prior generation of that
permit. MS4s are generally not subject to effluent
limitations except that MS4s are subject to effluent
limitations that are consistent with WLAs of EPAapproved TMDLs. Anacostia Riverkeeper, 477 Md. at
104. Page 21 of Section 8 of the Bay TMDL expressly
states that, in accordance with Maryland's WIP
renewal of Phase I permits will require 30%
reduction of impervious surface area, while renewal
of Phase II permits will only require 20% reduction
of impervious surface area. Thus, shifting the
County from a medium Phase I MS4 jurisdiction to a
small Phase II MS4 jurisdiction could, arguably,
impose a less stringent effluent limitation than those
imposed in the County's third generation MS4
The Court's assumption is assumed for the limited purpose of
analysis of MDE's anti-backsliding argument.
12

185a
permit.13 However, technical mistakes or mistaken
interpretations of law made by MDE when issuing
the County's permit would exempt it from the antibacksliding provision. See 33 U.S.C. § 1342(o)(2)
(enumerating exceptions to the general prohibition
on backsliding). Thus, the anti-backsliding provision
does not preclude the County from being designated
as a small MS4 jurisdiction.14
MDE also maintains that the County represented
it was a medium MS4 jurisdiction when it applied
for a Phase I permit 15 and, after MDE approval, has
been operating under a Phase I permit since
November 17, 1993. As such, MDE argues that the
doctrine of equitable estoppel precludes the County
from challenging MDE's designation of the County
as a medium MS4 jurisdiction. Equitable estoppel
has three elements: voluntary conduct or
representation, good faith reliance, and detriment.
See Mona Elec. Co. v. Shelton, 377 Md. 320, 334, 833
A.2d 527, 535 (2003). As previously discussed,
Maryland is an EPA-approved state under the
NPDES permit program, and MDE is the authority
in Maryland that administers the NPDES permit
program. As such, MDE knew, or should have
The previous, third generation, MS4 permit required the
County to restore thirty percent of the impervious surface area
in order to reach. The Final Permit requires an additional
twenty percent restoration in order to reach the total thirty
percent restoration requirement set forth in the WIP
14 The Court notes that it is unclear whether issuing a Phase II
permit in lieu of a fourth generation Phase I permit constitutes
the renewal of a NPDES permit. Thus, it is unclear whether
the anti-backsliding provision would applicable in this
situation.
15 It is unclear whether application or designation requiring
application came first.
13

186a
known, the applicable law regarding MS4 permits
such as the statutory provisions and EPA regulations
surrounding the designation of MS4s jurisdictions.
Further, because MDE is the agency charged with
implementing the NPDES program in Maryland, it is
ultimately responsible for erroneously requiring the
County to obtain a Phase I MS4 permit. Therefore,
MDE cannot claim good faith reliance upon the
County applying as a medium MS4 jurisdiction on its
initial permit application. Thus, MDE cannot assert
that the County is estopped from challenging MDE's
designation of the County as a medium MS4
jurisdiction.
MDE contends that the County has never before
raised issue to its designation as a medium MS4
jurisdiction, and allowing the issue to be raised now
would circumvent the permit application process put
in place by MDE. MDE was in the best position to
determine that the population served by the
County's MS4(s) did not meet the requisite threshold
to designate it as a medium MS4 jurisdiction. This is
not to say the County could not have been
designated a medium MS4 under Subparagraphs
122.26(b)(iii)-(iv); however, MDE did not base its
designation on those Subparagraphs and did not
conduct the proper inquiry in its designation of the
County. It seems that it was the MDE's permit
application process that ultimately allowed the
County to be permitted as a medium MS4
jurisdiction. Further, the issue is whether MDE
erred in its designation of the County as a medium
MS4 jurisdiction, not whether the process put in
place by MDE will be impeded upon if MDE is held
accountable for its error.

187a
MDE's Discretionary Decision to not allow Water
Quality Trading was not Arbitrary and Capricious
Water quality trading allows permittees to
acquire pollutant reduction credits from third
parties, or other permitted facilities, in order to meet
pollution reduction requirements. This market-based
approach creates an environment in which
permittees can meet their respective permit
requirements at the lowest overall cost for all parties
involved. The County contends that MDE's decision
to not allow for water quality trading as a
compliance method in the Final Permit was
arbitrary and capricious.
The County points out that the EPA has
recognized that water quality trading allows
permittees to meet pollutant reduction requirements
at the overall lowest costs for all involved, and has
endorsed this approach in the Chesapeake Bay
TMDL. The County also quotes Maryland's Phase II
WIP for the following statements made in support of
trading: "It is true that costs per pound for
stonnwater nutrient reductions are high . . . .
[V]arious trading approaches can reduce the burden
significantly if local governments wish to pursue
those
options."
Md.
Phase
II
Watershed
Implementation Plan Cmt. Resp. Doc. 6 (Oct. 2012);
"If a locality can reduce costs by paying farmers for
example, for additional nutrient reductions instead
of accomplishing the same reduction by stormwater
at higher costs, they should propose specific
scenarios." Id. at 36; and, "The urban retrofit costs,
compared to other sectors (specifically WWTP), are
extremely expensive versus the benefit expected.
The commenter believes that this approach will lead
to further economic constraints and suggests trading

188a
may provide proper balancing methodology . . . We
agree that trading is the proper balancing
methodology." Id at 38. Finally, the County
maintains that the Chesapeake Bay Commission has
concluded Bay nutrient reduction compliance costs
could be reduced as much as 82% if MS4s were
included in the water quality trading program. Ches.
Bay Comm'n, Nutrient Credit Trading for the
Chesapeake Bay: An Economic Study 2 (Exec.
Summary) (May 2012).
The County concludes that, in light of MDE's
decision to impose "beyond MEP" conditions, it was
unreasonable for MDE to summarily reject a
compliance method it publicly supports and which
the EPA, Maryland, the Chesapeake Bay
Commission, along with various other interested
parties have recognized as a method which could
substantially reduce the costs associated with
compliance of the requirements set forth in the Final
Permit. At a minimum, the County contends, MDE
could have conditionally approved trading pending
finalization of a trading policy, which MDE should
have completed in a timely manner.
The EPA's stance on water quality trading as
part of the Bay TMDL is set forth in Subsection 10.2
of the Chesapeake Bay TMDL:
10.2 Water Quality Trading
EPA recognizes that a number of Bay
jurisdictions already are implementing water
quality trading programs. EPA supports
implementation of the Bay TMDL through
such programs, as long as they are established
and implemented in a manner consistent with
the CWA, its implementing regulations, and

189a
EPA's 2003 Water Quality Trading Policy
(USEPA 2003e) and 2007 Water Quality
Trading Toolkit for NPDES Permit Writers
(USEPA 2007d). An assumption of this TMDL
is that trades may occur between sources
contributing pollutant loadings to the same or
different Bay segments, provided such trades
do not cause or contribute to an exceedance of
WQS in either receiving segment or anywhere
else in the Bay watershed. EPA does not
support any trading activity that would delay
or weaken implementation of the Bay TMDL,
that is inconsistent with the assumptions and
requirements of the TMDL, or that would
cause the combined point source and nonpoint
source loadings covered by a trade to exceed
the applicable loading cap established by the
TMDL.
Section VII.D of the Final Determination sets forth
the basis upon which MDE decided to not include a
water quality trading program in the Final Permit:
D. MS4 Trading Policies. A number of the
MS4 counties believe that the Draft Permit
should be modified to authorize trading. One
county commented that "MS4s would benefit
greatly from an open and transparent State
trading program. According to a study
performed
by
the
Chesapeake
Bay
Commission, allowing significant point
sources and urban water sources to trade
could potentially reduce compliance costs. . ."
MDE agrees with the counties, however,
because these trading policies have not been
finalized, it would be premature to include
them in the Final Permit.

190a
According to the State's WIP, MDE is charged
with developing an Accounting for Growth
(AFG) policy ". . .to help offset new or
increased discharges, and provide alternatives
for achieving greater environment protection
than through existing regulatory programs."
However, extensive outreach and public
comment regarding the AFG policy revealed
that there was a lack of consensus on many of
the fundamental issues. A work group was
established in 2013 that was comprised of
various stakeholders to find common ground,
clarify areas of disagreement, and make
recommendations for a draft AFG policy. MDE
is amenable to considering trading as an
option for meeting stormwater WLAs once an
official trading policy is established. However,
no changes will be made to the permit at this
time.
Reading the relevant sections of the Chesapeake Bay
TMDL and the Final Determination makes clear
that both the EPA and MDE recognize the
significant benefits associated with the water quality
trading. It is similarly clear, however, that both the
EPA and MDE recognize the importance of ensuring
that any implemented water quality trading
program is set-up in a manner that will not detract
the fundamental goals and principles of the Bay
TMDL, as well as the CWA. Further, following
extensive outreach and public comments, MDE
established a work group to address those
fundamental issues of the AFG policy for which
there was a lack of consensus and make
recommendations to MDE. MDE states that it is
amenable to including water quality trading for

191a
meeting stormwater WLAs once an official policy is
in place. For these reasons, the Court finds that not
allowing for water quality trading in the Final
Permit when there was no official water quality
trading policy in place does not constitute an
arbitrary and capricious decision.
Legality of the Comprehensive Planning Provision in
the Final Permit
The County contends that the Final Pennit
unlawfully usurps local legislative discretion under
Section 3-106 of the Land Use Article by mandating
the County take "all reasonable ' actions authorized
by law" related to the water resource element. MDE
maintains that the provision's requirement that the
County cooperate with other agencies in developing
the water resources element of its comprehensive
plan is consistent with state and federal law. The
relevant provision in the Final Permit, Section B of
Part VI, reads:
Comprehensive Planning
Carroll County shall cooperate with other
agencies during the completion of the Water
Resources Element (WRE) as required by the
Maryland
Economic
Growth,
Resource
Protection and Planning Act of 1992 (Article
66B, Annotated Code of Maryland). Such
cooperation shall entail all reasonable action
authorized by law and shall not be restricted
by the responsibilities attributed to other
entities by separate State statute, included
but not limited to reviewing and approving
plans and appropriating funds.

192a
The County contends that because this purely
state
planning
requirement
is
completely
independent of the CWA, it cannot be shoehorned
into the permit. The EPA allows states to
incorporate the requirements of existing state
programs into NPDES permits to accommodate
states "seeking to coordinate the stormwater
program with other programs, including those that
focus
on
watershed-based
nonpoint
source
regulation." 1999 Stonnwater Regulations, 64 Fed.
Reg. 235, 68739 (Dec. 8, 1999). MDE is allowed to
incorporate the requirements of existing state law
into an NPDES permit. Therefore, the Court will not
strike the Comprehensive Planning provision based
upon the County's contention that it is purely a state
planning requirement independent of the CWA.
The County also raises three arguments as to the
specific language of the Comprehensive Planning
provision in support of its contention: (1) MDE
amended the state law incorporated into the Permit
to order the County to cooperate with other
unnamed agencies during the completion of the
WRE; (2) The requirement that the County's
cooperation must "entail all reasonable actions
authorized by law" is a vague but sweeping mandate
that usurps local legislative discretion at the heart of
comprehensive planning by requiring the County to
take all reasonable actions rather than exercising its
judgment in such matters; and, (3) The requirement
that the County's cooperation "shall not be restricted
by the responsibilities attributed to other entities by
separate state statue, including but not limited to
reviewing and approving plans and appropriating
funds "essentially acts as an override of other
unnamed state statutes.

193a
As part of its comprehensive plan, the County is
required to adopt a WRE intended to identify
"drinking water and other water resources that will
be adequate" and "suitable receiving waters and land
areas to meet stormwater management and
wastewater treatment and disposal needs of existing
and future development." MD. CODE, LAND USE §§ 3102(a)(1)(viii), 3-106(a). In developing the WRE, the
County must take data made available by MDE into
consideration, and MDE is to provide technical
assistance upon request and to "review the [WRE] to
determine whether the proposed plan is consistent
with the programs and goals of [MDE] reflected in
the general water resources program required under
§ 5-203 of the Environment Article." MD. CODE ANN.,
LAND USE § 1-306. Subsection 5-203(b) of the
Environment Article mandates that the general
water resources program "shall recognize and be
consistent with functions of other State units."
Because the County's WRE must be consistent
with the programs and goals of the general waters
resources program and the general waters resources
program must recognize and be consistent with
functions of other State agencies, the County's WRE
must, ipso facto, recognize and be consistent with
functions of other State agencies. Additionally, the
cooperation with other agencies in that sentence is
limited to that which is required by the Maryland
Economic Growth, Resource Protection and Planning
Act of 1999. As such, the first sentence of the
Comprehensive Planning provision constitutes the
incorporation of valid state law into a NPDES permit
The second sentence of the Comprehensive
Planning provision, however, raises concern. The
first portion of the second sentence stating that

194a
"[s]uch cooperation shall entail all reasonable actions
authorized by law" does not, as the County argues,
unlawfully usurp local legislative discretion.
Essentially this language amends the first sentence
to read "Carroll County shall [take all reasonable
lawful actions to] cooperate with other agencies
during the completion of the [WRE] as required by
the Maryland Economic Growth, Resource Protection
and Planning Act of 1992[.]" The requirement to take
lawful actions cannot, as a practical matter, be
considered unlawful. Further, what is reasonable is
to be determined by the County. The County must
consider local circumstances and local issues in
determining what constitutes as reasonable for the
County. Further, the County's determination is as to
reasonableness is afforded great deference.
Therefore, the first portion of the second sentence
does not usurp local legislative discretion.
The concluding language of the second sentence,
however, raises concern. That language mandates
that the cooperation with other agencies "shall not
be restricted by responsibilities attributed to other
entities by separate State statue, including but not
limited to reviewing and approving plans and
appropriating funds." This language seems to
purport that the Comprehensive Planning provision
in the Final Permit overrides all other State
statutes. Further, it seems to relieve other entities of
responsibilities attributed to them by State statute,
and shoehorn those responsibilities upon the County.
Therefore, the Court finds that the Comprehensive
Planning provision of the Final Permit is unlawful to
the extent that it mandates the cooperation of the
County with other agencies described within the
provision "shall not be restricted by the

195a
responsibilities attributed to other entities by
separate State statute, including but not limited
reviewing and approving plans and appropriating
funds[,]" and to the extent that it does not hold the
County responsible for areas outside of the lawfully
regulated permit area as defined herein. Thus, MDE
may incorporate requirements from existing state
programs into a MS4 program so long as such
requirements do not go beyond the scope of the
federal NPDES program and/or the authority
granted to MDED by the applicable state statue.
CONCLUSION
The parties have presented a flurry of arguments
in support of their respective positions. The parties
pleading and arguments at hearing were flooded
with federal and state statutes, cases, and agency
regulations, as well as Congressional and legislative
records. Having collected the storm of information
provided by the parties and conveyed its analysis
thereof herein, the Court discharges the following
conclusion.
A MS4 permit may be issued on a jurisdictionwide basis for the areas served by MS4(s) owned or
operated by the permittee-municipality which are
located within the geographic area over which the
permittee-municipality may exercise its jurisdiction.
The Court finds that the Final Permit and Final
Determination contain provisions that are greater in
scope than the federal NPDES program. Specifically,
though the twenty percent restoration provision
constitutes a valid "more stringent" effluent
limitation, it also constitutes an invalid requirement
that is greater in scope than the federal NPDES
program. The Court further finds that MDE erred by

196a
designating the County as a medium MS4
jurisdiction based on a population of over 120,000
according to 1990 census data. Carroll County,
Maryland is not amongst Appendix I's exhaustive
list, and MDE offers no evidence that the County
qualified to be on that list. Additionally, the Court
finds that though MDE's decision to not include
water quality trading in the Final Permit makes it
difficult to reach the MEP standard, it was not
arbitrary and capricious. Finally, the Court finds
that MDE is only authorized to incorporate
requirements of existing state programs into a
NPDES permit that are more stringent, not greater
in scope, than those of the federal program. Thus,
the Comprehensive Planning Provision is valid in
part, and invalid in part as discussed above, that
MDE is only authorized to implement requirements
The Court will enter an order remanding this matter
for MDE to revise the Final Permit in accordance
with the views expressed therein and the views
expressed herein.
Date: June 26, 2017

197a
IN THE MATTER OF

* IN THE

COMMISIONERS OF

*

CARROLL COUNTY,

* FOR

MARYLAND

*

CIRCUIT COURT
CARROLL COUNTY

******************************
ORDER OF THE COURT
In accordance with the attendant Opinion, it is
this 26th, day of June, 2017, by the Circuit Court for
Carroll County, hereby
ORDERED, that the case shall be remanded to
the Maryland Department of the Environment for
proceedings not inconsistent with this Order and the
attendant Opinion; and it is further
ORDERED, costs shall be paid by the Maryland
Department of the Environment.

Entered June 27, 2017

198a
Maryland Department of the Environment
Water Management Administration
Basis for Final Determination to Issue Carroll
County’s National Pollutant Discharge
Elimination System Municipal Separate Storm
Sewer System Permit
MD0068331 11-DP-3319
Entered December 2014
Introduction
The Maryland Department of the Environment
(MDE) made a Tentative Determination to issue
Carroll County a National Pollutant Discharge
Elimination System (NPDES) municipal separate
storm sewer system (MS4) permit (Draft Permit) on
June 27, 2014. The Draft Permit established
specific conditions for regulating discharges from
Carroll County’s storm drain system. Public notices
of MDE’s Tentative Determination appeared in The
Carroll County Times on June 27, 2014, and June
30, 2014, as required by Maryland’s Administrative
Procedures Act (APA). Additionally, MDE maintains
an interested party list for the County’s Draft Permit
that includes federal, State, and local municipal
officials, and numerous citizens of Carroll County
and Maryland. Individuals on this list were notified
of the Tentative Determination on June 30, 2014.
Subsequent to the notification of the Tentative
Determination, MDE received a request for a public
hearing regarding Carroll County’s Draft Permit.
The request was submitted on July 18, 2014 by Mr.
Tom Devilbliss, representing Carroll County
Government, Department of Land Use Planning and
Development, staff to the Patuxent River

199a
Commission. In response, MDE held a hearing on
September 8, 2014, to accept testimony and comment
regarding the Draft Permit. Two individuals
representing Carroll County testified at the hearing.
The official transcript of the proceedings has been
furnished by Al Betz & Associates, Inc. and is
available on MDE’s website.
After the hearing, MDE received a request from Mr.
Devilbliss of Carroll County for a 60 day comment
period extension for Carroll County's Draft Permit.
Carroll County's MS4 Draft Permit remained open
until September 29, 2014, to accept further comment
in accordance with the APA. Numerous comments
were received during this time from Carroll County,
the United States Environmental Protection Agency
(EPA), and environmental advocacy groups.
In
aggregate, the comments offered various and often
contrary perspectives on the major tenets of Carroll
County’s Draft Permit. This Basis for Final
Determination explains MDE’s rationale for
finalizing the requirements in the permit being
issued today (Final Permit), and addresses the
major concerns submitted to MDE during the public
comment period.
Background
Maryland has been delegated the authority by EPA
to administer the federal NPDES permit program
through a Memorandum of Agreement (MOA) signed
in 1974 and recodified on May 18, 1989. Final
stormwater regulations, adopted by EPA in
November 1990, and found in 40 Code of Federal
Regulations (CFR) § 122.26, required certain owners
of storm sewer systems to apply for Phase I NPDES
MS4 permits. Based on 1990 census data, Carroll

200a
County was considered a Phase I medium
municipality due to its population of over 120,000 at
the time. Carroll County submitted a two-year, twopart application and was issued an initial MS4
permit in November, 1993. The County’s MS4
permit was reissued in May, 2000 and again in July,
2005. This permit action is to issue a “fourthgeneration” NPDES permit to Carroll County to
regulate the discharge of stormwater runoff from its
storm drain system.
This Final Permit represents another step forward
for Carroll County’s MS4 program. In 1993, the
County’s initial permit laid the foundation for a
comprehensive approach to controlling runoff. This
first permit required the County to maintain legal
authority to control storm drain system pollution;
develop geographic information system (GIS)
mapping on a watershed basis; use a combination of
chemical, physical, and biological monitoring to
characterize
urban
stormwater;
develop
management programs to address runoff from new
and significant redevelopment, construction site
discharges, illegal storm drain system connections,
and road maintenance operations; and provide
education and outreach regarding stormwater
pollution. This approach complied with the
maximum extent practicable (“MEP”) standard
established under the Clean Water Act, 33 U.S.C. §
1342(p)(3)(B)(iii).
Carroll County’s MS4 Permit was reissued in May,
2000 and again in July, 2005. In these permits,
MDE used an iterative permitting approach where
the assessment of water quality on a watershed
basis was used to establish additional retrofitting
requirements, including ten percent of the County’s

201a
impervious area in each five-year permit term. An
application for a fourth permit was submitted in
September, 2009 as part of the County’s fourth year
annual report. This annual report served as the
County’s application to re-issue the permit that is
being currently considered.
Since the early drafting of this Final Permit, MDE
has held numerous meetings with county
government officials, environmental advocates, and
EPA. These meetings resulted in the addition of
more significant conditions to Carroll County's MS4
Draft Permit, in large part due to a growing regional
focus on restoring Chesapeake Bay. Conditions of
this Final Permit require the County to possess the
legal authority to control storm drain system
pollutants, continue mapping its storm sewer
system, monitor stormwater discharges, develop and
implement comprehensive management programs,
and provide education and outreach regarding
stormwater pollution. New requirements under the
Final Permit include increasing impervious area
treatment, supporting litter reduction strategies, and
implementing environmental site design (ESD)
technologies for new and redevelopment projects to
the MEP. The County will also be required to
develop and implement plans to address wasteload
allocations (WLAs) established under EPA approved
total maximum daily load (TMDL) estimates. As
discussed under Issue V. of this document, MDE has
established these restoration plans as annual
reporting requirements under this Final Permit.
The Final Permit for Carroll County is based on a
“template” permit developed for Prince George’s
County with the input of EPA, MDE, Carroll and
other Maryland counties, and environmental groups.

202a
The permit negotiation process for Prince George’s
County is discussed in EPA’s letter to MDE on
October 22, 2013 (see Attachments). In the letter,
EPA concluded that the Prince George’s County
permit is “…an excellent template to advance the
stormwater program…” and that it “…meets
regulatory requirements, is enforceable, and achieves
the water quality objectives of the Clean Water Act
(CWA).”
In its letter to MDE dated September 23, 2014, EPA
notes that MDE made several substantive changes
to earlier versions of the draft of Carroll County’s
Final Permit to address EPA and stakeholder
concerns regarding water quality standards
language, Chesapeake Bay TMDL compliance,
backsliding, and water quality monitoring (see
Attachments). Furthermore, EPA concluded that
the Carroll County permit “…is consistent with the
[Prince George’s County MS4 permit] ‘template’…”,
which “…establishes clear enforceable requirements
through the
incorporation of implementation
schedules for structural and nonstructural controls.”
EPA also stated that the Carroll County permit
“…is satisfactory for purposes of the CWA and
NPDES permit regulations.”
More information on the MS4 permitting process in
Maryland and MDE’s iterative approach over the
past several permit terms can be found in Carroll
County’s MS4 Permit Fact Sheet, which is available
on MDE’s website. In addition, an EPA letter dated
November 29, 2012, provided relevant information
about the Draft Permit development, the negotiation
process for the Prince George’s County’s template,
and the public comments received (see Attachments).
These documents summarize a clear process that

203a
engaged stakeholders and EPA in order to develop a
permit that will meet the water quality goals of the
CWA by implementing measures to make further
progress towards water quality standards (see Final
Permit under PART III).
The following is a discussion of the most substantive
comments received and MDE’s response to each.
The issues receiving the most comments included
water quality standards and TMDLs, restoration
criteria,
monitoring,
stormwater
program
requirements, regulated permit area, annual
reporting, and the 2014 MDE document titled
“Accounting for Stormwater Wasteload Allocations
and Impervious Acres Treated” (MS4 Guidance).
MDE’s response is broadly divided into the
comments received by environmental advocacy
groups (Issues I. through V.) and the comments from
Phase I medium counties (Carroll, Charles,
Frederick, Harford, and Howard) that are affected
by NPDES MS4 permits (Issues VI. through XI.). A
summary is then provided of MDE’s Basis for Final
Determination on this Final Permit.
I. Water
Quality
Standards
Maximum Daily Loads.

and

Total

The goals of Carroll County's MS4 permit are to
control stormwater pollutant discharges, to improve
water quality within the County’s urban watersheds,
and to work toward meeting water quality
standards (WQS). In alignment with these goals, §
402(p)(3)(B)(iii) of the CWA requires the County to
implement “…controls to reduce the discharge of
pollutants to the maximum extent practicable,
including management practices, control techniques
and systems, design and engineering methods, and

204a
such other provisions as the Administrator or the
State determines appropriate for the control of such
pollutants.” The Final Permit (see PART IV.) also
requires the development of restoration plans to
achieve stormwater WLAs where there are EPA
approved TMDLs. In this manner, compliance with
the permit will result in a reduction of pollutant
discharges from the County’s storm drain system and
a framework for achieving WQS.
A. Water Quality Standards. A majority of the
comments received on the Draft Permit referred to
compliance with State and federal WQS. A common
claim of environmental groups was that the Draft
Permit authorizes discharges that do not meet
existing WQS or that may contribute pollutants to
impaired waters, and therefore cannot be legally
issued by MDE. For example, one environmental
advocacy group declared that “[t]he permit must
contain a stated prohibition against discharges
which cause or contribute to the violation of water
quality standards for receiving waters.” This
advocacy group also noted that NPDES permits
issued by the State must require that discharges
authorized under these permits “…will be in
compliance with all applicable requirements of:
…surface and ground water quality standards…”
[Code of
Maryland Regulations (COMAR) §
26.08.04.02(A)(1)]. Another environmental advocacy
group noted that federal regulations [40 CFR §
122.44(d)(1)(i)] require each NPDES permit to place
limitations on all pollutants or pollutant parameters
that “…are or may be discharged at a level which
will cause, have the reasonable potential to cause, or
contribute to an excursion above any State water
quality standard.”

205a
The argument that the issuance of an MS4 permit
violates the CWA is based on a citation of federal
regulations regarding Prohibitions Applicable to
State NPDES Programs [40 CFR § 122.4(d) and (i)
and § 123.25]. Section 40 CFR § 122.4 prohibits the
issuance of an NPDES permit “[w]hen the
imposition of conditions cannot ensure compliance
with the applicable water quality requirements of
all affected States.” Other commenters referenced 40
CFR § 122.4(i) to suggest that the Draft Permit
must comply with WQS. The first sentence of 40
CFR § 122.4(i) reads “[n]o permit may be
issued…[t]o a new source or a new discharger, if the
discharge from its construction or operation will
cause or contribute to the violation of water quality
standards.”
The case that MS4 permits must comply with WQS
was rejected by the U.S. Court of Appeals for the
Ninth Circuit and several other state and federal
courts1. In Defenders of Wildlife v. Browner [191
The Defenders decision has been followed in various state and
federal courts. e.g., Conservation Law Found., Inc. v. Boston
Water & Sewer Comm’n, 2010 U.S. Dist. LEXIS 134838, 73 ERC
(BNA) 1282 (D. Mass. 2010); Miss. River Revival, Inc. v. City of
St. Paul, 2002 U.S. Dist. LEXIS 25384, 56 ERC (BNA) 1114, 33
Envtl. L. Rep. 20131 (D. Minn. 2002); City of Arcadia v. State
Water Resources Control Bd., 135 Cal. App. 4th 1392 (Cal. App.
4th Dist. 2006); Building Industry Assn. of San Diego County v.
State Water Resources Control Bd., 124 Cal. App. 4th 866 (Cal.
App. 4th Dist. 2004); Matter of Natural Resources Defense
Council, Inc. v. New York State Dept. of Envtl. Conservation,
120 A.D.3d 1235, (N.Y. App. Div. 2d Dep’t 2014) cert. granted,
23 N.Y.3d 901 (2014); see also Tualatin Riverkeepers v. Or.
Dep’t of Envtl. Quality, 230 P.3d 559, 563 n. 8 (2010) (discussing
why environmental groups only
Defenders to explain
challenged an MS4 permit’s failure to comply with water quality
standards under state law and not the CWA). Indeed, no court
1

206a
F.3d. 1159, 1164 (9th Cir. 1999)], the Ninth Circuit
Court found that WQS are not applicable to
municipal stormwater discharges. In its decision,
the Court reasoned that Congress
expressly
required industrial stormwater dischargers to
comply with water quality standards, but
specifically “…chose not to include a similar
provision for municipal storm-sewer discharges.” Id.
at 1164-1165. The Court concluded that “…the text
of 33 U.S.C. § 1342(p)(3)(B), the structure of the
[CWA] as a whole, and this court’s precedent all
demonstrate that Congress did
not require
municipal storm-sewer discharges to comply strictly
with 33 U.S.C. § 1311(b)(1)(C).” However, EPA has
the discretion to require this compliance if
warranted.
To support their assertion that the Draft Permit
must comply with WQS, an environmental advocacy
group points to an administrative opinion, In Re:
Government of the District of Columbia, Municipal
Separate Storm Sewer System, 10 E.A.D. 323 (2002)
where WQS were applied to the District of
Columbia’s MS4 permit. In this case, EPA used the
discretion recognized in Defenders of Wildlife, 191
F.3d at 1166, to require that the District of
Columbia’s permit comply with WQS.
In its
decision, the Environmental Appeals Board clarified
that the CWA does not mandate compliance with
WQS.
In this specific case, EPA exercised its
discretion and intended that the District of Columbia
permit would satisfy them.
Because of the number of Phase I MS4 permits, MDE
and EPA agreed to develop a single permit, which
has reported an opinion specifically rejecting the logic set forth
in the Defenders decision.

207a
when approved, would serve as a template for the
remaining Phase I jurisdictions, including Carroll
County. In its letter dated November 29, 2012, EPA
objected to the June 2012 version of that template
because the language prohibiting discharges that
would cause or contribute to a violation of WQS was
inadequate.
In response to this concern, MDE
submitted revised language in subsequent draft
permits (see PART III.).
Despite EPA’s initial
suggestions, this language does not require strict
compliance with WQS, but establishes WQS and
WLAs in approved TMDLs as goals.
In its
September 23, 2014 letter providing supplemental
comments on the Draft Permit, EPA noted that this
language resolved the 2012 objection because “…it
contains enforceable objective and measurable
elements.” EPA also noted the other parts of the
Draft Permit (e.g., PARTs IV.D., and VII.A. and C.)
“…further strengthen protections for the water
quality of receiving streams…” As a result, EPA
considers the language and provisions found in the
Draft Permit “…satisfactory for purposes of the CWA
and applicable NPDES requirements.”
With respect to State law, under Section 9-324(a)(1)
of the Environment Article, MDE may only issue a
permit if it complies with “[a]ll applicable State and
federal water quality standards and effluent
limitations.” MDE has interpreted the use of
“applicable” to be consistent with the CWA and the
Defenders of Wildlife case, which specifically exempt
discharges from MS4 systems from compliance with
WQS. Therefore, WQS are not applicable to MS4
permits unless MDE requires them. Here, MDE has
not required strict compliance with WQS.

208a
That State and federal law do not require the Draft
Permit to meet WQS was affirmed recently in the
decision of Judge Stringer in Blue Water Baltimore v.
MDE [Case No. 03-C-14-000761]. That case dealt
with the MS4 permit issued to Baltimore County on
December 23, 2013, which is based on the same
template. In a ruling from the bench, Judge Stringer
concluded that “…the Clean Water Act does not
require compliance with the water quality
standards.” Judge Stringer further stated that
Maryland law does not require the MS4 permit to
meet WQS “…because there is no applicable Federal
or State law requiring it.” Therefore, the Court ruled
that “…the permit complies with 33 U.S.C. §
1342(p)(3)(B) of the Clean Water Act.”
In summary, several environmental advocacy groups
have argued that State and federal law and
regulations require that the Draft Permit comply
with WQS. However, this interpretation of the CWA
has been rejected by U.S. Court of Appeals for the
Ninth Circuit in the Defenders of Wildlife case; MS4
stormwater discharges are specifically exempted
from compliance with WQS. Similarly, Maryland
law and regulations do not make WQS applicable to
stormwater discharges. Rather, MS4 permits are
required to comply with legal standards that another
source (e.g., federal law) makes applicable to them.
Because there is no applicable federal or State legal
standard, the Final Permit does not need to comply
with WQS. Any argument that is founded on the
premise that the Final Permit must comply with
WQS is incorrect.
B. TMDLs and WLAs. There were also many
comments regarding the lack of specific WLAs in
Carroll County’s Draft Permit. For example, one

209a
environmental advocacy group stated that the Draft
Permit must contain requirements “…consistent
with the assumptions and requirements of any
available wasteload allocation.” [40 CFR §
122.44(d)(1)(vii)(B)]. This group also commented
that “[d]espite the clear legal requirement for the
Draft Permit to ensure compliance with WQS and
TMDL WLAs, it does not do so.”
Another
environmental advocacy group similarly stated that
“[u]nder the terms of this Draft Permit, the County
must attain applicable WLAs for each TMDL for
each receiving water body.” This group added that
“[t]he Permit must include a quantification of the
current loading of nitrogen, phosphorus and
sediment from all identified sources…to assess
progress towards applicable WLAs…” Another
common
argument from the environmental
community has been that EPA’s own guidance [see
Wayland and Hanlon, “Establishing TMDL WLAs
for Storm Water Sources…”, (11/22/2002), and
Hanlon and Keehner, “Revisions to the November 22,
2002 Memorandum…” ,(11/12/2010)] recommends
that “…where the NPDES authority determines that
MS4
discharges
and/or
small
construction
stormwater discharges have the reasonable potential
to cause or contribute to water quality standards
excursions, permits for MS4s and/or small
construction stormwater discharges should contain
numeric effluent limitations where feasible to do so.”
As discussed above, the Draft Permit is not required
to comply with WQS or any TMDL WLAs. However,
the permit does establish the twenty percent
restoration requirement (see PART IV.E.2.) as a
numeric effluent limit to achieve the Chesapeake
Bay and local TMDL WLAs. The County is required

210a
to “…commence and complete the implementation of
restoration efforts for twenty percent of the County’s
impervious surface area…that has not already been
restored to the MEP” [see PART IV.E.2.a.]. In
support of this, the Final Permit requires within one
year of issuance that the County submit an
impervious surface area assessment that serves as
the baseline for restoration efforts. The permit also
requires additional planning, reporting, and
assessment components including assessments and
detailed restoration plans for all watersheds, and
stormwater implementation plans for each EPA
approved TMDL.
In its September 23, 2014 letter, EPA states that this
numeric effluent limit (i.e., twenty percent
restoration of impervious surface area) is
“…consistent with the reductions called for in both
Maryland’s WIP [Watershed Implementation Plan]
and CBP [Chesapeake Bay Program] 2017 interim
goals…” and that “EPA is satisfied that this permit is
consistent with the overall assumptions and
requirements of the Chesapeake Bay TMDL WLA
and the CBP goal of 2025.” EPA also found “…this
approach satisfactory with regard to other applicable
TMDL WLAs identified in the permit…” EPA offers
that the effluent limit “…is consistent with EPA’s
regulations and guidance” and “…is designed to
reduce nutrient and sediment discharges in a way
that is consistent with the MDE Phase II WIP…”
Finally, EPA’s recent guidance [see Sawyers and
Best-Wong, “Revisions to the November 22, 2002
Memorandum…” (11/26/2014)] uses the twenty
percent restoration requirement as an example of
“…a specific, quantifiable performance requirement
that must be achieved within a set timeframe.”

211a
Therefore,
the
twenty
percent
restoration
requirement described in PART IV.E.2. is an EPA
approved effluent limit consistent with, and
satisfactory for addressing both the Chesapeake Bay
and other applicable TMDL WLAs. The Final Permit
also requires an initial impervious surface area
assessment (see PART IV.E.2.a.) that serves as a
quantification of the existing conditions that is used
to assess progress toward meeting those WLAs.
Finally, EPA has confirmed that not only is this
effluent limit acceptable for meeting TMDL WLAs, it
is also consistent with regulations and guidance as
set forth in EPA’s 2002 Wayland, 2010 Hanlon, and
2014 Sawyers Memos. Consequently, the Final
Permit does contain requirements that are consistent
with the assumptions and requirements of any
available TMDL WLAs.
C. Enforceable Plans and Deadlines. In addition
to the want for meeting WQS and WLAs, there was a
collective concern from environmental advocates that
the Draft Permit did not require enforceable plans
with interim and final deadlines for meeting WLAs.
For example, one organization stated that “[t]he
Permit fails to require the numeric benchmarks or
interim
standards
or
milestones
in
the
implementation plan to be quantified as defined in
Maryland law and under the federal Clean Water Act
regulations.” This organization added that the CWA
“… requires that compliance with MS4 permits be
‘expeditiously as practicable’…” Another commenter
argued that the Draft Permit must require the
County to “…prepare plans as enforceable permit
requirements to implement approved TMDL and
WLA with compliance schedules containing the final
date for meeting applicable WLAs…” Additionally,

212a
another environmental advocacy group commented
that compliance schedules and pollution reduction
milestones “…are necessary for the County to attain
[WLAs]…” and that “…only these types of
requirements can ensure compliance with [WQS], in
accordance with the [CWA] and Maryland law.”
Federal regulations governing the use of compliance
schedules in NPDES permits state that “[t]he
permit may, when appropriate, specify a schedule of
compliance leading to compliance with CWA and
regulations.” [40 CFR § 122.47]. By the terms of
these regulations, a compliance schedule is used to
address an ongoing violation of the CWA or federal
regulation. According to the CWA and Maryland
law, the County’s permit does not need to comply
with WQS. Likewise, MDE has not made compliance
with WQS a condition of the Draft Permit. For these
reasons, there are no ongoing violations of WQS to
address and compliance schedules are not
applicable.
With respect to WLAs, MDE offers that TMDLs
generally do not include deadlines for meeting
respective WLAs. One exception to this rule is the
Chesapeake Bay TMDL, which, according to the
Chesapeake Bay Watershed Agreement, must be met
by 2025. As discussed above, EPA has determined
that the Draft Permit is consistent with the
requirements of the Chesapeake Bay TMDL WLA.
Similarly, EPA has also stated that the requirements
for restoration plans described in PART IV.E.2.b. of
the Draft Permit are acceptable for addressing other
applicable TMDL WLAs.
Therefore, the Draft
Permit is not in violation and compliance schedules
for meeting applicable WLAs are not required.

213a
While they are not enforceable as effluent
limitations, the Final Permit does set forth WQS and
WLAs as goals that the County must work toward
meeting. To ensure that there is progress toward
meeting these goals, the Final Permit requires that
the County submit restoration plans for each
stormwater WLA approved by EPA. Provisions for
these restoration plans can be found under PART
IV.E. (Restoration Plans and Total Maximum Daily
Loads). This section of the Final Permit requires
Carroll County to conduct systematic assessments
and develop detailed restoration plans for all
watersheds within the County. For all EPA
approved TMDLs, these restoration plans must
include “...a detailed schedule for implementing all
structural and
nonstructural water quality
improvement
projects,
enhanced
stormwater
management programs, and alternative stormwater
control
initiatives
for
meeting
applicable
WLAs…[that]…specify pollutant load reduction
benchmarks and deadlines…[and]…include the final
date for meeting applicable WLAs…” Also included
in PART IV.E. are public notification and
participation procedures, and requirements for the
County to address any material comments from the
public regarding the restoration plans before
submitting to MDE for review and approval. Once
approved, these plans, schedules, benchmarks and
deadlines, and final date for meeting stormwater
WLAs become enforceable under the permit.
D. Restoration Criteria. The restoration of twenty
percent of the County’s impervious area that has
little or no stormwater controls is a major
requirement in the Draft Permit.
Numerous
comments from environmental advocacy groups

214a
emanded that ESD be used as the standard for
acceptable impervious area restoration. The central
argument was that federal MEP standards mandate
the use of ESD in MS4 permits. Additionally, it was
argued that State law mandates the use of ESD to
the
MEP
when
implementing
stormwater
management. Therefore, the Draft Permit must be
revised to require that ESD be used to meet the
twenty percent restoration requirement.
One environmental advocacy group commented that
the CWA requires MS4 permittees to “…develop,
implement, and enforce a stormwater management
program designed to reduce the discharge of
pollutants…to the maximum extent practicable” [40
CFR § 122.34(a)] (emphasis in original). This group
also offered that “... Maryland law states that ESD
should be used in stormwater management
programs whenever possible…” Another group
commented that “…this permit must institute or
impose all the controls and the highest levels of
management and treatment that are capable of
being put into practice – most decidedly not standard
practices” [NC Wildlife Federation v. NC Division of
Water Quality, 5 E.H.R. 2055, 6 E.H.R. 0164]
(emphasis in original).
MDE’s review of the federal regulations and the NC
Wildlife decision found that these refer to postconstruction
stormwater
controls
for
new
development and are not applicable to restoration
activities. Also, the NC Wildlife decision did not
require ESD; rather, it specified conditions for the
use of structural stormwater controls for new
development activities (emphasis added). Regarding
Maryland law, with the passage of the original
Stormwater Management Act (Act) in 1982 and its

215a
subsequent revisions in 2007 and 2012, the General
Assembly intended to “…reduce as nearly as possible
the adverse effects of stormwater runoff…” [§ 4-201,
Annotated Code of Maryland]. However, the Act
addresses
the
installation
of
stormwater
management to serve future development and
specifies that “…a person may not develop any land
for
residential,
commercial,
industrial,
or
institutional use without submitting a stormwater
management plan…” [§ 4-204, Annotated Code of
Maryland]. The standard for new development
stormwater management is to reduce runoff to reflect
forested conditions. Therefore, new development
should not contribute to increased stormwater flows.
During the Baltimore City tentative determination
process, the City noted in its comments in
September 2012 that the legislative history of the
Act does not mention MS4 permit requirements and
that “…no one who commented on the
legislation…suggested that the [Act] would result in
a requirement that…permittees be required to
implement [ESD] as part of MS4 compliance.”
Clearly, Maryland’s law and regulations have
historically imposed stormwater management for
new development and there is nothing in either that
suggests otherwise.
A common theme in many of the environmental
advocacy groups’ comments is that the Draft Permit
allows the use of stormwater management practices
that are less effective to be used for restoration
activities.
For example, one group offered
“…recognizing that ESD is not appropriate for all
projects, areas, and circumstances, the preference for
ESD should simply require that such measures are
evaluated before less efficient, structural measures

216a
are implemented.” Another stated that the Draft
Permit’s restoration requirements “…fall short of
MEP because they do not require or prioritize the
use of [ESD] techniques.”
MDE believes that there are incentives to utilize
ESD practices for restoration in both the Draft
Permit and the MS4 Guidance. The Draft Permit
states that restoration of impervious surfaces shall
be based on the treatment of the water quality
volume (WQv) criteria and associated list of
practices defined in the 2000 Maryland Stormwater
Design Manual (Manual). While this allows
structural treatment practices such as wet ponds,
wetlands, infiltration, and filtration, the MS4
Guidance clearly shows that ESD practices will be
given greater pollutant load reductions than other
acceptable water quality treatment practices. In
addition, impervious areas draining to practices like
dry detention, dry extended detention, or
hydrodynamic structures will not be considered
treated and will be required to be restored to the
MEP.
By granting greater pollutant reduction
credit for ESD, and allowing flexibility to use other
acceptable water quality treatment
facilities,
restoration efforts in Carroll County will be
consistent with EPA incentives and other national
programs. In its November 29, 2012 letter, EPA
removed prior objections to the Draft Permit and
supported MDE’s MS4 Guidance. Therefore, this
letter clearly shows that the permit conforms to
EPA recommendations.
In February 2010, MDE issued an NPDES Permit to
Montgomery County (MD0068349) that does not
require the use of ESD to satisfy restoration
requirements. Similarly, the most recent version of
the Los Angeles County NPDES permit (NPDES NO.

217a
CAS004001,
November
5,
2012),
includes
requirements for local low impact development (LID)
ordinances for new and redevelopment but not for
restoration or retrofitting. It is important to note
that the requirements and performance standards
for these LID ordinances are similar to those
required by Maryland. While EPA encourages its
use, there is no federal mandate that ESD shall be
used to meet NPDES permit requirements.
In summary, Carroll County’s Final Permit does
provide incentive to use ESD for restoration.
However, ESD may be used in conjunction with other
proven water quality practices in order to achieve
the clean water objectives of the Final Permit. MDE
believes that this allows a balanced approach where
the County can set priorities based on local water
quality conditions, while offering flexibility to
implement various strategies based on site specific
opportunities to achieve watershed restoration
objectives.
II. MDE MS4 Guidance.
As discussed above, a major provision in Carroll
County’s Draft Permit is the restoration of twenty
percent of the County’s impervious surfaces that
have little or no stormwater management. MDE has
provided for how this requirement can be met in the
MS4 Guidance. During the public comment period
for Carroll County’s Draft Permit, MDE received
many, varied and often conflicting comments
regarding the MS4 Guidance document. MDE’s
reasoning and answers to the specific concerns from
environmental groups are provided below.
Many environmental groups believed that the MS4
Guidance document does not meet the MEP

218a
standard for restoration practice implementation
because it allows the use of less effective best
management practices (BMPs). One environmental
advocacy group stated that BMPs such as extended
detention practices “…are significantly less effective
than ESD at controlling stormwater pollution
because they fail to address the core problem: overall
runoff volume. While reduction of pollutant loadings
is important, it is secondary to the enormous runoff
volumes that destroy aquatic life and mobilize
sediments and nutrients by eroding stream banks.”
This group’s primary support against the use of
extended detention facilities comes from the 2008
draft of the National Research Council’s (NRC)
report Urban Stormwater Management in the
United States (National Academies Press, 2009 and
cited herein as the “NRC report”) on stormwater
that “…provides strong evidence – and a scientific
consensus – that detention ponds fail to meet the
full range of urban stream and watershed restoration
objectives.”
The NRC report describes this historical stormwater
perspective on page 341: “Some way was needed to
control the quantity of water reaching the end of
pipes during a runoff event, and on- site
detention…became the standard for accomplishing
this. Ordinances started appearing in the early
1970s, requiring developers to reduce the peaks of
different size storms, such as the 10- year, 24-hour
storm. The ordinances were usually intended to
prevent future problems with peak flows by
requiring the installation of flow control structures,
such as detention basins, in new developments.”
The NRC report succinctly points out on pages 421
and 422 that “[t]he problem with the traditional

219a
approach is that (1) the majority of storms
throughout the year are small and therefore pass
through the detention facilities uncontrolled, (2) the
criterion of reducing storm flow does not address the
need for reducing total storm volume, and (3) the
facilities are not designed to work as a system on a
watershed scale. In many cases, the site-by-site
approach has exacerbated downstream flooding and
channel erosion problems as a watershed is
gradually built out.”
The NRC report suggests that a fundamental shift is
needed in how stormwater management is
implemented in order to achieve better water quality
results. On page 535, the NRC report states that
“[f]or MS4 operators, the concept of designing MS4s
for both flood control conveyance (capital flood
design) and for water quality protection (water
quality design) involves a fundamental shift.
Whereas flood control engineers design conveyance
systems with return frequencies of two years
(streets), ten years (detention basins), 50 years, and
100 years (channels), the water quality design storm
event is for a return frequency of six months to a
year. The water quality design implicitly focuses on
treating the first flush of runoff, which contains the
highest load and concentration of pollutants and
which occurs in the first half to one inch of runoff.
In contrast, flood control designs are built to convey
tens of inches of runoff.”
MDE strongly concurs with the NRC report and used
the same hydrologic analysis to push through new
regulations in Maryland in 2000 that specifically
address stream channel erosion and degradation.
The State’s historical perspective described in the
Manual, page 1.10, states that “[t]raditionally,

220a
Maryland has attempted to provide some measure of
channel protection by imposing the two-year storm
peak discharge control requirement, which requires
that the discharge from the two-year post
development peak rates be reduced to pre
development levels. However, recent research and
experience indicate that the two-year peak discharge
criterion is not capable of protecting downstream
channels from erosion. In some cases, controlling the
two- year storm may actually accelerate streambank
erosion because it exposes the channel to a longer
duration of erosive flows than it would have
otherwise received.”
The Manual was an effort to incorporate the
significant experiences gained by the State’s
stormwater community and accommodate much
needed improvements for managing urban runoff.
Accordingly,
MDE’s
regulations
and
the
accompanying Manual were updated to require “…a
unified approach for sizing stormwater BMPs in the
State of Maryland to meet pollutant removal goals,
maintain groundwater recharge, reduce channel
erosion, prevent overbank flooding, and pass
extreme floods.” The ensuing criteria and treatment
volumes
correlate
directly to
the
NRC’s
recommendations for the management of the smaller,
more frequent storm events.
Design features
include the use of pre-treatment vegetation, wetland
pockets and pools, flow reduction techniques, native
plants, meadows, trees, permeable soils, and the
creation of sinuous flow paths.
These green
techniques mimic the natural hydrologic process,
soak up and store runoff, and improve water
quality. Structural BMPs (e.g., dry ponds, detention
ponds) that do not meet minimum water quality

221a
treatment standards described in Maryland's
Manual cannot be used to meet permit restoration
requirements.
Many of the comments from environmental groups
used the terms “detention facility”, and “extended
detention facility” interchangeably. Technically
speaking, there are significant differences between a
detention facility and an extended detention facility.
These differences are noted in the NRC report (see
pages 568 and 569), which defines detention as “[t]he
temporary storage of stormwater runoff in a [BMP]
with the goals of controlling peak discharge rates...”
Conversely, the report confirms the utility of
extended detention wet ponds as part of a systems
approach to restoring urban watersheds. Page 395 of
the NRC report states that: “[b]y holding a volume
of stormwater runoff for an extended period of time,
extended detention [BMPs] can achieve both water
quality improvement and reduced peak flows.
Generally the goal is to hold the flows for 24 hours
at a minimum to maximize the opportunity of
settling, adsorption, and
transformation of
pollutants. For smaller storm events (one- to twoyear storms), this added holding time also greatly
reduces the outflows from the [BMP] to a level that
the stream channel can handle.”
According to the NRC report, page 400, wet extended
detention facilities that “…are designed with an
aquatic bench around the edges to promote contact
with plants…aids in reduction of flow velocities,
provides growth surfaces for microbes, takes up
pollutants, and provides filtering.” Finally, when
discussing unique opportunities for retrofitting in
urban areas on page 459, the NRC report concludes
that “[p]ublicly owned, consolidated [BMPs] should

222a
be strongly considered as there may be insufficient
land to have small, on-site systems. The types of
[BMPs] that are used in consolidated facilities particularly detention basins, wet/dry ponds, and
stormwater wetlands - perform multiple functions,
such as prevention of streambank erosion, flood
control, and large-scale habitat provision.”
Maryland’s Manual requires all extended detention
facilities to have wet pool storage and management
of the one-year 24 hour storm as recommended in the
NRC report. Thus, extended detention wet ponds
are
acceptable
for
stormwater
restoration.
Furthermore, MDE encourages the retrofit of
detention facilities or dry ponds to extended
detention wet pond facilities as a strategy for
reducing pollutants to Chesapeake Bay and meeting
MS4 permit obligations. Where these opportunities
present themselves, they should be explored fully.
Maryland’s Manual for stormwater BMP design and
MDE’s approach to retrofitting under the municipal
permit program are completely aligned with the
NRC report.
III. Maryland
Requirements.

Stormwater

Program

Carroll County’s Draft Permit requires that the
County maintain an acceptable stormwater
management program in accordance with the
Environmental Article, Title 4, Subtitle 2,
Annotated Code of Maryland. This includes
compliance with the minimum requirements
specified under COMAR § 26.17.02. Some
environmental groups provided recommendations
related to stormwater program requirements in
PART IV. D.1. of the Draft Permit.
These

223a
recommendations included specific language related
to inspection and maintenance, documentation of
stormwater management waivers and exemptions,
and ESD code review and modifications. MDE
believes that the suggested language changes are
already addressed under Maryland’s stormwater
program requirements and reinforced in the Draft
Permit. Because State stormwater management
law and regulations are incorporated by reference,
these provisions are required and enforced under
the Final Permit.
The suggested language changes regarding
stormwater maintenance included provisions that
the County develop a maintenance plan for all
County
owned
and
operated
stormwater
management practices within 18 months of the
effective date of the permit. This language is
actually less stringent than State regulation.
COMAR § 26.17.02.09.E.(5)(n) (Contents and
Submission of Stormwater Management Plans)
requires an inspection and maintenance schedule
prior to final stormwater management plan
approval. Because County owned and operated
facilities need to
meet State regulation, a
maintenance plan is already required to be developed
during the plan review process. Therefore, the
suggested language is less stringent than COMAR
and unacceptable.
Additional permit language recommendations
specified that the County “…shall provide for the
inspection of all practices at least once every three
years…” and “…submit documentation in its annual
reports identifying the practices inspected, the
number of maintenance inspections performed, the
County’s inspection schedules, the actions used to

224a
ensure compliance, and any
other relevant
information.” This provision is already required in
both the Draft Permit and inCOMAR § 26.17.02. For
example, PART IV.D.1. of the Draft Permit requires
the County to maintain construction inspection
information, and “[d]ocumentation identifying the
ESD
systems
and
structural
stormwater
management facilities inspected, the number of
maintenance inspections, follow-up inspections, the
enforcement actions used to ensure compliance, the
maintenance inspection schedules, and other
relevant information shall be submitted in the
County’s annual reports.” In addition, the content of
inspection reports, documentation of activities, and
the minimum inspection frequency of at least once
every three years, are also provided in COMAR §
26.17.02. Therefore, the requirements specified in
both the permit and State regulations meet the
intent of the suggested language changes.
Another recommendation under maintenance of
stormwater management practices specifies that the
County “…shall develop accountability mechanisms
to ensure maintenance of stormwater control
measures on non-County property.” The Draft Permit
does specify that preventative maintenance
inspections shall be performed and enforcement
actions be used to ensure compliance according to
COMAR. In addition, COMAR § 26.17.02.03.(c)(2)
specifies that an acceptable stormwater management
program shall have “…inspection and enforcement
procedures that ensure the proper construction and
maintenance of approved stormwater management
measures.” COMAR § 26.17.02.10.D. specifies that
“[t]he county or municipality responsible for
inspection and enforcement of approved stormwater

225a
management plans may, for enforcement, use any one
or a combination of the following actions…” These
actions may include a notice of violation, a stop work
order, a civil action, or criminal prosecution.
Therefore, the County already has the enforcement
authority and accountability mechanisms necessary
to pursue appropriate action to ensure the proper
maintenance of stormwater practices.
Another comment related to Maryland’s stormwater
management program recommended that the Draft
Permit require full documentation and evaluation of
all stormwater management
exemptions and
waivers to ensure that there are no adverse effects to
stream quality. This documentation is required in
the Draft Permit under PART IV.D.1.b.iii. and iv.
These requirements specify the documentation of
the “[n]umber of stormwater exemptions issued”, and
the “[n]umber and type of waivers received and
issued, including those for quantity control, quality
control, or both…”
In addition, COMAR §
26.17.02.05.C. specifies that waiver policies for
individual developments “…reasonably ensure that a
development will not adversely impact stream
quality;” and “…that the cumulative effects of the
waiver policy are evaluated.” Therefore, the
suggested language related to waivers and
exemptions are required under COMAR and
reinforced in the Draft Permit.
Additional language recommendations were related
to the modification of County codes and ordinances
to eliminate any impediments to implementing ESD
to the MEP. As a State regulatory requirement, all
local jurisdictions were required to adopt local
ordinances that
comply with the Act by
implementing ESD to the MEP for all new and

226a
redevelopment. Under PART IV.D.1.a.ii., the Draft
Permit requires “[t]racking the progress toward
satisfying the requirements of the Act [Stormwater
Management Act of 2007] and identifying and
reporting annually the problems and modifications
necessary to implement ESD to the MEP;” and
“[r]eport annually the modifications that have been
made or need to be made to all ordinances,
regulations, and new development plan review and
approval processes to comply with the requirements
of the Act.” In addition, COMAR § 26.17.02.08.B.(3)
states that “[t]he use of ESD planning techniques
and treatment practices specified in this section may
not conflict with existing State law or local
ordinances, regulations, or policies. Counties and
municipalities shall modify planning and zoning
ordinances and public works codes to eliminate any
impediments to implementing ESD to the MEP
according to the Design Manual.” Therefore, the
suggested
language
changes
are
already
incorporated into the permit, and COMAR. The
specific language in the Final Permit directing the
County to make necessary modifications for the
successful implementation of ESD to the MEP meets
the intent of the recommended language changes.
IV. Stormwater Monitoring.
Many environmental groups commented that the
requirement that one outfall and one in-stream
location be monitored, according to PART IV.F.1.
(Assessment of Controls) of the County’s Draft
Permit, is insufficient. One environmental group
stated that “…the permit contemplates monitoring
of just one small sub-watershed...” and that “[t]his
sub-watershed is not sufficient to
provide
meaningful information about the larger watershed

227a
in which it is located, much less provide information
about the County as a whole.”
MDE believes that the intent of the watershed
monitoring found in PART IV.F.1. of the Draft
Permit needs to be better explained, and that the
extensive County-wide chemical, physical, and
biological monitoring that numerous environmental
groups requested can be found in other sections of
the Draft Permit. PART IV.D.3. of the County’s
Draft Permit requires screening for illicit discharges
to the municipal storm drain system. PART IV.E.1.
describes watershed assessments on a County-wide
scale to assess current water quality conditions and
prioritize improvement projects. PART IV.E.2.
requires monitoring to evaluate and track the
implementation of restoration plans.
Carroll
County’s
Draft
Permit
contains
Special
Programmatic Conditions in PART VI. that include
coordination
with
MDE’s
Watershed
Implementation Plan (WIP) to comply with the
Chesapeake Bay TMDL. PART IV.F.2. requires
surveying through
physical
monitoring the
effectiveness of Maryland’s new stormwater law
requiring ESD to the MEP.
MDE has previously noted during the Phase II WIP
process that water quality monitoring cannot be tied
directly to implementation. Rather the State has
established
parallel
processes
for
tracking
implementation and water quality monitoring.
Although monitoring is required within the MS4
permits, it is specific monitoring designed as part of
a larger State strategy. [Maryland Phase II WIP
Comment Response Document at page 70.].

228a
Focused monitoring in a small watershed as required
in PART IV.F.1. is extremely important for
determining
the
effectiveness
of
individual
restoration practices, gathering the necessary
feedback for adaptive management, and for
calibrating models. This monitoring strategy is
supported by the NRC’s 2011 document, Achieving
Nutrient and Sediment Reduction Goals in the
Chesapeake Bay: An Evaluation of Program
Strategies and Implementation. Specifically, NRC
recommends that “[t]argeted monitoring programs in
representative urban and agricultural watersheds
and subwatersheds would provide valuable data to
refine BMP efficiency estimates, particularly at the
watershed scale, and thereby improve Watershed
Model predictions.”
The focused watershed approach was first described
for Maryland MS4 jurisdictions in the report,
Maryland’s
National
Pollutant
Discharge
Elimination
System
Municipal
Stormwater
Monitoring (MDE, 1997). While CFR specifically
defines chemical monitoring procedures for MS4
permit applications, the regulations are silent on
biological and physical monitoring. Maryland’s local
governments emphasized that in many instances,
biological and physical monitoring results are better
indicators of small stream health. MDE agreed with
this approach, but maintained that chemistry is also
important, especially for assessing Chesapeake Bay
restoration goals. Therefore, MDE proposed long
term monitoring requirements that were aligned
with the CWA’s goal to “…restore and maintain the
chemical, physical, and biological integrity of the
nation’s waters…”, a concept articulated as the
“three-legged stool” approach (MDE, 1997).

229a
Local governments also emphasized that infrequent
chemical monitoring of numerous sites throughout a
jurisdiction would not be as informative as intensive
chemical monitoring of a few subwatersheds. While
initial application requirements in CFR stipulated
the monitoring of three storms per year from five
sites located throughout a jurisdiction, MDE requires
Carroll County to monitor eight storms per year at
two monitoring sites. More intensive chemical,
physical and biological monitoring in one watershed
is recommended in MDE’s 1997 report, which states:
“[u]sing the overall goal of assessing water health as
guidance, MDE believes that the most logical way to
modify the MS4 long term monitoring program is to
require all jurisdictions to contribute to the entire
approach by providing all three legs of the
monitoring stool. That is, each jurisdiction shall
conduct chemical testing, biological, and physical
stream assessment. Additionally, site selection will
need to be orchestrated at the State level. As
jurisdictions pare chemical monitoring sites for
biological and physical assessments, it will be
imperative to maintain an adequate number of
residential, commercial, and industrial sites for State
water chemistry needs.”
In PART IV.F.1. of Carroll County’s Final Permit,
intensive monitoring will continue to be required in
the Air Business Park watershed that includes
physical, chemical, and biological sampling and
analysis. In addition, the County is required to
continue physical stream monitoring in the Air
Business
Park
watershed
to
assess
the
implementation of the latest version of the Manual,
especially regarding stream channel erosion.
Physical stream monitoring protocols include an

230a
annual stream profile and survey of permanently
monumented
crosssections
with
baseline
conditions for assessing areas of aggradation and
degradation.
As part of this assessment, a
hydrologic and/or hydraulic model is required within
the permit term to analyze the effects of rainfall,
discharge rates, stage, and, if necessary, continuous
flow on channel geometry.
Carroll County’s 2013 annual report documented
that two sites were monitored at outfall and instream locations for chemical, physical, and
biological parameters in the Air Business Park
Watershed, a subwatershed of the Liberty Reservoir
watershed.
In addition to these two sites, 17
watershed assessments were completed in reporting
year 2013 and are being considered for watershed
restoration.
These watersheds include many
subwatersheds of the Liberty Reservoir. Watershed
assessments require the County to both determine
the current water quality conditions and rank the
water quality problems in the watershed. This
monitoring plan has provided the framework for
developing restoration strategies to improve water
quality in the County’s streams and rivers. As a
continuation of these efforts, the County’s 2013
annual report identifies numerous projects currently
in the planning and design phase that will account
for restoration of approximately 1,922 impervious
acres.
Since the inception of the NPDES stormwater
program, Maryland’s MS4 jurisdictions have
monitored more than 2,900 storm events along with
an additional 1,698 sampling activities during

231a
baseflow conditions2.
These data allow a
comprehensive characterization of the water
chemistry of highway, commercial, industrial, and
residential runoff. These data have been combined
into a comprehensive statewide database and used
for determining a parameter list of commonly found
stormwater pollutants, calculating event mean
concentrations (EMCs), supporting State objectives
(MDE, 1997), and calibrating numerous TMDLs
including the one for Chesapeake Bay.
This
information comprised a significant portion of the
National Stormwater Quality Database. As of 2014,
the database included 9,422 storms from across the
nation to characterize urban runoff.
Maryland’s MS4 jurisdictions implement restoration
activities in the focused watersheds and have used
the results from the monitoring data to develop BMP
efficiencies. These have been extrapolated to other
similar restoration projects across the jurisdiction.
The CBP has used these data as well. For example,
the CBP’s Urban Stormwater Workgroup (USWG)
relied heavily on Maryland’s MS4 monitoring data
to develop improved BMP efficiencies for street
sweeping,
stream
restoration,
stormwater
treatment, and runoff reduction practices for
inclusion in the CBP Bay Model. MDE believes that
focused watershed monitoring is important for
characterizing urban runoff and understanding the
effectiveness of stormwater BMPs. It is also a
fiscally prudent approach when combined and
shared among all Phase I jurisdictions.
Bahr, R. Tagoe, A., & Arthur, M. (2014, November 21).
Maryland MS4 Monitoring. Paper presented at the 20th
Annual Maryland Water Monitoring Council Conference,
Linthicum, MD.
2

232a
In PART IV.D.3. of the Final Permit, an inspection
and enforcement program is required to be
implemented to ensure that all discharges to and
from the storm sewer system that are not composed
entirely of stormwater are either eliminated or
issued a permit by MDE. Permit requirements
include the field screening of at least 100 outfalls
annually. In its 2013 annual report, the County
documented field screening and outfall sampling at
102 outfalls. Of these 102 outfalls, three screenings
required further investigation, and one was
identified as a potential
illicit discharge.
Furthermore, the screenings resulted in 30
structural or maintenance issues being reported to
the Carroll County Bureau of roads or relevant
municipality. In addition, the County has a water
quality pollution line (established in June 2012) to
receive complaints associated with waste disposal,
sediment,
sewage,
stormwater
management
maintenance, and other concerns. The County
received three complaints in reporting year 2013 and
performed site investigations for each of the
complaints. All of the findings from complaint
investigations were referred to the appropriate
authority for further monitoring and/or enforcement.
Additional monitoring requirements in PART IV.E.2.
of Carroll County’s permit specify that the County
shall systematically assess the water quality in all
watersheds and use the resulting analyses to
develop detailed restoration plans for meeting
stormwater WLAs. Assessments must be performed
at an appropriate watershed scale (e.g., Maryland’s
hierarchical eight- or twelve-digit sub-basins) and
must be based on EPA’s approved TMDL analysis or
an equivalent and comparable County water quality

233a
analysis. The assessments are to determine current
water quality conditions; include the results of a
visual watershed inspection; identify and rank water
quality problems; prioritize all structural and
nonstructural water quality improvement projects;
and specify pollutant load reduction benchmarks and
deadlines that demonstrate progress toward
meeting all applicable stormwater WLAs.
Carroll County’s Final Permit requires that all of the
above data be submitted on an annual basis
including: monitoring site locations; chemical
monitoring results; TMDL pollutant load reductions;
biological, habitat, and physical monitoring; illicit
discharge detection and elimination sampling; and a
narrative summary describing the results and
coordinated analyses of the data. A reporting
database that appears as “Attachment A” in Carroll
County’s MS4 Draft Permit was developed by MDE
for the submittal of monitoring and program
implementation data. The County’s comprehensive
monitoring plan comprised of all these programmatic
elements has provided the framework for developing
restoration strategies to improve water quality in
the County’s streams and rivers.
Planning for
candidate watershed restoration strategies has
begun and a detailed list of projects has been
developed. As a continuation of these efforts, the
County’s 2013 annual report identified 42 projects
currently in the planning, design or construction
phase for the fiscal year 2015.
Several organizations have also commented that the
Draft Permit’s monitoring requirements do not
sufficiently assess the County’s compliance with
WQS. As discussed under Issue I., the Draft Permit
does not mandate compliance with WQS, but does

234a
require the County to implement programs that will
make progress toward achieving WLAs and WQS
goals. Therefore, monitoring requirements within
Carroll County’s Final Permit do not need to
demonstrate that WQS are met.
Instead, the
required monitoring serves as a tool to evaluate best
management practices designed to reduce the
discharge of stormwater and pollution.
In summary, MDE believes that the stormwater
monitoring provisions contained in Carroll County’s
Final
Permit
are
sufficient
for
providing
comprehensive
water
quality
and
TMDL
assessments. The requirements include chemical,
physical, and biological monitoring, and provide
information to broadly assess the entire jurisdiction
as well as contribute to the statewide aggregated
data through focused, small scale watershed
monitoring.
Furthermore, the Final Permit’s
structure contributes the necessary feedback to allow
permittees to make adaptive management decisions
through an iterative process. As noted by EPA in its
letter to MDE dated September 23, 2014, these
requirements “…are consistent with Federal CWA
and NPDES stormwater program requirements.”
Thus, MDE will not make the suggested changes to
the Draft Permit language.
V. Annual Reports and Public Participation.
Restoration plans must be submitted within the first
year of the permit term for MDE approval.
Numerous environmental advocates believe that
these plans are major permit modifications that are
subject to public participation requirements under
the CWA. Typical comments received stated that
“[p]lans and schedules that are required under the

235a
permit meet the legal definition of 'effluent
limitations,' even when developed in the first
instance by the County and submitted to MDE for
approval. Therefore, they must be incorporated as
enforceable permit terms through a major permit
modification process.”
In the Final Permit, the restoration of twenty
percent of impervious areas that have not already
been restored to the MEP is the EPA approved
effluent limit for addressing both the Chesapeake
Bay and other applicable TMDL WLAs (see Issue I.).
MDE does not dictate how a permittee meets this
effluent limit.
This is consistent with MDE’s
approach for other NPDES permits (e.g., wastewater
treatment plants). Each jurisdiction has the ability
to tailor restoration activities to address unique
local challenges and site specific water quality
conditions by using the acceptable practices
identified in the MS4 Guidance. The County is given
flexibility to
determine how it implements
restoration. However, the County must also consider
in its restoration plans how planned implementation
addresses local TMDLs.
Neither the twenty percent restoration requirement
nor the five-year permit term schedule is being
modified through the submittal of local restoration
plans. MDE believes that the development and
submittal of restoration plans are annual reporting
requirements under CFR § 122.42(c) and do not
constitute major permit modifications. NPDES
annual reports require the County to submit
information on “…the status of implementing the
components of the
stormwater management
program that are established as permit conditions.”
Numerous other conditions require the submittal of

236a
information into MDE so that MS4 stormwater
program implementation can be tracked, assessed,
and enforced.
MDE does, however, have the
discretion as Director of the NPDES program in
Maryland to “…modify or revoke and reissue the
permit accordingly…” should evidence supporting a
modification be presented through annual reporting,
new information or regulations, alterations, or other
conditions found in CFR § 122.62(a) and (b).
MDE believes that it is important to involve the
public as much as possible during the development
of local restoration plans and has incorporated
language that will ensure this process in the Final
Permit. For example, PART IV.E.3. requires Carroll
County to provide copies of watershed assessments
and restoration plans to the public, post notice of
these assessments and restoration plans in local
newspapers and the County's website, allow for a 30
day comment period before finalizing assessment and
restoration plans, and provide a summary of how
the County will address any material comment
received from the public. One environmental
advocate acknowledges this process stating that
“…the current tentative draft permit provides for
public participation during the development of
watershed assessments and restoration plans,
including the TMDL process…” Other commenters
urged that “…MDE require the County to make its
annual reports available online in order to better
enable public participation…” MDE agrees and
included language to PART V.A.1. that requires the
County to “submit annual reports on or before the
anniversary date of this permit and post these
reports on the County’s website.”

237a
VI. MEP Compliance Standard and TMDLs.
The comments from environmental groups suggested
the Draft Permit needs to comply with State and
federal WQS and TMDLs (see Issue I.). In contrast,
several MS4 jurisdictions
(including Carroll,
Frederick, Charles, and Harford Counties) have
concerns regarding references to WQS, TMDLs, and
WLAs in the Draft Permit. In general, the counties
suggested that there is no legal mandate to require
strict compliance with WQS or TMDLs and that the
MEP standard should be applied to all MS4 permits.
Some of the counties also cited Congress’ 1987
decision to adopt MEP as the compliance standard
for MS4 permits. MDE agrees that Congress’ 1987
decision only required local governments to reduce
discharges to a technologically practicable standard.
Likewise, the Final Permit as written does not
mandate compliance with WQS or TMDL WLAs.
However, MDE does not agree with statements
suggesting that there is no legal requirement to
include references to WQS or TMDL WLAs.
Therefore, MDE is granted broad authority under 33
U.S.C. § 1342(p)(3)(B)(iii), and the discretion to
establish “…such other provisions as… the State
determines appropriate for the control of pollutants.”
See also Defenders of Wildlife, 191 F.3d at 1166
(noting that 33 U.S.C. § 1342(p)(3)(B)(iii) gives a
permitting authority discretion to determine if
additional “pollution controls are appropriate”).
While MDE has not exercised its broad authority to
require County stormwater discharges to strictly
comply with WQS or TMDL WLAs, the Final Permit
does address long term water quality goals. The
importance of addressing CWA goals is underscored

238a
in EPA documentation. This is summarized in the
EPA September 23, 2014 letter to MDE that outlines
the history of MS4 permit negotiations in Maryland.
In addition, EPA regulations, specifically 40 CFR §
122.44, require that BMPs and programs
implemented to comply with this permit must be
consistent with the assumptions of applicable WLAs
developed under approved TMDLs.
Water quality goals are addressed in the Final
Permit under PART III. Water Quality. This permit
condition requires the County to establish
management programs that will prohibit pollutants
so that the County is capable of complying with WQS
and will eventually attain WLAs. Furthermore, the
language references the section of the CWA that sets
forth the MEP standard. Thus, the County is not
required to meet WQS, TMDLs, or WLAs, but must
establish programs to make progress toward
meeting those goals in a manner that is practicable
over the permit term and in future permit terms.
The Final Permit further requires the County to
submit watershed restoration plans that describe
how it will implement control measures to eventually
attain the WLAs set forth in TMDLs. While the
Permit requires that these plans include deadlines
for attainment, the County is also required to
establish adaptive management strategies to
continuously reassess the effectiveness of its
programs. This adaptive approach is anticipated to
take several permit terms for all MS4 jurisdictions,
including Carroll County. Thus, MDE believes that
these permit terms meet the intent of the CWA,
because water quality goals will be achieved through
implementation of long term plans and programs.
This comports with an MEP standard of compliance.

239a
In summary, MDE issues NPDES permits that carry
both State and federal authority. MDE has legal
authority for requiring consistency with WQS and
TMDL WLAs in MS4 permits. However, the
framework of the Final Permit requires programs
and restoration plans that are designed to meet long
term water quality goals without strictly requiring
compliance with WQS. MDE will keep references to
WQS, TMDLs, and WLAs in the permit.
A. Watershed
Assessment
and
TMDL
Restoration Requirements.
Carroll, Howard,
Charles, Harford, and Frederick counties have
objected to PART IV.E.1.a. and PART IV.E.2.b. of the
Draft Permit. These sections require the County to
complete “detailed watershed assessments for the
entire County” by the end of the permit term, and to
submit restoration plans within one year for each
stormwater WLA that was approved by EPA prior to
permit issuance. The counties' reasoning for the
objection and MDE’s response follow:
1. MS4s Are Not Required to Address
TMDL WLAs or Provide a Final Date for
Meeting WLAs. Concerns by the counties stated
that “…requiring that the County include in its
TMDL plan a final date for meeting applicable
TMDLs is legally inconsistent with the MEP
standard. There is no legal requirement that MS4
permits include terms to address applicable
TMDLs.”
In addition, “…it is very difficult to
establish a final date…unknown factors could affect
the implementation schedule, making any detailed
schedule of questionable use.” Furthermore, the
“…provision also assumes that meeting the WLAs is
technically feasible, financially affordable and
generally practicable.”

240a
As discussed above, the Draft Permit does not
require strict compliance with WQS. MDE has
recognized, however, that further pollutant
reductions from stormwater discharges are necessary
to improve water quality pursuant to 33 U.S.C. §
1342(p)(3)(B)(iii). Therefore, there is a legal basis to
include permit requirements to address TMDLs.
However, the goal is to show progress toward
meeting TMDLs and this is expected to take several
permit terms for all MS4 jurisdictions, including
Carroll County. Due to the long term goal of
achieving WLAs, the County may set its plans,
schedules, and budgets in a manner that considers
practicability.
With respect to establishing a final date for meeting
applicable WLAs, this language was developed
during long term negotiations between EPA and
MDE. In recognizing that the CWA allows EPA the
right to review and deny the issuance of a permit
under 33 U.S.C. § 1342(d)(2), EPA has a critical role
in how NPDES MS4 permits are drafted. As part of
the
permit
negotiations,
MDE
and
EPA
compromised on language that established a final
date for meeting WLAs as goals.
The EPA September 23, 2014 letter outlined
comments on early versions of the Draft Permit
related to TMDL WLAs. The letter specified that:
“EPA considers whether the permit contains
objective and measurable elements (e.g., schedule for
BMP
installation
or
level
of
BMP
performance)…EPA expects that such objective and
measurable elements will be included in permits as
an enforcement provision.” In addition, the letter
stated “EPA had previously objected to the June
2012 draft permit because it: … did not includes [sic]

241a
a final date for meeting applicable
benchmarks required in the annual report.”

WLAs

As a result of these discussions with EPA, the Final
Permit requires the County to propose restoration
plans with a final date for meeting WLAs. This will
allow a long term planning strategy to incorporate
the ultimate goal of achieving WQS. This meets the
intent of the CWA and is deemed satisfactory by
EPA. However, the Final Permit as written allows
an iterative process that will incorporate any
necessary changes in strategies and adjustment in
BMP implementation over potentially numerous
permit terms.
2. The Assessment and Planning Sections
Are Duplicative and Confusing. Carroll and
other MS4 counties suggested that these sections
need greater clarity so that detailed scheduling
comes after prioritizing projects. While MDE expects
that the initial assessments will set priorities for
water quality improvement projects, the Final
Permit is also structured so that an adaptive
management process will dictate final scheduling
and address site specific design challenges. It is
expected that the restoration plans developed after
one year will identify priority projects along with a
schedule for implementation. However, MDE
believes the Final Permit allows any fine tuning of
schedules to address site specific concerns through
the iterative process. Thus, the assessment and
planning sections of the Draft Permit will remain as
written.
3. The County Should Be Given a
Reasonable Amount of Time to Complete Plans.
The counties suggested that it is “…not possible to

242a
complete the type of restoration plan called for by
the Draft Permit in the time given. In particular, the
Draft Permit requires that the County include
detailed cost estimates for individual projects,
programs, controls, and plan implementation with
the restoration plan for each stormwater WLA. One
year is not enough time to assess each individual
watershed, much less to use that information to
develop plans with specific BMPs and associated
cost estimates. Also, conceptually, mandating a
complete, enforceable plan within one year is
contrary to adaptive management.”
The restoration plans serve as a planning framework
that establishes schedules for the County to
eventually attain WLAs set forth in approved
TMDLs. This planning framework is part of an
ongoing process that was established since the
County’s original permit in 1993. The 1993 permit
required the County to submit an implementation
schedule
for
its
proposed
watershed
evaluation/restoration
projects
and
prioritize
watersheds for the expansion of successful
stormwater management practices. In addition, the
County’s second and third-generation permits
required more detailed assessments, cost estimates,
and implementation schedules. Therefore, this
section of the Final Permit requires that Carroll
County continue the process already initiated
through prior permit requirements that began nearly
21 years ago.
Examples of current progress toward these efforts are
noted with the “2014 Watershed Assessments and
Planning” and other work described in Carroll County
annual reports. For example, the summary on page 7
of the Carroll County’s 2014 annual report states:

243a
The Bureau of Resource Management (BRM)
is responsible for monitoring and watershed
assessment efforts required under the NPDES
MS4 permit. “These efforts include the survey
and verification of existing conditions,…[t]he
BRM’s Watershed assessments support the
development of Watershed Management
Plans…”
Page 52 of the report provides more details and
states that:
“…Carroll County continues to vigorously
apply its efforts at watershed restoration, i.e.,
impervious surface mitigation and water
quality improvement. Projects are identified
via the watershed assessment process. The
current status of watershed planning can be
found in figure 21.” This figure identifies the
watershed along with the status of stream
corridor
assessments,
watershed
assessments, and the development of
watershed restoration plans.”
The projects mentioned above show that the County
has recognized the importance of initiating efforts to
develop County-wide watershed and impervious area
assessments.
In addition, the Final Permit
requirement to submit restoration plans within one
year is intended to move forward and facilitate the
planning efforts that have been initiated since the
County’s first permit in 1993. MDE believes that the
permit history shows that adequate time is given for
the development of these plans.
The counties also noted concerns that restoration
plans are considered enforceable permit conditions.
MDE expects that the iterative process will allow

244a
long term adaptive management
specific challenges and needed
schedules. MDE will consider all
with successful implementation
enforcement action.

to address site
modifications to
factors involved
prior to taking

B. The Chesapeake Bay TMDL and Twenty
Percent Restoration Requirement. Maryland’s
NPDES MS4 permits require coordination with its
WIP and will be used as the regulatory backbone for
controlling urban pollutants toward meeting the
Chesapeake Bay TDML by 2025. The Draft Permit
requires compliance with the Chesapeake Bay TMDL
through the use of a strategy that calls for the
restoration of twenty percent of previously developed
impervious land that has little or no controls.
However, Charles, Frederick, and Harford counties
have opposed the requirement in the permit to
“…commence and complete the implementation of
restoration efforts for twenty percent of the County’s
impervious surface area…” The counties believe this
provision exceeds an MEP level of effort and that
compliance would be financially and operationally
infeasible. In addition, the counties believe that
“MDE has no factual basis for concluding that the
County is capable of implementing the kinds of
substantial clean-up measures in the Phase I and
Phase II WIPs by 2025.”
MDE maintains that compliance with the twenty
percent restoration requirement is necessary in
order for the permit to be consistent with the
Chesapeake Bay TMDL and Maryland’s WIP. The
importance of using the twenty percent restoration
requirement to meet the Chesapeake Bay TMDL
was underscored in the EPA September 23, 2014
letter, which stated: “EPA had previously objected

245a
to the June 2012 draft permit because it: (1) failed to
explicitly state what actions the permittee had to
take to meet the Chesapeake Bay TMDL…” In
addition, “EPA has reviewed this permit and
considers the effluent limit (i.e., 20 percent reduction
of impervious surface area)…consistent with the
reductions called for in both Maryland’s WIP and
CBP 2017 interim goals. EPA is satisfied that this
permit is consistent with the overall assumptions
and requirements of the Chesapeake Bay TMDL
WLA and the CBP goal of 2025.”
As a result, MDE has used its discretion pursuant to
33 U.S.C. § 1342(p)(3)(B)(iii) to set more specific
pollutant reduction goals for urban stormwater
discharges as part of the Chesapeake Bay TMDL
that do not consider practicability. Although MDE
has not established WQS or WLAs as effluent
limitations, it has established the twenty percent
restoration requirement as a water quality based
effluent limitation that is beyond the MEP standard.
Therefore, the EPA
September 2014 letter
articulated the need for consistency with the
Chesapeake Bay TMDL, and this is satisfied
through the twenty percent restoration strategy.
Furthermore, this strategy will meet the necessary
reductions for interim and long term Bay restoration
milestones and is consistent with EPA and
statewide initiatives to restore Chesapeake Bay.
VII. MDE’s Stormwater Accounting Guidance
Is Flawed.
Several other MS4 counties in Maryland commented
that MDE’s MS4 Guidance is flawed and should not
be referenced in the Draft Permit. The counties list
several reasons for why the MS4 Guidance is flawed

246a
including, the Chesapeake Bay WIP, MS4 permits,
and the MS4 Guidance are inconsistent; BMP
efficiencies continue to change; ESD to the MEP
should not be required for all restoration; and, MS4
trading policies are not allowed. For these reasons,
the counties contend “…that the Stormwater
Accounting Guidance should remain guidance and
not be incorporated as a term in the MS4 permit.”
A. Maryland’s Chesapeake Bay WIP, MS4
Permits, and the Guidance Are Inconsistent.
Several counties commented that Maryland’s
Chesapeake Bay WIP, MS4 permits, and the MS4
Guidance are not consistent with each other.
Specifically, one county stated that “…the Permit is
inconsistent with and more onerous than the WIP.
The WIP applies the 20% restoration equivalency
percentage to the pre-1985 impervious cover. In
contrast, the Permit includes a far larger area – all
of the untreated impervious area consistent with the
methodology in MDE’s Stormwater Accounting
Guidance, which applies the restoration requirement
to all pre-2002 development.”
Maryland’s WIP analysis estimated stormwater
loads and reductions based upon Maryland
Department of Planning land cover information and
the date when stormwater management was first
required statewide.
Maryland first enacted a
stormwater management law in 1982, and
municipalities and counties were implementing the
program by 1985. Consequently, Maryland’s WIP
analysis used 1985 as the baseline year for
determining if land development occurred with or
without stormwater management.

247a
Through the years, Maryland’s stormwater
management program has undergone several
updates.
Initially,
the
State’s
stormwater
management
program
focused
on
quantity
management to control flooding.
In 2000,
Maryland’s stormwater management regulations
were updated to require that water quality be
addressed. These regulations were implemented
across the State by 2002. Accordingly, BMPs
implemented between 1985 and 2002 provided very
little if any water quality treatment. For this
reason, there are numerous opportunities to improve
stormwater management on land areas that were
developed between the years of 1985 and 2002. For
example, BMPs that were constructed primarily for
flood control (e.g., dry ponds) may be retrofitted to
provide water quality.
MDE has the discretion to develop permit conditions
that it considers appropriate for meeting
stormwater WLAs, even if they are more stringent
than prior TMDL or WIP documents (see Issue VI.
MEP
Compliance
Standard
and
TMDLs).
Maryland’s MS4 permits were written to incorporate
when water quality treatment was required by the
State’s stormwater management
regulations.
Specifically, MDE established 2002 as the year for
determining baseline impervious area criteria for
restoration. As noted by the counties, changing the
baseline date from 1985 to 2002 increases the
impervious area that needs to be restored in
comparison to the WIP analysis. MDE believes,
however, that the increased impervious area and
restoration requirements are part of the iterative
plan process necessary for meeting stormwater
WLAs established in the Chesapeake Bay TMDL by

248a
2025. Therefore, MDE will maintain the existing
language in the Final Permit.
B. BMP Efficiencies Continue to Change. A
number of counties believe that numerous BMPs
and efficiencies for meeting the Chesapeake Bay
TMDL continue to change. The counties’ concern is
that “…MDE will reflect those changes in future
versions of the Stormwater Accounting Guidance.”
Furthermore, one county opined, “[i]f BMP efficiency
updates result in ‘downgrading’ of certain BMPs,
these changes should not be held against the County,
as we will have invested years and millions of
dollars in their installation.” MDE is sympathetic to
this concern. However, because stormwater TMDL
WLAs are goals, the counties will not be held
accountable for fluctuations in BMP efficiencies. The
counties will be held accountable to a much more
stable criterion in the Final Permit, namely, the
twenty percent restoration requirement.
It is likely that BMP efficiencies and pollutant
loadings will continue to change as the Chesapeake
Bay Model (Model) is recalibrated with better data.
While these updates help to improve the accuracy of
the Model, they do present some uncertainty for the
counties as they work to show progress toward
meeting TMDLs.
This would be unfair if the
stormwater TMDL WLAs were strict compliance
standards in the MS4 permits, but they are not (see
Issue I. Water Quality Standards and Total
Maximum Daily Loads). The counties merely need to
incorporate these new efficiencies into their
accounting methods for showing progress toward
meeting
TMDLs
and
supporting
adaptive
management strategies.

249a
MDE has established a much more precise
measurement for complying with the MS4 permits.
Specifically, MDE has established the twenty percent
impervious area restoration requirement as an
effluent limit for stormwater TMDL WLAs. The
methods for calculating impervious area restoration
are relatively clear and straightforward, and
purposely, are not as susceptible to change over
time. In fact, when Model Version 5.3.0 was recently
updated to Version 5.3.2 and the pollutant loads
changed, MDE did “…not believe that this change
[was] significant enough to recalculate impervious
acre
equivalencies”
(MS4
Guidance,
2014).
Furthermore, MDE stated that “[a]nother important
benefit of maintaining consistent equivalent
impervious acre credits is…a higher level of
predictability to local governments in the assessment
and implementation of practices for meeting MS4
permit requirements.” Therefore, MDE will keep the
reference to the MS4 Guidance in the Final Permit.
C. ESD to the MEP Is Required for All MS4
Restoration.
Several
other
MS4
counties
commented that the Draft Permit requires that ESD
be implemented to the MEP for all MS4 restoration.
Specifically, they point to permit condition PART
IV.E.2.a., which states, “[e]quivalent acres restored
of impervious surfaces, through new retrofits or the
retrofits of pre- 2002 structural BMPs, shall be
based upon the treatment of the WQv criteria and
associated list of practices defined in the 2000
Maryland Stormwater Design Manual. For alternate
BMPs, the basis for calculation of equivalent
impervious acres restored is based upon the
pollutant loads from forest cover.”

250a
The counties contended that the Draft Permit
language compels them to implement all of the
requirements and criteria found in the Manual.
These include the requirement that ESD to the MEP
must be used before any structural controls may be
implemented and that ESD to the MEP must be
used for at least the WQv, or the volume from one
inch of rainfall across a BMP’s drainage area. The
counties believe that requiring ESD to the MEP for
restoration would “result in the skyrocketing of
costs” because these practices are the most expensive
to implement.
The Final Permit does not incorporate the Manual in
its entirety for restoration projects, but selects a
subset of criteria to follow from the Manual and the
MS4 Guidance. For example, the stormwater
management practices implemented must be either
those found in the Manual or alternative BMPs as
defined in the MS4 Guidance. For the BMPs that
are found in the Manual, they must be sized to treat
the WQv in order to receive impervious area credit.
For alternative BMPs, pollutants must be treated so
that the pounds reduced are equivalent to that of
converting an acre of impervious surface to an acre
of forest.
The list of practices from the Manual includes ESD
to the MEP and more traditional stormwater
management structures like stormwater ponds,
wetlands, infiltration, filtering systems, and open
channel systems. Acceptable alternative practices
include
impervious
surface
removal,
street
sweeping, catch basin cleaning, reforestation, stream
restoration,
outfall
stabilization,
shoreline
management, and septic system enhancements. The
Final Permit does not indicate a preference for the

251a
use of these practices but allows each jurisdiction the
flexibility to choose its preferred mix of BMPs for
implementation. Because the Draft Permit does not
explicitly require Carroll County to use ESD to the
MEP for all MS4 restoration projects, MDE will
retain PART IV.E.2.a. of the Draft Permit as written.
D. MS4 Trading Policies. A number of the MS4
counties believe that the Draft Permit should be
modified to authorize trading.
One county
commented that “MS4s would benefit greatly from
an open and transparent [S]tate trading program.
According to a study performed by the Chesapeake
Bay Commission, allowing significant point sources
and urban stormwater sources to trade could
potentially reduce compliance costs…” MDE agrees
with the counties, however, because these trading
policies have not been finalized, it would be
premature to include them in the Final Permit.
According to the State’s WIP, MDE is charged with
developing an Accounting for Growth (AFG) policy
“…to help offset new or increased discharges, and
provide
alternatives
for
achieving
greater
environment protection than through existing
regulatory programs.” However, extensive outreach
and public comment regarding the AFG policy
revealed that there was a lack of consensus on many
of the fundamental issues. A work group was
established in 2013 that was comprised of various
stakeholders to find common ground, clarify areas of
disagreement, and make recommendations for a
draft AFG policy. MDE is amenable to considering
trading as an option for meeting stormwater WLAs
once an official trading policy is established.
However, no changes will be made to the permit at
this time.

252a
VIII. Management
Programs
Federalization of State Laws.

and

Various comments were received from the MS4
Phase I counties regarding the language contained
in many of the management programs described in
PART IV.D. of the Draft Permit. Comments
expressed concern that the Draft Permit was
mandating that counties be held responsible for the
behavior of third-party individuals or companies.
Additionally, the counties objected to conditions in
the Draft Permit that require compliance with State
laws and regulations as this federalizes State
programs and opens counties up to enforcement
actions by the EPA and possibly other entities for
activities overseen by the State.
A. Federalization of State Laws.
Several
counties believe that PARTS IV.D.1. and IV.D.2. of
the Draft Permit inappropriately incorporate State
law requirements, and thereby, federalizes them.
Comments received stated that each of these
programs is a major undertaking with many
associated activities and details, and what MDE and
the County may view as improvement opportunities,
EPA or other third parties may view and enforce as
deficiencies and violations. This is of concern
because federalization triggers federal enforceability
and penalties, typically different and far beyond
what was contemplated when the State requirements
were established. This includes enhanced legal
standing, which provides a greater opportunity for
third-person citizen law suits.
MDE has had long standing programs for both
stormwater management (established in 1982) and
erosion and sediment control (established in 1972)

253a
that meet or exceed federal regulations that were
established in 1992. Provision for establishing a state
program in lieu of a federal program is set forth in 40
CFR § 122.1(b). Because CFR allows qualifying local
programs to be used in place of those required in
federal regulations, MDE chose to incorporate both
programs into NPDES MS4 permits.
MDE made the decision to incorporate State program
requirements into the permit for three reasons.
First, MDE believes that this approach is the most
programmatically reasonable. Incorporating the
State’s erosion and sediment control and stormwater
management programs into the permit eliminates
the redundancy of having two separate State and
federal programs. For example, there is bound to be
overlap of activities if two similar programs, one
State and one federal, are implemented. Second,
this approach reduces the financial costs associated
with having two separate programs. Third, in its
letter dated November 29, 2012, EPA commented on
the issue of backsliding. Because these programs
have been a fundamental construct of the County’s
MS4 Permit since the 1990’s, MDE believes that EPA
would object to the removal of these elements from
the MS4 Draft Permit. Thus, except as described in
Issue VIII.D. below, MDE’s decision is to keep the
existing language in PARTS IV.D.1. and IV.D.2. of
the permit.
B. Permit Makes County Accountable for
Third-Party Behavior. Carroll County and other
counties commented that the MS4 Draft Permit
imposes potential liability on the County for thirdparty behavior.
An example used was the
introductory sentence of PART IV.D.3. Illicit
Discharge Detection and Elimination that states “…

254a
County shall continue to implement an inspection
and enforcement program to ensure that all
discharges to and from the MS4 that are not
composed entirely of stormwater are either permitted
by MDE or eliminated.” The counties are concerned
that this wording could hold the County responsible
for the actions of another party and compared it to
requiring a police department to guarantee that no
crime will ever be committed.
It is evident from the five permit conditions that
follow this introductory sentence that MDE
acknowledges illicit discharges and other nonpermitted activities may occur. Therefore, MDE
requires an illicit discharge detection and elimination
program that includes field screening of outfalls to
locate illicit discharges, procedures for spill response,
and appropriate enforcement
procedures for
investigating and eliminating illicit discharges. The
Final Permit requires the County to manage
programs designed to limit pollutant discharges to
the MEP. Therefore, the expectation of MDE is not
that illicit discharges will never occur but that an
adequate program is in place to actively search for
and eliminate illicit discharges. The Final Permit is
consistent with this logic.
A similar comment was made with regard to PART
IV.D.4. Litter and Floatables. While other counties
questioned how they could document all litter control
problems as well as demonstrate that an acceptable
level of effort was undertaken to reduce litter,
Carroll County objected to the inclusion of this
section in the permit in the first place. Carroll
County feels that the language: “Increases in litter
discharges to receiving waters have become a
growing concern nationally and within Maryland

255a
and cannot be ignored” has no place in a discharge
permit. Additionally, the County believes that since
there is no CWA 303d listing for litter and /or
floatables for Carroll County, this provision would
misdirect limited County resources to a non-priority
issue. MS4 permits are to prevent pollution. In its
2014 annual report, Carroll County documents that
for pollution prevention, the County conducts street
sweeping, inlet cleaning, and recycling efforts.
This section of the permit requires two main actions
on the part of the County. First, the County must
include in its watershed assessments an evaluation
of litter problems in each particular watershed as
well as document current litter control programs and
opportunities for improvements. Thus, the question
of what is expected will be answered on an individual
watershed basis as described in the County’s own
watershed assessments and not through specific
permit conditions.
Second, the permit requires the County, within one
year of permit issuance, to develop, implement, and
annually assess the effectiveness of an education and
outreach program that educates the public on the
importance of reducing, reusing, and recycling. The
conditions described in this section are similar to
the public education program required by PART
IV.D.6. and should be easily incorporated into the
required outreach efforts performed by the County.
Any existing litter control programs that meet
permit requirements should be documented in
Carroll County’s annual report. The intent of this
permit section is to document implementation and,
where there are shortfalls, to make program
improvements. Thus, MDE has made no changes to
these sections of the permit.

256a
C. Good Housekeeping Requirements Are too
Broad. Several of the counties had concerns
regarding the requirement to ensure “…all County
staff receive adequate training in pollution
prevention and good housekeeping practices.” The
counties are concerned that “all” employees must
receive this training. They have requested that
MDE change the language to “appropriate”
employees.
MDE agrees the training should be specific to
professionals whose job directly relates to MS4
requirements. The Final Permit specifies that staff
should receive “adequate” training. The intent is to
allow the County to use discretion when directing
training efforts to necessarypersonnel.
MDE
believes that the Final Permit addresses the
counties’ concern and no changes have been made.
D. Remove Requirement for RPC Classes. A
request was made that PART IV.D.2.b. of the Draft
Permit be removed. This section states “[a]t least
two times per year, conducting
Responsible
Personnel
Certification
classes
to
educate
construction site operators regarding erosion and
sediment control compliance;…” MDE agrees that
this section can be modified because an online webbased training course is now available through MDE
for the required certification. Thus, PART IV.D.2.b.
of the Final Permit now reads “[e]nsure that
construction site operators have received training
regarding erosion and sediment control compliance
and hold a valid Responsible Personnel Certification
as required by MDE.”

257a
IX. Regulated Permit Area.
Carroll County and three other jurisdictions that are
subject to Phase I permits questioned the
boundaries of the regulated permit area. Carroll
County believes that language set forth in the
permit exceeds the jurisdictional scope of applicable
law because, restoration plans should only apply to
watersheds that have WLAs set forth in approved
TMDLs. The other three jurisdictions, objected “…to
MDE’s decision to expand the regulated permit area
beyond the area served by the MS4 itself.” The
counties are concerned because “…other Phase I
MS4s in the State have urban areas and rural
areas, the latter of which may have no stormwater
facilities or systems that feed into the municipallyowned MS4.” Accordingly, these jurisdictions
suggest that land outside of this defined conveyance
system cannot be included in the MS4 permit.
Language set forth in Carroll County’s permit states
that “[t]his permit covers all stormwater discharges
from the municipal separate storm sewer system
owned or operated by Carroll County, Maryland.”
EPA in 40 CFR § 122.26(b)(8) defines a “municipal
separate storm sewer system” as “…a conveyance or
system of conveyances (including roads with drainage
systems, municipal streets, catch basins, curbs,
gutters, ditches, man-made channels, or storm
drains): (i) Owned or operated by a State, city, town,
borough, county, parish, district, association, or other
public body…having jurisdiction over disposal of
sewage, industrial wastes, storm water, or other
wastes…; (ii) Designed or used for collecting or
conveying storm water…” This definition, along with
other State and federal regulations, gives MDE the
authority to issue this Draft Permit jurisdiction-wide.

258a
Since the inception of the NPDES stormwater
program, MDE has considered permit coverage to be
jurisdiction-wide. This approach is based on specific
permit provisions, such as erosion and sediment
control and stormwater management programs,
which are included in State statute, administered
locally, and implemented jurisdiction-wide. All
private development within the borders of Carroll
County requires erosion and sediment control and
stormwater
management
approval,
and
is
subsequently inspected, maintained, and enforced
under the County’s authority. MDE believes that it
is also logical that federal stormwater management
regulations be implemented jurisdiction-wide.
Additionally, in the November 16, 1990 preamble to
the NPDES stormwater regulations, EPA suggested
that permit coverage may include areas where
jurisdictions have control over land use decisions.
MDE agrees and believes that the amount and
quality of stormwater entering an MS4 are affected
by planning and zoning decisions made by a
jurisdiction. Accordingly, it is reasonable to base the
scope of the permit on the entire jurisdiction.
The argument to limit regulated permit area takes a
myopic view of the MS4 system and ignores the
language set forth in 40 CFR § 122.26(a)(1)(v). This
section states that MDE may require an NPDES
stormwater permit for discharges that “…contribute
to a violation of a water quality standard or is a
significant contributor of pollutants to waters of the
United States.” Section 40 CFR § 122.26(a)(1)(v)
further provides that MDE may “…designate
discharges from municipal separate storm sewer
systems on a system-wide or jurisdiction-wide basis.”
Therefore, MDE will continue to define the

259a
regulated permit area as jurisdiction-wide and
considers all provisions of this permit to apply to
the geographic area of Carroll County.
X. Distinction Between Phase I Large and
Medium Jurisdictions.
Comments were received by a number of counties
objecting to treating all Phase I jurisdictions as if
they have the same capacity to manage MS4 permit
obligations. In the comments, the counties objected
“…to treating all Phase I communities as if they
have the same capacities to manage MS4 permit
obligations. To suggest that the State’s counties,
with populations per the 2010 Census ranging from
146,551 (Charles County) to 287,085 (Carroll
County) are in the same position financially and
operationally as Baltimore County (805,029) or
Prince George’s County (863,420) is illogical. It also
belies the concept of an individual permit, which
should be tailored for each community.” Most
jurisdictions believe that there should be a
distinction between an individual and a group
permit and that MDE has effectively created a
general permit with its template approach.
The content of the various MS4 permits being issued
is based on a common template. The final version of
this template is the result of months of negotiations
between MDE, EPA, local jurisdictions, and various
environmental groups.
Because there is no
requirement to issue distinctly different permits to
each jurisdiction, MDE has opted to use a template
based process to expedite the development of this
generation of NPDES permits. This same process
was used successfully to develop the previous
permits.

260a
MDE believes that while similar language exists in
all the MS4 permits, each draft permit is tailored to
address the needs of the jurisdiction being issued the
permit. For example, while large MS4s must screen
for at least 150 outfalls, the medium jurisdictions
must only screen for 100. Medium jurisdictions are
required to monitor eight storms while large
jurisdictions are required to monitor twelve storms.
Litter and trash programs are tailored to address
each MS4’s needs, and TMDLs in each permit
pertain to that jurisdiction only. Additionally, the
twenty percent restoration of impervious surface
area permit condition is based on each MS4’s
baseline impervious area. Consequently, larger,
more densely developed jurisdictions will have more
impervious area and medium jursdictions will have
less impervious area that will require restoration.
MDE believes that this is an appropriate scaling of
the restoration requirements. Moreover, the twenty
percent restoration requirement is based on MDE’s
Chesapeake Bay TMDL strategy. Therefore, it is a
water quality based effluent limitation and does not
consider practicability.
The Final Permit will
remain as written prior.
XI. Summary.
Carroll County and numerous environmental
advocacy groups have not only commented on the
Draft Permit but have submitted suggested language
changes for MDE's consideration. The changes
being recommended for the Final Permit repeat
many of the arguments submitted during the
commenting period regarding water quality
standards and TMDLs, restoration criteria,
monitoring, management program requirements,
regulated permit area, annual reporting and public

261a
participation, and the MS4 Guidance document.
MDE appreciates the efforts of those involved in the
Tentative Determination process.
MDE has
considered the many viewpoints and believes the
Final Permit offers a balanced approach while
meeting the intent of the CWA. Except for the
changes described in Issue VIII.D. Regarding
Responsible Personnel certification classes, no other
Permit language changes have been made.
MDE believes that numerous meetings among local,
State, federal, and environmental stakeholders
leading up to the Tentative Determination were
useful in developing an effective Draft Permit in
compliance with State and federal laws. In its
October 22, 2013 letter to MDE regarding the
template permit, EPA stated that “...this permit and
the MS4 program have been the subject of extensive
discussions among EPA, MDE, County, and various
stakeholder groups over the last two years. As a
result of these discussions, numerous changes have
been made to this MS4 permit to ensure that: it
meets regulatory requirements; is enforceable; and
achieves the water quality objectives of the Clean
Water Act (CWA).” Furthermore, in its September
23, 2014 letter, EPA stated that “[w]e are pleased to
note that the 2014 Draft Permit represents a
significant improvement for Carroll County’s
municipal stormwater program and its receiving
waters. EPA confirms that the 2014 Draft Permit is
satisfactory for purposes of the CWA and NPDES
permit regulations.”
In summary, this Final Permit is a major step
forward toward meeting the water quality objectives
of the CWA. Prior permits have required Carroll
County to possess adequate legal authority, monitor

262a
stormwater
discharges,
and
implement
comprehensive
management
programs.
New
requirements in this permit include restoring twenty
percent of the County’s impervious area, reducing
litter and floatables, and developing restoration
plans to meet stormwater WLAs for impaired
waters, including the Chesapeake Bay TMDL by
2025. MDE believes that this permit is both
stringent enough to ensure water quality
improvement and flexible enough for the
development of practicable plans by the County.
Therefore, on December 29, 2014, MDE has reached
a Final Determination to issue this NPDES Final
Permit to Carroll County for the control of storm
drain system discharges. The public has 30 days to
request a judicial review.

263a
33 USCS § 1342
Current through Public Law 116-65,
approved October 9, 2019.
United States Code Service > TITLE 33.
NAVIGATION AND NAVIGABLE WATERS
(Chs. 1 — 54)
> CHAPTER 26. WATER
POLLUTION PREVENTION AND CONTROL
(§§ 1251 — 1388) > PERMITS AND LICENSES
(§§ 1341 — 1346)
§ 1342. National pollutant discharge elimination
system
_________________________________________________
(a) Permits for discharge of pollutants.
(1) Except as provided in sections 318 and 404 of
this Act [33 USCS §§ 1328, 1344], the
Administrator may, after opportunity for public
hearing, issue a permit for the discharge of any
pollutant,
or
combination
of
pollutants,
notwithstanding section 301(a) [33 USCS §
1311(a)], upon condition that such discharge will
meet either (A) all applicable requirements under
sections 301, 302, 306, 307, 308, and 403 of this
Act [33 USCS §§ 1311, 1312, 1316, 1317, 1318,
1343], (B) or prior to the taking of necessary
implementing actions relating to all such
requirements,
such
conditions
as
the
Administrator determines are necessary to carry
out the provisions of this Act [33 USCS §§ 1251 et
seq.].
(2) The Administrator shall prescribe conditions
for such permits to assure compliance with the

264a
requirements of paragraph (1) of this subsection,
including conditions on data and information
collection,
reporting,
and
such
other
requirements as he deems appropriate.
(3) The permit program of the Administrator
under paragraph (1) of this subsection, and
permits issued thereunder, shall be subject to the
same terms, conditions, and requirements as
apply to a State permit program and permits
issued thereunder under subsection (b) of this
section.
(4) All permits for discharges into the navigable
waters issued pursuant to section 13 of the Act of
March 3, 1899 [33 USCS § 407], shall be deemed
to be permits issued under this title [33 USCS §§
1341 et seq.], and permits issued under this title
[33 USCS §§ 1341 et seq.] shall be deemed to be
permits issued under section 13 of the Act of
March 3, 1899 [33 USCS § 407], and shall
continue in force and effect for their term unless
revoked, modified, or suspended in accordance
with the provisions of this Act [33 USCS §§ 1251
et seq.].
(5) No permit for a discharge into the navigable
waters shall be issued under section 13 of the Act
of March 3, 1899 [33 USCS § 407], after the date
of enactment of this title [enacted Oct. 18, 1972].
Each application for a permit under section 13 of
the Act of March 3, 1899 [33 USCS § 407],
pending on the date of enactment of this Act
[enacted Oct. 18, 1972], shall be deemed to be an
application for a permit under this section. The
Administrator shall authorize a State, which he
determines has the capability of administering a

265a
permit program which will carry out the objective
of this Act [33 USCS §§ 1251 et seq.], to issue
permits for discharges into the navigable waters
within the jurisdiction of such State. The
Administrator may exercise the authority
granted him by the preceding sentence only
during the period which begins on the date of
enactment of this Act [enacted Oct. 18, 1972] and
ends either on the ninetieth day after the date of
the first promulgation of guidelines required by
section 304(h)(2) [304(i)(2)] of this Act [33 USCS
§ 1314(i)(2)], or the date of approval by the
Administrator of a permit program for such State
under subsection (b) of this section whichever
date first occurs, and no such authorization to a
State shall extend beyond the last day of such
period. Each such permit shall be subject to such
conditions as the Administrator determines are
necessary to carry out the provisions of this Act
[33 USCS §§ 1251 et seq.]. No such permit shall
issue if the Administrator objects to such
issuance.
(b) State permit programs. At any time after
the promulgation of the guidelines required by
subsection (h)(2) of section 304 [304(i)(2)] of this Act
[33 USCS § 1314(i)(2)], the Governor of each State
desiring to administer its own permit program for
discharges into navigable waters within its
jurisdiction may submit to the Administrator a full
and complete description of the program it proposes
to establish and administer under State law or
under an interstate compact. Inaddition, such State
shall submit a statement from the attorney general
(or the attorney for those State water pollution
control agencies which have independent legal

266a
counsel), or from the chief legal officer in the case of
an interstate agency, that the laws of such State, or
the interstate compact, as the case may be, provide
adequate authority to carry out the described
program. The Administrator shall approve each
such submitted program unless he determines that
adequate authority does not exist:
(1) To issue permits which—
(A) apply, and insure compliance with, any
applicable requirements of sections 301, 302,
306, 307, and 403 [33 USCS §§ 1311, 1312,
1316, 1317, 1343];
(B) are for fixed terms not exceeding five
years; and
(C) can be terminated or modified for cause
including, but not limited to, the following:
(i) violation of any condition of the permit;
(ii) obtaining a permit by misrepresentation,

or failure to disclose fully all relevant facts;

(iii) change in any condition that requires

either a temporary or permanent reduction
or elimination of the permitted discharge;
(D) control the disposal of pollutants into
wells;
(2)
(A)To issue permits which apply, and insure
compliance with, all applicable requirements
of section 308 of this Act [33 USCS § 1318] or

267a
(B)To inspect, monitor, enter, and require
reports to at least the same extent as required
in section 308 of this Act [33 USCS § 1318];
(3) To insure that the public, and any other State
the waters of which may be affected, receive
notice of each application for a permit and to
provide an opportunity for public hearing before a
ruling on each such application;
(4) To insure that the Administrator receives
notice of each application (including a copy
thereof) for a permit;
(5) To insure that any State (other than the
permitting State), whose waters may be affected
by the issuance of a permit may submit written
recommendations to the permitting State (and
the Administrator) with respect to any permit
application and, if any part of such written
recommendations are not accepted by the
permitting State, that the permitting State will
notify such affected State (and the Administrator)
in writing of its failure to so accept such
recommendations together with its reasons for so
doing;
(6) To insure that no permit will be issued if, in
the judgment of the Secretary of the Army acting
through the Chief of Engineers, after consultation
with the Secretary of the department in which
the Coast Guard is operating, anchorage and
navigation of any of the navigable waters would
be substantially impaired thereby;
(7) To abate violations of the permit or the permit
program, including civil and criminal penalties
and other ways and means of enforcement;

268a
(8) To insure that any permit for a discharge from
a publicly owned treatment works includes
conditions to require the identification in terms of
character and volume of pollutants of any
significant source introducing pollutants subject
to pretreatment standards under section 307(b) of
this Act [33 USCS § 1317(b)] into such works and
a program to assure compliance with such
pretreatment standards by each such source, in
addition to adequate notice to the permitting
agency of (A) new introductions into such works
of pollutants from any source which would be a
new source as defined in section 306 [33 USCS §
1316] if such source were discharging pollutants,
(B) new introductions of pollutants into such
works from a source which would be subject to
section 301 [33 USCS § 1311] if it were
discharging such pollutants, or (C) a substantial
change in volume or character of pollutants being
introduced into such works by a source
introducing pollutants into such works at the
time of issuance of the permit. Such notice shall
include information on the quality and quantity
of effluent to be introduced into such treatment
works and any anticipated impact of such change
in the quantity or quality of effluent to be
discharged from such publicly owned treatment
works; and
(9) To insure that any industrial user of any
publicly owned treatment works will comply with
sections 204(b), 307, and 308 [33 USCS §§
1284(b), 1317, 1318].

269a
(c) Suspension of Federal program upon
submission of State program; withdrawal of
approval of State program; return of State
program to Administrator.
(1) Not later than ninety days after the
date on which a State has submitted a
program (or revision thereof) pursuant to
subsection (b) of this section, the
Administrator shall suspend the issuance of
permits under subsection (a) of this section as
to those discharges subject to such program
unless he determines that the State permit
program does not meet the requirements of
subsection (b) of this section or does not
conform to the guidelines issued under
section 304(h)(2) [304(i)(2)] of this Act [33
USCS § 1314(i)(2)]. If the Administrator so
determines, he shall notify the State of any
revisions or modifications necessary to
conform to such requirements or guidelines.
(2) Any State permit program under this
section shall at all times be in accordance
with this section and guidelines promulgated
pursuant to section 304(h)(2) [304(i)(2)] of
this Act [33 USCS § 1314(i)(2)].
(3) Whenever
the
Administrator
determines after public hearing that a State
is not administering a program approved
under this section in accordance with
requirements of this section, he shall so
notify the State and, if appropriate corrective
action is not taken within a reasonable time,
not to exceed ninety days, the Administrator
shall withdraw approval of such program.

270a
The Administrator shall not withdraw
approval of any such program unless he shall
first have notified the State, and made
public, in writing, the reasons for such
withdrawal.
(4) Limitations on partial permit program
returns and withdrawals. A State may return
to the Administrator administration, and the
Administrator
may
withdraw
under
paragraph (3) of this subsection approval,
of—
(A)a State partial permit program
approved under subsection (n)(3) only if
the entire permit program being
administered by the State department or
agency at the time is returned or
withdrawn; and
(B)a State partial permit program
approved under subsection (n)(4) only if
an entire phased component of the permit
program being administered by the State
at the time is returned or withdrawn.
(d)

Notification of Administrator.
(1) Each State shall transmit to the
Administrator a copy of each permit
application received by such State and
provide notice to the Administrator of every
action related to the consideration of such
permit application, including each permit
proposed to be issued by such State.
(2) No permit shall issue (A) if the
Administrator within ninety days of the date
of his notification under subsection (b)(5) of

271a
this section objects in writing to the issuance
of such permit, or (B) of the Administrator
within ninety days of the date of transmittal
of the proposed permit by the State objects in
writing to the issuance of such permit as
being
outside
the
guidelines
and
requirements of this Act [33 USCS §§ 1251 et
seq.]. Whenever the Administrator objects to
the issuance of a permit under this
paragraph such written objection shall
contain a statement of the reasons for such
objection and the effluent limitations and
conditions which such permit would include if
it were issued by the Administrator.
(3) The Administrator may, as to any
permit application, waive paragraph (2) of
this subsection.
(4) In any case where, after the date of
enactment of this paragraph [enacted Dec.
27, 1977], the Administrator, pursuant to
paragraph (2) of this subsection, objects to
the issuance of a permit, on request of the
State, a public hearing shall be held by the
Administrator on such objection. If the State
does not resubmit such permit revised to
meet such objection within 30 days after
completion of the hearing, or, if no hearing is
requested within 90 days after the date of
such objection, the Administrator may issue
the permit pursuant to subsection (a) of this
section for such source in accordance with the
guidelines and requirements of this Act [33
USCS §§ 1251 et seq.].

272a
(e) Waiver of notification requirement. In
accordance with guidelines promulgated pursuant to
subsection (h)(2) of section 304 [304(i)(2)] of this Act
[33 USCS § 1314(i)(2)], the Administrator is
authorized to waive the requirements of subsection
(d) of this section at the time he approves a program
pursuant to subsection (b) of this section for any
category (including any class, type, or size within
such category) of point sources within the State
submitting such program.
(f) Point source categories. The Administrator
shall
promulgate
regulations
establishing
categories of point sources which he determines
shall not be subject to the requirements of
subsection (d) of this section in any State with a
program approved pursuant to subsection (b) of this
section. The Administrator may distinguish among
classes, types, and sizes within any category of
point sources.
(g) Other
regulations
for
safe
transportation, handling, carriage, storage,
and stowage of pollutants. Any permit issued
under this section for the discharge of pollutants
into the navigable waters from a vessel or other
floating craft shall be subject to any applicable
regulations promulgated by the Secretary of the
department in which the Coast Guard is operating,
establishing specifications for safe transportation,
handling, carriage, storage, and stowage of
pollutants.
(h) Violation
of
permit
conditions;
restriction or prohibition upon introduction
of pollutant by source not previously utilizing
treatment works. In the event any condition of a

273a
permit for discharges from a treatment works (as
defined in section 212 of this Act [33 USCS § 1292])
which is publicly owned is violated, a State with a
program approved under subsection (b) of this
section or the Administrator, where no State
program is approved or where the Administrator
determines pursuant to section 309(a) of this Act
[33 USCS § 1319(a)] that a State with an approved
program
has
not
commenced
appropriate
enforcement action with respect to such permit,
may proceed in a court of competent jurisdiction to
restrict or prohibit the introduction of any pollutant
into such treatment works by a source not utilizing
such treatment works prior to the finding that such
condition was violated.
(i) Federal enforcement not limited. Nothing
in this section shall be construed to limit the
authority of the Administrator to take action
pursuant to section 309 of this Act [33 USCS §
1319].
(j) Public information. A copy of each permit
application and each permit issued under this
section shall be available to the public. Such permit
application or permit, or portion thereof, shall
further be available on request for the purpose of
reproduction.
(k) Compliance with permits. Compliance with
a permit issued pursuant to this section shall be
deemed compliance, for purposes of sections 309
and 505 [33 USCS §§ 1319, 1365], with sections
301, 302, 306, 307, and 403 [33 USCS §§ 1311,
1312, 1316, 1317, 1343], except any standard
imposed under section 307 [33 USCS § 1317] for a
toxic pollutant injurious to human health. Until

274a
December 31, 1974, in any case where a permit for
discharge has been applied for pursuant to this
section, but final administrative disposition of such
application has not been made, such discharge shall
not be a violation of (1) section 301, 306, or 402 of
this Act [33 USCS § 1311, 1316, or 1342], or (2)
section 13 of the Act of March 3, 1899 [33 USCS §
407], unless the Administrator or other plaintiff
proves that final administrative disposition of such
application has not been made because of the
failure of the applicant to furnish information
reasonably required or requested in order to process
the application. For the 180-day period beginning
on the date of enactment of the Federal Water
Pollution Control Act Amendments of 1972 [enacted
Oct. 18, 1972], in the case of any point source
discharging any pollutant or combination of
pollutants immediately prior to such date of
enactment which source is not subject to section 13
of the Act of March 3, 1899 [33 USCS § 407], the
discharge by such source shall not be a violation of
this Act [33 USCS §§ 1251 et seq.] if such a source
applies for a permit for discharge pursuant to this
section within such 180-day period.
(l)

Limitation on permit requirement.
(1) Agricultural
return
flows.
The
Administrator shall not require a permit
under this section for discharges composed
entirely of return flows from irrigated
agriculture, nor shall the Administrator
directly or indirectly, require any State to
require such a permit.
(2) Stormwater runoff from oil, gas, and
mining operations. The Administrator shall

275a
not require a permit under this section, nor
shall the Administrator directly or indirectly
require any State to require a permit, for
discharges of stormwater runoff from mining
operations or oil and gas exploration,
production,
processing,
or
treatment
operations
or
transmission
facilities,
composed entirely of flows which are from
conveyances or systems of conveyances
(including but not limited to pipes, conduits,
ditches, and channels) used for collecting and
conveying precipitation runoff and which are
not contaminated by contact with, or do not
come into contact with, any overburden, raw
material, intermediate products, finished
product, byproduct, or waste products located
on the site of such operations.
(3)

Silvicultural activities.
(A)NPDES permit requirements for
silvicultural activities. The Administrator
shall not require a permit under this
section nor directly or indirectly require
any State to require a permit under this
section for a discharge from runoff
resulting from the conduct of the following
silviculture
activities
conducted
in
accordance with standard industry
practice:
nursery
operations,
site
preparation, reforestation and subsequent
cultural treatment, thinning, prescribed
burning, pest and fire control, harvesting
operations, surface drainage, or road
construction and maintenance.

276a
(B)Other requirements. Nothing in this
paragraph exempts a discharge from
silvicultural activity from any permitting
requirement under section 404 [33 USCS
§ 1344], existing permitting requirements
under section 402 [33 USCS § 1342], or
from any other federal law.
(C)The authorization provided in Section
505(a) [33 USCS § 1365(a)] does not apply
to
any
non-permitting
program
established under 402(p)(6) [33 USCS §
1342(p)(6)] for the silviculture activities
listed in 402(l)(3)(A) [33 USCS §
1342(l)(3)(A)], or to any other limitations
that might be deemed to apply to the
silviculture activities listed in 402(l)(3)(A)
[33 USCS § 1342(l)(3)(A)].
(m) Additional pretreatment of conventional
pollutants not required. To the extent a
treatment works (as defined in section 212 of this
Act [33 USCS § 1292]) which is publicly owned is
not meeting the requirements of a permit issued
under this section for such treatment works as a
result of inadequate design or operation of such
treatment works, the Administrator, in issuing a
permit under this section, shall not require
pretreatment by a person introducing conventional
pollutants identified pursuant to section 304(a)(4) of
this Act [33 USCS § 1314(a)(4)] into such treatment
works other than pretreatment required to assure
compliance with pretreatment standards under
subsection (b)(8) of this section and section 307(b)(1)
of this Act [33 USCS § 1317(b)(1)]. Nothing in this
subsection shall affect the Administrator’s authority
under sections 307 and 309 of this Act [33 USCS §§

277a
1317, 1319], affect State and local authority under
sections 307(b)(4) and 510 of this Act [33 USCS §§
1317(b)(4), 1370], relieve such treatment works of
its obligations to meet requirements established
under this Act [33 USCS §§ 1251 et seq.], or
otherwise preclude such works from pursuing
whatever feasible options are available to meet its
responsibility to comply with its permit under this
section.
(n)

Partial permit program.
(1) State submission. The Governor of a
State may submit under subsection (b) of this
section a permit program for a portion of the
discharges into the navigable waters in such
State.
(2) Minimum coverage. A partial permit
program under this subsection shall cover, at
a minimum, administration of a major
category of the discharges into the navigable
waters of the State or a major component of
the permit program required by subsection
(b).
(3) Approval or major category partial
permit programs. The Administrator may
approve a partial permit program covering
administration of a major category of
discharges under this subsection if—
(A) such program represents a complete
permit program and covers all of the
discharges under the jurisdiction of a
department or agency of the State; and
(B)
the

the Administrator determines that
partial program represents a

278a
significant and identifiable part of the
State program required by subsection (b).
(4) Approval of major component partial
permit programs. The Administrator may
approve under this subsection a partial and
phased
permit
program
covering
administration of a major component
(including discharge categories) of a State
permit program required by subsection (b)
if—
(A) the Administrator determines that
the partial program represents a
significant and identifiable part of the
State program required by subsection (b);
and
(B) the State submits, and the
Administrator approves, a plan for the
State to assume administration by phases
of the remainder of the State program
required by subsection (b) by a specified
date not more than 5 years after
submission of the partial program under
this subsection and agrees to make all
reasonable efforts to assume such
administration by such date.
(o)

Anti-backsliding.
(1) General prohibition. In the case of
effluent limitations established on the basis
of subsection (a)(1)(B) of this section, a
permit may not be renewed, reissued, or
modified on the basis of effluent guidelines
promulgated under section 304(b) [33 USCS
§ 1314(b)] subsequent to the original issuance

279a
of such permit, to contain effluent limitations
which are less stringent than the comparable
effluent limitations in the previous permit. In
the case of effluent limitations established on
the basis of section 301(b)(1)(C) or section 303
(d) or (e) [33 USCS § 1311(b)(1)(C) or 1313(d)
or (e)], a permit may not be renewed,
reissued, or modified to contain effluent
limitations which are less stringent than the
comparable effluent limitations in the
previous permit except in compliance with
section 303(d)(4) [33 USCS § 1313(d)(4)].
(2) Exceptions. A permit with respect to
which paragraph (1) applies may be renewed,
reissued, or modified to contain a less
stringent effluent limitation applicable to a
pollutant if—
(A) material and substantial alterations
or additions to the permitted facility
occurred after permit issuance which
justify the application of a less stringent
effluent limitation;
(B)
(i)information is available which was
not available at the time of permit
issuance
(other
than
revised
regulations, guidance, or test methods)
and which would have justified the
application of a less stringent effluent
limitation at the time of permit
issuance; or
(ii) the Administrator determines that
technical
mistakes
or
mistaken

280a
interpretations of law were made in
issuing the permit under subsection
(a)(1)(B);
(C)a less stringent effluent limitation is
necessary because of events over which
the permittee has no control and for which
there is no reasonably available remedy;
(D) the permittee has received a permit
modification under section 301(c), 301(g),
301(h), 301(i), 301(k), 301(n), or 316(a) [33
USCS § 1311(c), (g), (h), (i), (k), (n), or
1326(a)]; or
(E) the permittee has installed the
treatment facilities required to meet the
effluent limitations in the previous permit
and
has
properly
operated
and
maintained the facilities but has
nevertheless been unable to achieve the
previous effluent limitations, in which
case the limitations in the reviewed,
reissued, or modified permit may reflect
the level of pollutant control actually
achieved (but shall not be less stringent
than required by effluent guidelines in
effect at the time of permit renewal,
reissuance, or modification).
Subparagraph (B) shall not apply to any
revised waste load allocations or any
alternative grounds for translating water
quality standards into effluent limitations,
except where the cumulative effect of such
revised allocations results in a decrease in
the amount of pollutants discharged into the
concerned waters, and such revised

281a
allocations are not the result of a discharger
eliminating or substantially reducing its
discharge of pollutants due to complying with
the requirements of this Act [33 USCS §§
1251 et seq.] or for reasons otherwise
unrelated to water quality.
(3) Limitations. In no event may a permit
with respect to which paragraph (1) applies
be renewed, reissued, or modified to contain
an effluent limitation which is less stringent
than required by effluent guidelines in effect
at the time the permit is renewed, reissued,
or modified. In no event may such a permit to
discharge into waters be renewed, reissued,
or modified to contain a less stringent
effluent limitation if the implementation of
such limitation would result in a violation of
a water quality standard under section 303
[33 USCS § 1313] applicable to such waters.
(p) Municipal
discharges.

and

industrial

stormwater

(1) General rule. Prior to October 1, 1994,
the Administrator or the State (in the case of
a permit program approved under section 402
of this Act [this section]) shall not require a
permit under this section for discharges
composed entirely of stormwater.
(2) Exceptions. Paragraph (1) shall not
apply with respect to the following
stormwater discharges:
(A)A discharge with respect to which a
permit has been issued under this section

282a
before the date of the enactment of this
subsection [enacted Feb. 4, 1987].
(B)A discharge associated with industrial
activity.
(C)A discharge from a municipal separate
storm sewer system serving a population
of 250,000 or more.
(D)A discharge from a municipal separate
storm sewer system serving a population of
100,000 or more but less than 250,000.
(E)A
discharge
for
which
the
Administrator or the State, as the case
may be, determines that the stormwater
discharge contributes to a violation of a
water quality standard or is a significant
contributor of pollutants to waters of the
United States.
(3) Permit requirements.
(A) Industrial discharges. Permits for
discharges associated with industrial activity
shall meet all applicable provisions of this
section and section 301 [33 USCS § 1311].
(B)Municipal
discharge.
Permits
for
discharges from municipal storm sewers—
(i) may be issued on
jurisdiction-wide basis;

a

system-

or

(ii) shall include a requirement to
effectively
prohibit
non-stormwater
discharges into the storm sewers; and
(iii) shall require controls to reduce the
discharge of pollutants to the maximum

283a
extent practicable, including management
practices, control techniques and system,
design and engineering methods, and such
other provisions as the Administrator or
the State determines appropriate for the
control of such pollutants.
(4) Permit application requirements.
(A) Industrial
and
large
municipal
discharges. Not later than 2 years after the
date of the enactment of this subsection
[enacted Feb. 4, 1987], the Administrator
shall establish regulations setting forth the
permit
application
requirements
for
stormwater
discharges
described
in
paragraphs (2)(B) and (2)(C). Applications for
permits for such discharges shall be filed no
later than 3 years after such date of
enactment [enacted Feb. 4, 1987]. Not later
than 4 years after such date of enactment
[enacted Feb. 4, 1987], the Administrator or
the State, as the case may be, shall issue or
deny each such permit. Any such permit shall
provide for compliance as expeditiously as
practicable, but in no event later than 3 years
after the date of issuance of such permit.
(B)Other municipal discharges. Not later than
4 years after the date of the enactment of this
subsection [enacted Feb. 4, 1987], the
Administrator shall establish regulations
setting
forth
the
permit
application
requirements for stormwater discharges
described in paragraph (2)(D). Applications for
permits for such discharges shall be filed no
later than 5 years after such date of

284a
enactment [enacted Feb. 4, 1987]. Not later
than 6 years after such date of enactment
[enacted Feb. 4, 1987], the Administrator or
the State, as the case may be, shall issue or
deny each such permit. Any such permit shall
provide for compliance as expeditiously as
practicable, but in no event later than 3 years
after the date of issuance of such permit.
(5) Studies. The Administrator, in consultation
with the States, shall conduct a study for the
purposes of—
(A) identifying those stormwater discharges
or classes of stormwater discharges for which
permits are not required pursuant to
paragraphs (1) and (2) of this subsection;
(B) determining, to the maximum extent
practicable, the nature and extent of
pollutants in such discharges; and
(C) establishing procedures and methods to
control stormwater discharges to the extent
necessary to mitigate impacts on water
quality.
Not later than October 1, 1988, the Administrator
shall submit to Congress a report on the results
of the study described in subparagraphs (A) and
(B). Not later than October 1, 1989, the
Administrator shall submit to Congress a report
on the results of the study described in
subparagraph (C)

285a
(6) Regulations. Not later than October 1,
1993, the Administrator, in consultation with
State and local officials, shall issue
regulations (based on the results of the
studies conducted under paragraph (5))
which designate stormwater discharges,
other than those discharges described in
paragraph (2), to be regulated to protect
water quality and shall establish a
comprehensive program to regulate such
designated sources. The program shall, at a
minimum, (A) establish priorities, (B)
establish requirements for State stormwater
management programs, and (C) establish
expeditious deadlines. The program may
include performance standards, guidelines,
guidance, and management practices and
treatment requirements, as appropriate.
(q)

Combined sewer overflows.
(1) Requirement for permits, orders, and
decrees. Each permit, order, or decree issued
pursuant to this Act [33 USCS §§ 1251 et
seq.] after the date of enactment of this
subsection [enacted Dec. 21, 2000] for a
discharge from a municipal combined storm
and sanitary sewer shall conform to the
Combined Sewer Overflow Control Policy
signed by the Administrator on April 11,
1994 (in this subsection referred to as the
“CSO control policy”).
(2) Water quality and designated
review guidance. Not later than July
2001, and after providing notice
opportunity for public comment,

use
31,
and
the

286a
Administrator shall issue guidance to
facilitate the conduct of water quality and
designated use reviews for municipal
combined sewer overflow receiving waters.
(3) Report. Not later than September 1,
2001, the Administrator shall transmit to
Congress a report on the progress made by
the Environmental Protection Agency,
States, and municipalities in implementing
and enforcing the CSO control policy.
(r) Discharges incidental to the normal
operation of recreational vessels. No permit
shall be required under this Act [33 USCS §§ 1251
et seq.] by the Administrator (or a State, in the case
of a permit program approved under subsection (b))
for the discharge of any graywater, bilge water,
cooling water, weather deck runoff, oil water
separator effluent, or effluent from properly
functioning marine engines, or any other discharge
that is incidental to the normal operation of a
vessel, if the discharge is from a recreational vessel.
(s)

Integrated plans.
(1) Definition of integrated plan. In this
subsection, the term ‘integrated plan’ means
a plan developed in accordance with the
Integrated Municipal Stormwater and
Wastewater Planning Approach Framework,
issued by the Environmental Protection
Agency and dated June 5, 2012.
(2) In general. The Administrator (or a
State, in the case of a permit program
approved by the Administrator) shall inform
municipalities of the opportunity to develop an

287a
integrated plan that may be incorporated into a
permit under this section.
(3)

Scope.
(A) Scope of permit incorporating
integrated plan. A permit issued under
this section that incorporates an integrated
plan may integrate all requirements under
this Act [33 USCS §§ 1251 et seq.]
addressed in the integrated plan, including
requirements relating to—
(i)a combined sewer overflow;
(ii)a capacity, management, operation,
and maintenance program for sanitary
sewer collection systems;
(iii)a municipal stormwater discharge;
(iv)a municipal wastewater discharge;
and
(v)a water quality-based effluent
limitation to implement an applicable
wasteload allocation in a total maximum
daily load.
(B) Inclusions in integrated plan. An
integrated plan incorporated into a permit
issued under this section may include the
implementation of—
(i)projects, including innovative projects,
to reclaim, recycle, or reuse water; and
(ii)

green infrastructure.

288a
33 USCS § 1362
Current through Public Law 116-65,
approved October 9, 2019.
United States Code Service
>
TITLE 33.
NAVIGATION AND NAVIGABLE WATERS (Chs.
1 — 54) > CHAPTER 26. WATER POLLUTION
PREVENTION AND CONTROL (§§ 1251 — 1388)
> GENERAL PROVISIONS (§§ 1361 — 1377a)
§ 1362. Definitions
________________________________________________
Except as otherwise specifically provided, when used
in this Act [33 USCS §§ 1251 et seq.]:
(1) The term “State water pollution control
agency” means the State agency designated by
the Governor having responsibility for enforcing
State laws relating to the abatement of pollution.
(2) The term “interstate agency” means an
agency of two or more States established by or
pursuant to an agreement or compact approved
by the Congress, or any other agency of two or
more States, having substantial powers or duties
pertaining to the control of pollution as
determined and approved by the Administrator.
(3) The term “State” means a State, the District
of Columbia, the Commonwealth of Puerto Rico,
the Virgin Islands, Guam, American Samoa, the
Commonwealth of the Northern Mariana
Islands, and the Trust Territory of the Pacific
Islands.

289a
(4) The term “municipality” means a city, town,
borough, county, parish, district, association, or
other public body created by or pursuant to State
law and having jurisdiction over disposal of
sewage, industrial wastes, or other wastes, or an
Indian tribe or an authorized Indian tribal
organization, or a designated and approved
management agency under section 208 of this
Act [33 USCS § 1288].
(5) The term “person” means an individual,
corporation, partnership, association, State,
municipality,
commission,
or
political
subdivision of a state, or any interstate body.
(6) The term “pollutant” means dredged spoil,
solid waste, incinerator residue, sewage, garbage,
sewage sludge, munitions, chemical wastes,
biological materials, radioactive materials, heat,
wrecked or discarded equipment, rock, sand,
cellar dirt and industrial, municipal, and
agricultural waste discharged into water. This
term does not mean (A) “ sewage from vessels or
a discharge incidental to the normal operation of
a vessel of the Armed Forces” within the meaning
of section 312 of this Act [33 USCS § 1322]; or (B)
water, gas, or other material which is injected
into a well to facilitate production of oil or gas, or
water derived in association with oil or gas
production and disposed of in a well, if the well
used either to facilitate production or for disposal
purposes is approved by authority of the State in
which the well is located, and if such State
determines that such injection or disposal will
not result in the degradation of ground or surface
water resources.

290a
(7) The term “navigable waters” means the
waters of the United States, including the
territorial seas.
(8) The term “territorial seas” means the belt of
the seas measured from the line of ordinary low
water along that portion of the coast which is in
direct contact with the open sea and the line
marking the seaward limit of inland waters, and
extending seaward a distance of three miles.
(9) The term “contiguous zone” means the entire
zone established or to be established by the
United States under article 24 of the Convention
of the Territorial Sea and the Contiguous Zone
[15 UST § 1606].
(10) The term “ocean” means any portion of the
high seas beyond the contiguous zone.
(11) The term “effluent limitation” means any
restriction established by a State or the
Administrator on quantities,
rates, and
concentrations of chemical, physical, biological,
and other constituents which are discharged from
point sources into navigable waters, the waters
of the contiguous zone, or the ocean, including
schedules of compliance.
(12) The term “discharge of a pollutant” and the
term “discharge of pollutants” each means (A)
any addition of any pollutant to navigable waters
from any point source, (B) any addition of any
pollutant to the waters of the contiguous zone or
the ocean from any point source other than a
vessel or other floating craft.
(13) The term “toxic pollutant” means those
pollutants, or combinations of pollutants,

291a
including disease-causing agents, which after
discharge and upon exposure, ingestion,
inhalation or assimilation into any organism,
either directly from the environment or indirectly
by ingestion through food chains, will, on the basis
of information available to the Administrator,
cause death, disease, behavioral abnormalities,
cancer,
genetic
mutations,
physiological
malfunctions
(including
malfunctions
in
reproduction) or physical deformations, in such
organisms or their offspring.
(14) The term “point source” means any
discernible, confined and discrete conveyance,
including but not limited to any pipe, ditch,
channel, tunnel, conduit, well, discrete fissure,
container, rolling stock, concentrated animal
feeding operation, or vessel or other floating craft,
from which pollutants are or may be discharged.
This term does not include agricultural
stormwater discharges and return flows from
irrigated agriculture.
(15) The term “biological monitoring” shall
mean the determination of the effects on aquatic
life, including accumulation of pollutants in
tissue, in receiving waters due to the discharge of
pollutants (A) by techniques and procedures,
including sampling of organisms representative of
appropriate levels of the food chain appropriate to
the volume and the physical, chemical, and
biological characteristics of the effluent, and (B)
at appropriate frequencies and locations.
(16) The term “discharge” when used without
qualification includes a discharge of a pollutant,
and a discharge of pollutants.

292a
(17) The term “schedule of compliance” means a
schedule of remedial measures including an
enforceable sequence of actions or operations
leading to compliance with an effluent limitation,
other limitation, prohibition, or standard.
(18) The term “industrial user” means those
industries identified in the Standard Industrial
Classification Manual, Bureau of the Budget,
1967, as amended and supplemented, under the
category “Division D—Manufacturing” and such
other classes of significant waste producers as,
by regulation, the Administrator deems
appropriate.
(19) The term “pollution” means the man-made
or man-induced alteration of the chemical,
physical, biological, and radiological integrity of
water.
(20) The term “medical waste” means isolation
wastes; infectious agents; human blood and blood
products; pathological wastes; sharps; body parts;
contaminated bedding; surgical wastes and
potentially contaminated laboratory wastes;
dialysis wastes; and such additional medical items
as the Administrator shall prescribe by regulation.
(21)

Coastal recreation waters.

(A) In general. The term “coastal recreation
waters” means—
(i) the Great Lakes; and
(ii) marine coastal waters (including
coastal estuaries) that are designated
under section 303(c) [33 USCS § 1313(c)]
by a State for use for swimming, bathing,
surfing, or similar water contact activities.

293a
(B) Exclusions.
The
term
“coastal
recreation waters” does not include—
(i)inland waters; or
(ii)waters upstream of the mouth of a river
or stream having an unimpaired natural
connection with the open sea.
(22)

Floatable material.

(A) In general. The term “floatable
material” means any foreign matter that may
float or remain suspended in the water
column.
(B) Inclusions.
The
material” includes—

term

“floatable

(i)plastic;
(ii)aluminum cans;
(iii)wood products;
(iv)bottles; and (v)paper products
(23) Pathogen indicator. The term “pathogen
indicator” means a substance that indicates the
potential for human infectious disease.
(24) Oil and gas exploration and production.
The term “oil and gas exploration, production,
processing,
or
treatment
operations
or
transmission facilities” means all field activities or
operations
associated
with
exploration,
production, processing, or treatment operations, or
transmission
facilities,
including
activities
necessary to prepare a site for drilling and for the
movement and placement of drilling equipment,
whether or not such field activities or operations
may be considered to be construction activities.

294a
(25)

Recreational vessel.

(A) In general. The term “recreational
vessel” means any vessel that is—
(i) manufactured or used primarily for
pleasure; or
(ii) leased, rented, or chartered to a
person for the pleasure of that person.
(B)Exclusion. The term “recreational vessel”
does not include a vessel that is subject to
Coast Guard inspection and that—
(i)is engaged in commercial use; or
(ii)carries paying passengers.
(26) Treatment works. The term “treatment
works” has the meaning given the term in section
212 [33 USCS § 1292].
(27) Green infrastructure. The term “green
infrastructure” means the range of measures that
use plant or soil systems, permeable pavement or
other permeable surfaces or substrates,
stormwater harvest and reuse, or landscaping to
store, infiltrate, or evapotranspirate stormwater
and reduce flows to sewer systems or to surface
waters.
History
_________________________________________________
HISTORY:
Act June 30, 1948, ch 758, Title V, § 502, as added
Oct. 18, 1972, P. L. 92-500, § 2, 86 Stat. 886; Dec. 27,
1977, P. L. 95-217, § 33(b), 91 Stat. 1577; Feb. 4,
1987, P. L. 100-4, Title V, §§ 502(a), 503, 101 Stat.

295a
75; Nov. 18, 1988, P. L. 100-688, Title III, Subtitle B,
§ 3202(a), 102 Stat. 4154; Feb. 10, 1996, P. L. 104106, Div A, Title III, Subtitle C, § 325(c)(3), 110 Stat.
259; Oct. 10, 2000, P. L. 106-284, § 5, 114 Stat. 875;
Aug. 8, 2005, P. L. 109-58, Title III, Subtitle C, §
323, 119 Stat. 694; July 30, 2008, P. L. 110-288, § 3,
122 Stat. 2650; June 10, 2014, P. L. 113-121, Title V,
Subtitle B, § 5012(b), 128 Stat. 1328; Jan. 14, 2019,
P.L. 115-436, § 5(a), 132 Stat. 5561.
Annotations
Notes
_________________________________________________

296a
40 CFR 122.26
This document is current through the October 23,
2019 issue of the Federal Register. Title 3 is current
through August 2, 2019.
Code of Federal Regulations > TITLE 40 -PROTECTION
OF
ENVIRONMENT
>
CHAPTER
I
-ENVIRONMENTAL
PROTECTION AGENCY > SUBCHAPTER D -WATER PROGRAMS
>
PART 122 -- EPA
ADMINISTERED PERMIT PROGRAMS: THE
NATIONAL
POLLUTANT
DISCHARGE
ELIMINATION SYSTEM > SUBPART B -PERMIT APPLICATION AND SPECIAL NPDES
PROGRAM REQUIREMENTS
§ 122.26 Storm water discharges (applicable to
_________________________________________________
State NPDES programs, see § 123.25).
(a) Permit requirement. (1) Prior to October 1,
1994, discharges composed entirely of storm water
shall not be required to obtain a NPDES permit
except:
(i)A discharge with respect to which a permit has
been issued prior to February 4, 1987;
(ii)A discharge associated with industrial activity
(see § 122.26(a)(4)); (iii)A discharge from a large
municipal separate storm sewer system; (iv)A
discharge from a medium municipal separate
storm sewer system;
(v)A discharge which the Director, or in States
with approved NPDES programs, either the
Director or the EPA Regional Administrator,

297a
determines to contribute to a violation of a water
quality standard or is a significant contributor of
pollutants to waters of the United States. This
designation may include a discharge from any
conveyance or system of conveyances used for
collecting and conveying storm water runoff or a
system of discharges from municipal separate
storm sewers, except for those discharges from
conveyances which do not require a permit under
paragraph (a)(2) of this section or agricultural
storm water runoff which is exempted from the
definition of point source at § 122.2.
The Director may designate discharges from
municipal separate storm sewers on a system-wide
or jurisdiction- wide basis. In making this
determination the Director may consider the
following factors:
(A)The location of the discharge with respect to
waters of the United States as defined at 40 CFR
122.2.
(B)The size of the discharge;
(C)The quantity and nature of the pollutants
discharged to waters of the United States; and
(D)Other relevant factors.
(2) The Director may not require a permit for
discharges of storm water runoff from the
following:
(i) Mining operations composed entirely of flows
which are from conveyances or systems of
conveyances (including but not limited to pipes,
conduits, ditches, and channels) used for
collecting and conveying precipitation runoff and
which are not contaminated by contact with or

298a
that have not come into contact with, any
overburden, raw material, intermediate products,
finished product, byproduct, or waste products
located on the site of such operations, except in
accordance with paragraph (c)(1)(iv) of this
section.
(ii) All field activities or operations associated
with oil and gas exploration, production,
processing,
or
treatment
operations
or
transmission facilities, including activities
necessary to prepare a site for drilling and for the
movement and placement of drilling equipment,
whether or not such field activities or operations
may be considered to be construction activities,
except in accordance with paragraph (c)(1)(iii) of
this section. Discharges of sediment from
construction activities associated with oil and gas
exploration, production, processing, or treatment
operations or transmission facilities are not
subject to the provisions of paragraph (c)(1)(iii)(C)
of this section.
Note to paragraph (a)(2)(ii): EPA encourages
operators of oil and gas field activities or
operations to implement and maintain Best
Management Practices (BMPs) to minimize
discharges of pollutants, including sediment, in
storm water both during and after construction
activities to help ensure protection of surface water
quality during storm events. Appropriate controls
would be those suitable to the site conditions and
consistent with generally accepted engineering
design criteria and manufacturer specifications.
Selection of BMPs could also be affected by seasonal
or climate conditions.

299a
(3) Large and medium municipal separate storm
sewer systems.
(i) Permits must be obtained for all discharges
from large and medium municipal separate storm
sewer systems.
(ii) The Director may either issue one systemwide permit covering all discharges from
municipal separate storm sewers within a large
or medium municipal storm sewer system or
issue distinct permits for appropriate categories
of discharges within a large or medium municipal
separate storm sewer system including, but not
limited to: all discharges owned or operated by
the same municipality; located within the same
jurisdiction; all discharges within a system that
discharge to the same watershed; discharges
within a system that are similar in nature; or for
individual discharges from municipal separate
storm sewers within the system.
(iii) The operator of a discharge from a
municipal separate storm sewer which is part of a
large or medium municipal separate storm sewer
system must either:
(A)Participate in a permit application (to be a
permittee or a co-permittee) with one or more
other operators of discharges from the large or
medium municipal storm sewer system which
covers all, or a portion of all, discharges from
the municipal separate storm sewer system;
(B)Submit a distinct permit application which
only covers discharges from the municipal
separate storm sewers for which the operator
is responsible; or

300a
(C)A regional authority may be responsible for
submitting a permit application under the
following guidelines:
(1) The regional authority together with coapplicants shall have authority over a storm water
management program that is in existence, or shall
be in existence at the time part 1 of the application is
due;
(2) The permit applicant or co-applicants shall
establish their ability to make a timely submission of
part 1 and part 2 of the municipal application;
(3) Each of the operators of municipal separate
storm sewers within the systems described in
paragraphs (b)(4) (i), (ii), and (iii) or (b)(7) (i), (ii),
and (iii) of this section, that are under the purview of
the designated regional authority, shall comply with
the application requirements of paragraph (d) of this
section.
(iv) One permit application may be submitted
for all or a portion of all municipal separate storm
sewers within adjacent or interconnected large or
medium municipal separate storm sewer
systems. The Director may issue one system-wide
permit covering all, or a portion of all municipal
separate
storm sewers in
adjacent
or
interconnected large or medium municipal
separate storm sewer systems.
(v) Permits for all or a portion of all discharges
from large or medium municipal separate storm
sewer systems that are issued on a system-wide,
jurisdiction-wide, watershed or other basis may
specify different conditions relating to different
discharges covered by the permit, including

301a
different management programs for different
drainage areas which contribute storm water to
the system.
(vi) Co-permittees need only comply with
permit conditions relating to discharges from the
municipal separate storm sewers for which they
are operators.
(4) Discharges through large and medium
municipal separate storm sewer systems. In addition
to meeting the requirements of paragraph (c) of this
section, an operator of a storm water discharge
associated with industrial activity which discharges
through a large or medium municipal separate storm
sewer system shall submit, to the operator of the
municipal separate storm sewer system receiving the
discharge no later than May 15, 1991, or 180 days
prior to commencing such discharge: the name of the
facility; a contact person and phone number;
thelocation of the discharge; a description, including
Standard Industrial Classification, which best
reflects the principal products or services provided
by each facility; and any existing NPDES permit
number.
(5) Other municipal separate storm sewers. The
Director may issue permits for municipal separate
storm sewers that are designated under paragraph
(a)(1)(v) of this section on a system-wide basis,
jurisdiction-wide basis, watershed basis or other
appropriate basis, or may issue permits for
individual discharges.
(6) Non-municipal separate storm sewers. For
storm water discharges associated with industrial
activity from point sources which discharge through
a non-municipal or non-publicly owned separate

302a
storm sewer system, the Director, in his discretion,
may issue: a single NPDES permit, with each
discharger a co-permittee to a permit issued to the
operator of the portion of the system that discharges
into waters of the United States; or, individual
permits to each discharger of storm water associated
with industrial activity through the non-municipal
conveyance system.
(i) All storm water discharges associated with
industrial activity that discharge through a storm
water discharge system that is not a municipal
separate storm sewer must be covered by an
individual permit, or a permit issued to the
operator of the portion of the system that
discharges to waters of the United States, with
each discharger to the non-municipal conveyance
a co-permittee to that permit.
(ii) Where there is more than one operator of a
single system of such conveyances, all operators
of storm water discharges associated with
industrial activity must submit applications.
(iii) Any permit covering more than one
operator shall identify the effluent limitations, or
other permit conditions, if any, that apply to each
operator.
(7) Combined sewer systems. Conveyances that
discharge storm water runoff combined with
municipal sewage are point sources that must obtain
NPDES permits in accordance with the procedures of
§ 122.21 and are not subject to the provisions of this
section.

303a
(8) Whether a discharge from a municipal separate
storm sewer is or is not subject to regulation under
this section shall have no bearing on whether the
owner or operator of the discharge is eligible for
funding under title II, title III or title VI of the Clean
Water Act. See 40 CFR part 35, subpart I, appendix
A(b)H.2.j.
(9)
(i) On and after October 1, 1994, for discharges
composed entirely of storm water, that are not
required by paragraph (a)(1) of this section to
obtain a permit, operators shall be required to
obtain a NPDES permit only if:
(A)The discharge is from a small MS4
required to be regulated pursuant to § 122.32;
(B)The discharge is a storm water discharge
associated with small construction activity
pursuant to paragraph (b)(15) of this section;
(C)The Director, or in States with approved
NPDES programs either the Director or the
EPA Regional Administrator, determines that
storm water controls are needed for the
discharge based on wasteload allocations that
are part of "total maximum daily loads"
(TMDLs) that address the pollutant(s) of
concern; or
(D)The Director, or in States with approved
NPDES programs either the Director or the
EPA Regional Administrator, determines that
the discharge, or category of discharges within
a geographic area, contributes to a violation of
a water quality standard or is a significant

304a
contributor of pollutants to waters of the
United States.
(ii) Operators of small MS4s designated
pursuant to paragraphs (a)(9)(i)(A), (a)(9)(i)(C),
and (a)(9)(i)(D) of this section shall seek coverage
under an NPDES permit in accordance with §§
122.33 through 122.35. Operators of nonmunicipal sources designated pursuant to
paragraphs
(a)(9)(i)(B),
(a)(9)(i)(C),
and
(a)(9)(i)(D) of this section shall seek coverage
under an NPDES permit in accordance with
paragraph (c)(1) of this section.
(iii) Operators of storm water discharges
designated pursuant to paragraphs (a)(9)(i)(C)
and (a)(9)(i)(D) of this section shall apply to the
Director for a permit within 180 days of receipt of
notice, unless permission for a later date is
granted by the Director (see § 124.52(c) of this
chapter).
(b) Definitions.
(1) Co-permittee means a permittee to a NPDES
permit that is only responsible for permit
conditions relating to the discharge for which it is
operator.
(2) Illicit discharge means any discharge to a
municipal separate storm sewer that is not
composed entirely of storm water except
discharges pursuant to a NPDES permit (other
than the NPDES permit for discharges from the
municipal separate storm sewer) and discharges
resulting from fire fighting activities.
(3) Incorporated place means the District of
Columbia, or a city, town, township, or village

305a
that is incorporated under the laws of the State
in which it is located.
(4) Large municipal separate storm sewer system
means all municipal separate storm sewers that
are either:
(i) Located in an incorporated place with a
population of 250,000 or more as determined
by the 1990 Decennial Census by the Bureau
of the Census (Appendix F of this part); or
(ii) Located in the counties listed in
appendix H, except municipal separate storm
sewers that are located in the incorporated
places, townships or towns within such
counties; or
(iii) Owned or operated by a municipality
other than those described in paragraph
(b)(4)(i) or (ii) of this section and that are
designated by the Director as part of the large
or medium municipal separate storm sewer
system due to the interrelationship between
the discharges of the designated storm sewer
and the discharges from municipal separate
storm sewers described under paragraph
(b)(4)(i) or (ii) of this section. In making this
determination the Director may consider the
following factors:
(A)Physical interconnections between the
municipal separate storm sewers;
(B)The location of discharges from the
designated municipal separate storm
sewer relative to discharges from
municipal separate storm sewers described
in paragraph (b)(4)(i) of this section;

306a
(C)The quantity and nature of pollutants
discharged to waters of the United States;
(D)The nature of the receiving waters; and
(E)Other relevant factors; or
(iv) The Director may, upon petition,
designate as a large municipal separate storm
sewer system, municipal separate storm
sewers located within the boundaries of a
region defined by a storm water management
regional authority based on a jurisdictional,
watershed, or other appropriate basis that
includes one or more of the systems described
in paragraph (b)(4)(i), (ii), (iii) of this section.
(5) Major municipal separate storm sewer outfall (or
"major outfall") means a municipal separate storm
sewer outfall that discharges from a single pipe with
an inside diameter of 36 inches or more or its
equivalent (discharge from a single conveyance other
than circular pipe which is associated with a
drainage area of more than 50 acres); or for
municipal separate storm sewers that receive storm
water from lands zoned for industrial activity (based
on comprehensive zoning plans or the equivalent),
an outfall that discharges from a single pipe with an
inside diameter of 12 inches or more or from its
equivalent (discharge from other than a circular pipe
associated with a drainage area of 2 acres or more).
(6) Major outfall means a major municipal separate
storm sewer outfall.
(7) Medium municipal separate storm sewer system
means all municipal separate storm sewers that are
either:

307a
(i) Located in an incorporated place with a
population of 100,000 or more but less than
250,000, as determined by the 1990 Decennial
Census by the Bureau of the Census (Appendix G
of this part); or
(ii) Located in the counties listed in appendix
I, except municipal separate storm sewers that
are located in the incorporated places, townships
or towns within such counties; or
(iii) Owned or operated by a municipality other
than those described in paragraph (b)(7)(i) or (ii)
of this section and that are designated by the
Director as part of the large or medium municipal
separate storm sewer system due to the
interrelationship between the discharges of the
designated storm sewer and the discharges from
municipal separate storm sewers described under
paragraph (b)(7)(i) or (ii) of this section. In
making this determination the Director may
consider the following factors:
(A)Physical interconnections between the
municipal separate storm sewers;
(B)The location of discharges from the
designated municipal separate storm
sewer relative to discharges from
municipal separate storm sewers described
in paragraph (b)(7)(i) of this section;
(C)The quantity and nature of pollutants
discharged to waters of the United States;
(D)The nature of the receiving waters; or
(E)Other relevant factors; or

308a
(iv) The Director may, upon petition, designate
as a medium municipal separate storm sewer
system, municipal separate storm sewers located
within the boundaries of a region defined by a
storm water management regional authority
based on a jurisdictional, watershed, or other
appropriate basis that includes one or more of the
systems described in paragraphs (b)(7)(i), (ii), (iii)
of this section.
(8) Municipal separate storm sewer means a
conveyance or system of conveyances (including
roads with drainage systems, municipal streets,
catch basins, curbs, gutters, ditches, man-made
channels, or storm drains):
(i) Owned or operated by a State, city, town,
borough, county, parish, district, association, or
other public body (created by or pursuant to State
law) having jurisdiction over disposal of sewage,
industrial wastes, storm water, or other wastes,
including special districts under State law such
as a sewer district, flood control district or
drainage district, or similar entity, or an Indian
tribe or an authorized Indian tribal organization,
or a designated and approved management
agency under section 208 of the CWA that
discharges to waters of the United States;
(ii) Designed or used
conveying storm water;
(iii)

for

collecting

or

Which is not a combined sewer; and

(iv) Which is not part of a Publicly Owned
Treatment Works (POTW) as defined at 40 CFR
122.2.

309a
(9) Outfall means a point source as defined by 40
CFR 122.2 at the point where a municipal separate
storm sewer discharges to waters of the United
States and does not include open conveyances
connecting two municipal separate storm sewers, or
pipes, tunnels or other conveyances which connect
segments of the same stream or other waters of the
United States and are used to convey waters of the
United States.
(10) Overburden means any material
nature, consolidated or unconsolidated, that
a mineral deposit, excluding topsoil or
naturally-occurring surface materials that
disturbed by mining operations.

of any
overlies
similar
are not

(11) Runoff coefficient means the fraction of total
rainfall that will appear at a conveyance as runoff.
(12) Significant materials includes, but is not
limited to: raw materials; fuels; materials such as
solvents, detergents, and plastic pellets; finished
materials such as metallic products; raw materials
used in food processing or production; hazardous
substances designated under section 101(14) of
CERCLA; any chemical the facility is required to
report pursuant to section 313 of title III of SARA;
fertilizers; pesticides; and waste products such as
ashes, slag and sludge that have the potential to be
released with storm water discharges.
(13) Storm water means storm water runoff, snow
melt runoff, and surface runoff and drainage.
(14) Storm water discharge associated with
industrial activity means the discharge from any
conveyance that is used for collecting and conveying
storm water and that is directly related to

310a
manufacturing, processing or raw materials storage
areas at an industrial plant. The term does not
include discharges from facilities or activities
excluded from the NPDES program under this part
122. For the categories of industries identified in this
section, the term includes, but is not limited to,
storm water discharges from industrial plant yards;
immediate access roads and rail lines used or
traveled by carriers of raw materials, manufactured
products, waste material, or by-products

311a
IN THE
COURT OF APPEALS OF MARYLAND
September Term, 2018
No. 5
MARYLAND DEPARTMENT OF THE
ENVIRONMENT,
Appellant/Cross-Appellee,
v.
COUNTY COMMISSIONERS OF
CARROLL COUNTY,
Appellee/Cross-Appellant,
On Appeal from the Circuit Court for Carroll
County (Thomas F. Stansfield, Judge)
Pursuant to a Writ of Certiorari to the Court of
Special Appeals of Maryland
BRIEF OF APPELLEE/
CROSS-APPELLANT COUNTY
COMMISSIONERS OF
CARROLL COUNTY
STATEMENT OF THE CASE
The Commissioners of Carroll County ("Carroll
County" or "County") disagree with the assertion
made in the Maryland Department of the

312a
Environment's
("Department"
or
"J\1DE")
Statement of the Case that the County is
challenging its municipal separate storm sewer
("MS4") permit because it is "too protective" of the
environment. Appellant's Br. at 1. The basis of
the County 's challenge is that MDE has exceeded
or improperly exercised its authority under federal
and State law.
QUESTIONS PRESENTED
1. Does MDE's permit action unlawfully hold
the County responsible for unregulated nonpoint
source runoff and for stormwater discharges by
independent third parties that never enter into or
discharge from the County 's MS4?
2 Has MDE unlawfully subjected the County to
overly stringent requirements in the Permit by
classifying the County 's system as "Medium"
rather than as "Small" and by subjecting it to the
same requirements as "Large" systems?

3. Has MDE acted arbitrarily and capriciously
by refusing to allow the County to fulfill its Permit
obligations in part by using water quality trading
as a compliance method?
4. Has MDE violated state law by incorporating
and amending Md. Code Ann., Land Use, § 1-406
through the Permit?
STATUTORY AND REGULATORY
FRAMEWORK
A. Federal Regulation
Discharges

of

Stormwater

The Clean Water Act ("CWA") regulates
discharges of pollutants from "point sources" to

313a
navigable waters of the United States. See 33
U.S.C. § 1362(6), (7), and (14). A point source is
defined in relevant part as a "discernible ,
confined and discrete conveyance, including but
not limited to any pipe, ditch, channel, tunnel,
[or] conduit ... from which pollutants are or may
be discharged ," 33 U.S.C. § 1362(14). Under the
CWA, the states are required to promulgate water
quality standards for certain waters within their
borders. See 33 U.S .C. § 1313. Such standards
denote designated uses (e.g. recreation, public
water supply) of particular bodies of water and
establish numerical or narrative water quality
criteria designed to protect those uses. See 40
C.F.R. § § 131.l0(a), 131.11.
The CWA also requires states to identify waters
within their boundaries that do not meet water
quality standards. 33 U.S.C. § 1313(d)(l)(A). For
each impaired waterway, a state must establish a
"total maximum daily load" or "TMDL" for every
pollutant that is preventing the water from
meeting water quality standards. Id. at §
1313(d)(l)(C). A TMDL is the maximum amount of a
pollutant, or "load" that a water body can receive
and still meet water quality standards. Id. It is
made up of the sum of pollutant loadings allocated
to point sources, or "wasteload allocations "
("WLAs") and loadings allocated to non-point
sources (such as agricultural stormwater), or "load
allocations" ("LAs"), as well as natural background
loadings. 40 C.F.R . § 130.2(i). TMDLs are primarily
informational tools and are not self-executing. See
Am. Farm Bureau Fed'n v. EPA, 792 F.3d 281, 291
n.4 (3d Cir. 2015) ("Our understanding of [TMDLs]
as informational tools is supported by every case

314a
and piece of scholarship to consider them as well
as the language of the Chesapeake Bay TMDL
itself."); Pronsolino v. Nastri, 291 F.3d 1123, 1129,
1140 (9th Cir. 2002) (noting "there is no pertinent
statutory
provision
otherwise
requiring
implementation of § 303 [TMDL] plans or providing
for their enforcement ").
Stormwater discharges were initially exempted
from the CWA's National Pollutant Discharge
Elimination System
("NPDES ")
permitting
program. In 1987, Congress amended the CWA to
specifically address stormwater discharges by
See
passing the Water Quality Act ("WQA").
Natural Res. Def Council v. EPA, 966 F.2d 1292,
1296 (9th Cir. 1992). The WQA provides a more
lenient
regulatory
standard
for
municipal
stormwater discharges
than
for
industrial
stormwater
discharges .
While
industrial
dischargers are expected to meet effluent
limitations established by EPA pursuant to 33
U.S.C. § 1311, discharge permits for MS4s "shall
require controls to reduce the discharge of
pollutants to the maximum extent practicable . . .
as [EPA] or the State determines appropriate for
the control of such pollutants. " 33 U.S.C. §
1342(p)(3)(B)(iii); see also Defenders of Wildlife v.
Browner, 191 F.3d 1159, 1163-66 (9th Cir. 1999).
Congress created a phased approach to
municipal stormwater permitting in the WQA,
depending on the size of the municipality. 33 U.S.C.
§ 1342(p)(2)(C), (D); see also Env't Def Ctr., Inc. v.
EPA, 344 F.3d 832, 841-42 (9th Cir. 2003). In
Phase I, from 1987 until October 1, 1994, EPA and
the states were prohibited from requiring permits
for stormwater discharges except for limited

315a
categories of discharges. See 33 U.S.C. § 1342(p)(l).
Among the discharges that could be regulated
were (1) stormwater discharges from municipal
separate storm sewer systems serving populations
of 250,000 or more (referred to as "large" MS4
jurisdictions) ; and (2) stormwater discharges
from municipal separate storm sewer systems
serving populations of 100,000 or more, but less
than 250,000 (referred to as "medium " MS4
jurisdictions). Id. § 1342(p)(2)(C), (D) (emphasis
added).
When EPA promulgated application regulations
for large and medium municipal separate storm
sewer system permits in 1990 (the "Phase I
regulations"), it stated that:
Congress
recognized
that
permit
requirements for municipal separate storm
sewer systems should be developed in a
flexible manner to allow site-specific permit
conditions to reflect the wide range of
impacts that can be associated with these
discharges .
***
Consistent with the intent of Congress, this
rule sets out permit application requirements
that are sufficiently flexible to allow the
specific
permit
development
of
siteconditions.
See National Pollutant Discharge Elimination
System Permit Application Regulations
for
Stormwater Discharges, 55 Fed. Reg. 47,990,
48,037-38 (Nov. 16, 1990). The EPA regulations
for large and medium municipal storm sewer

316a
systems
contain
no
minimum criteria or
performance standards and do not require MS4
permittees to reduce pollutants by specific amounts.
See Natural Res. Def Council, 966 F.2d at 1308 and
n. 17.
EPA deliberately chose not to define maximum
extent practicable ("MEP") in the regulations "in
order to allow the permitting authority and
regulated MS4s maximum flexibility in their
interpretation of it as appropriate." EPA, EPA 833R-00-002, Storm Water Phase II Compliance
Assistance Guide 4-17 (Mar. 2000), available at
http://www.epa.gov/npdes/pubs/comguide.pdf.
EPA
recognized that the pollutant reductions that
represent MEP may be different for each MS4
permittee; "[t]herefore, each
permittee
will
determine appropriate [best management practices
("BMPs")] ... through an evaluative process."
National Pollutant Discharge Elimination System
Regulations for Revision of the Water Pollution
Control Program
Addressing
Storm Water
Discharges, 64 Fed. Reg. 68,722, 68,754 (Dec. 8,
1999) (preamble
to Phase
II
stormwater
regulations).
B. State Regulatory Auth ority
The Maryland Department of the Environment
is the sole State agency with authority to
implement the CWA in Maryland. Md. Code Ann.,
Envir. § 9-253 .MDE exercises the authority
delegated to it by EPA through the statutory
framework provided at Title 9, Subtitle 3, of the
Maryland Environment Article . Section 9-322
prohibits the discharge of any pollutant to waters
of the State unless authorized by section 9-323 of

317a
the Environment Article. Section 9-323 requires
that:

(a) A person shall hold a discharge permit
issued by the Department before the person
may construct, install, modify, extend, alter, or
operate any of the following if its operation
could cause or increase the discharge of
pollutants into the waters of this State:
(1) An industrial, commercial, or recreational
facility or disposal system;
(2) A State-owned treatment facility; or
(3) Any other outlet or establishment.
(b) By rule or regulation, the Department
may require a discharge permit for any other
activity.
C. County Regulatory Authority
Maryland
law
requires
counties
and
municipalities to adopt grading and building
ordinances necessary to carry out the provisions of
the State sediment control law and to adopt
ordinances necessary to implement a stormwater
management program. Md. Code Ann., Envir . §§ 4103(b), 4-202. MDE oversees the implementation of
these programs by local governments. Md. Code
Ann., Envir. §§ 4-103(b), 4-203. MS4 jurisdictions
are required to implement and maintain acceptable
programs as a condition of their permits .
STATEMENT OF THE FACTS
MDE began issuing MS4 permits to Maryland's
largest jurisdictions (Anne Arundel, Baltimore,
Prince George's, and Montgomery Counties and

318a
Baltimore City) in 1993. 1 These jurisdictions were
identified in EPA regulations as having populations
over 250,000 according to the 1990 decennial
census. See 40 C.F.R. Pt. 122, Apps. F & H. In
1991, MDE directed Carroll County and several
other counties to submit applications for MS4
permit coverage, despite their not having been
identified by EPA as requiring permits. App. at 20;
40 C.F.R. Pt. 122 at App. I. At MDE's direction ,
Carroll County submitted Part 1 of its application
in May of 1993 and Part 2 of its application in May
of 1994. App. at 25, 28. The County's MS4 permit
was first issued in 19952 and was reissued in 2000,
2005, and 2014. (E. 48, 370.)
The obligations imposed by MDE in MS4 permits
increased steadily over time. For example, the
initial MS4 permits contained no obligations to
restore impervious areas. However, by 2005, Carroll
County's permit included a requirement that the
County complete watershed restoration projects for
controlling stormwater discharges from 10% of the
County's impervious surface area in order to
reduce the discharge of nutrients and sediments to
the Chesapeake Bay. (See E. 91-92, 97, 2005
Carroll County Permit, Parts III.F.2, III.G.l, and
V.) This requirement was part of Maryland’s
voluntary effort to reduce nutrients discharged to
the Chesapeake Bay.3
See
http://mde.maryland.gov/programs/Water/
StormwaterManagementProgram/Pages/storm_gen_permit.asp
x under "NPDES Phase I Permits "
2 MDE states incorrectly that the County's initial permit
issued in 1993. Appellant's Br. at 10.
3 See Chesapeake
Bay Program, Bay Program History,
available
at
https://www.chesapeakebay.net/
1

319a
On December 29, 2010, the EPA promulgated
the Chesapeake Bay TMDL ("Bay TMDL") through
the notice-and-comment rulemaking process of the
Administrative Procedure Act ("APA"). See 5 U.S .C.
§ 553; Am. Farm Bureau, 792 F.3d at 292. The Bay
TMDL is based on Watershed Improvement Plans
("WIPs") developed by each of the states in the
Bay watershed , including Maryland . It sets target
dates by which each state will complete proposed
actions, with all pollution control measures to be
in place by the year 2025. Id.
In support of the Bay TMDL, Maryland's
October 15, 2012 Phase II WIP proposed that MS4
Phase I permits would include :
... reductions in nutrients and sediments
equivalent to retrofitting 30% of the pre1985 impervious cover for Maryland 's ten
largest counties and the State Highway
Administration ... [s]pecifically, the strategy
calls for requiring, in renewed federal
NPDES stormwater permits, the retrofitting
of 20% of previously developed land with
little or no controls within the next five year
permit term ... [p]revious Phase I permits
required retrofitting of 10% of impervious
area not controlled to the maximum extent
practica[ble] .4

who/bay_program_history

See MDE, Maryland's Phase II WIP at A- 10 (Oct. 15, 2012),
available
at
http://www.mde.state.md.us/programs/Water/TMDL/TMDLimpl
ementation/Pages/FINA
L_PhaseII_WIPDocument _Main.aspx .
4

320a
MS4 permits issued to Maryland’s 10 largest
jurisdictions beginning in 2012, including the
Carroll County permit at issue here (the "2014
Permit"), contained increased impervious area
restoration requirements as propos ed by Maryland
in the Phase II WIP. See 2014 Permit, Part
IV.E.2.a (hereinafter" Impervious Area Restoration
Requirement ") at E. 55, 61-62. However, the
restoration obligations contained in permits issued
beginning in 2012 went well beyond the
impervious area restoration proposed in the Phase
II WIP. (E. 123.) Although Maryland committed in
its 2012 Phase II WIP to retrofitting 30% of the
land developed in Phase I MS4s prior to 1985, the
permits issued after 2012 required that MS4
jurisdictions calculate "baseline" impervious area
using more stringent MDE Accounting for
Stormwater Guidance. (See e.g., 2014 Permit, Part
IV.E.2.a at E. 55, 205.) This guidance, "Accounting
for
Stormwater
Wasteload
Allocations
and
Impervious Acres Treated , Guidance for National
Pollutant
Discharge
Elimination
System
Stormwater
Permits"
(hereinafter
"MDE
Accounting for Stormwater Guidance"), applies the
impervious area restoration requirement to all pre2002 development, dramatically increasing the
amount of restoration required in jurisdictions that
may have experienced significant growth between
1985 and 2002. (E. 177, 185.)
The 2014 Permit also included a requirement
that the County "submit to MDE for approval a
restoration plan for each stormwater WLA
approved by EPA prior to the effective date of the
permit." (E. 55.) Thus, in addition to substantial
restoration
requirements
impervious
area

321a
associated with the Bay TMDL, the permit requires
the County to develop restoration plans and
detailed restoration schedules to address "local"
TMDLs (hereinafter "Local Watershed Restoration
Requirement"). (E. 55, 84.)
The 2014 Permit and MDE's Basis for Final
Determination to Issue Carroll County's MS4
Permit (the "Final Determination ") provide
conflicting and confusing descriptions of the
County MS4 "Permit Area". Part LB of the 2014
Permit states in relevant part that it "covers all
stormwater discharges from the municipal separate
storm sewer system (MS4) owned or operated by
Carroll County, Maryland. " (E. 48.) Part IV.D
identifies numerous management programs to be
implemented in "areas served by Carroll County 's
MS4" (E. 50.) Part IV.E.2.a requires completion of
restoration efforts for twenty percent of the
county's impervious surface area (E. 55) using MDE
Accounting for Stormwater Guidance, which states
that "each MS4 jurisdiction is responsible for any
stormwater discharge that passes through its storm
drain system" but also provides that the "total
impervious surface
within a jurisdiction's
regulated permit area should be evaluated[ .]" (E.
185, emphasis added.) Part IV.E.1 of the permit
requires the performance of watershed assessments
for the entire County (E. 54) and the Final
Determination states that "it is reasonable to base
the scope of the permit on the entire jurisdiction"
(E. 129, emphasis added.)
How "permit area" is interpreted has significant
ramifications for the County. If the County must
restore 20% of all impervious areas developed
anywhere within its boundaries prior to 2002 in

322a
order to satisfy the Impervious Area Restoration
Requirement (Part IV.E.2.a) of the permit , regardless
of whether those areas actually discharge to the
County's MS4, the amount of impervious area to be
restored increases exponentially. Similarly, if the
County must develop restoration plans and
schedules for each stormwater WLA approved by
EPA - many of which are for impaired watersheds
located in rural areas of the County - in order to
satisfy
the
Local
Watershed
Restoration
Requirement (Part IV.E.2.b) of the permit , it will be
forced to implement structural and nonstructural
water quality improvement projects for pollution
from sources owned by third parties that do not
discharge to County storm sewers.
STANDARD OF REVIEW
On appellate review of an administrative agency
decision, the court "determine[s] if there is
substantial evidence in the record as a whole to
support the agency's findings and conclusions" and
"determine[s] if the administrative decision is
premised upon an erroneous conclusion of law."
Najafi v. Motor Vehicle Admin ., 418 Md. 164, 17374 (2011). Appellate courts "look[] through the
circuit court 's . . . decision[] applying the same
standards of review , and evaluate[] the decision of
the agency ." People's Counsel for Baltimore Cnty.
v. Surina, 400 Md. 662, 681 (2007).
Agency legal conclusions receive little, if any,
deference and are "review[ed] de nova for
correctness" Schwartz v. Md. Dep 't of Natural Res.,
385 Md. 534, 554 (2005) (citing Spencer v. Md. State
Bd. of Pharmacy, 380 Md. 515, 528 (2004)). While a
"limited degree of deference" is afforded to agency

323a
interpretations of their enabling statutes, "the
appropriate deference is finite." Howard Cnty.
Citizens for Open Gov 't. v. Howard Cnty. Bd. of
Elections , 201 Md. App. 605, 615-16 (2011) (citing
People's Counsel for Baltimore Cnty. v. Loyola
College in Md., 406 Md. 54, 67 (2008)) . An agency's
legal positions and practices are entitled to no
special weight merely because they are longstanding.
See Md. Aviation Admin . v. Noland, 386 Md. 556,
572
(2005).
Accordingly,
"[e]rroneous
interpretations of law are never binding upon the
courts." Spencer, 380 Md. at 529 n. 3. Nor are
agency interpretations that are not "the product of
formal
rules
adversarial
proceedings
or
promulgation." Marriott Emps. Fed. Credit Union v.
Motor Vehicle Admin., 346 Md. 437, 447 (1997).
Agency factual conclusions are reviewed "under
the substantial evidence and arbitrary and
capricious standards of review ." Maryland Dep't of
Env't v. Anacostia Riverkeeper, 447 Md. 88, 119
(2016). An agency action is only proper under the
substantial evidence standard if "a reasoning mind
reasonably could have reached the factual
conclusion the agency reached” Id. ( quoting Najafi ,
418 Md. at 173). On the other hand, a decision is
arbitrary and capricious if it "relied on factors which
[the legislature] has not intended it to consider,
entirely failed to consider an important aspect of
the problem, offered an explanation . . . that runs
counter to the evidence before the agency, or is . . .
implausible ." Id. (citing Natural Res. Def Council v.
EPA, 808 F.3d 556, 569 (2d Cir. 2015)). Likewise,
an agency conclusion will be set aside under the
arbitrary and capricious standard if it is "not
supported by facts, . . . not within the scope of

324a
delegated authority, or is . . . unreasonable."
Baltimore Import Car Serv. & Storage, Inc. v. Md.
Port Auth., 258 Md. 335, 342 (1970) (citations
omitted).
ARGUMENT

I. MDE

LACKS THE AUTHORITY TO
IMPOSE
RESPONSIBILITY
ON
CARROLL COUNTY FOR POLLUTANTS
THAT DO NOT ENTER INTO AND ARE
NOT DISCHARGED FROM THE COUNTY
MS4.

A. The Department Misreads the Federal
Stormwater Statute and Regulations.

The County does not dispute that the CWA
allows MS4 permits to be issued on a "system-wide"
or "jurisdiction -wide" basis. However, nothing in
the CWA or its implementing regulations allows
MDE to issue permits that "cover all discharges
throughout the jurisdiction" as MDE claims.
Appellant's Br. at 16. As the circuit court correctly
noted, MDE 's reading of the statute ignores the
plain language of 33 U.S.C. § 1342(p)(3)(B). See
Mayor of Oakland v. Mayor of Mountain Lake
Park, 392 Md. 301, 316 (2006) (courts must "first
examine the plain language of [a] statute, and if
the plain language of the statute is unambiguous
and consistent with the statute's apparent purpose,
[] give effect to the statute as its written"). CWA
section
1342(p)(3)(B)
allows
"[p]ermits
for
discharges from municipal storm sewers" to be
issued on "a system- or jurisdiction-wide basis." (E.
15-16, emphasis in original.) The fact that the
permits may be "system- wide" or "jurisdictionwide " does not change where the discharge must

325a
originate. It must still come from a municipal
separate storm sewer system.5 To be a medium or
large MS4, a system must serve a population of
over 100,000 or 250,000 people, respectively. 33
U.S.C. § 1342(p)(2)(C), (D).
The legislative intent behind the CWA's
statutory provision is also clear. Its purpose was to
avoid a regulatory program where, as a result of a
federal court order, "thousands of cities and
counties [must] obtain separate permits for every
single one of their stormwater discharge points ...".
133 Cong. Rec. H515-06, 1987 WL 930040 (Feb. 3,
1987) (statement of Rep. Rowland). Instead, the
provision avoided an administrative nightmare for
regulators and "allow[ed] communities to obtain far
less costly single jurisdiction wide permits. " Id.
(emphasis added.) Nothing in the language of
section 1342(p)(3)(B) or its legislative history allows
MDE to regulate all of the discharges occurring
within a jurisdiction in an MS4 permit, let alone
when those discharges never enter the municipal
separate storm sewer system.
Nor do EPA regulations support MDE 's
erroneous reading of the law. The stormwater rule
Contrary to MDE's suggestion, it proves nothing that Part
IV.D.l and 2 of the permit requires Carroll County to
maintain stormwater management and erosion and sediment
control programs and Part IV.D.6 requires a public
education program. See Appellant's Br. at 18. The County
is already required to implement stormwater and erosion and
sediment control programs as a condition of State law. Md.
Code Ann., Envir. §§ 4-103(b), 4-202. The purpose of the
public education and outreach program is simply to reduce
stormwater pollutants. It would be nonsensical to limit a
public outreach program (e.g. one using radio, television and
other media) to urbanized areas.
5

326a
allows the use of system-wide permits instead of
requiring individual permit applications for each
outfall located in a designated urban area, as was
required under previous EPA regulations. See
National Pollutant Discharge Elimination System
Permit Application Regulations for Storm Water
Discharges , 53 Fed. Reg. 49,416, 49,449 (Dec. 7,
1988). The stormwater rule "only addresses
conveyances that are part of a separate storm
sewer system that discharges stormwater into
waters of the United States." 55 Fed. Reg. at
48,036. The regulations define "municipal storm
sewer system" as a "conveyance or system of
conveyances" ... "owned or operated by a ... public
body" and "designed or used for collecting or
conveying stormwater . ..". 40 C.F.R. § 122.26(b)(8).
Although the rule allows multiple entities to
apply as co-permittees for system-wide permits
when appropriate, such as when their storm drain
systems are interconnected , EPA also recognized
that "[i]n some cases, it may be undesirable for all
municipal entities with stormwater responsibility
within a municipal system to be co-permittees ...".
55 Fed. Reg. at 48,043. In those circumstances ,
several permits could be issued "to cover various
subdivisions [i.e., jurisdictions] of a single
municipal
system." Id. The universe of
discharges regulated by "system-wide" permits
and "jurisdiction-wide" permits is the same: each
type of permit covers a publicly owned system
for the conveyance of stormwater. The only
difference between the two types of permits is
whether they name a single permittee or multiple
co-permittees. Based on the foregoing, the
Department’s reading of "jurisdiction -wide" is not

327a
supported by the plain language of the CWA or
its implementing regulations.

B. The

County
Can not
Be
Held
Responsible For Discharges That Do
Not Pass Through Its MS4.

Part IV.E.2 of the 2014 Permit improperly holds
Carroll County responsible for discharges of
pollutants that originate from third parties and
never enter the County storm sewer system. Federal
and state law are clear that individual dischargers
are responsible for their own discharges , and must be
permitted accordingly. See 40 C.F.R. § 122.21(a)(l)
("[a]ny person who discharges or proposes to
discharge pollutants or who owns or operates" the
discharge is responsible); Code of Maryland
Regulations
("COMAR")
26.08.04.01-IA(l)
("[p]ersons engaged or planning to engage in
activities requiring a discharge permit ... shall file
a complete application"); see also 40 C.F.R. §
122.26(a)(3)(iii) ("[t]he operator of a discharge from a
[MS4] which is part of a large or medium [MS4]"
must apply to be a co-permittee or submit a distinct
permit application). The 2014 Permit improperly
transfers responsibility for third parties' pollution to
Carroll County in two ways.
First, the
Impervious
Area
Restoration
Requirement (Part IV.E.2.a) requires the County to
restore 20% of all impervious areas developed
anywhere in the County prior to 2002, even though
half of the land in the County is in agricultural use
and the County has little stormwater infrastructure
in rural areas.6
Second, the Local Watershed
6

Carroll County has a total area of 287,900 acres. In 2017,

328a
Restoration Requirement (Part IV.E.2 .b) requires
the County to develop restoration plans and
schedules
for
Local
TMDLs
that
assign
responsibility to the County for nonpoint source
pollution that originates from privately-owned
sources . This transfer of responsibility occurs
simply because the 2014 Permit applies county
wide and without regard to whether these
discharges pass through the County's storm sewer
system.7
The impact of applying these two restoration
requirements county wide can be illustrated by
examining the Double Pipe Creek Watershed, a
141,934 acres (49.3 percent) were used for agriculture, with
70,091 of those acres permanently preserved for agricultural use.
The majority of the active farms in the County are on
lands currently zoned Agricultural or Conservation. See
Carroll County, Land Preservation, Parks and Recreation
Plan at 4 and 57 (June 2017), available at http://dnr.maryland
.gov/land/Documents/Stewardship/Carroll-County _2017_FinalLPPRP .pdf.
Voluminous information from the County 's
stormwater database and regarding stormwater management
facilities is contained in the Administrative Record at 2129.
A visual representation of the storm drain system for
Carroll County and its co- permittees is available at:
http://ccgovemment.carr.org/ccg/npdes/Interim%20CCMS4%20
Map.pdf?x=l 526336202222.
7
See, e.g., MDE, Total Maximum Daily Loads of Fecal
Bacteria for the Double Pipe Creek Basin in Carroll and
Frederick Counties, Maryland at 17-18 (Oct. 2009), available
http://www.mde
.maryland.gov/programs/Water/TMDL/
at
ApprovedFinalTMDLs/Documen
ts/www.mde.state.md.us/assets/document/Double
_Pipe_Bacteria_TMDL_Final.pdf (stating that, because Double
Pipe Creek watershed is covered by MS4 permits, "nonpoint
source contributions from domestic animal and human
sources will be categorized as point sources and assigned to
the Stormwater WLA").

329a
predominantly rural watershed which is located in
both Carroll and Frederick Counties . The
watershed consists of crop land (44.2%), forest
(30.9%), and pasture (8.1%), and is only 16.4%
regulated urban land (land that is under
construction, already developed, or used for
mining). 8
The overbreadth of the first requirement, the
Impervious Area Restoration Requirement (Part
IV.E.2.a) is demonstrated by a 2013 study
prepared by Carroll County of the impervious areas
located within Eastern Double Pipe Creek
Watershed (a subarea of Double Pipe Creek). Apx.
at 9-43. (E. 357-359; Record ("R.") 1386-1424.) The
Eastern Double Pipe Creek study area contained
260 acres, with a total of 20.28 impervious acres. Of
the impervious acreage, 7.46 acres were devoted to
publicly owned roads/common use drives and 12.82
acres were on private property. Apx. at 37. (R.
1418.) Under the Impervious Area Restoration
Requirement, the amount of impervious area
Carroll County must restore, based on the total
impervious area in the Eastern Double Pipe Creek
study area, is inflated by more than 70% because
the County must account not only for publicly
owned roads (many of which fall outside the scope
of the stormwater rule9) but also for privately
See MDE, Total Maximum Daily Load of Phosphorus
in the Double Pipe Creek Watershed in Carroll and
Frederick Counties, Maryland at 6-7 (Aug. 2012), available
http ://mde.maryland.gov/programs/Water/TMDL/
at
ApprovedFinalTMDLs/Documents/Do
uble_Pipe_Creek_NutTMDL _08-08-12_fa.pdf.
9
The County does not concede that its rural roads are
properly included in the 20% restoration area requirement.
8

330a
owned impervious area. The 2014 Permit imposes
this burden despite the fact that Carroll County
has
limited
stormwater
management
infrastructure in these areas into which privately
owned impervious areas can discharge.10 See
supra footnote 6. The Impervious Area Restoration
Requirement has nothing to do with how the
private lands in rural areas drain; MDE's sole
stated justification for making the County
responsible for treating pollution from impervious
areas on rural private property is that they are
located within Carroll County. 11 This county wide
approach is particularly unreasonable because
Many of Carroll County's rural roads are not covered by the
rule because they lack drainage systems and do not
discharge to surface waters. See 55 Fed. Reg. at 48036.
10
MDE's comparison of the Impervious Area Restoration
Requirement to mitigation requirements in wetlands permits
is inapposite. See Appellant's Br. at 21-22. Federal and state
wetlands regulations require a permittee to mitigate for
their own impacts, not those of third parties. 40 C.F.R. §
230.93(a)(l ) ("[c]ompensatory mitigation requirements must
be commensurate with the amount and type of impact that
is associated with a particular [Department of the Army]
permit."); COMAR 26.23.04 .02B(2) ("[t]he Department shall
require a permittee, as a condition of a permit, to mitigate
or monetarily compensate for nontidal wetland losses caused
by regulated activities ..." (emphasis added).
11
MDE does not claim that all impervious areas in the
County actually drain to the County MS4. Ifdrainage area
were relevant to MDE's analysis, the State Highway
Administration ("SHA") should also be obligated to restore
impervious areas on private lands that drain to its MS4.
MDE imposed no such requirement. See MDE, NPDES MS4
Discharge Pennit for SHA (Oct. 9, 2015), available at
http://mde.maryland.gov/programs/water/stormwatermanagem
entprogram/documents/SH
A%20Final %20Permit%20complete%2010 _9_2015 .pdf

331a
MDE does not follow it with the six counties
(Calvert, Cecil, Queen Anne's, St. Mary's ,
Washington, and Wicomico) that are subject to
the recently
issued General Permit
for
Discharges for Small Municipal Separate Storm
Sewer Systems ("Small MS4 Permit"). Those
counties "may determine baselines according to
the impervious surfaces within the urbanized area
of [the] jurisdictions." 12
The overbreadth of the permit's second
restoration requirement, the Local Watershed
Restoration Requirement (Part IV.E.2.b), is
demonstrated by the fecal bacteria TMDL for
Double Pipe Creek, which is incorporated by
reference in the permit. (E. 84.) This TMDL
expressly acknowledges that a portion of the fecal
bacteria load to Double Pipe Creek comes from
nonpoint sources, with surface runoff transporting
bacteria over land and directly to waterways
during rain events, not via the storm sewer
system. See supra footnote 7, at 17. Simply
because the Double Pipe Creek Basin is located
within counties that are subject to MS4 permits,
this TMDL assigns the entire fecal bacteria load
from domestic animals and septic systems to the
MS4s permittees.
Id.
The 2014 Permit then
makes Carroll County responsible for developing
restoration plans and schedules to address
bacterial pollution from third parties that never
See MDE, NPDES General Pennit for Discharges from
Small MS4s, App. B, at B-10 (Apr. 27, 2018), available at
http://mde
.maryland
.gov/programs/Water/
StormwaterManagementProgram/Documents/
NPDES%20PII%20FINAL/Muni%20PII%20permit%20final%2
0042018.pdf
12

332a
enters the County's municipal storm sewer system.
Id. at 18.
While MDE lacks the authority to make the
County responsible for third party discharges that
never enter the MS4, it has ample authority to
require private owners of impervious surfaces to
treat their own stormwater runoff if that is
necessary to meet the Bay TMDL. See 40 C.F.R. §
122.26(a)(9)(i)(D) (allowing EPA or the states to
designate additional categories of dischargers as
subject to permit requirements where their
discharges contribute to violations of water quality);
Md. Code Ann., Envir. § 9-323(b) (in addition to
the categories of dischargers listed in § 9-323(a),
the Department may "[b]y rule or regulation, ...
require a discharge permit for any other activity.");
COMAR 26.08.04.08B(2)(a) (stormwater discharges
are a class of discharge that may be regulated by
general permit).13
Owners of certain types of
industrial property are already required to apply for
permit coverage and, under the terms of a general

13

The County's authority is far more limited than MDE
suggests. See Appellant's Br. at 17-18. While the County has
authority to require that erosion and sediment controls and
stormwater management plans be implemented with new
development or redevelopment (Md. Code Ann., Envir. § 4103(a), (b); § 4-204(a)), it does not have the authority to require
property owners to install additional stormwater controls at
already developed property in the absence of a grading or
building permit application. Id. Nor does the County have the
authority to regulate discharges to State waters. See Perdue
Farms, Inc. v. Hadder, 109 Md. App. 582 (1996) (state
discharge permit program preempts county's effort to limit
nitrogen in wastewater discharge).

333a
permit issued by MDE, must restore 20% of their
impervious area in order to meet the Bay TMDL. 14
MDE can also directly regulate the sources of
pollution that contribute to the impairment of
local waterways. For example, if fecal bacteria
loads from septic systems needs to be reduced in
the Double Pipe Creek watershed, MDE has the
authority to require owners of septic systems to
obtain discharge permits. The Department
currently exercises that authority only for
systems that discharge over 5,000 gallons per
day.
COMAR 26 .04.02.0SQ. MDE can also
provide funding for septic system upgrades. Md.
Code Ann ., Envir. § 9-1605.2(i)(2)(xi); COMAR
26.03.13.04. Furthermore, MDE has authority to
take enforcement action against failing systems.
See, e.g., Md. Code Ann ., Envir. § 9-220
(Secretary may order the owner in charge of a
sewerage system to correct improper conditions);
Md. Code Ann., Envir. § 9-221 (Department may
order the owner of a sewerage system that is a
menace to health or comfort or causing a nuisance
to alter, extend, or replace the system). Instead
of exercising its own ample authority, MDE
improperly assigned responsibility for third party
discharges to the County via the restoration
provisions of the MS4 permit.

See MDE, General Permit for Discharges from Stormwater
Associated with Industrial Activities, at 5 (Jan. 1, 2014), available
at
http://mde.maryland.gov/programs/Pennits/WaterManagement
Permits/Documents/GDP%20Stormwater/12
_SW_
CompleteFinalPermit.pdf.
14

334a
C. MDE is Estopped from Holding the
County Responsible for Third Parties'
Discharges that Never Enter the MS4.
MDE is barred by collateral estoppel from
imposing responsibility on Carroll County for
third party discharges that never enter the MS4.
In Tyson Foods, et al., v. MDE, the Department's
Final Decision Maker rejected the agency's
attempt to regulate independent third parties in
similar fashion. See 2003 Final Decision and
Order, Apx. 44. In Tyson Foods, MDE issued
wastewater discharge permits to several poultry
processing facilities ("Processors"). Apx. at 47-52.
Certain conditions in those permits required the
Processers, the only parties named on the permits,
to take action at hundreds of poultry farms
("Growers") throughout Maryland. Apx. at 51-52.
Most of the farms were independently owned and
none directly or indirectly discharged to any of the
processing facilities owned and operated by the
Processors. Id. MDE's Final Decision Maker
determined that MDE could not regulate third party
Growers through Processors ' permits. Apx. at 56-59.
While MDE could have directly regulated the
Growers or listed them as co-permittees with the
Processors if they all were part of an integrated
poultry production "disposal system", the Department
had chosen not to. Id. The Department's Final
Decision Maker determined that, if MDE wanted to
regulate the nutrient pollution discharge from
Growers' farms, it had to do so directly. It could
not indirectly regulate Growers via Processors'
permits or hold the Processors partially responsible
for the Growers ' discharges. Apx. at 59.

335a
MDE is collaterally estopped by its decision in
Tyson Foods from now asserting that it has the
authority to hold a permittee responsible for the
discharges of third parties that do not enter the
County MS4. Under Maryland law, collateral
estoppel attaches to earlier agency decisions where
the agency acted in a judicial capacity, the issue was
fully litigated, and resolution of the issue was
necessary to the agency's decision. See Garrity v.
Md. State Bd. of Plumbing, 447 Md. 359, 380
(2016). All three criteria are met here: MDE's final
decision maker was acting in a judicial capacity,
the scope of MDE's permitting authority was
clearly and definitively litigated, and the final
decision maker's decision depended on resolution of
that question. Neither the federal nor the State
authority undergirding MDE's discharge permitting
scheme has changed since Tyson Foods. See
Calvert Cnty. Planning Comm'n v. Howlin Realty
Mgmt., 364 Md. 301, 325 (2001) ("some new or
different factual situation [] that justifies [a]
different conclusion," more than "mere change of
mind," required for agency reconsideration or policy
change). Therefore, MDE is collaterally estopped
from asserting that it has the authority to
regulate third parties through the County's MS4
permit.
D. The
Bay
TMDL
Provides
No
Justification for MDE to Exceed its
Permitting Authority.
MDE portrays the County's appeal as an
attack
on the
Chesapeake
Bay
TMDL.
Appellant's Br. at 19-24. That is simply not the
case -Carroll County fully supports the use of
impervious area restoration as a surrogate effluent

336a
limitation in MS4 permits. What the County
objects to is being held responsible for pollutants
that it neither generates nor discharges, contrary
to federal and State law, an issue that was not
addressed by this Court when it considered the
20% restoration requirement for large MS4s in
Anacostia Riverkeeper, 346 Md. at 437.
It is a fallacy that Maryland will be unable to
meet the commitments it made in its Phase II
Watershed Implementation Plan if it cannot impose
county wide restoration requirements. First, the
County is on track to exceed its restoration
obligation.15 Second, the Department has the
authority to require private property owners to
reduce their own pollution loads, rather than
making the County responsible for third party
discharges that never enter the MS4. Third, the
Department
has
gone well
beyond
the
commitments made in the Phase II WIP and
inflated the acreage that the County is required
to restore. MDE did this by changing the date by
which "baseline" impervious area would be
determined , moving it from 1985 to 2002 and
thus increasing the impervious area to be
addressed . (E. 123.)
Furthermore , the commitments made in the
WIP are not written in stone. The Bay TMDL
"nowhere prescribes any particular means of
pollution reduction . . . ." Am . Farm Bureau, 792
F.3d at 303 (emphasis in original) . MDE clearly
15

See Carroll County, 2017 NPDES MS4 Permit Annual
Report at 10 (Dec. 15, 2017), available at
http://ccgovernment.carr.org/ccg/npdes/2017_NPDES_Annual_
Report.pdf?x=1525386937969.

337a
recognized this because it deviated from the
Phase II WIP when it issued the Small MS4
Permit by allowing the six "small" counties to
determine baseline according to the surfaces
located only in urbanized areas. Compare Small
MS4 Permit at B- 10 with Phase II WIP at 11, 14,
and A-15, supra fn 4.
Finally, the fact that MDE made commitments
in the Phase II WIP does not deprive Carroll
County of the right to challenge the Bay TMDL
as applied. When the City of Salisbury
attempted to directly challenge a TMDL for the
Wicomico River in the Circuit Court for Wicomico
County, MDE moved to dismiss on the grounds
that "[a] discharger cannot claim to have been
aggrieved by a TMDL until [MDE] proposes to
issue a discharge permit that includes effluent
limits based on the TMDL." MDE's Mot. to
Dismiss at 11, In re Wicomico Rive r TMDL, No.:
22-C-01-000623 (Wicomico Cnty. Cir. Ct. June
13, 2003), Apx. 79. The circuit court agreed and
granted MDE's motion . See Case Summary, In re
Wicomico
River
TMDL,
No .:22-C-01-000623
(Wicomico Cnty. Cir. Ct. June 13, 2003), Apx. 83.
MDE is therefore estopped from taking a contrary
position here. See Garrity, 447 Md. at 369-71
(2016) (offensive non-mutual collateral estoppel
available under Maryland law); see also Corby v.
McCarthy, 154 Md. App . 446, 481 (2003)
(unreported decisions "may be cited only [] when
relevant under the doctrine of the law of the case, res
judicata, or collateral estoppel").

338a

II. MDE ERRED IN ITS DESIGNATION OF
THE COUNTY AS A PHASE I MEDIUM
MS4 JURISDICTION.

A. The

County is Not a Phase I
Mediu m System Under the Clean
Water Act Regulations.

The Department misclassifies and over-regulates
the County by designating it as a Phase I medium
municipal storm sewer system. Congress created a
phased
approach
to municipal
stormwater
permitting depending on the size of the
municipality. 33 U.S.C. § 1342(p)(2)(C), (D). The
federal MS4 permitting scheme was intended to
first address municipal separate storm sewer
systems serving populations of 250,000 or more
(referred to as "large" MS4 jurisdictions) and
municipal separate storm sewer systems serving
populations over 100,000 but less than 250,000
(referred to as "medium" MS4 jurisdictions) . Id.
(emphasis added.) Jurisdictions with populations
less than 100,000 could not be required to obtain
a permit prior to October 1, 1994 unless there was
a determination that their discharge contributed to
a violation of a water quality standard or was a
significant contributor of pollutants to the waters of
the United States. See 33 U.S.C. § 1342(p)(l) and
(2)(E).
"Medium municipal storm sewer system" is a
defined term under the Clean Water Act
regulations and all medium MS4 cities and counties
are specifically listed in Appendix I to Part 122 of
Title 40 of the Federal Regulations. 40 C.F.R. §
122.26(b)(7); see also 64 Fed. Reg. at 68748. As
MDE explained in its brief,

339a
[T]he [CWA] regulations define 'medium
municipal separate storm sewer system' by
reference to an Appendix I, which lists the
counties that, at that time, contained
'unincorporated urbanized areas [with a
population] greater than 100,000, but less
than 250,000 according to the 1990 decennial
census.'
Appellant's Br. at 30. Carroll County does not
appear on Appendix I. Id.; 40 C.F.R. Part 122, App.
I. In fact, the only medium MS4 listed for Maryland
is Howard County. See id.
Carroll County was properly excluded from
Appendix I. As conceded by MDE, the County's
unincorporated population as of the 1990 decennial
census was only 93,791, below the 100,000 person
threshold for designation as a Phase I medium MS4
jurisdiction.16
See Appellant's Br. at 30 (citing
App. 25). Equally important, Carroll County did
not contain any urbanized areas17 as of the 1990

16

In 1990, Carroll County had a total population of 123,372,
with approximately 38,000 people living in incorporated
towns . The majority of the population, 84,954 persons, or
68% of the population, lived in rural areas. See Maryland
Department of Planning, Urban and Rural Population in
Maryland: 2000 and 1990 (May 2002), available at
http//planning.maryland.gov/MSDC/Documents/Census/Cen200
0/urban_rural/ua_rural2 k_cnty .pdf.
17
The 2010 census defined "urbanized area" as one or more
places ("central place ") and the adjacent densely settled
surrounding territory ("urban fringe ") that together have a
minimum of 50,000 persons. The urban fringe generally
consists of contiguous territory having a density of least 1,000
persons per square mile.
See https://www.census
.gov/prod/cen1990/cph2/cph-2-22.pdf.

340a
census.18 According to the 1990 census, the largest
incorporated area within Carroll County was the
City of Westminster with a population of 13,068.
(App. 22-23.) All other incorporated towns had less
than 4,000 people. Id. Therefore, under the plain
language of the regulations, the County should not
have been classified as a Phase I medium MS4
jurisdiction.
EPA issued corrections to its lists of medium
and large MS4s as part of its 1999 stormwater
regulations. See 64 Fed. Reg. at 68,748-49. In 1999,
EPA corrected the content of Appendix I by adding
"those incorporated places and counties whose 1990
population caused them to be defined as a 'medium'
or 'large' MS4." Id. Importantly, EPA explained
that Appendix I "will not need to be revised again
because today's rule 'freezes' the definition of
'medium' and 'large' MS4s at those that qualify
based on the 1990 census." Id.
The Department argues that the although EPA'
s 1999 stormwater regulations froze the list of
medium jurisdictions in Appendix I, states could
continue classifying counties as Phase I medium
jurisdictions once their population exceeded
100,000.
Appellant's Br. at 32. EPA directly
addressed this argument in the preamble to the
1999 stormwater regulations, recognizing that
under the regulations municipalities that reach the
medium or large threshold after the 1990 census
could be subject to fewer permitting requirements
compared to those that were already at the
population thresholds when the existing storm
water regulations took effect. 64 Fed. Reg. at
18

See supra fn 16.

341a
68,749. EPA noted that the deadlines from the
existing regulations had lapsed and that "the
permitting authority can always require more from
operators of MS4s serving 'newly over 100,000'
populations." Id. Contrary to MDE's suggestion,
this does not mean it could classify Carroll County
as a Phase I medium MS4 based on future
population projections.

B. The Department Cannot

Retroactively
Apply its Residual Designation Authority
to
Correct
its
Prior
Erroneous
Designation.

The Department now contends that it used its
residual designation authority to designate Carroll
County as a "medium" Phase I jurisdiction in the
early 1990s because of the system's contribution to
water quality impairments. Appellant's Br. at 29,
33. This post hoc justification is contrary to the
Department's Final Determination as well as all
contemporaneous evidence in the record. The circuit
court correctly held that "MDE cannot ameliorate its
prior error by now offering a new basis upon
which it could have, but did not, base its decision
to designate the County as a Phase I jurisdiction."
(E.. 30.)
The County agrees with the Department that
the Clean Water Act authorizes MDE to designate
stormwater discharges for coverage under a
NPDES permit if MDE "determines that the
stormwater discharge contributes to a violation of a
water quality standard or is a significant contributor
of pollutants to waters of the United States." 33
U.S.C. § 1342(p)(2)(E); see also 40 C.F.R. §
122.26(a)(l)(v); 40 C.F.R. § 124.52. While the CWA

342a
allows MDE to designate an MS4 system for
permit coverage based on contributions to water
quality impairments, there is no suggestion in the
record19 that
the Department
made
this
determination when it issued the County's initial
permit in 1995. The CWA regulations state that if
MDE were to make a case-by-case determination
that Carroll County required an individual permit
due to the contributions of its MS4 system to water
quality impairments, it needed to notify the
County of its determination in writin g and send
an application form with that notice. See 40 C.F.R.
§ 124.52. This simply did not occur.
Maryland had only three EPA-approved TMDLs
by September 1999 and none of these TMDLs were
for waterbodies in Carroll County. Sierra Club v.
EPA, 162 F. Supp. 2d 406, 417 (D. Md. 2001).
Moreover , the first TMDLs for the County were not
approved until 2003. (E. 84, 172-76.) Therefore, not
only is the record devoid of any correspondence
from the early 1990s suggesting the Department
used its residual designation authority, but it is
also unlikely, given the lack of TMDLs and WLAs
for Carroll County, that the Department could
have used its residual designation authority to
designate the County as a Phase I jurisdiction due
The Department points to language in Maryland's 2010
Phase I WIP for the Chesapeake Bay TMDL as evidence that
it exercised its residual authority to designate the County as
a Phase I jurisdiction in the early 1990s. Appellant's Br. at
34. Given that the correspondence between the Department
and the County from the early 1990s unequivocally states
that the Department's Phase I designation was based solely
on the County 's expected population growth, the reference to
residual authority in the 2010 Phase I WIP should be
disregarded.
19

343a
to the contributions of its MS4 to water quality
impairments.
The record demonstrates that MDE's decision to
regulate Carroll County as a Phase I medium
jurisdiction was based solely on the County's 1990
population and its expected population growth
without any regard to whether that population was
served by the MS4.20 In December 1991, the
Secretary of the Department informed the County
that because its population was under 100,000
after incorporated places are excluded, "MDE does
not intend to designate Carroll County as a medium
municipality at this time." (App. 25.) MDE
explained that "it is our intention to require an
application and subsequent stormwater permit in
Carroll County when its incorporated population
exceeds 100,000. Data provided by the Maryland
Office of Planning indicates that this will occur in
1994."
(App.
25.)
The
Department's
contemporaneous explanation is consistent with a
1997 MDE municipal stormwater monitoring report
stating that "MDE used projections from the
Maryland Office of Planning (MOP) to designate
Carroll, Charles, Washington , and Frederick
counties [as Phase I medium municipalities] when
their populations surpassed 100,000." Apx. at 6, R.
414.
In the Final Determination, MDE erroneously stated that
it designated the County as a Phase I MS4 jurisdiction based
on having a population of over 100,000 in 1990. (E. 102.)
However, the 1991 correspondence between MDE and the
County added to the record at App . 20-30 clarifies that
MDE 's decision to designate the County as a Phase I
medium jurisdiction was based on projections from the
Maryland Office of Planning that the County's population
would exceed 100,000 in 1994.
20

344a
Furthermore,
in
its
Basis
for
Final
Determination to Issue Frederick County's MS4
Permit
(hereinafter
"Frederick
Final
Determination"), also issued in December 2014,
MDE addressed Frederick County's contention
that it was incorrectly designated as a Phase I
MS4 in its 1994 permit.21 The Frederick Final
Determination explains that Frederick County, like
Carroll County, did not meet the minimum
population threshold of 100,000 required to be
defined as a Phase I medium MS4 jurisdiction. See
Frederick Final Determination at 29-30. Consistent
with its instructions to Carroll County, the
Department required Frederick County to submit a
Phase I MS4 application in 1993 based on
population projections from the Maryland Office of
Planning. Id In explaining its 2014 decision to
continue to regulate Frederick County as a Phase I
medium jurisdiction, MDE conceded that "[t]he
County is correct that MDE did not make a
claim under its RDA [residual designation
authority] that Frederick County must apply as a
Phase I." Id. at 30. MDE concluded that because
Frederick County "agreed to apply for a Phase I MS4
permit" in 1993, there was no need to "make a
determination based on water quality violations or
impairments ." Id. Given that Carroll County also
applied for a Phase I permit in 1993 and was issued
a permit in 1995, there is no evidence that MDE

MDE, Basis for Final Determination to Issue Frederick
County 's NPDES MS4 Permit (Dec. 2014), available at
http://mde.maryland.gov/programs/Water/StormwaterManagem
entProgram/Documents/Basis%20for%20Final%20Determinatio
n-Frederick%20with%20attachments.pdf.
21

345a
treated Carroll County
Frederick County.

any

differently

from

C. MDE Did Not Exercise its Authority
under State Law.

The County agrees that MDE has authority under
state law to require Carroll County to obtain an
individual MS4 permit. See Appellant's Br. at 3536. However, an MS4 permit issued under state
law would not be part of the federal NPDES
program and therefore would not be a Phase I
permit. Appellant's Br. at 36. Additionally, the
Department did not rely on its state law authority in
issuing the County's MS4 permit. The fact that the
Department could issue an individual permit under
state law does not negate its responsibility to
properly classify the County as a Phase II MS4
based on EPA regulations and to treat similarly
situated counties in a comparable fashion.

D. The Equitable Estoppel Doctrine is
Inapplicable to the Facts of this Case
and the Department Should be Held
Accountable
for
Improperly
Designating the County as a Phase I
Medium MS4.

The thrust of the Department's equitable
estoppel argument is that the Department "relied on
the County's agreement to accept Phase I status as
it developed the plans and programs that were
incorporated into the Bay TMDL." Appellant's Br.
at 27. The facts do not support MDE 's equitable
estoppel argument.
The doctrine of equitable
estoppel, if it were to apply, would apply only to the
commitments Maryland made in the Phase II WIP for
the Chesapeake Bay TMDL. The County is on

346a
track to exceed the 20% restoration obligation by
the end of the current permit term. See 2017
NPDES MS4 Permit Annual Report at 10, supra
fn. 15. Because the County will meet the 20%
impervious area restoration requirement in its
current permit, properly classifying Carroll County
as a Phase II small MS4 would not "undermine
Maryland's federal-law commitment to achieve the
goals of the Bay TMDL." See Appellant's Br. at 28.
Furthermore, MDE would not need to revise its
Phase II WIP if it were to reclassify the County as
a small MS4.
Nor can the Department satisfy the elements of
the equitable estoppel defense. Equitable estoppel
has three elements:
voluntary conduct or
representation, good faith reliance, and detriment.
Mona Elec. Co. v. Shelton, 377 Md. 320, 334 (2003).
While the Department attempts to portray itself as
relying in good faith on the County's acceptance of
Phase I medium status in 1995, it was MDE, as the
regulatory authority, that should have been
familiar with the CWA and accompanying EPA
regulations surrounding the designation of Phase I
medium jurisdictions.
As the Circuit Court
correctly held,
. . . because MDE is the agency charged
with implementing the NPDES program in
Maryland, it is ultimately responsible for
erroneously requiring the County to obtain a
PhaseIMS4 permit. Therefore, MDE cannot
claim good faith reliance upon the County
applying as a medium MS4 jurisdiction on its
initial permit application.
(E. 33.)

347a
The Department also cannot make a
detrimental reliance claim. It is a fallacy for MDE
to claim that reclassifying the County's MS4
would require it to revise the Phase II WIP. The
County's 2014 Permit goes well beyond the
commitments made in the Phase II WIP and MDE
greatly inflated the acreage that the County must
restore for the Bay TMDL. See supra at 22-23.
MDE did this by changing the date by which
"baseline" impervious area would be determined,
moving it from 1985 to 2002, thereby dramatically
increasing the impervious area to be addressed. (E.
123.) Therefore, when the County completes the
20% restoration requirement of the 2014 Permit, it
will have gone well beyond the restoration
obligation assumed in the Phase II WIP .
Finally, the fact that MDE made commitments
in the Phase II WIP does not deprive Carroll
County of the right to challenge its Phase IMS4
permit. See supra at 23-24. For all of these
reasons, the County is not estopped from contesting
its designation as a medium Phase I jurisdiction.

E. The Anti-Backsliding Rule Does Not
Apply .

The
anti-backsliding
rule
prevents
the
Department from issuing a permit that "contain[s]
effluent limitations which are less stringent than
the comparable effluent limitations in the previous
permit." 33 U.S.C § 1342(0). Effluent limitations
are limits on the type and quantity of pollutants
that can be released into the nation's waters. See
33 U.S.C. § 1362(11) (defining an effluent limitation
as "any restriction established by a State or the
Administrator
on
quantities,
rates,
and

348a
concentrations of chemical, physical, biological , and
other constituents which are discharged from point
sources into navigable waters, the waters of the
contiguous zone, or the ocean, including schedules
of compliance"). The Department incorrectly states
that designating the County as a small MS4
"risks" backsliding. Appellant's Br. at 36. The
anti-backsliding rule is inapplicable to the facts of
this case for several reasons.
First,
MDE's
argument
is premature.
Reclassifying Carroll County as a small MS4 will
not automatically result in the Department
issuing a permit with less stringent effluent
limitations.
It will be the Department's
responsibility to ensure that the provisions of
the reissued permit are no less stringent than
comparable effluent limitations in the County's
previous permit. The County's 2005 MS4 permit
is the relevant permit for purposes of the antibacksliding provision. (E. 86 - 100.) If MDE
determines that the effluent limitations in the
recently issued Phase II General Permit are less
stringent than the effluent limitations in the
County's 2005 permit,22 then the Department
can craft an individual permit for the County
that does not violate the anti-backsliding rule. See
Appellant's Br. at 36 (explaining that MDE can
require a separate individual permit for a
Part III.G. of the County's 2005 Permit required the
County to implement "watershed restoration projects for
controlling stormwater discharges from 10% of the
County's impervious surface area." (E. 92.) The County has
satisfied this effluent limitation and is on track to meet the
20% restoration obligation in the 2014 permit by the end of
the current permit term. See supra fn. 15.
22

349a
county that would otherwise be covered by the
Phase II general permit). Therefore, there is no
reason to assume that the anti-backsliding rule
creates an impediment to reclassifying the
County as a Phase II small MS4 jurisdiction.
Second, the anti-backsliding rule would not be
violated even if the revised effluent limitations
were less stringent than the effluent limitations
in the County's 2005 permit. The antibacksliding rule does not apply if the previous
permit was based on "mistaken interpretations
of law." 33 U.S.C § 1342(o)(2)(B)(ii).23 Here,
MDE's misclassification of the County's MS4 as a
medium system is a mistaken interpretation of
the CWA and EPA regulations. See id. Similarly,
the County's designation as a "medium" is not an
effluent limitation so reclassifying the county as
"small" would not, in and of itself, run afoul of the
anti-backsliding rule.

F. The

County's
Challenge
to
its
Designation
as
a
"Medium"
Jurisdiction is Properly Before the
Court and the Department Fully
Considered
this
Issue Prior
to
Finalizing the 2014 Permit.

The
County
exhausted
its
available
administrative remedies by participating in the
public comment period and receiving a final agency
decision from MDE .
The Department's Final
Even if an exception to the anti-backsliding rule applies,
a reissued or modified permit cannot contain a less
stringent effluent limitation that leads to a violation of a
Maryland water quality standard . See § 1342(0)(3); 40 C.F.R.
§ 122.44(1)(2)(ii).
23

350a
Determination
provides
the basis
for its
misclassification of the County's MS4. See E. 102
(stating that the Department classified the County
as a Phase I medium municipality based on its
1990 census
population of
over 120,000).
Therefore, the County seeks to challenge an issue
"encompassed in the final decision of the
administrative agency ." See Dep 'tof Health &
Mental Hygiene v. Campbell, 364 Md. 108, 123
(2001).
R e l y i n g on Md. Code. Ann., Envir . § 160l(d)(l), the Department argues that the County
is barred from contesting its status as a medium
MS4 jurisdiction because it did not raise the issue
during the public comment period. Appellant's Br.
at 24. However, MDE also acknowledges that this
Court has "held consistently, that questions . . . that
could have been but were not presented to the
administrative agency may not ordinarily be raised
for the first time in an action for judicial review."
Appellant's Br. at 24-25 (citing Bd. of Physician
Quality Assurance v. Levitsky, 353 Md. 188, 207
(1999)
(emphasis
added)).
Therefore,
the
requirement to raise an issue before an
administrative agency is not absolute, and here the
rule's purpose is not served by barring review of
the Department's misclassification of the County's
MS4. Cf Md. Rule 8-131(a) (the Court may decide
an issue not raised or decided by the trial court "if
necessary or desirable to guide the trial court or to
avoid the expense and delay of another appeal");
Jones v. Maryland, 379 Md. 704, 713-715 (2004)
(an appellate court has discretion to excuse a
waiver or procedural default and to consider an

351a
issue even though it was not properly raised or
preserved by a party) .
The circumstances of this case are sufficiently
out of the ordinary to justify the Court's
consideration of whether the Department properly
d e s i g n a t e d the County as a Phase I medium
MS4 jurisdiction. It is firmly in the interest of
judicial economy to resolve this issue because (1)
the Department will issue the County's next permit
in 2019 and the County could contest its Phase I
medium status at that time; (2) the record in this
case contains all documents relevant to MDE's
decision to designate Carroll County as a Phase I
medium jurisdiction and MDE explained the basis
for its designation in the Final Determination; and
(3) as discussed below, this identical issue is also
before the Court in the Frederick County permit
appeal. See Frederick County v. Maryland Dep't of
the Env't, No. 7, Sept. Term 2018.
The issue of whether the counties were
properly designated as
Phase
I
medium
jurisdictions in the early 1990s was raised and
fully considered by the Department in Frederick
County's permit challenge. Frederick County's
comments on the draft permit included an
extensive discussion of why Frederick County
believed it had been misclassified as a Phase I
medium jurisdiction.24
Moreover , Frederick
Frederick County, Frederick County Comments Draft
MS4 Permit ("Frederick Comments "), Sept. 29, 2014, p. 37, available at
http//www.mde.state.md.us/programs/Water/StormwaterMa
nagementProgram/Documents/Frederick%20County%20Co
mments/FREDERICK%20C0%20COMMENTS%209-2914.pdf.
24

352a
County argued that MDE improperly designated
"several of the medium-sized systems," as Phase I
permittees based on estimates of future
population growth for the entire county rather
than urbanized areas. See Frederick Comments
at 7 (emphasis added). The Department fully
responded to Frederick County 's comments in
Section XI of the Frederick Final Determination ,
ultimately declining to reclassify Frederick
County as a small MS4.25 Therefore, the
Department was fully aware, prior to finalizing
the 2014 Permit, that several of the mediumsized systems were misclassified as Phase I
jurisdictions.
Because all of the 2014 Phase I MS4
permits were based on the same template
permit (E. 129), Carroll County's final permit
and final determination are largely identical to
Frederick County 's final permit and final
determination.26 To that end, both final
determinations respond to comments received
from all of the Phase I medium counties -- Carroll,
Charles, Frederick, Harford, and Howard -- that
are affected by MS4 permits. (See, e.g., E. 103, 118,
120, 122.) Critically, the Carroll County Final
Determination
explicitly
states that
the
MDE, Basis for Final Determination to Issue Frederick
County 's NPDES MS4 Permit, at 29-30, (Dec. 2014),
http://mde.maryland.gov/programs/Water/StormwaterManag
ementProgram/Documents/Basis%20for%20Final%20Deter
mination -Frederick%20with%20attachments .pdf .
26
Compare E. 101-31 to Frederick Final Determination at
fn. 25. See also Appellant's Br. at 1 (explaining that the
Department issued "nearly identical" permits to the
medium and large jurisdictions).
25

353a
Department considered all of the comments
submitted by the Phase I medium counties,
including the comments submitted by Frederick
County, in issuing Carroll County's permit. (E.
103.)
Therefore, MDE has had ample opportunity to
consider whether Carroll County was properly
designated as a Phase I medium jurisdiction and
judicial review of this issue would not undermine
the efficiency of administrative proceedings.

G. The

Department's
Unlawful
Classification Has Led to Disparate
Treatment Among Predominately Rural
Maryland
Counties
with
Almost
Identical Populations and Land Use.

It is arbitrary and capricious to classify Carroll
County, a
predominately rural agricultural
county,27 as a Phase I medium jurisdiction while
other Maryland counties with almost identical
populations and land use are classified as small
MS4s. The Department's unlawful classification of
Carroll County has the effect of unfairly and
arbitrarily subjecting the County to the same
effluent limitations as Maryland's largest urban
jurisdictions.
At MDE 's direction, Carroll County submitted
Part 1 of its application in May of 1993 and Part
2 of its application in May of 1994. App. at 25. In
Carroll County has eight incorporated municipalities in
which future growth is planned. The County has maintained
its rural character outside of its growth areas through its
extensive
Agricultural
Preservation
Program
and
agricultural land accounts for over 49% of land use. See
supra at 15-16 and fn. 6.
27

354a
the early 1990s, it was not apparent to the County
or to MDE that the consequence of being labeled
a Phase I medium jurisdiction would be a
regulatory burden that is significantly greater
than that borne by similarly situated counties.
Moreover, the County could not have anticipated
that the Department would later develop a single
"template" permit for all large and medium

355a
IN THE
COURT OF APPEALS OF MARYLAND
______________________
September Term, 2018
_____________________
_____________________
No. 5
_____________________
MARYLAND DEPARTMENT OF THE
ENVIRONMENT,
Appellant/Cross-Appellee,
v.
COUNTY COMMISSIONERS OF
CARROLL COUNTY,
Appellee/Cross-Appellant.
________________________
On Appeal from the Circuit Court for Carroll County
(Thomas F. Stansfield, Judge)
Pursuant to a Writ of Certiorari to the Court of
Special Appeals of Maryland
________________________
BRIEF OF APPELLANT
________________________

356a

BRIAN E. FROSH
Attorney General
of Maryland
ADAM D. SNYDER
CPF No. 9706250439
Assistant Attorney
General
200 St. Paul Place,
20th Floor
Baltimore, Maryland
21202
(410) 576-6398
asnyder@oag.state.md.
us

KUNLE ADEYEMO CPF
No. 1012140009
Assistant Attorney
General
1800 Washington
Boulevard
Baltimore, Maryland
21230
Kunle.adeyemo@maryland
.gov
(410) 537-3704

April 16, 2018

Attorneys for Appellant

357a
* * *
facie correct and presumed
agency’s province to resolve
to draw inferences from
Vehicle Admin. v. Shepard,
(citation omitted).

valid, and . . . it is the
conflicting evidence and
that evidence.’” Motor
399 Md. 241, 252 (2007)

An
agency’s
discretionary
decisions
are
examined to determine if the agency’s action is
“arbitrary or capricious.” See Spencer v. Board of
Pharmacy, 380 Md. 515, 529- 31 (2004). Under this
deferential standard, an agency’s discretionary
decisions must be upheld if they are justified by
some rational basis. Dep’t of Human Res., Baltimore
City Dep’t of Soc. Servs. v. Hayward, 426 Md. 638,
647 (2012) (noting “[a]n agency’s actions will be
classified as arbitrary and capricious if they are
‘unreasonabl[e] or without a rational basis’” (quoting
Harvey v. Marshall, 389 Md. 243, 297 (2005)).

II. THE

DEPARTMENT HAS THE LEGAL
AUTHORITY TO USE THE IMPERVIOUS
SURFACE AREA OF THE ENTIRE COUNTY
AS THE BASELINE FOR THE PERMIT’S
RESTORATION REQUIREMENT.

A. The Permit’s County-Wide Coverage Is
Consistent with the Clean Water Act.

Municipal stormwater permits are not like
traditional source-specific NPDES permits. Unlike
traditional NPDES permits, which govern discharges
from a single source, MS4 permits cover discharges
from hundreds of separate sources, more than a
thousand in Carroll County’s case. (E. 331.) The
federal definition underscores the complexity of MS4
systems:

358a
Municipal separate storm sewer means a
conveyance or a system of conveyances
(including roads with drainage systems,
municipal streets, catch basins, curbs, gutters,
ditches, man-made channels, or storm drains):

(i) Owned or operated by a State, city,

town, borough, county, parish, district,
association, or other public body (created by or
pursuant to State law) having jurisdiction over
disposal of sewage, industrial wastes, storm
water, or other wastes . . .;

(ii) Designed or used for collecting or

conveying storm water[.]

40 C.F.R. § 122.26(b)(8). Due to their unique
features, “[m]unicipal separate storm sewer systems
often cover many square miles and comprise
numerous, geographically scattered and sometimes
uncharted sources of pollution, including streets,
catch basins, gutters, man- made channels, and
storm drains.” Natural Res. Def. Council, Inc. v.
County of Los Angeles, 725 F.3d 1194, 1208-09 (9th
Cir. 2013).
The diffusion of municipal stormwater systems
presents regulatory difficulties that traditional
NPDES permits do not. Municipal stormwater
systems are not inspected, monitored, or permitted
in the same way as industrial facilities. “Because of
the nature of municipal stormwater discharges,”
Congress, in the 1987 Water Quality Act, “adopted a
flexible approach to the control of pollutants in
MS4s.” Anacostia Riverkeeper, 447 Md. at 98. As
explained in the legislative history of the 1987 Act,
that flexibility goes to the very nature of the MS4permitting program:

359a
Mr. President, I would like to explain to my
colleagues why a little more time is needed to
develop a comprehensive municipal storm
sewer program. These permits will not
necessarily be like industrial discharge
permits. Often, an end-of-the-pipe treatment
technology is not appropriate for this type of
discharge. As an EPA official explained in a
meeting of the conferees:
These are not permits in the normal sense we
expect them to be. These are actual programs.
These are permits that go far beyond the
normal permits we would issue for an
industry because they in effect are
programs for stormwater management that
we would be writing into these permits.
132 Cong. Rec. S16424-02 (Oct. 16, 1986) (Statement
of Sen. Stafford; emphasis added).
To accommodate the programmatic aspect of MS4
permits, the 1987 amendments to the Clean Water
Act added language specifically providing that
“[p]ermits for discharges from municipal storm
sewers . . . may be issued on a system- or
jurisdiction-wide basis.” 33 U.S.C. § 1342(p)(3)(B).
Although the statue does not define the term
“jurisdiction- wide,” the regulations describe a
“system-wide” permit as one potentially “covering
all discharges from municipal separate storm
sewers within a large or medium municipal storm
sewer system.” 40 C.F.R. § 122.26(a)(3)(ii). If
“system-wide” permits cover all
discharges
throughout the system, it stands to reason that
“jurisdiction-wide” permits cover all discharges
throughout the jurisdiction. That would be

360a
consistent with the commonly understood definition
of “jurisdiction” as “[a] geographic area within
which political or judicial authority may be
exercised.” Black’s Law Dictionary 855 (7th Ed.
1999). By contrast, limiting “jurisdiction-wide” MS4
permits to only the constituent systems themselves
would give the terms “system-wide” and
“jurisdiction-wide” the same meaning, which canons
of statutory construction forbid. Drew v. First Guar.
Mortg. Corp., 379 Md. 318, 332 (2003); Cunningham
v. Scibana, 259 F.3d 303, 308 (4th Cir. 2001).
EPA guidance on the application of the Clean
Water Act’s municipal stormwater program
confirms the states’ ability to issue MS4 permits on a
jurisdiction-wide basis. In the 1990 Federal
Register
notice
announcing
its
municipalstormwater regulations, EPA discussed the options
it considered for how best to define the scope of
MS4 permit coverage. The options included
defining systems “in terms of the municipal entity
which owns or operates storm sewers within
municipal boundaries of the requisite population”
and defining “municipal systems on a geographic
basis,” including “systems within the boundaries of
counties.” 55 Fed. Reg. 47990, 48039 (Nov. 16, 1990).
Given the “diversity of arguments and rationales”
for the different approaches and the “geographic,
climatic, and institutional differences around the
country,” EPA was “convinced that the definition of
municipal separate storm sewers should possess
elements of several of the options enumerated
above” and provide “a mechanism that enables
States or EPA Regions to define a system that
best suits their various political and geographical
conditions.”
Id.
Accordingly,
the
definition

361a
ultimately adopted (1) “targets areas that have the
necessary police powers and land use authority to
implement the program,” (2) allows for permitting
throughout the “watershed,” and (3) “accommodate[s]
existing administrative frameworks and storm water
programs.” Id. at 48043.
Under Maryland law, counties have broad police
powers to regulate land use and stormwater
management
throughout
their
jurisdictions.
Counties have the authority to build and maintain
roads, bridges, and culverts, Md. Code Ann., Local
Gov’t § 10-319(a)(1), and enact local laws “relating to
zoning and planning” that provide for “the financing,
construction, and maintenance of storm drainage
projects” and “the regulation of storm drainage
facilities.” Id. §§ 10-321, 10-324(a)(1). Counties are
required to “adopt ordinances necessary to
implement a stormwater management program”
more generally, Envir. § 4-202, and to “adopt grading
and building ordinances necessary to carry out” state
erosion and sediment control requirements, id. §
4-103(b). Counties must also adopt regulations that
require environmental site design to the maximum
extent practicable, id. § 4-203(b)(5), and state law
prohibits them from issuing building or grading
permits before approved erosion control and
stormwater-management-control plans are in
place. Id. §§ 4-103(a), (b), 4-204(a). The Department
has determined that the Phase I MS4 permit,
applied on a jurisdiction-wide basis, “best suits,” 55
Fed. Reg. at 48039, the broad land use and
stormwater control powers that the counties exercise
within their boundaries.
The permit at issue here reflects the programmatic
nature of MS4 permits. Although the permit

362a
authorizes only “stormwater discharges from the
municipal separate storm sewer system owned or
operated by Carroll County” (E. 48 ¶ I.B), many of its
conditions require pollution control measures that,
almost by definition, are implemented county-wide.
For example, the permit requires Carroll County
to
maintain
an
“acceptable
stormwater
management program,” an “acceptable erosion and
sediment control program,” and a “public
education and outreach program to reduce
stormwater pollutants.” (E. 50-53 (permit terms
D.1, 2, and 6).) None of these “programs” is
implemented with respect to a single outfall or even
a single catchment area for a specific MS4 system;
these
programs
are
instead
implemented
throughout the County’s jurisdiction. Incorporating
these jurisdiction-wide programs into the MS4
permit reflects congressional intent that the
municipal-stormwater-permitting program sweep
broadly to cover more than just the specific
outfalls through which the system discharges.
Because of the many ways in which the permit
operates
throughout
the
County’s
political
jurisdiction, the Department “will continue to
define the regulated permit area as jurisdictionwide” and it “considers all provisions of th[e] permit
to apply to the geographic area of Carroll County.”
(E. 129.)
* * *

363a
IN THE CIRCUIT COURT
FOR CARROLL COUNTY
PETITION OF:
COUNTY COMMISSIONERS
OF CARROLL COUNTY, MARYLAND
FOR JUDICIAL REVIEW OF THE DECISION OF
Maryland Department of the Environment Water
Management Administration
IN THE CASE OF
National Pollutant Discharge Elimination System
Municipal Separate Storm Sewer System Discharge
Permit No.: 11-DP-3319, MD0068331
Case No.: 06-C-15-068141
*

*

*

*

*

*

*

*

CARROLL COUNTY’S MEMORANDUM
IN SUPPORT OF PETITION
FOR JUDICIAL REVIEW
The County Commissioners of Carroll County,
Maryland (the “County”), by counsel, respectfully
submits this Memorandum in support of its
Petition for Judicial Review of the National
Pollutant Discharge Elimination System (“NPDES”)
Municipal
Separate
Storm
Sewer
System
Discharge Permit No.: 11-DP-3319; MD0068331
(the “Permit”) issued by the Maryland Department
of the Environment (“MDE”).

364a
INTRODUCTION
The County regrets the necessity of this
appeal. Notwithstanding the County’s good faith
efforts to resolve this matter at the agency level, the
County is now faced with an unlawful and
unreasonable NPDES Permit that far exceeds
applicable statutory authority and jurisdiction,
imposes unlawful requirements, and exposes the
County to excessive compliance costs, enforcement
actions, and substantial monetary penalties.
The County fully appreciates that the Permit
must address the County-owned stormwater
drainage system, which is properly subject to
regulation as a “point source” under 33 U.S.C. §
1342(p)(3)(B) and 40 C.F.R. § 122.26(b)(8). This
appeal challenges MDE’s decision to make the
County responsible for two additional sources of
stormwater to state waters. First, the Permit
transfers responsibility to the County for
“nonpoint” source runoff that seeps into state
waters independent of the County-owned system.
Second, it also imposes responsibility on the County
(and the co-permittee municipalities) for thirdparty owned and operated point source discharges.
The County does not own or operate these
additional sources. Nor are they received into the
County’s system, conveyed by it, or discharged from
it. But the Permit treats these sources as if they
were somehow part of the regulated County-owned
system and, through that fiction, imposes largescale, costly “restoration” (i.e., corrective action)
obligations on the County.
To compound matters, MDE mischaracterized
and over-regulated the County system as a

365a
“Medium” system (rather than as a “Small”
system) and applied the same permit template as
“Large” systems resulting in other excessive
requirements, Basis for Final Determination 3, 29
(Dec. 2014), AR 54, 80 (“Final Determination”),
and MDE imposed burdens on the County that
MDE admits are beyond the “maximum extent
practicable” compliance standard, id. at 22, AR 73.
As a matter of good government, the County
should not be expected to play along and accept an
unlawful Permit, especially given that any
subsequent noncompliance would expose the County
to legal enforcement actions by environmental
groups and other citizen suit plaintiffs, 33 U.S.C. §
1365, the U.S. Environmental Protection Agency
(“EPA”), id. § 1319, and MDE, Md. Code Envir. § 9342, with the possibility of substantial monetary
penalties and costly injunctive remedies, see also
Permit Pt. VII.D (outlining civil and criminal
penalties for noncompliance with the Permit). For
these reasons, the County is compelled to file this
appeal.
QUESTIONS PRESENTED FOR REVIEW
I. Does MDE’s permit action unlawfully hold
the County responsible for unregulated nonpoint
source runoff and for stormwater discharges by
independent third parties?
II. Has MDE improperly subjected the County
to overly stringent requirements in the Permit by
classifying the County’s system as “Medium” rather
than as “Small” and subjecting it to the same
requirements as “Large” systems?

366a
III. Has MDE acted arbitrarily and capriciously
by refusing to allow the County to fulfill its Permit
obligations using water quality trading as a
compliance method?
IV. Has
MDE
violated
state
law
by
incorporating and amending Md. Code Land Use §
3-102 through the Permit?
MUNICIPAL SEPARATE STORM SEWER
SYSTEMS GENERALLY
To protect property from flooding and erosion
when rain falls or snow melts, drainage systems of
pipes, swales and ditches are commonly used to
direct stormwater from roofs, roads, and parking
lots away to nearby streams. The County’s
municipal separate storm sewer system, or MS4,1 is
such a system. It functions to capture stormwater
within certain areas of the County for safe
conveyance and eventual discharge from the MS4’s
point source outfalls into surface waters. Other
stormwater never enters the County’s MS4 and
instead reaches surface waters either as diffuse
nonpoint source surface flow or as point source
discharges from MS4s owned by other entities (e.g.,
the State Highway Administration) and from nonMS4 drainage structures owned by other persons.
Along this journey, stormwater can pick up
pollutants such as sediment, litter, and road salt.
The management and reduction of pollutants
carried by stormwater is the basic purpose of an
NPDES permit for discharges from an MS4.

“ Municipal separate storm sewer system” and “MS4” are
defined in the federal regulations at 40 C.F.R. § 122.26(b)(18)
& (19)

1

367a
MS4s differ in three major ways from other
NPDES permitted facilities such as factories that
discharge into state waters. First, unlike industrial
factory discharges, stormwater discharges are
caused by precipitation, which is naturally
occurring, intermittent and variable, and cannot be
stopped. Second, the MS4 is not the primary
generator of the pollutants being discharged; rather,
the sources typically are citizens and businesses
engaged in legal activities and the activities of daily
life. Past decisions about the location, design, and
construction of roads, parking lots, and residential
and commercial buildings often play a major role in
determining how and where stormwater flows.
Third, MS4s discharge through hundreds or
thousands of individual outfalls into surface waters,
so an MS4’s contribution to instream water quality
is difficult to ascertain and to regulate precisely. See
Natural Res. Def. Council v. N.Y. Dep’t of Envtl.
Conserv., 34 N.E.3d 782, 801–02 (N.Y. 2015);
Puget Soundkeeper Alliance v. Wash. Dep’t of
Ecology, 2008 WA ENV LEXIS 30, *15–17 (Wash.
Pollution Ctrl. Hrgs. Bd. 2008); see also MDE v.
Anacostia Riverkeeper, 447 Md. 88, 97–98, 134 A.3d
892, 987–98 (2016).
Accordingly, Congress amended the Clean Water
Act in 1987 to create a unique permitting program
for MS4s. See 33 U.S.C. § 1342(p)(3)(B). This
amendment required cities, counties, and other
governmental entities that met certain population
thresholds to obtain NPDES discharge permits for
the stormwater conveyances that they own or
operate. Id. § 1342(p)(2); 40 C.F.R. §§ 122.26 &
122.32. Rather than imposing strict limits on the
amount of pollutants that could be discharged from

368a
MS4s, Congress mandated that NPDES permits for
regulated MS4s instead require measures to reduce
the discharge
of
pollutants
“to
the
maximum
extent
practicable.”
33
U.S.C. §
1342(p)(3)(B)(iii).
The
“maximum
extent
practicable” standard—often called the “MEP
standard”—is the exclusive standard governing MS4
permits. See Anacostia Riverkeeper, 447 Md. at 124,
134 A.3d at 913. There are two key elements to the
MEP standard. First, it gives the permitting
authority flexibility to establish “controls for MS4s
to reduce the discharge of pollutants.” 33 U.S.C. §
1342(p)(3)(B)(iii). Second, it sets the level of effort
for those controls: the permittee must reduce
discharges to the “maximum extent practicable.” See
id.
STATEMENT OF FACTS
The County owns and operates a municipal
separate storm sewer system that serves only
discrete areas of Carroll County. See Carroll
County Comments on Draft Carroll County NPDES
MS4 Stormwater Permit 3 (Sept. 2014), AR 1174
(“Cnty. Cmts.”). MDE misclassified the County’s
system as a “Medium” MS4, which resulted in the
County being issued a Permit based on the same
template as large urban localities, such as
Baltimore City and Montgomery and Prince
George’s Counties, and imposing requirements that
are inappropriate for Carroll County.
MDE made a Tentative Determination to issue
the Permit and provided a draft permit for public
comment on June 27, 2014. The County filed
detailed comments objecting to specific aspects of
the draft permit on September 29, 2014, Cnty.

369a
Cmts., AR 1172, and provided testimony at a public
hearing on September 8, 2014, Tr. of Pub. Hrg., AR
1208 (statement of Phillip Hager), AR 1212
(statement of Thomas Devilbiss).
MDE issued the final Permit on December 29,
2014. The Permit will drive a multi-year study,
planning,
budgeting,
implementation,
and
construction program process that will consume
tens of millions of dollars of County funds over a
short five-year permit period.
One key element of the Permit—the definition of
the regulated “Permit Area”—is particularly relevant
to this appeal. The County’s Permit and associated
documents provide contradictory definitions of the
regulated “Permit Area.” “Permit Area” is defined in
the Permit as being limited to the portion of the
County served by the County’s storm sewer system.
Permit Pt. I.B, AR 15 (defining “Permit Area” as “all
stormwater discharges from the municipal separate
storm sewer system (MS4) owned or operated by
Carroll County, Maryland”); see also id. Pt. IV.D, AR
17 (properly limiting Management Programs to
“areas served by Carroll County’s MS4”); MDE,
Accounting for Stormwater Wasteload Allocations
and Impervious Acres Treated, Guidance for National
Pollutant Discharge Elimination System Stormwater
Permits 6 (Aug. 2014), AR 136 (incorporated by
reference into the permit by Part IV.E.2.a) (describing
“Permit Area” by reference to 40 C.F.R. § 122.26(b)(8)
as the “storm drain system” that the County “owns or
operates”). However, the Final Determination MDE
issued with the Permit takes the completely
contradictory position that the “regulated permit
area” extends to the entire “geographic area of Carroll

370a
County.” Final Determination, at 29, AR 80.2 By the
same token, several other Permit provisions purport
to apply to the entire County. See, e.g., Permit Pts.
IV.E & IV.E.1.a, AR 21.
This definition is a question of Clean Water Act
jurisdiction with multi-million dollar consequences.
For example, Part IV.E.2.a of the Permit compels
the County to install expensive stormwater
controls for 20% of the total untreated impervious
acreage in the Permit Area. A critical issue is
whether the “Permit Area” is (1) the entire County
or (2) only the parts of the County served by the
County’s regulated storm sewer system. Similarly,
the Permit subjects the County to the onerous
requirements of stormwater wasteload allocations
under Total Maximum Daily Loads (discussed
further below)— many of which apply outside of the
areas served by the County’s MS4 system. Permit
Pt. IV.E.4, AR 23.
MDE
has
expressed
in
communications
subsequent to the issuance of the Permit that it
believes that the broad description of the
regulated Permit Area in the Final Determination
background document controls rather than the
Permit Area definition of the Permit itself. Permit
Pt. I.B, AR 15. Accordingly, for the sake of
argument, this Memorandum assumes that the
Permit Area encompasses the entirety of Carroll
County, but correcting that clear legal error is a
primary purpose of this appeal.
The Final Determination
accompany the final permit.
COMAR 26.08.04.01-3. Errors
determination are subject to
3(C)(3)(b)(ii).

2

is a document that must
Md. Code Envir. § 1-604(b);
of law or fact in the final
review. COMAR 26.08.04.01-

371a
The County timely filed a petition for judicial
review in this Court in accordance with Md. Code
Envir. § 1-605 and Md. Rule 7-202 on January 28,
2015.
STANDARD OF REVIEW
An agency’s legal conclusions are reviewed de
novo. Schwartz v. Dep’t of Natural Res., 385 Md.
534, 554, 870 A.2d 168, 180 (2005). “[I]t is always
within [the Court’s] prerogative to determine
whether an agency’s conclusions of law are correct,
and to remedy them if wrong.” Id. Although in some
cases a “degree of deference” may be given to an
agency’s construction of a statute it administers,
this deference is very limited. Howard Cnty.
Citizens for Open Gov. v. Howard Cnty. Bd. of
Elections, 201 Md. App. 605, 615–16, 30 A.3d 245,
252 (2011). This limited deference does not extend
to “purely legal issue[s],” such as the interpretation
of case law or other legal authorities. People’s
Counsel for Balt. Cnty. v. Loyola College, 406 Md.
54, 67–68, 956 A.2d 166, 174 (2008). It also does
not extend to agency positions that were not
developed
through
“contested
adversarial
proceedings [or] formal rule promulgation.” Balt.
Gas & Electric Co. v. Pub. Serv. Comm’n, 305 Md.
145, 162, 501 A.2d 1307, 1315 (1986). Furthermore,
an agency’s legal positions and practices are entitled
to no special weight merely because they are
longstanding. See Md. Aviation Admin. v. Noland,
386 Md. 556, 572, 873 A.2d 1145, 1155 (2005).
When an agency exercises its discretion, its
action must be overturned if it is found to be
arbitrary and capricious. Assateague Coastkeeper v.
MDE, 200 Md. App. 665, 691, 28 A.3d 178, 194

372a
(2011). An agency’s actions are arbitrary and
capricious if the “decision is not supported by
facts,” Balt. St. Parking Co., LLC v. Mayor & City
Council, 194 Md. App. 569, 600, 5 A.3d 695, 713
(2010) (internal quotation marks omitted), or if
the decision was “unreasonable or without a
rational basis,” Balt. City Dep’t of Soc. Servs. v.
Hayward, 426 Md. 638, 647, 45 A.3d 224, 229
(2012) (internal quotation marks omitted). Agency
action also is arbitrary and capricious if the
agency’s reasoning is “internally inconsistent and
inadequately explained.” Gen. Chem. Corp. v.
United States, 817 F.2d 844, 846 (D.C. Cir. 1987).
ARGUMENT
I. MDE’S PERMIT ACTION IS UNLAWFUL
BECAUSE IT IMPOSES RESPONSIBILITY
ON THE COUNTY FOR STORMWATER
THAT DOES NOT ENTER INTO AND IS
NOT DISCHARGED FROM THE COUNTY’S
SYSTEM
As discussed above, the County’s MS4 exists
only in pockets throughout Carroll County.
Operating this storm sewer system requires an
NPDES discharge permit under the federal Clean
Water Act. See 33 U.S.C. §§ 1311(a), 1342(p). The
Permit is simply the County’s license to discharge
stormwater from the regulated MS4 that the
County owns and operates. 40 C.F.R. § 122.26(a)
(requiring permit for “[a] discharge from a . .
municipal separate storm sewer system”), (b)(8)
(defining a “[m]unicipal separate storm sewer
system” as those parts of the system “[o]wned or
operated” by the governmental entity). MDE has
no authority to use this Permit to force the

373a
County to control all precipitation that falls
anywhere within Carroll County. In particular,
MDE cannot impose on the County responsibility
for third-party point sources that discharge to state
waters without ever entering the County’s system.
40 C.F.R. § 122.26(b)(8). Furthermore, “nonpoint”
source runoff, meaning diffuse stormwater runoff
that is not channeled through a storm sewer, pipe,
ditch, or other conveyance that makes up part of a
storm sewer system, is not regulated under the
NPDES permit program. Cordiano v. Metacon Gun
Club, Inc., 575 F.3d 199, 221 (2d Cir. 2009). MDE
completely lost sight of the purpose and scope of
the NPDES permit program when it claimed in
the Final Determination that it would use the
Permit for the County’s system to impose legal
responsibility for the entire “geographic area” of the
County. Final Determination, at 29, AR 80.
EPA has authorized Maryland to issue NPDES
discharge permits as required by 33 U.S.C. §
1342(b). Final Determination, at 2, AR 53. The
General Assembly instructed MDE in plain terms to
implement the federal requirements. See Md. Code
Envir. § 9-253 (granting only those “powers that
are necessary to comply with and represent this
State under the [Clean Water Act]”); COMAR
26.08.04.01.A (empowering MDE to “issue State
discharge permits or NPDES permits [i.e., MS4
permits] . . . to satisfy the regulatory requirements
of the [Clean Water Act]”). Under the Clean Water
Act, NPDES permits
for
MS4s
regulate
“discharges composed entirely of storm water”
from “municipal separate storm sewers” that are
“owned or operated by” a county or other
governmental entity. 40 C.F.R. § 122.26(a), (b)(8)

374a
(emphasis added); see also 33 U.S.C. § 1342(p).
Nothing in federal or state law authorizes MDE to
use an NPDES permit to regulate other areas,
property, or systems that are not part of or served
by the County storm drainage system.3 See 64 Fed.
Reg. 68722, 68750 (Dec. 8, 1999) (“Today’s rule
does not regulate the county, city, or town. Today’s
rule regulates the MS4.”).
Nevertheless, MDE claims the authority under
the federal regulations to make the County’s Permit
apply “jurisdiction-wide.” Final Determination, at
28–29,
AR
79–80
(citing
40
C.F.R.
§
122.26(a)(1)(v)).
MDE
misconstrues
what
“jurisdiction-wide” means in the regulation. A
county may operate hundreds or thousands of
stormwater pipe outfall points and multiple
unconnected storm sewer systems within its
jurisdiction. See Anacostia, 447 Md. at 98, 134 A.3d
Neighboring states have in effect NPDES stormwater
permits, with EPA approval, but without the expanded
jurisdictional reach MDE attempts to exercise here. See, e.g.,
Pa. Dep’t of Envtl. Protection, PAG-13 NPDES General
Permit for Stormwater Discharges (authorizing “the discharge
of stormwater from regulated small municipal separate storm
sewer systems (MS4s) to surface waters”), available at
http://www.dep.pa.gov/
Business/Water/PointNonPointMgmt/StormwaterMgmt/Stormw
ater/Pages/default.aspx#c hange (emphasis added); 46 Pa.
Bull. 2910 (June 4, 2016) (notice of availability of PAG- 13 for
“regulated small MS4s for discharges of stormwater to surface
waters”); Va. State Water Control Bd., General VPDES
Permit for Discharges of Stormwater from Small MS4s,
9VAC25-890-40 § I.A. (authorizing the permittee to
discharge “from the small [MS4] identified in the registration
statement into surface waters”) and § I.C.1 (requiring
Chesapeake Bay TMDL-related pollutant reductions for lands
“served by the MS4”.

3

375a
at 897. The regulation gives agencies like MDE the
flexibility to group all pipes, all outfalls, and all
systems operated by a locality into a single
“jurisdiction-wide” permit rather than issue
separate permits for each outfall or each system.
See 40 C.F.R. § 122.26(a)(3)(ii). This provision is
simply for administrative convenience, not for the
massive jurisdictional expansion (nonpoint source
runoff and third-party discharges) and liability
transfer that MDE seeks. See NRDC v. Cnty. of Los
Angeles, 725 F.3d 1194, 1209 (9th Cir. 2013); 55
Fed. Reg. 47990, 48023 (Nov. 16, 1990); 133 Cong.
Rec. 522 (daily ed. Feb. 3, 1987) (statement of Rep.
Rowland) (stating that “communities [could] obtain
far less costly single jurisdictionwide permits”
rather than permits for each of thousands of
stormwater discharge points).
A. MDE’s
“Jurisdiction-wide”
Permit
Regulates Nonpoint Source Stormwater
Runoff that Is Beyond the Jurisdiction of
the Clean Water Act
The Clean Water Act does not regulate every
drop of rain that falls to the Earth; it regulates only
stormwater that is “discharged” from a “point
source”—which means stormwater that has been
collected into a storm sewer, ditch, or pipe that
conveys it to a waterway. See 55 Fed. Reg. at
47996 (stating that the MS4 permit requirement
“only covers storm water discharges from point
sources”); see also Decker v. Nw. Envtl. Def. Ctr.,
133 S. Ct. 1326, 1331 (2013) (stating blackletter law
that the Clean Water Act only regulates discharges
from point sources). “Point source” is defined as
“any discernible, confined and discrete conveyance,
including but not limited to any pipe, ditch,

376a
channel, tunnel, conduit, well, discrete fissure,
container, rolling stock, concentrated animal
feeding operation, or vessel or other floating craft,
from which pollutants are or may be discharged.”
33 U.S.C. § 1362(14). “Discharge” also is a
defined term meaning the “addition of any
pollutant to navigable waters from a point source.”
Id. § 1362(12) & (16).
Rainwater that sheet flows off a parking lot or
a field and into a stream are examples of
nonpoint sources that would not be within the
jurisdiction of the Clean Water Act and its NPDES
permit program. See Cordiano, 575 F.3d at 221
(“[S]urface water runoff which is neither collected
nor channeled constitutes nonpoint source pollution
and consequentially is not subject to the [Clean
Water Act] permit requirement.”); Envtl. Def. Ctr.,
Inc. v. EPA, 344 F.3d 832, 841 n.8 (9th Cir.
2003) (“Diffuse runoff, such as rainwater that is
not channeled through a point source, is
considered nonpoint source pollution and is not
subject to federal regulation.”). However, if the
Permit requirements in Part IV.E to develop
watershed restoration plans for impaired waters
apply to the entire geographic area of the County,
then the County would be responsible for
stormwater from parking lots, roads, and rooftops
that does not enter the County’s system. These
nonpoint sources of stormwater runoff are not
regulated under the Clean Water Act and may not
lawfully be included in the County’s Permit as the
basis for a control requirement.

377a
B. MDE’s “Jurisdiction-wide” Permit Holds
the County Responsible for Stormwater
Discharges
by
Independent
Third
Parties Who Are Legally Responsible for
Their Own Discharges
Many commercial and residential properties
that do not drain into the County’s system instead
drain through privately owned ditches, swales, or
pipes leading to state waters. By law, the “person”
who “owns or operates” the discharge is
responsible and must obtain a discharge permit if
one is necessary.4 40 C.F.R. § 122.21(a)(1), (b); see
also 40 C.F.R. § 122.26(a)(3)(iii) (requiring the
“operator of a discharge” from an MS4 to obtain a
permit); COMAR 26.08.04.01-1.A(1) (requiring
“[p]ersons engaged . . . in activities requiring a
discharge permit” to apply for one). Consistent with
how the Clean Water Act assigns responsibility for
discharges, a “municipal separate storm sewer”
subject to the MS4 permit requirement is defined to
include only stormwater conveyances that are
“owned or operated” by the locality. 40 C.F.R. §
122.26(b)(8) (emphasis added). Likewise, the
County’s Permit expressly applies to “all
stormwater discharges from the municipal separate
storm sewer system (MS4) owned or operated by
Carroll County.” Permit Pt. I.B, AR 15 (emphasis
added). However, the Final Determination purports
to hold the County responsible for private third
parties’ discharges, not to mention stormwater
discharges from other municipal, state, or federal
Not all stormwater discharged from a point source is
regulated under the Clean Water Act. See 40 C.F.R. §
122.26(a)(1) (listing categories of dischargers subject to the
permitting requirement).

4

378a
governmental entities in the County that do not
hold their own MS4 permits, and similar
references are made in discrete provisions of the
Permit. The County is responsible for discharges
from the MS4 it owns or operates, and MDE has no
lawful authority to include third parties’ discharges
in the County’s MS4 permit as obligations of the
County simply because they happen to occur within
the County’s political boundaries. MDE’s error in
doing so has the same effect as its error regarding
nonpoint sources in terms of massively increasing
the scope of the County’s permit obligation by, for
example, multiplying the acreage subject to the
Permit’s restoration plan requirement in Part IV.E.
C. MDE’s
“Jurisdiction-wide”
Permit
Obligates the County to Exercise Authority
It Does Not Have Over Private Property
A number of waterbodies throughout the County
are subject to total maximum daily loads (“TMDL”). A
TMDL is essentially a “pollution budget” for a
waterbody that sets the maximum amount of
pollutants of concern allowable for a waterbody and
then allocates that total among the various sources of
that pollutant (e.g., bacteria, nutrients, sediment).
Conserv. Law Found. v. EPA, 964 F. Supp. 2d 175,
179–80 (D. Mass. 2013). For many TMDLs, a portion
of the pollution budget, or “wasteload allocation,” is
assigned to regulated stormwater. In most cases, that
means that pollutant discharges from stormwater
(and other sources addressed in the TMDL) have to
be reduced from the currently excessive levels that
triggered the development of the TMDL budget for
the pollutant of concern. Pollutants from such
discharges can be reduced by making changes to land
use (e.g., converting a parking lot to a forest) or by

379a
implementing stormwater control measures (e.g.,
constructing a pond to collect and treat runoff). In
either case, it is obvious that reducing pollutants from
stormwater necessitates taking some measure of
control over the land on which that stormwater flows.
The Permit purports to require the County to
develop detailed “watershed restoration plans” to
comply with stormwater wasteload allocations for
all applicable TMDLs throughout the County,
including TMDLs outside of the County’s MS4
service area. Permit Pts. IV.E & IV.E.4, AR 21, 23;
see also id. Pt. III.2, AR 15. In addition to
unlawfully regulating stormwater beyond the scope
of MDE’s NPDES permit authority as discussed
above, this condition presumes the County has
authority over the use of private property that it
does not. MDE justifies this requirement by
stating that the County has authority to control
erosion and sediment and stormwater from “[a]ll
private development within the borders of Carroll
County.” Final Determination, at 28, AR 79.
Although the County has statutory authority to
mandate stormwater control measures for new
development and redevelopment projects, see Md.
Code Envir. §§ 4-103, 4-204, neither the County
nor MDE has the same statutory authority over
existing
development, such
as
established
neighborhoods and operating shopping malls. The
County cannot, for example, order the owner of a
thirty-year-old shopping center to convert part of
its parking lot into a stormwater management
pond to stop stormwater-carried pollutants from
discharging to an adjacent stream subject to a
TMDL.

380a
It makes no sense for the County to be directed to
comply with stormwater TMDLs outside of its MS4
service area where it neither has any stormwater
discharges of its own nor has the authority to order
private landowners of existing development to control
discharges from their properties. The County lacks
the authority necessary to implement this
requirement. Moreover, this provision violates the
controlling standard for MS4 NPDES discharge
permits that they need only reduce discharges from
the owner’s stormwater system to the maximum
extent practicable. This is yet another reason why the
Clean Water Act sensibly limits an MS4 permittee’s
obligations to discharges from the MS4 system it
actually owns or operates.
II. MDE
MISCLASSIFIES
AND
OVERREGULATES
THE
COUNTY
BY
DESIGNATING
ITS
SYSTEM
AS
A
“MEDIUM” MS4
MDE has made a serious error in its regulation of
the County’s system. The Clean Water Act
regulations make a distinction between “Small,”
“Medium,” and “Large” MS4s. 40 C.F.R. §
122.26(b)(4), (7), (16). For all practical purposes,
Large and Medium MS4s are subject to the same
permitting standard, id. § 122.26(d), whereas Small
MS4s are subject to a more streamlined and less
onerous general permit that reflects their size and
capacity to implement management measures, id. §
122.32.5 The cities and counties designated as
See MDE, NPDES General Permit for Discharges from
Small Municipal Separate Storm Sewer Systems, available at
www.mde.state.md.us/assets/document/
NPDES%20Phase%20II%20General%20Permit.pdf.
5

381a
Medium and Large MS4s are specifically listed in
EPA’s regulations. The only Medium MS4 listed for
Maryland is Howard County, and the listed Large
MS4s are Anne Arundel, Baltimore, Montgomery,
and Prince George’s Counties, as well as Baltimore
City. See id. § 122.26(b)(4), (7); id. Pt. 122, Apps. F,
H & I (attached hereto as Attachment A). In 1999,
EPA “corrected” its list of Medium and Large
MS4s and determined that the lists “will not need
to be revised again” because EPA was “freez[ing]”
the list of Medium and Large MS4s. 64 Fed. Reg. at
68748–49.
MDE has misclassified the County as a
Medium (or Phase I) MS4.6 Final Determination,
at 2, AR 53 (“Carroll County was considered a
Phase I medium municipality due to its population
. . . .”). But this is contrary to the controlling
federal
regulation
which
reflects
EPA’s
determination in its original 1990 lists of Medium
and Large MS4 counties, 55 Fed. Reg. at 48074,
and its “corrected” lists in 1999, 40 C.F.R. Pt. 122,
Apps. H & I.
MDE disregards the NPDES regulation with the
erroneous assertion that the County is a Medium
MS4 because it exceeded the “Medium” population
threshold of 100,000 in 1990. Final Determination,
at 2, AR 53. MDE’s first legal error is its disregard
for EPA’s regulatory determination. All counties
that triggered the population-based threshold for
The record contains references to “Large,” “Medium,” and
“Small” MS4s, as well as “Phase I” and “Phase II” MS4s. For
the sake of clarification, it is worth noting that Large and
Medium MS4s are sometimes referred to collectively as
Phase I MS4s. Regulated Small MS4s are often referred to as
Phase II MS4s.

6

382a
Medium MS4 status are specifically listed in the
federal regulations, but Carroll County is not
listed. See 40 C.F.R. § 122.26(b)(7) (citing
appendices of cities and counties that were
designated as Medium MS4s based on their 1990
population). MDE’s second legal error is that the
population threshold for counties regulated as a
Medium MS4 is not based on the total county
population. It is triggered only if, as of 1990, more
than 100,000 people living in parts of a county
that were (1) unincorporated and (2) designated by
the Census Bureau as “urbanized areas” were
served by the county-owned MS4. See 55 Fed. Reg.
at 48041; see also 33 U.S.C. § 1342(p)(2)(D).
MDE’s misclassification has the effect of
regulating Carroll County as if it were the same as
large urban centers like the City of Baltimore,
Montgomery County, or Prince George’s County.
The County’s Permit is based on the same permit
template as those Large MS4s. This classification is
a plain error of law.
III. MDE’S REFUSAL TO ALLOW WATER
QUALITY TRADING IS ARBITRARY AND
CAPRICIOUS AND NOT SUPPORTED BY
SUBSTANTIAL EVIDENCE
Water quality trading is a market-based
compliance method that allows permittees to
acquire pollutant reduction credits from third
parties or other permitted facilities to meet
pollutant reduction requirements of their permits
“at the overall lowest cost to society, and for all
parties involved.” EPA, Water Quality Trading

383a
Evaluation 1-1 (Oct. 2008).7 This approach to
reducing pollutants in the Chesapeake Bay
watershed has been endorsed by EPA in the
Chesapeake Bay Total Maximum Daily Load 10-3
(Dec. 2010) (“An assumption of this TMDL is that
trades may occur between sources contributing
* * *

Available at https://www.epa.gov/sites/production/files/201509/documents/epa-water- quality-trading-evaluation.pdf.

7

384a
MARYLAND DEPARTMENT OF THE
ENVIRONMENT NATIONAL POLLUTANT
DISCHARGE ELIMINATION
SYSTEMMUNICIPAL SEPARATE STORM
SEWER SYSTEM DISCHARGE PERMIT
PART I. IDENTIFICATION
A. Permit Number: 11-DP-3319 MD0068331
B. Permit Area
This permit covers all stormwater discharges
from the municipal separate storm sewer system
(MS4) owned or operated by Carroll County,
Maryland. This permit covers all stormwater
discharges from the municipal separate storm
sewer system (MS4) owned or operated by Carroll
County, Maryland (permittee), and the following
incorporated municipalities: the Towns of
Hampstead, Manchester, Mount Airy, New
Windsor, Sykesville, Union Bridge and the Cities
of Taneytown, and Westminister (co-permittees).
C. Effective Date:

December 29, 2014

D. Expiration Date: December 28, 2019
PART II.

DEFINITIONS

Terms used in this permit are defined in relevant
chapters of Title 40 of the Code of Federal
Regulations (CFR) Parts 122-124 or the Code of
Maryland Regulations (COMAR) 26.08.01,
26.17.01, and 26.17.02. Terms not defined in
CFR or COMAR shall have the meanings
attributed by common use.
PART III.

WATER QUALITY

The permittee must manage, implement, and

385a
enforce a stormwater management program
(SWMP) in accordance with the Clean Water Act
(CWA) and corresponding stormwater National
Pollutant
Discharge
Elimination
System
(NPDES) regulations, 40 CFR Part 122, to meet
the following requirements:
1. Effectively prohibit pollutants in stormwater
discharges or other unauthorized discharges
into the MS4 as necessary to comply with
Maryland’s receiving water quality standards;
2. Attain applicable wasteload allocations
(WLAs) for each established or approved Total
Maximum Daily Load (TMDL) for each
receiving water body, consistent with Title 33
of the U.S. Code (USC) §1342(p)(3)(B)(iii); 40
CFR §122.44(k)(2) and (3); and
3. Comply with all other provisions and
requirements contained in this permit, and in
plans and schedules developed in fulfillment
of this permit.
Compliance with all the conditions contained in
PARTs IV through VII of this permit shall
constitute compliance with §402(p)(3)(B)(iii) of
the CWA and adequate progress toward
compliance with Maryland’s
receiving water
quality standards and any EPA approved
stormwater WLAs for this permit term.
PART IV.

STANDARD PERMIT CONDITIONS

A. Permit Administration
Carroll County shall designate an individual to
act as a liaison with the Maryland Department of
the Environment (MDE) for the implementation
of this permit. The County shall provide the

386a
coordinator’s name, title, address, phone number,
and email address. Additionally, the County
shall, in its annual reports, submit to MDE an
organizational chart detailing personnel and
groups responsible for major NPDES program
tasks in this permit. MDE shall be notified of
any changes in personnel or organization relative
to NPDES program tasks.
B. Legal Authority
Carroll County shall maintain adequate legal
authority in accordance with NPDES regulations
40 CFR Part 122.26 throughout the term of this
permit. In the event that any provision of its
legal authority is found to be invalid, the County
shall notify MDE within 30 days and make the
necessary changes to maintain adequate legal
authority. All changes shall be included in the
County’s annual report.
C. Source Identification
Sources of pollutants in stormwater runoff
countywide shall be identified and linked to
specific water quality impacts on a watershed
basis. The source identification process shall be
used to develop watershed restoration plans. The
following information shall be submitted
annually for all County watersheds within the
permit area in geographic information system
(GIS) format with associated tables as required in
PART V of this permit:
1. Storm drain system: all infrastructure, major
outfalls, inlets, and associated drainage areas
delineated;

387a
2. Industrial and commercial sources: industrial
and commercial land uses and sites that the
County has determined have the potential to
contribute significant pollutants;
3. Urban best management practices (BMPs):
stormwater
management
facility
data
including outfall locations and delineated
drainage areas;
4. Impervious surfaces: public and private land
use delineated, controlled and uncontrolled
impervious areas based on, at a minimum,
Maryland’s hierarchical eight-digit sub-basins;
5. Monitoring locations: locations established for
chemical, biological, and physical monitoring
of watershed restoration efforts and the 2000
Maryland Stormwater Design Manual; and
6. Water quality improvement projects: projects
proposed, under construction, and completed
with associated drainage areas delineated.
v. Improving lawn care and landscape
management (e.g., the proper use of
herbicides, pesticides, and fertilizers,
ice control and snow removal, cash for
clippers, etc.);
vi. Residential car care and washing; and
vii. Proper pet waste management.
c. Provide
information
regarding
the
following water quality issues to the
regulated community when requested:
i. NPDES permitting requirements;
ii. Pollution prevention plan development;

388a
iii. Proper housekeeping; and
iv. Spill prevention and response.
E. Restoration Plans and Total Maximum Daily
Loads
In compliance with §402(p)(3)(B)(iii) of the
CWA, MS4 permits must require stormwater
controls to reduce the discharge of pollutants
to the MEP. By regulation at 40 CFR §122.44,
BMPs and programs implemented pursuant to
this permit must be consistent with applicable
WLAs developed under EPA approved TMDLs
(see list of EPA approved TMDLs attached
and incorporated as Attachment B).
Carroll County shall annually provide
watershed assessments, restoration plans,
opportunities for public participation, and
TMDL compliance status to MDE. A
systematic assessment shall be conducted and
a detailed restoration plan developed for all
watersheds within Carroll County.
As
required below, watershed assessments and
restoration plans shall include a thorough
water quality analysis, identification of water
quality improvement opportunities, and a
schedule for BMP and programmatic
implementation to meet stormwater WLAs
included in EPA approved TMDLs.
1. Watershed Assessments
a. By the end of the permit term, Carroll
County shall complete detailed watershed
assessments for the entire County.
Watershed assessments conducted during
previous permit cycles may be used to

389a
comply with this requirement, provided the
assessments include all of the items listed
in PART IV.E.1.b. below. Assessments
shall be performed at an appropriate
watershed
scale
(e.g.,
Maryland's
hierarchical eight or twelve-digit subbasins) and be based on MDE's TMDL
analysis or an equivalent and comparable
County water quality analysis.
b. Watershed assessments by the County
shall:
i. Determine
conditions;

current

ii. Include the results
watershed inspection;
iii. Identify and
problems;

rank

water
of

quality
a

water

visual
quality

iv. Prioritize
all
structural
and
nonstructural
water
quality
improvement projects; and
v. Specify
pollutant
load
reduction
benchmarks
and
deadlines
that
demonstrate progress toward meeting
all applicable stormwater WLAs.
2. Restoration Plans
a. Within one year of permit issuance, Carroll
County shall submit an impervious surface
area assessment consistent with the
methods described in the MDE document
“Accounting for Stormwater Wasteload
Allocations and Impervious Acres Treated,
Guidance for National Pollutant Discharge

390a
Elimination System Stormwater Permits”
(MDE, June 2011 or subsequent versions).
Upon approval by MDE, this impervious
surface area assessment shall serve as the
baseline for the restoration efforts required
in this permit.
By the end of this permit term, Carroll
County shall commence and complete the
implementation of restoration efforts for
twenty percent of the County’s impervious
surface
area
consistent
with
the
methodology described in the MDE
document cited in PART IV.E.2.a. that has
not already been restored to the MEP.
Equivalent acres restored of impervious
surfaces, through new retrofits or the
retrofit of pre-2002 structural BMPs, shall
be based upon the treatment of the WQv
criteria and associated list of practices
defined in the 2000 Maryland Stormwater
Design Manual. For alternate BMPs, the
basis for calculation of equivalent
impervious acres restored is based upon
the pollutant loads from forested cover.
b. Within one year of permit issuance, Carroll
County shall submit to MDE for approval a
restoration plan for each stormwater WLA
approved by EPA prior to the effective date
of the permit. The County shall submit
restoration plans for subsequent TMDL
WLAs within one year of EPA approval.
Upon approval by MDE, these restoration
plans will be enforceable under this permit.
As part of the restoration plans, Carroll
County shall:

391a
i. Include the final date for meeting
applicable WLAs and a detailed
schedule
for
implementing
all
structural and nonstructural water
quality improvement projects, enhanced
stormwater management programs,
and alternative stormwater control
initiatives necessary for meeting
applicable WLAs;
ii. Provide detailed cost estimates for
individual projects, programs, controls,
and plan implementation;
iii. Evaluate and track the implementation
of restoration plans through monitoring
or modeling to document the progress
toward
meeting
established
benchmarks, deadlines, and stormwater
WLAs; and
iv. Develop an ongoing, iterative process
that
continuously
implements
structural
and
nonstructural
restoration
projects,
program
enhancements, new and additional
programs, and alternative BMPs where
EPA approved TMDL stormwater
WLAs are not being met according to
the
benchmarks
and
deadlines
established as part of the County’s
3. Public Participation
Carroll County shall provide continual
outreach to the public regarding the
development of its watershed assessments
and restoration plans. Additionally, the

392a
County shall allow for public participation
in the TMDL process, solicit input, and
incorporate any relevant

